No. 20A_________

IN THE SUPREME COURT OF THE UNITED STATES

HARVEST ROCK CHURCH, INC.; HARVEST INTERNATIONAL MINISTRY,
INC., itself and on behalf of its member Churches in California,
Applicants,
v.
GAVIN NEWSOM,
in his official capacity as Governor of the State of California,
Respondent.

To the Honorable Elena Kagan,
Associate Justice of the Supreme Court of the United States
and Circuit Justice for the Ninth Circuit

APPENDIX OF EXHIBITS TO APPLICATION FOR
EMERGENCY WRIT OF INJUNCTION

Mathew D. Staver (Counsel of Record)
Horatio G. Mihet
Roger K. Gannam
Daniel J. Schmid
LIBERTY COUNSEL
P.O. Box 540774
Orlando, FL 32853
(407) 875-1776
court@LC.org |hmihet@LC.org
rgannam@LC.org | dschmid@LC.org
Counsel for Applicants

TABLE OF CONTENTS
9th Cir. Order Denying Motion for Injunction Pending Appeal
October 1, 2020…………………………………………………………………………………A
C.D. Cal. Order Denying Motion for Injunction Pending Appeal
September 19, 2020……………………………………………………………………………B
C.D. Cal. Order Denying Motion for Preliminary Injunction
September 2, 2020……………………………………………………………………………..C
C.D. Cal. Order Denying Motion for Temporary Restraining Order
July 20, 2020……………………………………………………………………………………D
Verified Complaint and Exhibits.......................……………………………………………E
9th Cir. Joint Statement of Current Covid-Related Restrictions on
Places of Worship in California………………………………………………………………F
Notice of Filing of Declaration of Che Ahn Supplementing the Record
for Plaintiffs’ Motion for Preliminary Injunction and Exhibits…………………………G
Notice of Filing of Second Declaration of Che Ahn Supplementing
the Record for Plaintiffs’ Motion for Preliminary Injunction and Exhibits……………H

No. 20A_________

IN THE SUPREME COURT OF THE UNITED STATES

HARVEST ROCK CHURCH, INC.; HARVEST INTERNATIONAL MINISTRY,
INC., itself and on behalf of its member Churches in California,
Applicants,
v.
GAVIN NEWSOM,
in his official capacity as Governor of the State of California,
Respondent.

To the Honorable Elena Kagan,
Associate Justice of the Supreme Court of the United States
and Circuit Justice for the Ninth Circuit

EXHIBIT A

Mathew D. Staver (Counsel of Record)
Horatio G. Mihet
Roger K. Gannam
Daniel J. Schmid
LIBERTY COUNSEL
P.O. Box 540774
Orlando, FL 32853
(407) 875-1776
court@LC.org |hmihet@LC.org
rgannam@LC.org | dschmid@LC.org
Counsel for Applicants

Case: 20-55907, 10/01/2020, ID: 11843942, DktEntry: 26, Page 1 of 19

FILED

FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

HARVEST ROCK CHURCH, INC., itself
and on behalf of its member churches in
California; HARVEST INTERNATIONAL
MINISTRY, INC., itself and on behalf of its
member churches in California,
Plaintiffs-Appellants,
v.

No.

OCT 1 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

20-55907

D.C. No.
2:20-cv-06414-JGB-KK
Central District of California,
Los Angeles
ORDER

GAVIN NEWSOM, in his official capacity
as Governor of the State of California,
Defendant-Appellee.
Before: O’SCANNLAIN, RAWLINSON, and CHRISTEN, Circuit Judges.
Dissent by Judge O’SCANNLAIN.
Harvest Rock Church, Inc., and Harvest International Ministry, Inc.,
(Harvest Rock) challenge the constitutionality of California Governor Gavin
Newsom’s COVID-19 Executive Orders and related restrictions (Orders) as they
apply to in-person worship services. The district court denied Harvest Rock’s
request for a preliminary injunction barring enforcement of the Orders as to its inperson worship services. Harvest Rock appealed and has filed an emergency
motion asking this court to enjoin enforcement of the Orders pending appeal.

Case: 20-55907, 10/01/2020, ID: 11843942, DktEntry: 26, Page 2 of 19

In order to demonstrate that an injunction pending appeal is warranted,
Harvest Rock must show that it is likely to succeed on the merits, that it is likely to
suffer irreparable harm in the absence of preliminary relief, that the balance of
equities tips in its favor, and that an injunction is in the public interest. See Winter
v. Nat. Res. Def. Council, Inc., 555 U.S. 7, 20 (2008); see also Feldman v. Ariz.
Sec’y of State’s Office, 843 F.3d 366, 367 (9th Cir. 2016) (“The standard for
evaluating an injunction pending appeal is similar to that employed by district
courts in deciding whether to grant a preliminary injunction.”). As to a likelihood
of success on the merits, Harvest Rock must demonstrate that it is likely this court
will conclude the district court abused its discretion in denying the preliminary
injunction. See, e.g., Lopez v. Heckler, 713 F.2d 1432, 1436 (9th Cir. 1983) (abuse
of discretion standard governs an appeal from the denial of a preliminary
injunction). Our review of the denial of a preliminary injunction is “limited and
deferential.” Southwest Voter Registration Educ. Project v. Shelley, 344 F.3d 914,
918 (9th Cir. 2003) (en banc). We consider “only the temporal rights of the parties
until the district court renders judgment on the merits of the case based on a fully
developed record.” Nat’l Wildlife Fed’n v. Nat’l Marine Fisheries Serv., 422 F.3d
782, 793 (9th Cir. 2005) (citation omitted).

2

Case: 20-55907, 10/01/2020, ID: 11843942, DktEntry: 26, Page 3 of 19

We find that Harvest Rock has not shown a likelihood of success on its
argument that the district court abused its discretion by declining to enjoin the
Orders. The evidence that was before the district court does not support Harvest
Rock’s arguments that the Orders accord comparable secular activity more
favorable treatment than religious activity. The Orders apply the same restrictions
to worship services as they do to other indoor congregate events, such as lectures
and movie theaters. Some congregate activities are completely prohibited in every
county, such as attending concerts and spectating sporting events. The dissent
states that the restrictions applicable to places of worship ‘do not apply broadly to
all activities that might appear to be conducted in a manner similar to religious
services,’ but does not provide support for this point. By our read the restrictions
on theaters and higher education are virtually identical.
Harvest Rock also contends that the Governor failed to provide a rationale
for the more lenient treatment of certain secular activities, such as shopping in a
large store. However, the Governor offered the declaration of an expert, Dr. James
Watt, in support of the claim that the risk of COVID-19 is elevated in indoor
congregate activities, including in-person worship services. Harvest Rock did not
offer a competing expert or any other evidence to rebut Dr. Watt’s opinion that
congregate events like worship services are particularly risky. Because the district
court based its order on the only evidence in the record as to the risk of spreading

3

Case: 20-55907, 10/01/2020, ID: 11843942, DktEntry: 26, Page 4 of 19

COVID-19 in different settings, Harvest Rock is unlikely to show that the district
court abused its discretion.
We also conclude that Harvest Rock failed to demonstrate that an injunction
pending appeal is in the public interest. The Supreme Court considered and
declined a similar request to enjoin application of California’s Orders as to worship
services in South Bay United Pentecostal Church v. Newsom, 140 S. Ct. 1613,
1614 (2020) (Roberts, C.J., concurring) (deference to state officials is “especially”
warranted where “a party seeks emergency relief in an interlocutory posture, while
local officials are actively shaping their response to changing facts on the
ground.”). Harvest Rock has not shown that the restrictions at issue in this appeal
are materially different than those presented in South Bay United Pentecostal, and
though we are not bound by it, we are persuaded by the Supreme Court’s
conclusion that injunctive relief is not warranted. See United States v. Montero–
Camargo, 208 F.3d 1122, 1132 n. 17 (2000) (en banc) (non-binding Supreme
Court dicta is accorded “appropriate deference” (citation omitted)).
For these reasons, the emergency motion for an injunction pending appeal
(Docket Entry No. 6) is denied.
We grant the motion to file the amicus brief in support of the Governor for
purposes of this emergency motion (Docket Entry No. 9).

4

Case: 20-55907, 10/01/2020, ID: 11843942, DktEntry: 26, Page 5 of 19

Harvest Rock Church, Inc. v. Newsom, No. 20-55907
O’SCANNLAIN, J., dissenting:

FILED
OCT 1 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

At present, in 18 counties in California—home to more than 15 million

residents and including its most populous county, Los Angeles—indoor religious
worship services are completely prohibited. 1 California insists that this drastic
measure is necessary to fight the ongoing global COVID-19 pandemic—a worthy
and indeed compelling goal of any State. Yet, in these same counties, the State
still allows people to go indoors to: spend a day shopping in the mall, have their
hair styled, get a manicure or pedicure, attend college classes, produce a television
show or movie, participate in professional sports, wash their clothes at a
laundromat, and even work in a meatpacking plant.
The Constitution allows a State to impose certain calculated, neutral
restrictions—even against churches and religious believers—necessary to combat
emergent threats to public health. But the Constitution, emphatically, does not
allow a State to pursue such measures against religious practices more aggressively

See Cal. Dep’t Pub. Health, Blueprint Data Chart (Sept. 29, 2020),
https://www.cdph.ca.gov/Programs/CID/DCDC/CDPH%20Document%20
Library/COVID-19/Blueprint_Data_Chart_092920.xlsx; State of California,
Covid-19 Blueprint Activity and Business Tiers 1 (last updated Sept. 28, 2020),
https://www.cdph.ca.gov/Programs/CID/DCDC/CDPH%20Document%20Library/
COVID-19/Dimmer-Framework-September_2020.pdf.
Attendance at in-person religious worship services is allowed but tightly
capped in California’s remaining counties, as explained below. See infra Part II.A.
1
1

Case: 20-55907, 10/01/2020, ID: 11843942, DktEntry: 26, Page 6 of 19

than it does against comparable secular activities. See Calvary Chapel Dayton
Valley v. Sisolak, 140 S. Ct. 2603, 2605 (2020) (mem.) (Alito, J., dissenting);
South Bay United Pentecostal Church v. Newsom, 140 S. Ct. 1613, 1615 (2020)
(mem.) (Kavanaugh, J., dissenting). Because California’s present coronavirusrelated initiatives do exactly that, I respectfully dissent from the majority’s
decision not to enjoin them pending Harvest Rock Church’s appeal in this case.
I
I first clarify a point that is somewhat obscured by the majority’s decision:
we are neither bound nor meaningfully guided by the Supreme Court’s decision to
deny a writ of injunction against California’s restrictions on religious worship
services earlier this year. See South Bay United Pentecostal Church, 140 S. Ct. at
1613. That decision, which considered a challenge to an earlier and much different
iteration of California’s restrictions, was unaccompanied by any opinion of the
Court and thus is precedential only as to “the precise issues presented and
necessarily decided.” Mandel v. Bradley, 432 U.S. 173, 176 (U.S. 1977) (per
curiam). In that case, the Supreme Court considered whether to issue a writ of
injunction under the All Writs Act, 28 U.S.C. § 1651(a), a more demanding
standard than that which applies to the motion for an injunction pending appeal
here. Compare Hobby Lobby Stores, Inc. v. Sebelius, 568 U.S. 1401, 1403 (2012)
(Sotomayor, J., as Circuit Justice) (discussing the standard for issuing a writ of
2

Case: 20-55907, 10/01/2020, ID: 11843942, DktEntry: 26, Page 7 of 19

injunction, which is an “extraordinary” measure to be “used sparingly” and “only
when it is necessary or appropriate in aid of our jurisdiction and the legal rights at
issue are indisputably clear” (alterations and internal quotation marks omitted)),
with Se. Alaska Conservation Council v. U.S. Army Corps of Eng’rs, 472 F.3d
1097, 1100 (9th Cir. 2006) (“In deciding whether to grant an injunction pending
appeal, the court balances the plaintiff’s likelihood of success against the relative
hardship to the parties.” (internal quotation marks omitted)). Without any opinion
of the Court, we have no guidance whatsoever—not even in the form of “dicta” as
the majority suggests, Maj. at 4—as to why the Court declined to provide such an
extraordinary remedy, and we certainly have no basis to infer that a majority of the
Court agreed upon some unstated rationale that somehow applies equally here.2
Cf. Makekau v. Hawaii, 943 F.3d 1200, 1205 (9th Cir. 2019) (“[T]he mere fact that
the injunction order issued under the All Writs Act does not prove that the
Supreme Court . . . addressed the merits [of the underlying claim].”).
II
Turning to the motion before us, I respectfully disagree with the majority’s
conclusion that Harvest Rock Church is unlikely to succeed on the merits of its

This is true even if one agrees—and to be clear, I do not agree—with the
majority’s assertion that Harvest Rock Church “has not shown that the restrictions
at issue in this appeal are materially different than those presented in South Bay
United Pentecostal.” Maj. at 4.
3
2

Case: 20-55907, 10/01/2020, ID: 11843942, DktEntry: 26, Page 8 of 19

free exercise challenge to California’s severe restrictions on religious worship in
the State.
There is no doubt that California’s COVID-19 scheme (described more fully
below) imposes direct and severe burdens on religious practice within the State.
And where a State imposes such burdens through measures that are not “neutral
and of general applicability,” its actions must survive strict scrutiny. Church of the
Lukumi Babalu Aye, Inc. v. City of Hialeah, 508 U.S. 520, 531–32 (1993). “The
Free Exercise Clause bars even subtle departures from neutrality on matters of
religion.” Masterpiece Cakeshop, Ltd. v. Colo. Civil Rights Comm’n, 138 S. Ct.
1719, 1731 (2018) (internal quotation marks omitted). Because California’s
COVID-19 regulations patently disfavor religious practice when compared to
analogous secular activities, I believe that the church is quite likely indeed to
succeed on the merits of its challenge to such regulations.
A
First, California’s complex morass of COVID-related restrictions fails even
the “minimum requirement of neutrality”: such restrictions discriminate against
religious practice “on [their] face.” Lukumi, 508 U.S. at 533.
Contrary to how California would portray its scheme, at this point there is no
“neutral” or “generally applicable” State policy that one can apply to determine
whether or to what extent any particular activity is permissible. Instead, California
4

Case: 20-55907, 10/01/2020, ID: 11843942, DktEntry: 26, Page 9 of 19

has announced a variegated and ever-changing “Blueprint for a Safer Economy,”
which regulates all manner of in-person activities by meticulously delineating
those activities which may take place. See State of California, Blueprint for a
Safer Economy (last updated Oct. 1, 2020), https://covid19.ca.gov/safer-economy
[hereinafter “Cal. Blueprint”]. Despite its deceptively cohesive title, this
“Blueprint” is in reality an amalgamation of dozens of independent restrictions and
“guidance” documents, each of which pertains only to a specific category of
activity within the State. There are, at this point, independent restrictions targeted
to nearly forty categories of activity (many of them further subdivided into more
categories), including retail shopping outlets, grocery stores, offices, fitness
centers, places of higher education, schools, barbershops, warehouses, food
packing facilities, film and television studios, family entertainment centers,
museums, professional sports facilities, and “places of worship.” See State of
California, COVID-19 Industry Guidance (last updated Sept. 29, 2020),
https://covid19.ca.gov/industry-guidance [hereinafter “Industry Guidance”].
Under this patchwork scheme, it is the State’s substantive categorization of an
activity that determines its level of regulation, not any “neutral” or “generally
applicable” feature of that activity itself.
Relevant here, the restrictions prescribed for “places of worship” limit
attendance at in-person worship services as follows: (1) at the most severe, in
5

Case: 20-55907, 10/01/2020, ID: 11843942, DktEntry: 26, Page 10 of 19

counties designated to be “Tier 1” risks for COVID-19 spread,3 no in-person
worship services may be held; (2) in Tier 2 counties, worship services may be held
with no more than 25% of a building’s capacity or 100 persons in attendance,
whichever is fewer; (3) in Tier 3 counties, worship services can be held with no
more than 50% of a building’s capacity or 200 persons in attendance, whichever is
fewer; and, finally, (4) in Tier 4 counties, worship services can be held with no
more than 50% of a building’s capacity, with no additional cap on attendance.
State of California, Covid-19 Blueprint Activity and Business Tiers 1 (last updated
Sept. 28, 2020), https://www.cdph.ca.gov/Programs/CID/DCDC/
CDPH%20Document%20Library/COVID-19/Dimmer-FrameworkSeptember_2020.pdf [hereinafter “Blueprint Tiers”]. Critically, these same
parameters do not apply broadly to all activities that might appear to be conducted
in a manner similar to religious services—for example, educational events,
meetings, or seminars. Instead, each of these (and many other potentially similar)
activities is regulated entirely separately from, and often more leniently than,
religious services. See Industry Guidance, supra (providing restrictions separately
governing institutes of higher education, museums, theaters, and schools); see also,

The State assigns each county to one of four tiers based on the recently
documented number of COVID-19 cases in the county. The assignments are
regularly reviewed and, as infection numbers change, a county may be moved up
or down the State’s tiers. See Cal. Blueprint, supra.
6
3

Case: 20-55907, 10/01/2020, ID: 11843942, DktEntry: 26, Page 11 of 19

e.g., State of California, COVID-19 Essential Workforce (last updated Sept. 22,
2020), https://covid19.ca.gov/essential-workforce [hereinafter “Essential
Workforce”] (designating as “essential workforce”—and therefore exempt from
other COVID-19 restrictions—“academies and training facilities and courses for
the purposes of graduating students and cadets that comprise the essential
workforce for all identified critical sectors”). Indeed, even non-worship activities
conducted by or within a place of worship are not subject to the attendance
parameters outlined above. See Cal. Dep’t of Pub. Health, COVID-19 Industry
Guidance: Places of Worship and Providers of Religious Services and Cultural
Ceremonies 3 (July 29, 2020) [hereinafter “Places of Worship Guidance”].
In sum, the restrictions on religious worship services that Harvest Rock
Church challenges here apply because—and only because—the activities they wish
the host and partake in have been identified, substantively, as “religious” or
“worship” services.
B
California contends that the many idiosyncratic lines it has drawn between
activities within the State are not actually tied to the substantive content of those
activities but instead reflect the State’s expert judgment regarding the risk that each
activity presents of spreading COVID-19. The majority accepts the State’s
characterization, insisting that “the Governor offered the declaration of an
7

Case: 20-55907, 10/01/2020, ID: 11843942, DktEntry: 26, Page 12 of 19

expert . . . in support of the claim that the risk of COVID-19 is elevated in indoor
congregate activities, including in-person worship services.” Maj. at 3. The
problem, however, is that the very features that California’s expert identified as
especially dangerous in religious worship appear to have been ignored by the State
in its decision to allow numerous other activities to occur, even though they selfevidently exhibit the same features.
California’s epidemiological expert, Dr. James Watt, declared that the State
determined church attendance to be particularly risky because: (1) gatherings of
“people from different households” increase the risk of spreading the virus; (2)
there have been “multiple reports” of COVID-19 spread resulting from religious
events; (3) the virus is more likely to spread “when people are in close contact or
proximity with one another (within about six feet)”; (4) the risk of transmission
increases in groups where people speak, chant, shout, and sing in close proximity
indoors; and (5) gatherings with “longer duration” increase the opportunity for the
virus to spread. In his declaration, Dr. Watt distinguished the threat posed by
religious services from the supposedly lesser threat posed by shopping in a store or
working in an office where, according to him (but with no evidence or expertise in
support),4 interpersonal encounters are much briefer or more easily regulated.
At oral argument on this motion, counsel for the State conceded that Dr.
Watt is not qualified as an expert to opine on what takes place at religious worship
services or how people interact there as opposed to in other settings of public life.
8
4

Case: 20-55907, 10/01/2020, ID: 11843942, DktEntry: 26, Page 13 of 19

1
The first flaw in the majority’s uncritical acceptance of this “evidence”
supporting California’s severe restrictions on church attendance is that the bulk of
the identified risk factors have already been addressed by other measures imposed
by the State. In those counties where indoor worship is actually allowed to take
place, congregants must observe six-foot distancing, must wear masks, and may
not sing or chant. See generally Places of Worship Guidance, supra. With such
measures in place, Dr. Watt’s professed concerns about physical proximity and
vocal projections fall flat. How would the State distinguish a physically distanced,
masked, and silent congregation sitting in a church from any other setting where
the same number of people are present under the same roof for any other purpose?
We do not know the answer, and I question whether the State could supply one that
is neutral as to the practice of religion.
2
More centrally, even if we were to accept Dr. Watt’s assertion that the State
has reason to find religious services more dangerous than activities like shopping
or working in an office, the glaring problem for the State is that it has offered no
evidence to support the notion that the myriad other activities which are less
restricted than religious services are somehow safer by these same parameters.
The State more freely allows an abundance activities to take place which, on their
9

Case: 20-55907, 10/01/2020, ID: 11843942, DktEntry: 26, Page 14 of 19

face, share the same risk factors that Dr. Watt identified as so concerning about
church attendance, including: having one’s hair cut and styled at a salon;5 getting a
manicure or pedicure; 6 working in a warehouse, food-production facility, or
meatpacking plant; 7 playing, coaching, or broadcasting professional sports
(including participating in games, practices, workouts, film sessions, and large
team meetings); 8 attending college classes;9 filming a television show or movie;10

Barbershops and hair salons may open in all counties, without limitations
on the number of people who may be present. See Blueprint Tiers, supra, at 1.
6
As of September 22, 2020, nail salons may open in all counties, without
limitations on the number of people who may be present. See Blueprint Tiers,
supra, at 2.
7
All of these facilities have been designated as “essential critical
infrastructure,” and they may operate in all counties, without limitations on the
number of people who may be present. See Blueprint Tiers, supra, at 1; Essential
Workforce, supra.
8
In all counties, professional sports may take place without restrictions on
the number of people present (but with no fans in attendance). See Blueprint Tiers,
supra, at 5; Industry Guidance, supra.
9
In all counties at least some courses, like laboratory sciences and studio
arts, may be conducted indoors, without limitations on the number of people
present. See Industry Guidance, supra.
10
California has deemed “entertainment industries, studios, and other related
establishments” to be “essential critical infrastructure,” and such businesses may
open in all counties, without restriction on the number of people in attendance. See
Blueprint Tiers, supra, at 1; Essential Workforce, supra.
10
5

Case: 20-55907, 10/01/2020, ID: 11843942, DktEntry: 26, Page 15 of 19

exercising at the gym; 11 or washing clothes at a laundromat.12 All of these
activities involve gatherings of people from different households for extended
periods of time—in many cases, hours on end. Many are carried out in close
proximity with others including some—like playing sports, receiving a haircut,
getting a manicure, or acting out a scene in a movie—that simply cannot be
undertaken while also practicing six-foot social distancing and wearing a mask.
Some involve speaking loudly or shouting—for example, on an indoor television
studio set filled with actors projecting lines and directors barking orders or in an
indoor practice facility or locker room filled with dozens of professional athletes
and coaches shouting instructions to each other—which (unlike singing in a
church) the State has permitted to continue. And some have been widely reported
to have resulted in significant outbreaks across the country, a fact the State itself
acknowledges. See Cal. Dep’t of Health, COVID-19 Industry Guidance: Food
Packing and Processing 1 (July 29, 2020) (“There have been multiple outbreaks in
a range of workplaces, [including at] hospitals, long-term care facilities, prisons,
Although fitness centers must close in Tier 1 counties, at Tiers 2, 3, and 4
they may open at 10%, 25%, and finally 50% capacity respectively, with no
additional cap on attendance like that imposed on churches. See Blueprint Tiers,
supra, at 3. Thus, in a Tier 2 or 3 county, a fitness center with a capacity greater
than 1,000 people would be allowed to admit more people than would a church of
the same size.
12
Laundromats are designated as “essential critical infrastructure” and may
open in all counties, without limitations on the number of people who may be
present See Blueprint Tiers, supra, at 1; Essential Workforce, supra.
11
11

Case: 20-55907, 10/01/2020, ID: 11843942, DktEntry: 26, Page 16 of 19

food production, warehouses, meat processing plants, and grocery stores.”); see
also, e.g., Anna Stewart, et al., Why Meat Processing Plants Have Become
COVID-19 Hotbeds, CNN Health (June 27, 2020), https://www.cnn.com/
2020/06/27/health/meat-processing-plants-coronavirus-intl/index.html; Brady
Dennis & Chelsea Janes, Coronavirus Outbreak in Major League Baseball Casts
Pall Over Other Reopenings, Washington Post (July 28, 2020),
https://www.washingtonpost.com/health/2020/07/28/coronavirus-outbreaksbaseball-schools. Yet, despite sharing these supposedly critical features of church
attendance, these activities are all more open and available to Californians. If the
reason is based in some other neutral assessment of disease spread, it has not been
provided to us in this case.
3
The majority makes much of the fact that, at this point, the State has
imposed the same attendance restrictions on some secular “congregate” activities
such as attending some academic lectures or going to see a movie in a theater.
Maj. at 3. But the majority cannot dispute that not all such activities are so tightly
restricted—such as participating in a college class in a laboratory or studio setting
or attending a team meeting or film-review session in the auditorium of a
professional sports facility. More to the point, even if it is true that the State has
similarly regulated some congregate activities with analogous risks of disease
12

Case: 20-55907, 10/01/2020, ID: 11843942, DktEntry: 26, Page 17 of 19

spread, that does not end our inquiry. Indeed, “it does not suffice to point out that
some [comparable] secular businesses . . . are subject to the [same restrictions],” if
the State cannot also explain why so many other comparable secular businesses
have been treated more favorably. Calvary Chapel Dayton Valley, 140 S. Ct. at
2613–14 (Alito, J., dissenting); see also id. at 2614 (“The legal question is not
whether religious worship services are all alone in a disfavored category, but why
they are in the disfavored category to begin with.” (citing Emp’t Div., Dep’t of
Human Res. of Or. v. Smith, 494 U.S. 872, 884 (1990))). Thus, the State cannot
evade the Free Exercise Clause merely by linking its severe restrictions on worship
attendance to those imposed on one or two categories of comparable secular
activity; it must also justify its decision to treat more favorably a host of other
comparable activities which so evidently raise the State’s same expressed concerns
about disease spread.
C
Finally, we cannot overlook the fact that the State’s restrictions on houses of
worship explicitly exempt on-site non-religious activities from the strict attendance
restraints. California’s guidelines for places of worship warn of the supposed
danger in individuals coming together specifically “to practice a personal faith,”
and they make clear that the restrictions on places of worship do not apply to nonworship activities including “food preparation and service, delivery of items to
13

Case: 20-55907, 10/01/2020, ID: 11843942, DktEntry: 26, Page 18 of 19

those in need, childcare and daycare services, school and educational activities, inhome caregiving, counseling, office work, and other activities that places and
organizations of worship may provide.” Places of Worship Guidance, supra, at 3.
Thus, California’s framework would plainly permit a church in a Tier 1 county to
host a group of people for some non-religious purpose, but the same church would
be prohibited from hosting an event for the same people in the same setting for the
same length of time simply if it were for purposes of religious worship. It is
difficult to conceive of a more obvious form of discrimination against religious
activity than that.
III
Because Harvest Rock Church is likely to succeed on the merits of its freeexercise challenge, it follows that the balance of hardships also tips in its favor.
Without an injunction, the church and its congregants will be prohibited from
exercising their First Amendment freedoms—the loss of which, “for even minimal
periods of time, unquestionably constitutes irreparable injury.” In re Dan Farr
Prods., 874 F.3d 590, 597 (9th Cir. 2017) (per curiam) (internal quotation marks
omitted). And, while California has a compelling interest in limiting the spread of
a deadly disease, the State is not harmed by pursuing that interest—as the
Constitution requires—equally against religious and non-religious activities alike.
See, e.g., Legend Night Club v. Miller, 637 F.3d 291, 302–03 (4th Cir. 2011)
14

Case: 20-55907, 10/01/2020, ID: 11843942, DktEntry: 26, Page 19 of 19

(“Maryland is in no way harmed by issuance of an injunction that prevents the
state from enforcing unconstitutional restrictions.”).
I respectfully dissent from the majority’s decision to deny Harvest Rock
Church’s motion for an injunction pending appeal.

15

No. 20A_________

IN THE SUPREME COURT OF THE UNITED STATES

HARVEST ROCK CHURCH, INC.; HARVEST INTERNATIONAL MINISTRY,
INC., itself and on behalf of its member Churches in California,
Applicants,
v.
GAVIN NEWSOM,
in his official capacity as Governor of the State of California,
Respondent.

To the Honorable Elena Kagan,
Associate Justice of the Supreme Court of the United States
and Circuit Justice for the Ninth Circuit

EXHIBIT B

Mathew D. Staver (Counsel of Record)
Horatio G. Mihet
Roger K. Gannam
Daniel J. Schmid
LIBERTY COUNSEL
P.O. Box 540774
Orlando, FL 32853
(407) 875-1776
court@LC.org |hmihet@LC.org
rgannam@LC.org | dschmid@LC.org
Counsel for Applicants

Case 2:20-cv-06414-JGB-KK Document 54 Filed 09/16/20 Page 1 of 2 Page ID #:730

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES—GENERAL
Case No.
Title

CV 20-6414-JGB(KKx)

Date September 16, 2020

Harvest Rock Church, Inc. et al. v. Gavin Newsom

Present: The Honorable

JESUS G. BERNAL, UNITED STATES DISTRICT JUDGE

MAYNOR GALVEZ

Not Reported

Deputy Clerk

Court Reporter

Attorney(s) Present for Plaintiff(s):

Attorney(s) Present for Defendant(s):

None Present

None Present

Proceedings:

Order (1) DENYING Plaintiffs’ Motion for Injunction Pending Appeal (Dkt.
No. 44); and (2) VACATING the September 21, 2020 Hearing (IN
CHAMBERS)

Before the Court is a Motion for Injunction Pending Appeal filed by Plaintiffs Harvest
International Ministry, Inc. and Harvest Rock Church, Inc. (“Motion,” Dkt. No. 44.) The Court
finds the Motion appropriate for resolution without a hearing. See Fed. R. Civ. P. 78; L.R. 7-15.
After considering the papers filed in support of and in opposition to the Motion, the Court
DENIES the Motion. The Court vacates the hearing set for September 21, 2020.
I. BACKGROUND
Plaintiffs challenge the constitutionality of orders issued by Governor Newsom to slow
the spread of COVID-19. On August 12, 2020, the Court orally denied Plaintiffs’ Motion for a
Preliminary Injunction, (Dkt. No. 4,) during a telephonic hearing. (Dkt. No. 42). On September
2, 2020, the Court issued a written order to the same effect. (Dkt. No. 52.) Plaintiffs appealed
the denial to the Ninth Circuit. (“Notice of Appeal,” Dkt. No. 50).
Plaintiffs filed this Motion for an Injunction Pending Appeal on August 21, 2020. (Dkt.
No. 44.) Concurrently, they filed a declaration of Pastor Che Ahn to supplement the record and
authenticate a letter received by Harvest Rock Church on August 18, 2020, which was also
submitted as new evidence. (Dkt. No. 45.) On August 24, 2020, Governor Newsom filed
objections to the new evidence submitted by Plaintiffs. (Dkt. No. 46.) Concurrently, Governor
Page 1 of 2

CIVIL MINUTES—GENERAL

Initials of Deputy Clerk NP

Case 2:20-cv-06414-JGB-KK Document 54 Filed 09/16/20 Page 2 of 2 Page ID #:731

Newsom filed a stipulation extending the time to file a responsive pleading. (Dkt. No. 47.) The
Court granted the Governor’s stipulation, extending the Governor’s time to file a responsive
pleading to 21 days after the Ninth Circuit’s ruling on this Court’s denial of Plaintiffs’ preliminary
injunction motion. (Dkt. No. 49.)
II.

DISCUSSION

As the Court indicated during the August 12, 2020 telephonic hearing, Plaintiffs’ injunction
pending appeal is denied. The relevant facts are the same as they were on August 12. The law,
too, is the same. The Order denying Plaintiffs’ Motion for a Preliminary Injunction, (Dkt. No.
53,) applies here too.
The Court does not consider Plaintiffs’ new evidence.
III.

CONCLUSION

For the reasons above, the Court DENIES Plaintiffs’ Motion. The September 21, 2020
hearing is VACATED.

IT IS SO ORDERED.

Page 2 of 2

CIVIL MINUTES—GENERAL

Initials of Deputy Clerk NP

No. 20A_________

IN THE SUPREME COURT OF THE UNITED STATES

HARVEST ROCK CHURCH, INC.; HARVEST INTERNATIONAL MINISTRY,
INC., itself and on behalf of its member Churches in California,
Applicants,
v.
GAVIN NEWSOM,
in his official capacity as Governor of the State of California,
Respondent.

To the Honorable Elena Kagan,
Associate Justice of the Supreme Court of the United States
and Circuit Justice for the Ninth Circuit

EXHIBIT C

Mathew D. Staver (Counsel of Record)
Horatio G. Mihet
Roger K. Gannam
Daniel J. Schmid
LIBERTY COUNSEL
P.O. Box 540774
Orlando, FL 32853
(407) 875-1776
court@LC.org |hmihet@LC.org
rgannam@LC.org | dschmid@LC.org
Counsel for Applicants

Case 2:20-cv-06414-JGB-KK Document 53 Filed 09/02/20 Page 1 of 5 Page ID #:725

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES—GENERAL
Case No.

LACV 20-6414 JGB (KKx)

Date September 2, 2020

Title Harvest Rock Church, Inc., et al. v. Gavin Newsom
Present: The Honorable

JESUS G. BERNAL, UNITED STATES DISTRICT JUDGE

MAYNOR GALVEZ

Not Reported

Deputy Clerk

Court Reporter

Attorney(s) Present for Plaintiff(s):

Attorney(s) Present for Defendant(s):

None Present

None Present

Proceedings:

Order DENYING Plaintiffs’ Motion for Preliminary Injunction (Dkt.
No. 4)

Before the Court is a Motion for Preliminary Injunction filed by Plaintiffs Harvest
International Ministry, Inc. and Harvest Rock Church, Inc. (“Motion,” Dkt. No. 4.) The Court
held a telephonic hearing on the Motion on August 12, 2020. After considering the papers filed
in support of and in opposition to the Motion, the Court DENIES the Motion.
I. BACKGROUND
On July 17, 2020, Plaintiffs filed their complaint against Defendant California Governor
Gavin Newsom. (“Complaint,” Dkt. No. 1.) The Complaint alleges six causes of action: (1)
Violation of Free Exercise Clause of First Amendment to U.S. Constitution; (2) Violation of
First Amendment Freedom of Assembly Clause; (3) Violation of Free Speech Clause of First
Amendment to U.S. Constitution; (4) Violation of Establishment Clause of First Amendment to
U.S. Constitution; (5) Violation of Equal Protection Clause of Fourteenth Amendment to U.S.
Constitution; and (6) Violation of the Guarantee Clause of the U.S. Constitution.
On July 18, 2020, Plaintiffs filed a Motion for Temporary Restraining Order and
Preliminary Injunction. (“Motion,” Dkt. No. 4.) Defendant opposed the Motion on August 3,
2020. (“Opposition,” Dkt. No. 31.) In support of the Opposition, Defendant filed the
Declaration of Seth Goldstein and the Declaration of James Watt, M.D. (“Goldstein

Page 1 of 5

CIVIL MINUTES—GENERAL

Initials of Deputy Clerk iv

Case 2:20-cv-06414-JGB-KK Document 53 Filed 09/02/20 Page 2 of 5 Page ID #:726

Declaration,” Dkt. No. 31-1; “Watt Declaration,” Dkt. No. 31-2.) Plaintiffs replied in support of
the Motion on August 7, 2020.1 (“Reply,” Dkt. No. 37.)
II.

LEGAL STANDARD

“A plaintiff seeking a preliminary injunction must establish that he is likely to succeed on
the merits, that he is likely to suffer irreparable harm in the absence of preliminary relief, that the
balance of equities tips in his favor, and that an injunction is in the public interest.” Winter v.
Natural Res. Def. Council, Inc., 555 U.S. 7, 20 (2008). “A preliminary injunction is an
extraordinary and drastic remedy; it is never awarded as of right.” Munaf v. Geren, 553 U.S.
674, 690 (2008) (citations omitted). An injunction is binding only on parties to the action, their
officers, agents, servants, employees and attorneys and those “in active concert or participation”
with them. Fed. R. Civ. P. 65(d).
Under the Ninth Circuit’s “sliding scale” approach to preliminary injunctions, the four
“elements of the preliminary injunction test are balanced, so that a stronger showing of one
element may offset a weaker showing of another.” All for The Wild Rockies v. Cottrell, 632 F.3d
1127, 1131 (9th Cir. 2011). Thus, “a preliminary injunction could issue where the likelihood of
success is such that serious questions going to the merits were raised and the balance of hardships
tips sharply in [plaintiff’s] favor.’” Id. at 1131–32 (internal quotation omitted). Put differently,
“‘serious questions going to the merits’ and a hardship balance that tips sharply toward the
plaintiff can support issuance of an injunction, assuming the other two elements [likelihood of
irreparable injury and public interest] of the Winter test are also met.” Id. at 1132. Regardless of
the strength of its showings on the other factors, a plaintiff may not obtain a preliminary
injunction unless he or she establishes that irreparable harm is likely to result in the absence of
the requested injunction. Id. at 1135.
III. DISCUSSION
COVID-19 has killed over 10,000 California residents and infected more than half a
million.2 The disease spreads via respiratory droplets and—without a known vaccine or cure—
the best way to slow COVID-19’s spread is through social distancing measures. (Watt
Declaration ¶ 16.)
To slow the spread of COVID-19, the Governor has issued a series of orders (“Orders”)
restricting certain activities and mandating distancing and hygiene protocols for others. As the
pandemic has evolved, so too has the scope of the Orders. (Complaint, Exhibits A–M.) The
Orders currently ban indoor religious services in counties that have been on a watchlist for three
consecutive days or more. (Complaint, Exhibit M.) Outdoor services can take place without
1

Plaintiffs moved for an extension to the 12-page limit for reply briefs. (“Reply
Request,” Dkt. No. 38.) The Reply Request is unopposed. The Court GRANTS the Reply
Request and accepts the Reply as filed.
2

https://covid19.ca.gov/ (last accessed August 12, 2020).

Page 2 of 5

CIVIL MINUTES—GENERAL

Initials of Deputy Clerk iv

Case 2:20-cv-06414-JGB-KK Document 53 Filed 09/02/20 Page 3 of 5 Page ID #:727

restriction on the number of attendees. (Id.) Plaintiffs seek to enjoin enforcement of the Orders’
ban on indoor religious services, arguing that the ban violates the Free Exercise, Establishment
and Free Speech Clauses of the First Amendment. (See Motion.)
A. Free Exercise
The Orders restrict indoor religious services. (Complaint, Exhibit M.) They also restrict
“comparable secular gatherings, including lectures, concerts, movie showings, spectator sports,
and theatrical performances.” South Bay United Pentecostal Church v. Newsom, 140 S. Ct.
1613, 1613-14 (2020) (Roberts, C.J., concurring); see also Elim Romanian Pentecostal Church v.
Pritzker, 962 F.3d 341, 346 (7th Cir. 2020); (“[Worship services] seem most like other
congregate functions that occur in auditoriums, such as concerts and movies. Any of these indoor
activities puts members of multiple families close to one another for extended periods, while
invisible droplets containing the virus may linger in the air.”) Because religious activities are
only restricted similarly to or less than comparable non-religious activities, the Orders are neutral
on their face and in application. See Stormans, Inc. v. Wiesman, 794 F.3d 1064, 1079 (9th Cir.
2015) (holding that a law is only fatally underinclusive if it prohibits religious conduct but not
“comparable secular conduct”).
Plaintiffs argue that the Orders are not neutral in application because they restrict indoor
religious services but not outdoor protests. (Reply at 1.) But because indoor activities carry a
much greater risk of COVID-19 spread, indoor religious services are not comparable to outdoor
protests. Accordingly, how the Orders treat outdoor protests is irrelevant to whether the Orders’
restriction on indoor religious services is constitutional.
Likewise, whether the Governor encouraged outdoor protests that violated earlier stay-athome orders is irrelevant. (See Motion at 3–7.) Plaintiffs make no allegation that the Governor
enforced restrictions on indoor religious services while encouraging comparable secular indoor
activities. See Stormans, 794 F.3d at 1083; Stormans v. Selecky, 586 F.3d 1109, 1125 (9th Cir.
2009).3 Even if the Governor did encourage the protests in violation of earlier stay-at-home
orders—which Plaintiffs fail to present any evidence of—as outdoor activities, the protests are
not equivalent to indoor religious services.4
3

At the hearing, Plaintiffs’ counsel argued that he believed that outdoor protests were in
fact riskier than indoor religious services. Plaintiffs’ counsel, however, is not an expert on
disease spread. And Plaintiffs have failed to submit any expert testimony supporting this
proposition. Moreover, the Governor’s determination that indoor activities carry the greatest
risk is entitled to deference. See Marshall v. United States, 414 U.S. 417, 427 (1974) (holding
that state officials should be awarded broad latitude when they “undertake[] to act in areas
fraught with medical and scientific uncertainties.”)
4

The only evidence Plaintiffs submit in favor of the Motion is their verified Complaint.
Thalheimer v. City of San Diego, 645 F.3d 1109, 1116 (9th Cir. 2011) (“A verified complaint may
be treated as an affidavit, and, as such, it is evidence that may support injunctive relief.”)
(continued . . . )
Page 3 of 5

CIVIL MINUTES—GENERAL

Initials of Deputy Clerk iv

Case 2:20-cv-06414-JGB-KK Document 53 Filed 09/02/20 Page 4 of 5 Page ID #:728

Plaintiffs additionally contend that the Orders are discriminatory because they permit
Plaintiffs to distribute food and provide indoor shelter—activities that Plaintiffs argue are
comparable to indoor religious services. But Plaintiffs fail to provide any concrete information
about the nature of these allegedly permissible activities, only stating vaguely that “member
churches in California have programs that provide food support for the hungry, financial and
ministry support for those in need, and also biblical and social-service-type counseling for
members of their communities throughout California.” (Complaint ¶ 55.) Without more,
Plaintiffs have failed to establish that these activities are anything like indoor worship. And the
Court concludes they likely are not: distributing food at a church is analogous to a grocery store,
not an indoor event such as a concert. Finally, the Governor has determined that these activities
are essential services, and therefore must be exempted from other guidelines for the health and
safety of California residents—a determination which is entitled to this Court’s deference.
Finally, the restriction on indoor chanting and singing applies equally to religious events
and secular events. Plaintiffs argue that this law applies unequally because religious singing is
more likely to occur indoors than singing at protests. A law is not discriminatory simply because
it burdens religious practice greater than secular activities, so long as religious activities are
treated the same as comparable secular activities. Again, because indoor secular singing is
restricted to the same extent that indoor religious singing is restricted, the Orders are neutral in
application.
Because the Orders restrict indoor religious services similarly to or less than comparable
secular activities, it is subject to rational basis review, which it easily passes: by limiting certain
activities, the Orders reduce person-to-person contact, which in turn furthers the interest of
reducing COVID-19 spread. Accordingly, Plaintiffs are not likely to succeed on the merits of
their Free Exercise Claim.
B. Establishment Claim
Plaintiffs argue that Defendant violated the Establishment Clause by subjecting religious
institutions to disparate treatment. (Motion at 21–22.) But, as the Court concluded above, the
Orders treat religious services the same as comparable secular activities. Accordingly, Plaintiffs
are not likely to succeed on the merits of their Establishment Clause Claim.
//
//
However, a verified complaint is treated as Plaintiffs’ own affidavit. In this case, because the
Complaint is verified by Che Ahn, Pastor of Plaintiff Harvest Rock Church and President of
Plaintiff Harvest International Ministries, it functions as Mr. Ahn’s affidavit. However, the
Complaint fails to establish Mr. Ahn’s foundation for any assertions other than those directly
related to Harvest Rock Church and Harvest International Ministries. Accordingly, Plaintiffs
have failed to establish a factual basis for their allegations regarding the protests, Defendant’s
alleged statements, and scientific facts related to the spread of COVID-19, among other things.
Page 4 of 5

CIVIL MINUTES—GENERAL

Initials of Deputy Clerk iv

Case 2:20-cv-06414-JGB-KK Document 53 Filed 09/02/20 Page 5 of 5 Page ID #:729

C. Free Speech Claim
Finally, Plaintiffs argue that the Orders are content-based restrictions on speech.
However, they fail to explain how they are content based. And the Court concludes they are not:
the Orders restrict activities based on the location and nature of the gathering, rather than the
content of the speech at those gatherings. Accordingly, Plaintiffs are not likely to succeed on the
merits of their Free Speech Claim.
Plaintiffs are not likely to succeed on the merits of their claims. Accordingly, the Court
need not consider the remaining factors.
IV.

CONCLUSION

For the reasons above, the Court DENIES Plaintiffs’ Motion.

IT IS SO ORDERED.

Page 5 of 5

CIVIL MINUTES—GENERAL

Initials of Deputy Clerk iv

No. 20A_________

IN THE SUPREME COURT OF THE UNITED STATES

HARVEST ROCK CHURCH, INC.; HARVEST INTERNATIONAL MINISTRY,
INC., itself and on behalf of its member Churches in California,
Applicants,
v.
GAVIN NEWSOM,
in his official capacity as Governor of the State of California,
Respondent.

To the Honorable Elena Kagan,
Associate Justice of the Supreme Court of the United States
and Circuit Justice for the Ninth Circuit

EXHIBIT D

Mathew D. Staver (Counsel of Record)
Horatio G. Mihet
Roger K. Gannam
Daniel J. Schmid
LIBERTY COUNSEL
P.O. Box 540774
Orlando, FL 32853
(407) 875-1776
court@LC.org |hmihet@LC.org
rgannam@LC.org | dschmid@LC.org
Counsel for Applicants

Case 2:20-cv-06414 Document 5 Filed 07/20/20 Page 1 of 2 Page ID #:304

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.

2:20-cv-06414

Title

Harvest Rock Church, Inc. et al. v. Gavin Newsom

Present: The Honorable

Date

July 20, 2020

Otis D. Wright II, United States District Judge

Sheila English

Not reported

N/A

Deputy Clerk

Court Reporter / Recorder

Tape No.

Attorneys Present for Plaintiffs:

Attorneys Present for Defendants:

Not present

Not present

Proceedings (In Chambers):
On July 18, 2020, Plaintiffs Harvest Rock Church, Inc., and Harvest International
Ministry, Inc. (“Harvest Rock”) filed a Complaint and Motion for Temporary Restraining Order
(“TRO”) and Preliminary Injunction (“Motion”) against Defendant Gavin Newsom in his
official capacity as Governor of the State of California. (Mot., ECF No. 4.)
Harvest Rock “seek[s] a temporary restraining order (TRO) and preliminary injunction
restraining enforcement against [Harvest Rock] of the various COVID-19 orders issued by
Governor Newsom and other State officials.” (Mot. 1.) More specifically, Harvest Rock seeks
to prevent enforcement of the orders prohibiting “gathering for any indoor worship services,”
“singing or chanting during religious worship,” “gatherings inside private homes for
small-group Bible studies and worship services,” and other affiliated activities. (Mot. 1–2.)
Harvest Rock contends these restrictions violate its members’ constitutional rights and are
causing them irreparable harm. (See Compl. ¶¶ 140–50, 155–265, ECF No. 1; Mot. 2–24.)
Harvest Rock seeks this injunctive relief without providing notice to Governor Newsom
of either the Complaint or the TRO, yet fails to satisfy the requirements to obtain such an
injunction without notice. Rule 65(b)(1) authorizes a court to issue a temporary restraining
order without notice to the adverse party only if:
(A) specific facts in an affidavit or a verified complaint clearly show that
immediate and irreparable injury, loss, or damage will result to the movant before
the adverse party can be heard in opposition; and
CV-90 (06/04)

CIVIL MINUTES - GENERAL

Page 1 of 2

Case 2:20-cv-06414 Document 5 Filed 07/20/20 Page 2 of 2 Page ID #:305

(B) the movant’s attorney certifies in writing any efforts made to give notice and
the reasons why it should not be required.
These requirements are “stringent” and the “circumstances justifying the issuance of an ex parte
order are extremely limited.” Reno Air Racing Ass’n, Inc. v. McCord, 452 F.3d 1126, 1131 (9th
Cir. 2006) (quoting Granny Goose Foods, Inc. v. Teamsters, 415 U.S. 423, 438–39 (1974)).
“[O]ur entire jurisprudence runs counter to the notion of court action taken before reasonable
notice and an opportunity to be heard has been granted both sides of a dispute.” Id.
Harvest Rock’s attorney does not certify in writing that he made any efforts to give notice
of the Complaint or the Motion. (See Mot.) The only communication with opposing counsel
the Court finds in Harvest Rock’s filings is a July 16 prelitigation “demand letter,” demanding
rescission of the various orders by July 17 at 10:00 Pacific time, attached as an exhibit to the
Verified Complaint. (See Compl. ¶ 151, Ex. X, ECF No. 1-24.) Although that letter indicates
Harvest Rock’s counsel “will take further action” if he does not receive the requested response,
this does not satisfy the “stringent” requirement to “certif[y] in writing any efforts made to give
notice [of the TRO motion] and the reasons why it should not be required.” Fed. R. Civ. P.
65(b)(1)(B). As Harvest Rock fails to satisfy the requirements for a TRO without notice, the
Court DENIES Harvest Rock’s Motion for a TRO. See Reno Air Racing Ass’n, 452 F.3d at
1131–32, 1134; Fid. Brokerage Servs. LLC v. York, No. EDCV 19-1929-JGB (SPx), 2019 WL
5485121, at *4 (C.D. Cal. Oct. 23, 2019) (citing Inland Empire Enters., Inc. v. Morton, 365 F.
Supp. 1014, 1018–19 (C.D. Cal. 1973)) (“The Application could have been denied on this
ground alone.”).
Harvest Rock also moves for a preliminary injunction. (See Mot. 1.) “The court may
issue a preliminary injunction only on notice to the adverse party.” Fed. R. Civ. P. 65(a)(1). As
Harvest Rock has not provided notice of the Motion to the adverse party, the Court may not
issue a preliminary injunction. Accordingly, the Court ORDERS Harvest Rock to (1) serve
Governor Newsom with a copy of the Complaint, the Motion for Preliminary Injunction, and
this Order, and (2) file with the Court a Proof of Service reflecting such notice, no later than
July 27, 2020. Upon such notice, Governor Newsom shall respond to Harvest Rock’s Motion
for a Preliminary Injunction no later than August 3, 2020.
IT IS SO ORDERED.
:
Initials of Preparer

CV-90 (06/04)

CIVIL MINUTES - GENERAL

00

SE

Page 2 of 2

No. 20A_________

IN THE SUPREME COURT OF THE UNITED STATES

HARVEST ROCK CHURCH, INC.; HARVEST INTERNATIONAL MINISTRY,
INC., itself and on behalf of its member Churches in California,
Applicants,
v.
GAVIN NEWSOM,
in his official capacity as Governor of the State of California,
Respondent.

To the Honorable Elena Kagan,
Associate Justice of the Supreme Court of the United States
and Circuit Justice for the Ninth Circuit

EXHIBIT E

Mathew D. Staver (Counsel of Record)
Horatio G. Mihet
Roger K. Gannam
Daniel J. Schmid
LIBERTY COUNSEL
P.O. Box 540774
Orlando, FL 32853
(407) 875-1776
court@LC.org |hmihet@LC.org
rgannam@LC.org | dschmid@LC.org
Counsel for Applicants

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 1 of 74 Page ID #:1

1
2
3
4
5
6
7
8
9
10
11

Nicolai Cocis, CA Bar No. 204703
nic@cocislaw.com
Law Office of Nicolai Cocis
25026 Las Brisas Road
Murrieta, CA 92562
(951) 695-1400 (phone/facsimile)
Mathew D. Staver*
court@LC.org
Horatio G. Mihet*
hmihet@LC.org
Roger K. Gannam*
rgannam@LC.org
Daniel J. Schmid*
dschmid@LC.org
Liberty Counsel
P.O. Box 540774
Orlando, FL 32854
(407) 875-1776
(407) 875-0770 (facsimile)
Attorneys for Plaintiffs
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
LOS ANGELES DIVISION

12
13
14

16

HARVEST ROCK CHURCH, INC., and
HARVEST INTERNATIONAL
MINISTRY, INC., itself and on behalf
of its member churches in California,

17

Plaintiffs,

15

18

v.

19

GAVIN NEWSOM, in his
official capacity as Governor of the
State of California,

20
21

Case No.
VERIFIED COMPLAINT

Defendant.

22
23
24

1

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 2 of 74 Page ID #:2

“Neither a state nor the Federal Government
can set up a church. . . . Neither can force nor influence
a person to go to or to remain away from church against his will.”
Everson v. Bd. of Educ. of Ewing Twp., 330 U.S. 1, 15 (1947).

1
2
3
4
5

VERIFIED COMPLAINT FOR TEMPORARY RESTRAINING ORDER,
PRELIMINARY AND PERMANENT INJUNCTIVE RELIEF,
DECLARATORY RELIEF, AND DAMAGES

6

For their Verified Complaint against Defendant, GAVIN NEWSOM, in his official

7

capacity as Governor of the State of California, Plaintiffs, HARVEST ROCK CHURCH,

8

INC., and HARVEST INTERNATIONAL MINISTRY, INC., itself and on behalf of its

9

member churches in California, allege and aver as follows:

10
11

URGENCIES JUSTIFYING TEMPORARY RESTRAINING ORDER
1.

In their Prayer for Relief, infra, and in the contemporaneously filed Motion

12

for Temporary Restraining Order (TRO), Plaintiffs seek a TRO and preliminary

13

injunction restraining enforcement against Plaintiffs of the various COVID-19 orders

14

issued by Governor Newsom and other State officials—

15

—Prohibiting gathering for any indoor worship services in over 30 counties in

16

California (including those where many of Plaintiffs’ churches are located) and, in the

17

counties where indoor worship is not totally prohibited, prohibiting gathering for indoor

18

worship with 101 or more individuals, or at over 25% capacity (whichever is lower);

19
20
21
22

—Prohibiting singing or chanting during religious worship in counties where
indoor worship remains permissible;
—Prohibiting gatherings inside private homes for small-group Bible studies
and worship services; and

23
24

2

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 3 of 74 Page ID #:3

1

—Imposing discriminatory and disparate prohibitions on the types of activities that

2

Plaintiffs may engage in at their own church buildings, as the orders allow Plaintiffs to

3

feed the hungry, clothe the naked, house the homeless, and provide other material social

4

services to an unlimited number of individuals with unlimited volunteers in a single

5

church building, but the Orders prohibit Plaintiffs from engaging in a religious

6

worship service with the same individuals in the same church building, on pain of

7

criminal penalties. A TRO and preliminary injunction are necessary to protect these

8

vitally important and constitutionally protected liberties, even in the midst of disease.

9

2.

Additionally, while the Governor has unilaterally and significantly restricted

10

the number of individuals permitted to “gather” in Plaintiffs’ churches, he has imposed

11

no similar restrictions on the untold thousands of protesters who have gathered all

12

throughout California cities with no threat of criminal sanction, and no social distancing

13

or restrictions whatsoever. And, the Governor explicitly encouraged such large

14

gatherings of protesters while condemning churches for signing hymns in their

15

churches.

16

3.

At around the same time that Governor Newsom’s Executive Orders and the

17

State’s Public Health Orders regarding COVID-19 were being used to threaten criminal

18

sanctions on Plaintiffs’ pastors, officials in other jurisdictions had similarly threatened

19

to impose criminal sanctions on other religious gatherings. Twice in two weeks the Sixth

20

Circuit Court of Appeals enjoined enforcement of executive orders like the Governor’s

21

orders, determining that restrictions on drive-in and in-person worship services violate

22

the First Amendment. See Roberts v. Neace, 958 F.3d 409 (6th Cir. 2020) (in-person

23

worship services); Maryville Baptist Church, Inc. v. Beshear, 957 F.3d 610 (6th Cir.

24

3

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 4 of 74 Page ID #:4

1

2020) (holding plaintiffs likely to succeed on merits of First Amendment and Kentucky

2

RFRA claims for both drive-in and in-person services). Also, in First Pentecostal

3

Church v. City of Holly Springs, Miss., 959 F.3d 669 (5th Cir. 2020), the Fifth Circuit

4

Court of Appeals granted an IPA to a Mississippi church, enjoining enforcement of the

5

Mississippi Governor’s order restricting worship.

6

4.

In Roberts, the Sixth Circuit granted an IPA enjoining the Kentucky

7

Governor from enforcing executive orders prohibiting a church’s in-person worship

8

services when “serial exemptions for secular activities pose comparable public health

9

risks.” 958 F.3d at 414. In determining the plaintiffs’ likely success on the merits of their

10

free exercise claims, the court recognized, “On one side of the line, a generally applicable

11

law that incidentally burdens religious practice usually will be upheld.” Id. at 413 (citing

12

Emp’t Div. v. Smith, 494 U.S. 872, 879–79 (1990)). But, the court concluded the

13

Kentucky orders “likely fall on the prohibited side of the line,” where “a law that

14

discriminates against religious practices usually will be invalidated because it is the rare

15

law that can be ‘justified by a compelling interest and is narrowly tailored to advance

16

that interest.’” Id. (quoting Church of the Lukumi Babalu Aye, Inc. v. City of Hialeah,

17

508 U.S. 520, 553 (1993)).

18
19
20
21
22
23
24

5.

Expanding on the problems with Kentucky’s orders, the court explained,
Do the four pages of exceptions in the orders, and the kinds
of group activities allowed, remove them from the safe
harbor for generally applicable laws? We think so. As a rule
of thumb, the more exceptions to a prohibition, the less likely it
will count as a generally applicable, non-discriminatory law. At
some point, an exception-ridden policy takes on the
appearance and reality of a system of individualized
exemptions, the antithesis of a neutral and generally
applicable policy and just the kind of state action that must
run the gauntlet of strict scrutiny.
4

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 5 of 74 Page ID #:5

1

Id. at 413–14 (cleaned up) (emphasis added).
6.

2

Continuing, the court reasoned, “Assuming all of the same precautions are

3

taken, why can someone safely walk down a grocery store aisle but not a pew? And why

4

can someone safely interact with a brave deliverywoman but not with a stoic minister?

5

The Commonwealth has no good answers.” Id. at 414. Thus, the court rejected the

6

Governor’s suggestion “that the explanation for these groups of people to be in the same

7

area—intentional worship—creates greater risks of contagion than groups of people, say,

8

in an office setting or an airport,” id. at 416, further explaining,

9

the reason a group of people go to one place has nothing to do
with it. Risks of contagion turn on social interaction in close
quarters; the virus does not care why they are there. So long as
that is the case, why do the orders permit people who practice
social distancing and good hygiene in one place but not another
for similar lengths of time? It’s not as if law firm office meetings
and gatherings at airport terminals always take less time than
worship services.

10
11
12
13
14
15
16
17
18
19
20
21
22
23

Id.
7.

The Roberts court also rejected the notion that the Governor’s orders were

justified because congregants could simply worship online via Facebook, reasoning,
Who is to say that every member of the congregation has access
to the necessary technology to make that work? Or to say that
every member of the congregation must see it as an adequate
substitute for what it means when “two or three gather in my
Name,” Matthew 18:20, or what it means when “not forsaking
the assembling of ourselves together,” Hebrews 10:25.
[T]he Free Exercise Clause does not protect sympathetic
religious practices alone. And that’s exactly what the federal
courts are not to judge—how individuals comply with their own
faith as they see it.
Id. at 415 (citation omitted).

24

5

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 6 of 74 Page ID #:6

1
2

8.

Kentucky Governor’s disparate treatment of churchgoers under his orders:

3

Keep in mind that the Church and its congregants just want to be
treated equally. . . . They are willing to practice social distancing.
They are willing to follow any hygiene requirements. . . . The
Governor has offered no good reason for refusing to trust the
congregants who promise to use care in worship in just the
same way it trusts accountants, lawyers, and laundromat
workers to do the same.

4
5
6
7

Come to think of it, aren’t the two groups of people often the
same people—going to work on one day and going to worship
on another? How can the same person be trusted to comply
with social-distancing and other health guidelines in secular
settings but not be trusted to do the same in religious
settings? The distinction defies explanation, or at least the
Governor has not provided one.

8
9
10
11
12

In awarding the injunction, the Roberts court brought into sharp relief the

Id. at 414 (emphasis added).
9.

A week after the Sixth Circuit’s Roberts decision, the Eastern District of

13

North Carolina issued a TRO enjoining the North Carolina Governor from enforcing a

14

10-person limit on religious worship because it violated the Free Exercise Clause. See

15

Berean Baptist Church v. Cooper, No. 4:20-cv-81-D, 2020 WL 2514313 (E.D.N.C. May

16

16, 2020) [hereinafter Berean Baptist]. In granting the TRO, the court noted upfront,

17

“There is no pandemic exception to the Constitution of the United States or the Free

18

Exercise Clause of the First Amendment.” 2020 WL 2514313, at *1 (emphasis added).

19

10.

The North Carolina “stay-at-home” orders challenged in Berean Baptist

20

provided exemptions from their 10-person gathering limits for numerous “Essential

21

Business and Operations.” Id. at *3. But, the North Carolina orders subjected worship

22

services to a 10-person limit that was not imposed on any of the myriad “Essential”

23

businesses and activities. 2020 WL 2514313, at *4. The Berean Baptist court observed

24

6

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 7 of 74 Page ID #:7

1

that the uniquely restrictive 10-person limit for worship gatherings “represent[s]

2

precisely the sort of ‘subtle departures from neutrality’ that the Free Exercise Clause is

3

designed to prevent.” Id. at *6 (quoting Gillette v. United States, 401 U.S. 437, 452

4

(1971)).

5

11.

6

Eleven men and women can stand side by side working indoors
Monday through Friday at a hospital, at a plant, or at a package
distribution center and be trusted to follow social distancing and
hygiene guidance, but those same eleven men and women cannot
be trusted to do the same when they worship inside together on
Saturday or Sunday. “The distinction defies explanation . . . .”

7
8
9
10
11

The court observed further,

Id. at *8 (quoting Roberts, 958 F.3d at 414).
12.

Thus, the court concluded, “These glaring inconsistencies between the

12

treatment of religious entities and individuals and non-religious entities and individuals

13

take [the orders] outside the ‘safe harbor for generally applicable laws.’” Id. (quoting

14

Roberts, 958 F.3d at 413).

15

13.

Ultimately, in concluding the North Carolina orders could not pass strict

16

scrutiny, the Berean Baptist court recognized that the plaintiffs “simply want the

17

Governor to afford them the same treatment as they and their fellow non-religious

18

citizens receive when they work at a plant, clean an office, ride a bus, shop at a store, or

19

mourn someone they love at a funeral.” Id. at *9 (citing Lukumi, 508 U.S. at 546 (“The

20

proffered objectives are not pursued with respect to analogous non-religious conduct,

21

and those interests could be achieved by narrower ordinances that burdened religion to a

22

far lesser degree.”)).

23
24

7

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 8 of 74 Page ID #:8

1

14.

In Louisville, Kentucky, the government threatened to use police to impose

2

criminal sanctions on those individuals found in violation of similar COVID-19 orders

3

and threatened to impose various sanctions on individuals found in violation of such

4

orders. The United States District Court for the Western District of Kentucky found that

5

the mere threat of such criminal sanction warranted a TRO. See On Fire Christian

6

Center, Inc. v. Fischer, No. 3:20-cv-264-JRW, 2020 WL 1820249 (W.D. Ky. Apr. 11,

7

2020) [hereinafter On Fire]. The On Fire TRO enjoined the Mayor of Louisville from

8

“enforcing, attempting to enforce, threatening to enforce, or otherwise requiring

9

compliance with any prohibition on drive-in church services at On Fire.” Id. at *1

10
11

(emphasis added).
15.

Additionally, the Governor of Kansas had imposed a similar restriction on

12

religious gatherings in Kansas, stating that “gatherings” of more than 10 individuals are

13

prohibited, including religious gatherings. On April 18, 2020, the United States District

14

for the District of Kansas issued a TRO enjoining Kansas officials from enforcing its

15

discriminatory prohibition on religious gatherings and required the government to treat

16

“religious” worship services the same as other similar gatherings that are permitted. See

17

First Baptist Church. v. Kelly, No. 20-1102-JWB, 2020 WL 1910021, *6–7 (D. Kan.

18

Apr. 18, 2020) [hereinafter First Baptist]. The First Baptist TRO specifically stated that

19

the government’s disparate treatment of religious gatherings was a violation of the Free

20

Exercise Clause because it showed that “religious activities were specifically targeted

21

for more onerous restrictions than comparable secular activities,” and that the

22

churches had shown irreparable harm because they would “be prevented from gathering

23
24

8

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 9 of 74 Page ID #:9

1

for worship at their churches” during the pendency of the executive order. Id. at *7–8

2

(emphasis added).

3

16.

In discussing the Kansas orders, which imposed a 10-person limit on in-

4

person gatherings, the court said that specifically singling out religious gatherings for

5

disparate treatment while permitting other non-religious activities “show[s] that these

6

executive orders expressly target religious gatherings on a broad scale and are, therefore,

7

not facially neutral,” First Baptist, 2020 WL 1910021, at *7, and—much like here—

8

“churches and religious activities appear to have been singled out among essential

9

functions for stricter treatment. It appears to be the only essential function whose core

10

purpose—association for the purpose of worship—had been basically eliminated.” Id.

11

(emphasis added). Thus, the court found that a TRO was necessary and that Kansas

12

should be enjoined from enforcing its orders’ disparate terms against churches. Indeed,

13

“it goes without saying that the government could not lawfully expressly prohibit

14

individuals from meeting together for religious services.” Id. at *6 (emphasis added).

15

17.

Also, several courts have found that the government’s open encouragement

16

of protesters flouting the various COVID-19 gathering restrictions across the country and

17

the concomitant refusal by government officials to impose similar threats of criminal

18

sanctions upon such massive gatherings while simultaneously threatening religious

19

worship services that exceed the arbitrary numerical limitations represents a gross

20

violation of the First Amendment.

21

18.

The constitutional incongruity of Governor Newsom’s encouragement of

22

protesters while restricting worshippers was highlighted by Judge Ho of the Fifth Circuit

23

in his concurrence in Spell v. Edwards, 962 F.3d 175 (5th Cir. 2020), where the court

24

9

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 10 of 74 Page ID #:10

1

dismissed as moot an appeal arising from a church’s challenge to Louisiana’s stay-at-

2

home orders restricting worship services to 10 people. 962 F.3d at 177. Judge Ho first

3

recounted,

4

At the outset of the pandemic, public officials declared that
the only way to prevent the spread of the virus was for everyone
to stay home and away from each other. They ordered citizens to
cease all public activities to the maximum possible extent—even
the right to assemble to worship or to protest

5
6
7
8
9
10

Id. at 180-81 (Ho., J., concurring).
19.

officials have not only tolerated protests—they have encouraged them . . . .” Id. at 181.
And he posed a question:

11

For people of faith demoralized by coercive shutdown policies,
that raises a question: If officials are now exempting protesters,
how can they justify continuing to restrict worshippers? The
answer is that they can’t. Government does not have carte
blanche, even in a pandemic, to pick and choose which First
Amendment rights are “open” and which remain “closed.”

12
13
14
15
16

Then, he observed, “But circumstances have changed. In recent weeks,

Id. (emphasis added).
20.

Judge Ho noted that, “To survive First Amendment scrutiny, however, those

17

orders must be applied consistently, not selectively. And it is hard to see how that rule is

18

met here [in light] of the recent protests.” Id. at 182.

19

21.

He continued, “It is common knowledge, and easily proved, that protesters

20

do not comply with social distancing requirements. But instead of enforcing the

21

Governor’s orders, officials are encouraging the protests—out of an admirable, if

22

belated, respect for First Amendment rights.” Id.

23
24

10

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 11 of 74 Page ID #:11

1

22.

As the Constitution demands, Justice Ho explained that: “If protests are

2

exempt from social distancing requirements, then worship must be too.” Id. (emphasis

3

added).

4

23.

Of particular relevance to Plaintiffs’ claims herein, Judge Ho cited a brief

5

filed by the United States in another case against Governor Newsom in observing that

6

“California’s political leaders have expressed support for such peaceful protests and,

7

from all appearances, have not required them to adhere to the now-operative 100-person

8

limit . . . . It could raise First Amendment concerns if California were to hold other

9

protests to a different standard.” Id. (emphasis added). Indeed, the same principle

10

Governor Newsom applies to protesters “should apply to people of faith.” Id. (emphasis

11

added).

12

24.

Much like the Governor here, “support for the protests reflects a

13

commendable commitment to equality. But public officials cannot devalue people of

14

faith while elevating certain protesters. That would offend the First Amendment—not to

15

mention the principle of equality for which the protests stand.” Id. at 183 (emphasis

16

added).

17

25.

As Judge Ho stated, “The point here is that state and local officials gave

18

[protesters] the choice,” to ignore the prohibitions on gathering. Id. “Those officials took

19

no action when protesters chose to ignore health experts and violate social distancing

20

rules. And that forbearance has consequences.” Id. (emphasis added).

21
22
23
24

26.

The consequences Judge Ho referred to are that,
The First Amendment does not allow our leaders to decide which
rights to honor and which to ignore. In law, as in life, what’s good
for the goose is good for the gander. In these troubled times,
nothing should unify the American people more than the
11

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 12 of 74 Page ID #:12

principle that freedom for me, but not for thee, has no place
under our Constitution.

1
2

Id. (emphasis added).
27.

3

Similarly, as recounted in Soos v. Cuomo, No. 1:20-cv-651 (GLS/DJS), 2020

4

WL 3488742 (N.D.N.Y. June 26, 2020), the Governor of New York and the New York

5

City Mayor openly encouraged protesters gathering in large numbers in New York, 2020

6

WL 3488742, *4–5, while continuing to prohibit in-person religious gatherings. Id. at

7

*5-6.

8

28.

The Northern District of New York issued a preliminary injunction enjoining

9

the enforcement of the “ever changing maximum number of people” for religious

10

worship because the disparate treatment for protesters as compared to religious

11

congregants in worship services violated the First Amendment. Id. at *8 (“[I]t is plain to

12

this court that the broad limits of that executive latitude have been exceeded.”).

13

29.

The court found that a restriction of 25% capacity for indoor worship services

14

that is not applied equally to non-religious businesses and certainly not applied to

15

protesters removes the law from general applicability and thus mandates strict scrutiny.

16

Id. at *11.

17

30.

With respect to openly supporting protesters, rioters, and looters while

18

imposing draconian restrictions on indoor religious worship services, the court noted that

19

“Mayor de Blasio’s simultaneous pro-protest/anti-religious gatherings message . . .

20

clearly undermines the legitimacy of the proffered reason for what seems to be a clear

21

exemption, no matter the reason.” Id., at *12.

22
23
24

31.

Indeed,
Governor Cuomo and Mayor de Blasio could have just as easily
discouraged protests, short of condemning their message, in the
12

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 13 of 74 Page ID #:13

name of public health and exercised discretion to suspend
enforcement for public safety reasons instead of encouraging
what they knew was a flagrant disregard of the outdoor limits and
social distancing rules. They could have also been silent. But, by
acting as they did, Governor Cuomo and Mayor de Blasio
sent a clear message that mass protests are deserving of
special treatment.

1
2
3
4
5
6

Id. at *12 (emphasis added).
32.

Because the government in New York treated protesters differently and more

7

favorably than religious gatherings, the court held that such disparate treatment violated

8

the Free Exercise Clause and issued a preliminary injunction. Id. at *13.

9

33.

The same result should obtain here. The Governor’s orders impose

10

disparately onerous prohibitions and numerical restrictions on religious gatherings in

11

churches, and even on in-home Bible studies, worship meetings, and life groups.

12

Moreover, the orders purport to dictate the manner in which Plaintiffs may engage in

13

acceptable religious worship by prohibiting singing and chanting where indoor worship

14

is allowed, and by allowing provision and receipt of approved social services by

15

unlimited numbers in the same church buildings where religious worship services are

16

limited numerically or prohibited altogether. And the Governor has imposed these

17

draconian restrictions on Plaintiffs while openly celebrating and encouraging mass

18

gatherings for protests. The Constitution demands more and so should this Court.

19
20

INTRODUCTION
34.

Due to the unprecedented nature of COVID-19 and the health tragedy the

21

disease has wrought on our great Republic and those victims suffering under its yoke,

22

there are those who may find it “tempting to hold that First Amendment rights should

23

acquiesce to national security in this instance.” Tobey v. Jones, 706 F.3d 379, 393 (4th

24

13

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 14 of 74 Page ID #:14

1

Cir. 2013). One could be forgiven for hastily reaching such a conclusion in such uncertain

2

times, but “our Forefather Benjamin Franklin warned against such a temptation by

3

opining that those who can give up essential liberty to obtain a little temporary safety,

4

deserve neither liberty nor safety.” Id.

5

35.

When the great American experiment was first implemented, our revered

6

Founders took pains to note that the Constitution—and all of the rights it recognized and

7

enshrined—was instituted “in order to form a more perfect Union, establish Justice,

8

insure domestic Tranquility, provide for the common defense, promote the general

9

Welfare, and secure the Blessings of Liberty to ourselves and our Posterity.” U.S. Const.

10

Pmbl. (emphasis added). To this very day, “we continue to strive toward ‘[that] more

11

perfect union.’” Smith v. City of New Smyrna Beach, No. 6:110cv01110-Orl-37KRS,

12

2013 WL 5230659, *1 (M.D. Fla. Sept. 16, 2013). That work is not easy, and

13

governments can and sometimes do miss the mark. This is such a case.

14

36.

Recognizing that times of crisis would arise, that such times might lead

15

governments to seek to repress precious freedoms, and that the Republic’s survival

16

depended upon defeating such repressive instincts, the genius of our founding document

17

is that it placed explicit protections into the text of the Bill of Rights. And, importantly,

18

“[o]ur Bill of Rights placed our survival on firmer ground—that of freedom, not

19

repression.” Konigsberg v. State Bar of California, 366 U.S. 36, 79 (1961) (Black, J.,

20

dissenting).

21

37.

During times of national crisis, such as the current uncertainty arising from

22

COVID-19, “the fog of public excitement obscures the ancient landmarks set up in our

23

Bill of Rights.” American Communist Ass’n, C.I.O. v. Douds, 339 U.S. 382, 453 (1950)

24

14

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 15 of 74 Page ID #:15

1

(Black, J., dissenting). But, where the fog of public excitement is at its apex, “the more

2

imperative is the need to preserve inviolate the constitutional rights of free speech, free

3

press and free assembly.” De Jonge v. Oregon, 299 U.S. 353, 365 (1937). Without doubt,

4

“[t]herein lies the security of the Republic, the very foundation of constitutional

5

government.” Id.

6

38.

It is beyond cavil that our commitment to our founding principles is most

7

tested and best calculated during times of crisis and uncertainty. Indeed, “[t]imes of crisis

8

take the truest measure of our commitment to constitutional values. Constitutional

9

values are only as strong as our willingness to reaffirm them when they seem most

10

costly to bear.” Hartness v. Bush, 919 F.2d 170, 181 (D.C. Cir. 1990) (Edwards, J.,

11

dissenting) (emphasis added). Our willingness to reaffirm our staunch commitment to

12

our fundamental freedoms is imperative to the very survival of the American experiment.

13

For, “[h]istory reveals that the initial steps in the erosion of individual rights are usually

14

excused on the basis of an ‘emergency’ or threat to the public. But the ultimate strength

15

of our constitutional guarantees lies in the unhesitating application in times of crisis

16

and tranquility alike.” United States v. Bell, 464 F.2d 667, 676 (2d Cir. 1972)

17

(Mansfield, J., concurring) (emphasis added).

18

39.

Plaintiffs bring this case to restrain the troubling transgression of their

19

fundamental and cherished liberties wrought by the imposition of Governor Newsom’s

20

orders contrived from COVID-19. Plaintiffs seek not to discredit or discard the

21

government’s unquestionable interest in doing that task for which it was instituted—

22

protecting the citizenry. But, as is often true in times of crisis, Plaintiffs respectfully

23

submit that the Governor has transgressed a line the Constitution does not permit.

24

15

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 16 of 74 Page ID #:16

1

Because of that, Plaintiffs bring this action to ensure that this Court safeguards the

2

cherished liberties for which so many have fought and died. For, “[i]f the provisions of

3

the Constitution be not upheld when they pinch as well as when they comfort, they may

4

as well be discarded.” Home Bldg. & Loan Ass’n v. Blaisdell, 290 U.S. 398, 483 (1934)

5

(Sutherland, J., dissenting) (emphasis added). Plaintiffs pray unto the Court that it not

6

permit the cherished and fundamental liberties enshrined in the Constitution to be another

7

tragic casualty of COVID-19.

8
9

PARTIES
40.

Plaintiff HARVEST ROCK CHURCH, INC. (“Harvest Rock”) is a domestic

10

nonprofit corporation incorporated under the laws of the State of California with its

11

principal place of business Pasadena, California, and with campuses in several other

12

localities in California.

13

41.

Plaintiff HARVEST INTERNATIONAL MINISTRY, INC. (“Harvest

14

International”) is a domestic nonprofit corporation incorporated under the laws of the

15

State of California with its principal place of business in Pasadena, California, and with

16

162 member churches in the State of California. Harvest International brings this action

17

for itself and on behalf of its member churches in California.

18

42.

Defendant, GAVIN NEWSOM, is the Governor of California, with authority

19

to sue and be sued, and is responsible for enacting and enforcing the COVID-19

20

executive orders and directives at issue in this litigation. The enforcement of the COVID-

21

19 orders and directives is under the Governor’s authority and under the direct

22

supervision of the Governor’s Office of Emergency Services. Governor Newsom is sued

23

in his official capacity.

24

16

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 17 of 74 Page ID #:17

1
2
3
4
5
6

JURISDICTION AND VENUE
43.

This action arises under the First and Fourteenth Amendments to the United

States Constitution and is brought pursuant to 42 U.S.C. § 1983.
44.

This Court has jurisdiction over this action pursuant to 28 U.S.C. §§ 1331

and 1343.
45.

Venue is proper in this Court pursuant to 28 U.S.C. § 1391(b)(2) because a

7

substantial part of the events or omissions giving rise to Plaintiffs’ claims occurred in

8

this district, and pursuant to 28 U.S.C. § 1391(b)(3) because the Governor is subject to

9

personal jurisdiction in this Court.

10

46.

This Court is authorized to grant declaratory relief under the Declaratory

11

Judgment Act, 28 U.S.C. §§ 2201–02, implemented through Rule 57 of the Federal Rules

12

of Civil Procedure, and is authorized to grant TRO and injunctive relief pursuant to Rule

13

65 of the Federal Rules of Civil Procedure.

14
15

47.

This Court is authorized to grant Plaintiffs’ prayer for relief regarding costs,

including a reasonable attorney’s fee, pursuant to 42 U.S.C. § 1988.

16

GENERAL ALLEGATIONS

17

A.

PLAINTIFFS’ CHURCHES AND THEIR RELIGIOUS MINISTRIES.

18

48.

Harvest Rock has numerous church campuses, including in Pasadena, Irvine,

19

and Corona. Harvest Rock has and exercises sincere religious beliefs that it is to minister

20

the Gospel of Jesus Christ to its members and attendees at its facilities, that it cannot

21

fulfill its vital ministry and sincere religious beliefs without gathering together in person,

22

and cannot effectively engage in its constitutionally protected free exercise of religion

23

on the Internet.

24

17

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 18 of 74 Page ID #:18

1

49.

Harvest Rock has and exercises sincere religious beliefs that a Church is

2

fundamentally a communal and associational body of Believers in Jesus Christ that must

3

gather together in order to fulfill the vital requirements of scriptural commands. Put

4

simply, Harvest Rock has and exercises sincere religious beliefs that failure to gather

5

together in person for religious worship services in which its members and congregants

6

may worship the Lord, receive biblical teaching, and minister to one another’s needs is

7

disobedience to the Lord for which they will be held divinely accountable.

8

50.

In fact, Harvest Rock has and exercises a sincere religious belief that failure

9

to abide by Scripture’s command that it gather its congregants together to worship the

10

Lord is disobedience to the Lord for which its pastors will be held divinely accountable.

11

Harvest Rock has and exercises sincere religious beliefs that it must adhere to all

12

scriptural commands, and that failure to do so will result in the strictest of divine

13

judgment for its pastors and leaders. See Hebrews 3:17; James 3:1.

14

51.

As part of its religious mission, Harvest Rock has a ministry at its church

15

called the Hope Center, which is staffed by church leaders and volunteers. The Hope

16

Center provides support for those with financial, familial, emotional, and spiritual needs

17

in its communities. Harvest Rock has and exercises sincere religious beliefs that

18

Scripture commands it to feed the hungry, give water to the thirsty, clothe the naked,

19

house the homeless, and counsel the afflicted. All of these ministries have been impacted

20

by the Governor’s COVID-19 Orders.

21
22

52.

As part of the exercise of its sincerely held religious beliefs, Harvest Rock’s

Church campuses also have numerous Life Groups, which meet in the homes of members

23
24

18

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 19 of 74 Page ID #:19

1

of the Church to worship together, engage in Bible study, fellowship with one another,

2

and minister to the needs of each other.

3

53.

Harvest Rock has and exercises sincere religious beliefs that it is to raise up

4

disciples and launch reformers through families, for the purpose of advancing the

5

Kingdom of God. Harvest Rock has and exercises a sincere religious belief that Life

6

Groups are an essential way for the church to fulfill its mission and to foster a healthy,

7

vibrant, and growing Church community such that its members can gather together to

8

grow in the Lord, mature in their faith, and understand the Scriptures better.

9

54.

Harvest International has 162 member churches in California, and each of

10

these churches has and exercises the sincere religious beliefs that the church is to minister

11

the Gospel of Jesus Christ to its members and attendees at its facilities, that it cannot

12

fulfill its vital ministry and sincere religious beliefs without gathering together in person,

13

and that it cannot effectively engage in its constitutionally protected free exercise of

14

religion on the Internet.

15

55.

Many of Harvest International’s member churches in California have

16

programs that provide food support for the hungry, financial and ministry support for

17

those in need, and also biblical and social-service-type counseling for members of their

18

communities throughout California. These churches also have and exercise sincere

19

religious beliefs that Scripture commands them to feed the hungry, give water to the

20

thirsty, clothe the naked, house the homeless, and counsel the afflicted. All of these

21

ministries have been impacted by the Governor’s COVID-19 orders.

22
23
24

19

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 20 of 74 Page ID #:20

1

56.

Many of Harvest International’s member churches in California also have

2

smaller groups that meet in the homes of their members to worship together, engage in

3

Bible study, fellowship with one another, and minister to the needs of the group.

4

57.

Harvest International’s member churches in California have and exercise

5

sincere religious beliefs that a Church is fundamentally a communal and associational

6

body of Believers in Jesus Christ that must gather together in order to fulfill the vital

7

requirements of scriptural commands. Put simply, Harvest International’s member

8

churches in California have and exercise sincere religious beliefs that failure to gather

9

together in person for religious worship services in which their members and congregants

10

may worship the Lord, receive biblical teaching, and minister to one another’s needs is

11

disobedience to the Lord for which they will be held divinely accountable.

12

58.

In fact, Harvest International’s member churches in California have and

13

exercise a sincere religious belief that failure to abide by Scripture’s command that they

14

gather together to worship the Lord, is a sin for which their Pastors will be held divinely

15

accountable. Harvest International’s member churches in California have and exercise

16

sincere religious beliefs that they must adhere to all scriptural commands, and that failure

17

to do so will result in the strictest of divine judgment for their pastors and leaders. See

18

Hebrews 3:17; James 3:1.

19

59.

Plaintiffs and their churches all have and exercise sincere religious beliefs

20

that they are to “sing to the LORD” and “[d]eclare his glory among the nations.” Psalm

21

96:1–2 (ESV).

22
23
24

20

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 21 of 74 Page ID #:21

60.

1

Plaintiffs and their churches all have and exercise sincere religious beliefs

2

that they are to “make a joyful noise” to the Lord, Psalm 95:1 (ESV), through singing

3

and chanting His praises.
61.

4
5

Plaintiffs and their churches all have and exercise sincere religious beliefs

that they are to “sing to the LORD as long as I live.” Psalm 104:33 (ESV).
62.

6

Plaintiffs and their churches all have and exercise sincere religious beliefs

7

that not only are they to sing to the Lord, also to “declare [His] name unto my brethren,”

8

and that “in the midst of the church will [they] sing praise” to the Lord. Hebrews 2:12

9

(KJV) (emphasis added).
63.

10

Plaintiffs and their churches all have and exercise sincere religious beliefs

11

that, in the current times of trouble and distress, they are to sing to the Lord even more

12

and to sing aloud to Him. See Psalm 59:16 (ESV) (“I will sing aloud of your steadfast

13

love in the morning. For you have been to me a fortress and a refuge in the day of my

14

distress.”).
64.

15

Plaintiffs and their churches all have and exercise sincere religious beliefs

16

that they are to chant and shout to the Lord as well. See Psalm 33:3 (ESV) (“Sing to him

17

a new song; play skillfully on the strings, with loud shouts.” (emphasis added)).
65.

18

Plaintiffs and their churches all have and exercise sincere religious beliefs,

19

rooted in Scripture’s commands (e.g., Hebrews 10:25), that followers of Jesus Christ are

20

not to forsake the assembling of themselves together, and that they are to do so even

21

more in times of peril and crisis. Indeed, the entire purpose of the Church (in Greek

22

“ekklesia,” meaning “assembly”) is to assemble together Christians to worship Almighty

23

God.

24

21

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 22 of 74 Page ID #:22

1

B.

GOVERNOR NEWSOM’S EXECUTIVE ORDERS AND
CALIFORNIA PUBLIC HEALTH ORDERS.

66.

On March 4, 2020 the Governor issued a Proclamation proclaiming a State

2
3
4

of Emergency existed in California due to the COVID-19 disease. A true and correct

5

copy of that Proclamation is attached hereto as EXHIBIT A and incorporated herein.

6

67.

On March 12, 2020 the Governor issued Executive Order N. 25-20, stating

7

that all residents of California “are to heed any orders and guidance of state and local

8

public health officials, including but not limited to the imposition of social distancing

9

measures.” A true and correct copy of Executive Order N. 25-20 is attached hereto as

10
11

EXHIBIT B and incorporated herein.
68.

One week later, on March 19, 2020 the Director of the California Department

12

of Public Health, at the direction of the Governor, issued an Order of the State Public

13

Health Officer “order[ing] all individuals living in the State of California to stay home

14

or at their residence except as needed to maintain continuity of operations of the federal

15

critical infrastructure sectors.” A true and correct copy of the March 19, 2020 Public

16

Health Order (the “Stay-at-Home Order”) is attached hereto as EXHIBIT C and

17

incorporated herein.

18
19
20

69.

The Stay-at-Home Order became effective immediately and remains “in

effect until further notice,” and is still in effect.
70.

The “federal critical infrastructure sectors” adopted and incorporated into the

21

Stay-at-Home Order as exempt from its stay-at-home requirements, allowing

22

“Californians working in these 16 critical infrastructure sectors [to] continue their work,”

23

are the 16 critical infrastructure sectors identified by the U.S. Department of Homeland

24

22

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 23 of 74 Page ID #:23

1

Security Cybersecurity and Infrastructure Security Agency (CISA). A true and correct

2

copy of CISA’s current Guidance on the Essential Critical Infrastructure Workforce,

3

Version 3.1 (the “CISA Guidance”) is attached hereto as EXHIBIT D and incorporated

4

herein.

5

71.

The businesses and operations included within the 16 expansive

6

infrastructure categories exempted by the Stay-at-Home Order include (a) businesses

7

providing food and groceries (such as Ralphs and Trader Joe’s grocery stores, and

8

Walmart and Costco “big-box” stores), (b) food manufacturing and warehousing, (c)

9

organizations providing “food, shelter, and social services, and other necessities of life

10

for economically disadvantaged or otherwise needy individuals,” (d) businesses

11

providing construction materials and equipment (such as Home Depot and Lowe’s

12

warehouse stores), (e) e-commerce distribution facilities (such as Amazon.com

13

facilities), (f) bank and financial processing and service centers (such as Wells Fargo and

14

Chase centers), and (g) “radio, television, and media service” organizations (of any size),

15

and a host of other exempted businesses and operations (of any size) where large numbers

16

of individuals are permitted to gather for extended periods of time with unavoidable close

17

contact.

18

72.

The Stay-at-Home Order imposes no numerical limitations on the persons

19

working in or patronizing the exempted businesses and non-religious activities, and

20

advises only “that they should at all times practice social distancing.”

21

73.

The Stay-at-Home Order, however, does not permit people to leave their

22

homes to conduct or attend religious worship services. Thus, upon its issuances, the

23

Stay-at-Home Order imposed a total prohibition on religious worship services,

24

23

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 24 of 74 Page ID #:24

1

including in-home worship services, regardless of the number attending and

2

whether social distancing or other hygiene practices were followed.

3

74.

Also on March 19, the Governor issued Executive Order N. 33-20

4

incorporating and putting the full power of the Governor’s Office behind the Stay-at-

5

Home Order, directing the Governor’s Office of Emergency Services “to take necessary

6

steps to ensure compliance” with the order, and giving notice to the public that the order

7

is enforceable pursuant to California Government Code § 8665, which provides that

8

violating the Governor’s orders is a misdemeanor criminal offense punishable by up to a

9

$1,000 fine, six months in jail, or both. A true and correct copy of Executive Order N.

10
11

33-20 is attached hereto EXHIBIT E and incorporated herein.
75.

On April 14, 2020 the Governor issued his Roadmap to Modify the Stay-at-

12

Home Order, providing “California’s 6 indicators” for beginning the process of

13

reopening businesses and other entities in California. A true and correct copy of the

14

Roadmap to Modify the Stay-at-Home Order (the “Roadmap”) is attached hereto as

15

EXHIBIT F and incorporated herein.

16

76.

The Roadmap’s 6 indicators are (1) “The ability to monitor and protect our

17

communities through testing, contact tracing, isolating, and supporting those who are

18

positive or exposed;” (2) “The ability to prevent infection in people who are at risk for

19

more severe COVID-19;” (3) “The ability of the hospital and health systems to handle

20

surges;” (4) “The ability to develop therapeutics to meet the demand;” (5) “The ability

21

for businesses, schools, and child care facilities to support physical distancing;” and (6)

22

“The ability to determine when to reinstitute certain measures, such as the stay-at-home

23

orders, if necessary.”

24

24

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 25 of 74 Page ID #:25

1

77.

On April 28, 2020, pursuant to the Governor’s Executive Order N. 33-20

2

ratifying the Stay-at-Home Order, the Governor released California’s own “Essential

3

Workforce” guidance document listing businesses and operations exempt from the Stay-

4

at-Home Order as so-called “‘Essential Critical Infrastructure Workers” to help state,

5

local, tribal, and industry partners as they work to protect communities, while ensuring

6

continuity of functions critical to public health and safety, as well as economic and

7

national security.” A true and correct copy of the Governor’s “Essential Workforce

8

Guidance” is attached hereto as EXHIBIBT G and incorporated herein.

9

78.

The Governor’s Essential Workforce Guidance, like the previously adopted

10

CISA Guidance, identifies expansive categories of businesses and non-religious

11

activities exempted from the Stay-at-Home Order and allowed to remain open and

12

operational. The Essential Workforce Guidance includes exempt categories similar to the

13

CISA Guidance, such as (a) businesses providing food and groceries (such as Ralphs and

14

Trader Joe’s grocery stores, and Walmart and Costco “big-box” stores), (b) food

15

manufacturing and warehousing, (c) organizations providing “food, shelter, and social

16

services, and other necessities of life for economically disadvantaged or otherwise needy

17

individuals,” (d) businesses providing construction materials and equipment (such as

18

Home Depot and Lowe’s warehouse stores), (e) e-commerce distribution facilities (such

19

as Amazon.com facilities), (f) bank and financial processing and service centers (such as

20

Wells Fargo and Chase centers), and (g) “radio, television, and media service”

21

organizations (of any size), and also includes new categories not covered in the March

22

19 CISA Guidance, such as (h) “laundromats, laundry services, and dry cleaners,” (i) law

23

and accounting firms, real estate offices, and other professional services (of any size),

24

25

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 26 of 74 Page ID #:26

1

(j) businesses that produce, store, transport and distribute cannabis, and (k) workers

2

supporting California’s entertainment industry, studios, and other related entertainment

3

establishments, and a host of other exempted businesses and non-religious activities (of

4

any size) where large numbers of individuals are permitted to gather for extended periods

5

of time with unavoidable close contact.

6

79.

The Governor’s April 28 Essential Workforce Guidance also exempted, for

7

the first time, “Clergy for essential support and faith-based services,” but imposed a

8

unique qualifier on religious worship not applicable to other “Essential” services,

9

limiting “faith-based services” to those “that are provided through streaming or other

10
11

technologies that support physical distancing and state public health guidelines.”
80.

On May 7, 2020 the Public Health Director issued a new Public Health Order

12

identifying four stages of reopening and authorizing the gradual movement from Stage 1

13

to Stage 2. A true and correct copy of the May 7 Public Health Order (the “Stage 2

14

Order”) is attached hereto as EXHIBIT H and incorporated herein.

15

81.

The Stage 2 Order identified the following stages: (Stage 1) safety and

16

preparation; (Stage 2) reopening of lower-risk workplaces and other spaces; (Stage 3)

17

reopening of higher-risk workplaces and other spaces; and (Stage 4) easing of final

18

restrictions leading to the end of the Stay-at-Home Order.

19

82.

The Stage 2 Order advised that “sectors, businesses, establishments, or

20

activities that are permitted to open will be designated” on the California COVID-19

21

“Roadmap” website, on an ongoing basis. The Stage 2 re-openings designated on the

22

Roadmap website include “retail, related logistics and manufacturing, office workplaces,

23

limited personal services, outdoor museums, child care, and essential businesses . . . with

24

26

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 27 of 74 Page ID #:27

1

modifications.” A true and correct copy of the Roadmap designations is attached hereto

2

as EXHIBIT I and incorporated herein.

3

83.

The Stage 2 Order authorizes Californians to “leave their homes to work at,

4

patronize, or otherwise engage with [the designated] businesses, establishments, or

5

activities, subject only to “physical distancing, minimize[ing] their time outside of the

6

home, and wash[ing] their hands frequently.” The May 7 Stage 2 Order otherwise left in

7

effect the Stay-at-Home Order prohibiting Californians from leaving their homes to

8

attend religious worship services.

9

84.

On May 25, 2020 the Governor issued his Guidance for Places of Worship

10

and Providers of Religious Services and Cultural Ceremonies. A true and correct copy

11

of the “May 25 Worship Guidance” is attached hereto as EXHIBIT J and incorporated

12

herein.

13

85.

For all places of worship, including Plaintiffs and their churches, the May 25

14

Worship Guidance authorizes resuming in-person religious worship services on the

15

condition that attendance is limited to “25% of building capacity or a maximum of 100

16

attendees, whichever is lower” after “a county public health department’s approval of

17

religious services . . . within their jurisdictions.”

18

86.

The May 25 Worship Guidance also imposed significant restrictions (some

19

obligatory, some suggested) on places of worship, including temperature screenings

20

upon entering a church, eye-protection and gloves for workers, face coverings for

21

employees, volunteers, and attendees, posting signage throughout the facility to inform

22

attendees of the face covering and glove requirements, discouraging use of shared items

23

such as Scriptures and Hymnals, discontinuing use of offering plates, discouraging

24

27

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 28 of 74 Page ID #:28

1

handshakes or hugging of any kind, discontinuing singing, group recitation, and similar

2

practices, and many other restrictions not imposed on “Essential” businesses and non-

3

religious activities.

4

87.

On July 1, 2020 the Governor issued a revised Guidance for Places of

5

Worship. A true and correct copy of the “July 1 Worship Guidance” is attached hereto

6

as EXHIBIT K and incorporated herein.

7

88.

The July 1 Worship Guidance largely mirrored the May 25 Worship

8

Guidance, but imposed mandatory requirements on places of worship that were merely

9

suggested in the prior version.

10

89.

For example, the July 1 Worship Guidance states unequivocally: “Places of

11

worship must therefore discontinue singing and chanting activities and limit indoor

12

attendance to 25% of building capacity or a maximum of 100 attendees, whichever

13

is lower.” (Bold emphasis added). The July 1 Worship Guidance also restricts outdoor

14

worship services by requiring, “[a]t a minimum, . . . strict physical distancing measures

15

of a minimum of six feet between attendees from different households.”

16

90.

Thus, the July 1 Worship Guidance imposes numerical and size restrictions

17

on both indoor and outdoor worship which are not imposed on other “Essential”

18

businesses and non-religious activities.

19

91.

On July 6, 2020 the Governor issued yet another revised Guidance for Places

20

of Worship. A true and correct copy of the “July 6 Worship Guidance” is attached hereto

21

as EXHIBIT L and incorporated herein.

22
23
24

28

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 29 of 74 Page ID #:29

1

92.

The July 6 Worship Guidance retained the mandatory numerical restrictions

2

for indoor and outdoor worship, but changed the singing and chanting prohibition to

3

apply only indoors.

4

93.

Each of the evolving Worship Guidance documents equated the COVID-19

5

risks at places of worship with the COVID-19 risks at “Essential” businesses and non-

6

religious operations such as “food production, warehouses, meat processing plants, and

7

grocery stores,” all of which “Essential” entities are exempt from the unique numerical

8

restrictions and other prohibitions imposed on the core activities of places of religious

9

worship.

10

94.

On July 13, 2020, after permitting Plaintiffs and other houses of worship to

11

reopen subject to the restrictions of the evolving Worship Guidance documents, and

12

subject to obtaining the approval of local officials who could tell them whether

13

worship services were permissible at all, the Governor announced that 30 counties in

14

the State were being returned to Stage 1 and that in-person worship services would no

15

longer be permitted in any of those counties.

16

95.

Also, on July 13, 2020, pursuant to the Governor’s public announcement, the

17

Public Health Officer issued a Public Health Order closing indoor operations throughout

18

the state for businesses such as bars, pubs, breweries, and restaurants, and ordering the

19

additional closure, in counties on the California Department of Public Health (CDPH)

20

County Monitoring List, of “Gyms and Fitness Centers[,] Places of Worship[,]

21

Protests[,] Offices for Non-Critical Infrastructure Sectors[,] Personal Care Services[,]

22

Hair salons and barbershops[, and] Malls” (emphasis added). A true and correct copy of

23
24

29

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 30 of 74 Page ID #:30

1

the July 13 Public Health Order is attached hereto as EXHIBIT M and incorporated

2

herein.

3

96.

The July 13 Public Health Order “shall remain in effect until [the Public

4

Health Officer] determine[s] it is appropriate to modify the order,” and it remains in

5

effect.

6

97.

The now 32 California counties on the County Monitoring List currently

7

subject to the enhanced closures of the July 13 Public Health Order, which closures

8

include places of worship, are: Alameda, Colusa, Contra Costa, Fresno, Glenn, Imperial,

9

Kings, Los Angeles, Madera, Marin, Merced, Monterey, Napa, Orange, Placer,

10

Riverside, Sacramento, San Benito, San Bernardino, San Diego, San Joaquin, San Luis

11

Obispo, Santa Barbara, Santa Clara, Solano, Sonoma, Stanislaus, Sutter, Tulare, Ventura,

12

Yolo, and Yuba.

13

C.

14
15

THE

GOVERNOR’S

ORDERs

DISCRIMINATE

BETWEEN

PERMISSIBLE RELIGIOUS ACTIVITIES AND IMPERMISSIBLE
RELIGIOUS WORSHIP IN THE SAME BUILDING.

98.

As alleged supra, the March 19 Stay-at-Home Order created expansive

16

categories of businesses and activities wholly exempt from the Order’s stay-at-home

17

mandate, subject only to social distancing.

18

99.

These exempt activities include the provision of “food, shelter, and social

19

services, and other necessities of life for economically disadvantaged or otherwise needy

20

individuals” from the CISA Guidance (EXHIBIT D, at 20), and the identically described

21

provision of “food, shelter, and social services, and other necessities of life for

22

economically disadvantaged or otherwise needy individuals” from the Governor’s

23

additional Essential Workforce Guidance (EXHIBIT G, at 23).

24

30

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 31 of 74 Page ID #:31

1

100. Thus, under the Governor’s orders, Plaintiffs and their churches may provide

2

food for the hungry, shelter for the homeless, counseling on unemployment benefits or

3

other government assistance programs, family counseling, drug-addiction counseling,

4

and any other social services for “necessities of life,” and may do so in their Church

5

buildings, without numerical restrictions on volunteers or recipients, subject only

6

to social distancing.

7

101. But, in counties where Plaintiffs’ campus and member churches are still

8

permitted to gather at all, if they are feeding, clothing, housing, or counseling 101

9

individuals (or over 25% of their building capacity), and at any point transition from

10

providing material “necessities of life” through government-approved social services, to

11

providing spiritual necessities of life—according to sincerely held religious beliefs—

12

through government-prohibited religious worship services, for the same people, in the

13

same building, the Governor’s orders automatically apply, and Plaintiffs are subject to

14

criminal penalties.

15

102. For each of Plaintiffs’ campus and member churches in California counties

16

subject to total closure for worship under the July 13 Public Health Order, they are still

17

exempt for feeding, counseling, and even housing overnight an unlimited number of

18

materially needy people in the same room, but if a pastor preaches a sermon for the

19

spiritually needy among them and invites them to participate by singing a hymn, the

20

exempt service becomes a prohibited religious worship service subject to criminal

21

penalties—no matter how many or how few participate in worship.

22

103. The Governor’s orders and their classifications of exempt businesses,

23

activities, and services has established a system informing Plaintiffs and their churches

24

31

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 32 of 74 Page ID #:32

1

that certain activities in their buildings are perfectly permissible and not subject to any

2

numerical limitation, but that any transition to other religious activities (i.e., religious

3

worship services) are prohibited and subject Plaintiffs and their member churches to

4

criminal penalties.

5

D.

6
7

THE
GOVERNOR
PUBLICLY
AND
UNEQUIVOCALLY
SUPPORTED MASS PROTEST GATHERINGS THAT VIOLATED
HIS ORDERS WHILE SIMULTANEOUSLY CONDEMNING AND
PROHIBITING RELIGIOUS WORSHIP SERVICES.

8

104. On June 1, 2020, Governor Newsom held a news conference in which he

9

expressed appreciation and gratitude for the thousands of protesters gathering in the

10

streets in California in violation of his own orders. KTLA 5,‘You are right to feel

11

wronged’: Newsom responds to weekend violence, YouTube (June 1, 2020),

12

https://www.youtube.com/watch?v=va7rl5seIXQ). In that press conference, the

13

Governor thanked the protesters, invoked God’s blessing on them, and explicitly

14

encouraged the protesters to continue to flout his orders: “Those that want to express

15

themselves and have, Thank You! God bless You. Keep doing it.” Id. (emphasis

16

added).

17

105. When asked about the dichotomous and disparate treatment of family,

18

religious, or social gatherings and the often-violent protests in California, Governor

19

Newsom has issued public statements stating that “people understand we have a

20

Constitution, we have a right to free speech and we are all dealing with a moment in our

21

Nation’s history that is profound and pronounced,” and issued further expressions of

22

praise for the protesters flouting his orders. See Eric Ting, Gavin Newsom asked to

23

reconcile support for protests with new warnings on gatherings, SFGate (July 2, 2020,

24

32

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 33 of 74 Page ID #:33

1

1:58 PM), https://www.sfgate.com/politics/article/Gavin-Newsom-protests-coronavirus-

2

July-Fourth-ask-15383112.php.

3

106. On May 30, 2020, Governor Newsom released an official statement praising

4

and encouraging the protesters in California to continue to gather in large numbers

5

despite their flagrant violations of his own Orders. See Governor Newsom Statement on

6

Demonstrations Across California and the Passing of Federal Officer, Office of

7

Governor Gavin Newsom (May 30, 2020), https://www.gov.ca.gov/2020/05/30/

8

governor-newsom-statement-on-demonstrations-across-california-and-the-passing-of-

9

federal-officer/.

10

107. Specifically, the Governor said, “we have seen millions of people lift up

11

their voices in anger, rightfully outraged . . . . Every person who has raised their voice

12

should be heard.” He continued, “I want to thank all those . . . who exercised their right

13

to protest peacefully.”

14

108. In discussing the protesters’ gathering by the thousands in the streets of

15

California, Governor Newsom “expressed sympathy and showed support for the

16

protesters,” noting that he encouraged the protesters to engage in their constitutionally

17

protected speech to advocate for their point because “people have lost patience” and need

18

to protest. See Dave McNary, California Gov. Gavin Newsom Shows Support for George

19

Floyd Protesters, Variety (June 1, 2020, 4:03 PM), https://variety.com/2020/tv/news/

20

gov-newsom-sympathy-george-floyd-protests-1234622479/.

21

109. On June 1, 2020, Governor Newsom explicitly stated that he wants to have

22

the thousands of protesters continuing to gather in the streets of California, despite his

23

orders, stating, “‘your rage is real. Express it so that we can hear it.’” Maggie Angst,

24

33

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 34 of 74 Page ID #:34

1

On fourth day of protests, Newsom tells demonstrators: “Your rage is real. Express it.”,

2

The Mercury News (June 2, 2020, 3:53 AM), https://www.mercurynews.com/2020/06/

3

01/trump-tells-governors-to-dominate-protesters-newsom-tells-them-you-matter-i-care/

4

(emphasis added).

5

110. On June 5, 2020, the Governor not only continued his support for mass

6

protests that continually disregard his orders, but said new standards should be applied

7

for such protests. He continued his encouragement of willful violations of his orders by

8

stating: “‘Protesters have the right not to be harassed . . . . Protesters have the right to

9

protest peacefully. Protesters have the right to do so without being arrested . . . .” Alexei

10

Koseff, Newsom calls for new protest policing standards in California, ban on carotid

11

holds, San Francisco Chronicle (June 5, 2020, 6:37 PM), https://www.sfchronicle.com/

12

politics/article/Gavin-Newsom-calls-for-new-protest-policing-15320403.php.

13

111. The Governor’s calls for First Amendment activity to be permitted without

14

threat of arrest did not apply to religious gatherings, such as Plaintiffs’ worship services.

15
16

E.

THE GOVERNOR’S UNEQUAL
RELIGIOUS GATHERINGS.

TREATMENT

OF

NON-

17

112. On Sunday June 7, 2020 an estimated 100,000 protesters were permitted to

18

gather in close proximity without any threat of criminal sanction for violating the

19

Governor’s orders.

20
21
22
23
24

34

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 35 of 74 Page ID #:35

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24

35

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 36 of 74 Page ID #:36

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24

36

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 37 of 74 Page ID #:37

1

See Samuel Braslow, Black Lives Matter Estimates that as Many as 100,000 Protesters

2

Gathered in Hollywood on Sunday, Los Angeles Magazine (June 8, 2020),

3

https://www.lamag.com/citythinkblog/hollywood-protest-sunday/.

4

113. On July 12, 2020, just one day prior to the July 13 Public Health Order

5

prohibiting Plaintiffs from holding any religious worship services in over 30 counties

6

(including in small groups in their own homes), thousands of additional protesters

7

gathered in Martinez, California without mention or threat of criminal sanction for

8

blatantly violating the Governor’s orders.

9
10
11
12
13
14
15
16
17
18
19
20
21
22

Bay City News, Thousands March for Black Lives in Martinez Sunday, Patch (July 12,

23

2020, 6:41 PM), https://patch.com/california/martinez/thousands-march-black-lives-

24

martinez-sunday.
37

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 38 of 74 Page ID #:38

1

114. On July 1, 2020, after the Governor had instructed people not to gather on

2

July 4th, thousands of people again protested in Los Angeles and were not threatened

3

with criminal sanctions for violation of the Governor’s orders.

4
5
6
7
8
9
10
11
12
13
14
15
16

Zachary Evans, L.A. Protests Draw Thousands Hours after Gov. Newsom Prohibited

17

Fourth of July Gatherings, National Review (July 2, 2020, 1:22 PM),

18

https://www.nationalreview.com/news/l-a-protest-draws-thousands-hours-after-gov-

19

newsom-l-a-protests-draw-thousands-hours-after-gov-newsom-prohibited-fourth-of-

20

july-gatherings/.

21

115. On June 1, 2020, nearly 15,000 people gathered to protest in Oakland,

22

California, and the Governor neither threatened nor imposed criminal sanctions on such

23

gatherings despite the flagrant violations of his orders.

24

38

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 39 of 74 Page ID #:39

1
2
3
4
5
6
7
8
9
10
11

Darwin BondGraham, How 2 Oakland students got 15,000 people to march against

12

police

13

https://www.berkeleyside.com/2020/06/02/how-oakland-students-got-15000-people-to-

14

march-against-police-violence-on-monday.

violence

on

Monday,

Berkeleyside

(June

2,

2020,

12:18

PM),

15

116. On June 4, 2020, thousands of additional protesters assembled in the streets

16

of San Diego, and again no criminal sanctions were threatened or imposed despite the

17

violation of the Governor’s orders.

18
19
20
21
22
23
24

39

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 40 of 74 Page ID #:40

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24

40

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 41 of 74 Page ID #:41

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19

Staff, Thousands March From Downtown to North Park in Latest George Floyd Protest,

20

OB Rag (June 4, 2020), https://obrag.org/2020/06/thousands-march-from-downtown-to-

21

north-park-in-latest-george-floyd-protest/.

22
23
24

41

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 42 of 74 Page ID #:42

1

117. On June 6, 2020, thousands of other protesters assembled in Sacramento,

2

right outside the Governor’s office, in blatant violation of the Governor’s orders, and no

3

criminal citations or threats were issued against them.

4
5
6
7
8
9
10
11
12
13
14
15
16
17
18

Sam Stanton, et al., Sacramento unites for Black Lives Matters as thousands take to

19

downtown

20

https://www.sacbee.com/news/local/article243339831.html.

streets,

Sacramento

Bee

21
22
23
24

42

(June

6,

2020,

6:28

PM),

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 43 of 74 Page ID #:43

1

118. On June 6, 2020, thousands of protesters gathered again in the streets of San

2

Diego in violation of the Governor’s orders, and no criminal sanctions were threatened

3

or imposed.

4
5
6
7
8
9
10
11
12
13
14
15
16

Cody Delaney & Zoë Meyers, Photos: San Diego demonstrators raise their voices to

17

protest police violence, inewsource (June 8, 2020), https://inewsource.org/2020/06/08/

18

photos-san-diego-protest-police-violence/.

20

PLAINTIFFS’ CHURCHES HAVE COMPLIED AND WILL
CONTINUE TO COMPLY WITH SOCIAL DISTANCING AND
PERSONAL HYGIENE PROTOCOLS.

21

119. Despite the countless instances of protesters’ gathering by the thousands,

22

engaging in shouting and loud singing and chanting, without social distancing, and

23

without threat of criminal sanction, Plaintiffs’ churches still face criminal penalties

19

F.

24

43

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 44 of 74 Page ID #:44

1

despite their complying with social distancing and personal hygiene protocols wholly

2

absent from the mass protests Governor Newsom encouraged, applauded, and blessed.

3

120. Harvest Rock’s Pasadena campus seats 1,250 people, and it has been

4

allowing for worship services only the number of people that allows for effective social

5

distancing. Harvest Rock requires everyone to wear a mask into the building, takes the

6

temperature of everyone entering the building, and spaces its attendees to achieve proper

7

social distancing. Harvest Rock also has its building and restrooms professionally

8

sanitized after hosting each worship service.

9

121. Harvest Rock’s Orange County campus seats 350 people, and it has been

10

allowing for worship services only the number of people that allows for effective social

11

distancing. Harvest Rock requires everyone to wear a mask into the building, takes the

12

temperature of everyone entering the building, and spaces its attendees to achieve proper

13

social distancing. Harvest Rock also has its building and restrooms professionally

14

sanitized after hosting each worship service.

15

122. Harvest Rock’s Los Angeles campus seats 80 people, and it has been

16

allowing for worship services only the number of people that allows for effective social

17

distancing. Harvest Rock requires everyone to wear a mask into the building, takes the

18

temperature of everyone entering the building, and spaces its attendees to achieve proper

19

social distancing. Harvest Rock also has its building and restrooms professionally

20

sanitized after hosting each worship service.

21

123. Harvest Rock’s Corona campus seats 50 people, and it has been allowing for

22

worship services only the number of people that allows for effective social distancing.

23

Harvest Rock requires everyone to wear a mask into the building, takes the temperature

24

44

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 45 of 74 Page ID #:45

1

of everyone entering the building, and spaces its attendees to achieve proper social

2

distancing. Harvest Rock also has its building and restrooms professionally sanitized

3

after hosting each worship service.

4

124. Harvest International’s 162 member churches in California have also taken

5

steps to engage in social distancing, limit the number of attendees, and perform enhanced

6

sanitation and hygiene protocols for its worship services.

7

125. Plaintiffs and their churches are committed to protecting their members and

8

attendees, and surrounding communities, while engaging in their constitutionally

9

protected rights to exercise their sincerely held religious not to forsake the assembling of

10

themselves together, and Plaintiffs are committed to engaging in appropriate social

11

distancing and enhanced sanitation for all of their worship services.

12

G.

13

LESS RESTRICTIVE ALTERNATIVES ARE AVAILABLE TO THE
GOVERNOR.

14

126. Despite Governor Newsom’s insistence that in-person religious gatherings

15

of any number of people indoors cannot continue in most of California, or at the requisite

16

capacity limitations in the counties where worship is still allowed provided no singing or

17

chanting takes place, the Governor has failed to consider other, substantially less

18

restrictive alternatives to the absolute prohibition and severe restrictions on religious

19

gatherings.

20

127. Like California, the State of Indiana has issued stay-at-home executive

21

orders and required the closure of all so-called “non-essential” businesses without

22

unnecessarily discriminating against religious gatherings. Governor Eric. J. Holcomb’s

23

Executive Order 20-08 declared that “[r]eligious facilities, entities and groups, and

24

45

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 46 of 74 Page ID #:46

1

religious gatherings” are essential and may continue to operate provided they follow

2

appropriate social distancing and personal hygiene practices. A true and correct copy of

3

Indiana’s Executive Order 20-08 is attached hereto as EXHIBIT N and incorporated

4

herein.

5

128. The State of Alabama, in its final Order of the State Health Officer

6

Suspending Certain Public Gatherings Due to Risk of Infection by COVID-19, issued

7

April 3, 2020, exempts individuals attending religious worship services in person subject

8

to certain requirements and permits “drive-in” worship services without limitation. A

9

true and correct copy of the Alabama Order is attached hereto as EXHIBIT O and

10

incorporated herein.

11

129. The State of Arkansas has likewise exempted “places of worship” from its

12

Executive Order 20-13 imposing restrictions to prevent the spread of COVID-19,

13

provided that they engage in adequate social distancing and personal hygiene practices.

14

A true and correct copy of the Arkansas Executive Order is attached hereto as EXHIBIT

15

P and incorporated herein.

16

130. The State of Connecticut has similarly shown that other, less restrictive

17

alternatives are available. In Executive Order No. 7N, Governor Ned Lamont permitted

18

religious services to continue to meet, but limited their in-person gatherings to 50 people,

19

as opposed to the six-person limit applicable to other gatherings. A true and correct copy

20

of the Connecticut Executive Order No. 7N is attached hereto as EXHIBIT Q and

21

incorporated herein.

22

131. The State of Ohio has likewise issued certain COVID-19 orders, including

23

the Ohio Department of Health’s Stay Safe Ohio Order. A true and correct copy of the

24

46

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 47 of 74 Page ID #:47

1

Ohio order is attached hereto as EXHIBIT R and incorporated herein. Ohio’s order

2

likewise states that the stay at home mandate “does not apply to religious facilities,

3

entities and groups and religious gatherings.”

4

132. The State of Illinois, though initially one of the strictest states on religious

5

gatherings, completely eliminated all restrictions on religious gatherings due to various

6

lawsuits and challenges to its draconian measures. A true and correct copy of the Illinois

7

Order removing all restrictions on religious worship is attached hereto as EXHIBIT S

8

and incorporated herein.

9

133. The State of Florida has issued stay-at-home executive orders and required

10

the closure of all so-called “non-essential” businesses without unnecessarily

11

discriminating against religious gatherings. On April 1, 2020, Florida Governor Ron

12

DeSantis issued Executive Order 20-91, which included “religious services conducted in

13

churches, synagogues, and houses of worship” as essential activities permitted to

14

continue subject to social distancing and personal hygiene guidelines. A true and correct

15

copy of Florida Executive Order 20-91 is attached hereto as EXHIBIT T and

16

incorporated herein.

17

134. The State of Arizona, in Executive Order 2020-18, classified “[e]ngaging in

18

constitutionally protected activities such as speech and religion” as essential activities,

19

subject to a flexible requirement that such engagement be “conducted in a manner that

20

provides appropriate physical distancing to the extent feasible.” The Arizona Attorney

21

General, in Opinion I20-008, interpreted such essential activities clearly to include

22

assembling for religious worship. True and correct copies of Arizona Executive Order

23
24

47

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 48 of 74 Page ID #:48

1

2020-18 and Arizona Attorney General Opinion I20 008 are attached hereto as

2

EXHIBIT U and EXHIBIT V, respectively, and incorporated herein.

3

135. The State of Texas has likewise issued certain COVID-19 orders, but has

4

provided explicit protections to religious gatherings and issued directives outlining the

5

protection for religious freedom, even in these times of uncertainty. A true and correct

6

copy of the Texas Guidance for Houses of Worship is attached hereto as EXHIBIT W

7

and incorporated herein. In that Guidance, Texas notes that religious assemblies and

8

houses of worship are “essential services” and that in-person gatherings are permissible

9

if social distancing and personal hygiene practices are followed.

10

136. Numerous other states have similarly permitted religious gatherings to be

11

treated equally with non-religious gatherings, and have exempted them altogether from

12

the restrictions being placed on their constitutionally protected exercise of religion.

13

137. As these other states have demonstrated, Governor Newsom can continue to

14

pursue the State’s objective of preventing the spread of COVID-19 without unnecessarily

15

treating religious gatherings in a discriminatory manner, and the State has numerous

16

other, less restrictive alternatives available to it to do so.

17
18

138. Governor Newsom has neither tried without success nor considered and ruled
out for good reason these less restrictive alternatives.

19

139. Governor Newsom has constitutionally permissible alternatives available,

20

but has failed to attempt to achieve the State’s purported goals without unnecessarily

21

interfering with constitutionally protected activities.

22
23
24

48

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 49 of 74 Page ID #:49

1
2

H.

IRREPRABLE
INJURY
TO
PLAINTIFFS
FROM
THE
GOVERNOR’S ORDERS AND SELECTIVE ENFORCEMENT.

3

140. Despite being willing and capable of following all social distancing and

4

personal hygiene protocols recommended by the CDC and specified in the Governor’s

5

orders, Plaintiffs have been explicitly targeted, singled out, and threatened with criminal

6

sanction for participating in in-person religious gatherings when exempted “Essential”

7

businesses and non-religious activities, and ostensibly prohibited mass protests with no

8

social distancing whatsoever, may accommodate gatherings, crowds, and masses of

9

people without numeric limitation, and without scrutiny or punishment by the

10

government.

11

141. As a result of the Governor’s orders, and blatantly selective enforcement of

12

his orders, Plaintiffs have suffered and are suffering irreparable injury from the weight

13

and threat of criminal enforcement of the Governor’s orders against their churches,

14

pastors, and worship attendees for merely engaging in responsibly distanced and

15

sanitized religious worship services in the counties where indoor religious worship

16

services are completely prohibited.

17

142. As a result of the Governor’s orders, and blatantly selective enforcement of

18

his orders, Plaintiffs have suffered and are suffering irreparable injury from the weight

19

and threat of criminal enforcement of the Governor’s orders against their churches,

20

pastors, and worship attendees for merely engaging in responsibly distanced and

21

sanitized religious worship services involving more than 100 people or 25% of each

22

church’s building capacity in the counties where indoor religious worship services are

23
24

49

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 50 of 74 Page ID #:50

1

permitted but numerically restricted, regardless of whether their church buildings can

2

accommodate such higher numbers while maintaining distancing.

3

143. As a result of the Governor’s orders, and blatantly selective enforcement of

4

his orders, Plaintiffs have suffered and are suffering irreparable injury from the weight

5

and threat of criminal enforcement of the Governor’s orders against their churches,

6

pastors, and worship attendees for merely engaging in responsibly distanced and

7

sanitized religious worship services involving singing or chanting in the counties where

8

indoor religious worship services are permitted but singing and chanting are prohibited.

9

144. As a result of the Governor’s order, Plaintiffs have suffered and are suffering

10

irreparable injury from being prohibited from engaging in their constitutionally protected

11

rights of free exercise, assembly, and speech.

12

145. As a result of the Governor’s orders, Plaintiffs have suffered and are

13

suffering irreparable injury from the infringement of their constitutionally protected right

14

to be free from government hostility toward religion.

15

146. As a result of the Governor’s orders, Plaintiffs have suffered and are

16

suffering irreparable injury from the infringement of their constitutionally protected

17

rights to be free from excessive government entanglement with how Plaintiffs are

18

permitted to engage in their religious exercise, what religious services Plaintiffs may

19

offer to their members and the community, and what religious practices Plaintiffs may

20

engage in during the worship services the Governor has permitted in certain counties in

21

California.

22

147. As a result of the Governor’s orders, Plaintiffs have suffered and are

23

suffering irreparable injury by the continuing threat of criminal sanctions against their

24

50

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 51 of 74 Page ID #:51

1

churches, pastors, and congregants for merely exercising their constitutionally protected

2

freedoms.

3

148. Due to the explicit threats of the Governor’s orders, Plaintiffs have been

4

forced to self-censor, cease their religious worship services, cease certain vital practices

5

in their religious services, and violate their sincerely held religious beliefs.

6

149. As a result of the Governor’s orders, Plaintiffs have been forced to conduct

7

their religious worship services (in counties where it is even permissible to have a

8

worship service) in a manner prescribed by the government, which has told them how

9

they may worship and prohibited them from singing and chanting which are a critical

10

parts of Plaintiffs’ religious exercise.

11

150. As a result of the Governor’s orders, Plaintiffs have been prohibited from

12

engaging in the critical ministries of home group Bible studies and programs because the

13

Governor’s orders prohibit them from leaving their homes for such gatherings.

14

I.

15

PLAINTIFFS’ ATTEMPTS TO SECURE RELIEF WITHOUT
JUDICIAL INTERVENTION WERE IGNORED AND FURTHER
ATTEMPTS TO OBTAIN SUCH RELIEF WOULD BE FUTILE.

16

151. On July 16, 2020, prior to the commencement of the instant action, Plaintiffs’

17

counsel sent by e-mail a demand letter to Governor Newsom in which Plaintiffs’ counsel

18

demanded, by 12:00 P.M. on July 17, written confirmation that the Governor has

19

withdrawn the prohibitions and restrictions on religious gatherings embodied in the

20

Governor’s orders, will allow individuals to attend religious worship services at

21

Plaintiffs’ churches on equal terms as Californians are allowed to work at and patronize

22

“Essential” businesses and non-religious operations provided certain social distancing

23

and personal hygiene practices are followed, will cease demanding Plaintiffs’ churches

24

51

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 52 of 74 Page ID #:52

1

conform their worship services to only those activities the Governor has approved, and

2

will cease enforcement of any church gathering ban against members or attendees of

3

Plaintiffs’ worship services. A true and correct copy of the demand letter is attached

4

hereto as EXHIBIT X.

5

152. The Governor responded to Plaintiffs’ demand letter, through the Office of

6

the California Attorney General, by letter dated July 17, 2020, in which the Governor

7

refused to withdraw any of his current prohibitions or restrictions on indoor worship. A

8

true and correct copy of the Governor’s response is attached hereto as EXHIBIT Y.

9

153. Governor Newsom’s refusal to withdraw his discriminatory religious

10

worship prohibitions and restrictions shows that Plaintiffs’ irreparable injury to their

11

constitutionally protected freedoms is ongoing.

12

154. Governor Newsom’s flat refusal to withdraw his discriminatory religious

13

worship prohibitions and restrictions also shows that notice and an opportunity to

14

respond to this lawsuit would be futile prior to this Sunday’s worship services at

15

Plaintiffs’ churches, which must proceed, if at all, under the weight and threat of criminal

16

enforcement of the Governor’s orders against Plaintiffs’ churches, pastors, and attendees

17

absent a TRO from this Court.

18
19
20
21
22

CONSTITUTIONAL CLAIMS
COUNT 1 – THE GOVERNOR’S ORDERS VIOLATE
PLAINTIFFS’ RIGHTS TO FREE EXERCISE OF RELIGION
UNDER THE FIRST AMENDMENT
155. Plaintiffs hereby reallege and adopt each and every allegation in paragraphs
1–154 above.

23
24

52

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 53 of 74 Page ID #:53

1

156. The Free Exercise Clause of the First Amendment to the United States

2

Constitution, as applied to the states by the Fourteenth Amendment, prohibits the State

3

from abridging Plaintiffs’ rights to free exercise of religion.

4

157. Plaintiffs have and exercise sincere religious beliefs that Scripture is the

5

infallible, inerrant word of the Lord Jesus Christ, and that they are to follow its teachings.

6

158. Plaintiffs have and exercise sincere religious beliefs, rooted in Scripture’s

7

commands (e.g., Hebrews 10:25), that followers of Jesus Christ are not to forsake the

8

assembling of themselves together, and that they are to do so even more in times of peril

9

and crisis. Indeed, the entire purpose of the Church (in Greek “ekklesia,” meaning

10

“assembly”) is to assemble together Christians to worship Almighty God.

11

159. Plaintiffs and their churches all have and exercise sincere religious beliefs

12

that they are to “sing to the LORD” and “[d]eclare his glory among the nations.” Psalm

13

96:1–2 (ESV).

14

160. Plaintiffs and their churches all have and exercise sincere religious beliefs

15

that they are to “make a joyful noise” to the Lord, Psalm 95:1 (ESV), through singing

16

and chanting His praises.

17
18

161. Plaintiffs and their churches all have and exercise sincere religious beliefs
that they are to “sing to the LORD as long as I live.” Psalm 104:33 (ESV).

19

162. Plaintiffs and their churches all have and exercise sincere religious beliefs

20

that not only are they to sing to the Lord, also to “declare [His] name unto my brethren,”

21

and that “in the midst of the church will [they] sing praise” to the Lord. Hebrews 2:12

22

(KJV) (emphasis added).

23
24

53

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 54 of 74 Page ID #:54

1

163. Plaintiffs and their churches all have and exercise sincere religious beliefs

2

that, in the current times of trouble and distress, they are to sing to the Lord even more

3

and to sing aloud to Him. See Psalm 59:16 (ESV) (“I will sing aloud of your steadfast

4

love in the morning. For you have been to me a fortress and a refuge in the day of my

5

distress.”).

6

164. Plaintiffs and their churches all have and exercise sincere religious beliefs

7

that they are to chant and shout to the Lord as well. See Psalm 33:3 (ESV) (“Sing to him

8

a new song; play skillfully on the strings, with loud shouts.” (emphasis added)).

9

165. The Governor’s orders, on their face and as applied, target Plaintiffs’

10

sincerely held religious beliefs by prohibiting or numerically restricting religious

11

gatherings, by prohibiting singing and chanting in counties where religious worship

12

services are permitted, and by imposing government-mandated restrictions on the types

13

of religious activity Plaintiffs may exercise in their own buildings.

14

166. The Governor’s orders, on their face and as applied, impermissibly burden

15

Plaintiffs’ sincerely held religious beliefs, compel Plaintiffs to either change those beliefs

16

or to act in contradiction to them, and force Plaintiffs to choose between the teachings

17

and requirements of their sincerely held religious beliefs in the commands of Scripture

18

and the State’s imposed value system.

19

167. The Governor’s orders, on their face and as applied, place Plaintiffs in an

20

irresolvable conflict between compliance with the Governor’s orders and their sincerely

21

held religious beliefs.

22
23
24

54

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 55 of 74 Page ID #:55

1

168. The Governor’s orders, on their face and as applied, put substantial pressure

2

on Plaintiffs to violate their sincerely held religious beliefs by ignoring the fundamental

3

teachings and tenets of Scripture concerning the assembling of believers.

4

169. The Governor’s orders, on their face and as applied, are neither neutral nor

5

generally applicable, but rather specifically and discriminatorily target the religious

6

beliefs, speech, assembly, and viewpoint of Plaintiffs.

7

170. By treating mass gatherings of thousands of protesters differently from

8

religious gatherings of substantially smaller numbers, the Governor has demonstrated his

9

orders are not neutral.

10

171. By treating mass gatherings of thousands of protesters differently from

11

religious gatherings of substantially smaller numbers, the Governor has demonstrated his

12

orders are not generally applicable.

13

172. By treating mass gatherings of thousands of protesters differently from

14

religious gatherings of substantially smaller numbers, the Governor has demonstrated his

15

orders create a system of individualized exemptions based upon the value the Governor

16

places on religious and other activities being engaged in by residents of California.

17

173. By treating mass gatherings of thousands of protesters differently from

18

religious gatherings of substantially smaller numbers, the Governor has demonstrated his

19

orders create a religious gerrymander of based upon the value judgments of the Governor.

20

174. By treating mass gatherings of thousands of protesters differently from

21

religious gatherings of substantially smaller numbers, the Governor has demonstrated his

22

orders are not being generally applied within California.

23
24

55

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 56 of 74 Page ID #:56

1

175. By permitting mass gatherings of thousands of protesters on more favorable

2

terms than small religious gatherings comprising Plaintiffs’ life groups and in-home

3

Bible studies, the Governor has demonstrated that his orders impose substantially more

4

burdensome restrictions on religious gatherings than on his approved non-religious

5

gatherings.

6
7

176. The Governor’s orders, on their face and as applied, constitute a substantial
burden on Plaintiffs’ sincerely held religious beliefs.

8

177. By prohibiting Plaintiffs’ Churches from gathering at all (in some counties),

9

from gathering without adherence to certain numerical limitations (in other counties),

10

and from engaging in certain religious activities that are not approved by the Governor,

11

the Governor has imposed an unconscionable and unconstitutional burden on Plaintiffs’

12

religious exercise according to their sincerely held beliefs.

13

178. The State lacks a compelling, legitimate, or rational interest in the

14

Governor’s orders’ application of different standards for churches and religious

15

gatherings than those applicable to exempted businesses, non-religious entities, and

16

protesters.

17

179. The State lacks even a rational basis to impose disparate treatment on

18

Plaintiffs’ permissible services (such as feeding, clothing, housing, and providing other

19

necessities of life without numerical limitation) and its impermissible religious worship

20

services (such as singing, chanting, and gathering together indoors for worship services)

21

that all occur in the same building.

22

180. The Governor cannot claim a compelling, legitimate, or even rational interest

23

in his orders when he has permitted and encouraged mass gatherings of thousands of

24

56

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 57 of 74 Page ID #:57

1

protesters to engage in the very activity he claims poses a massive danger to California

2

if it takes place in Plaintiffs’ churches, as that leaves an appreciable amount of purported

3

damaged unrestricted.

4

181. Even if the Governor’s orders were supported by a compelling, legitimate,

5

or even rational interest, they are not the least restrictive means or otherwise narrowly

6

tailored to accomplish the government’s purported interest.

7
8

182. The Governor’s orders, on their face and as applied, fail to accommodate
Plaintiffs’ religious exercise according to their sincerely held beliefs.

9

183. The Governor’s orders, on their face and as applied, specifically target

10

Plaintiffs’ religious exercise according to their sincerely held beliefs and set up a system

11

of individualized exemptions that permits certain other similarly situated businesses or

12

non-religious entities to continue operations under certain guidelines while prohibiting

13

religious gatherings, such as Plaintiffs’ church and worship services, from operating with

14

similar guidelines.

15

184. The Governor’s orders also set up a system of individualized exemptions by

16

specifically permitting protesters to gather in massive numbers (sometimes thousands)

17

without threat of criminal sanction or penalty while imposing draconian prohibitions on

18

religious gatherings in Plaintiffs’ churches.

19
20

185. The Governor’s orders, on their face and as applied, constitute an express
and overt religious gerrymander.

21

186. The Governor’s orders, on their face and as applied, have caused, are

22

causing, and will continue to cause Plaintiffs immediate and irreparable harm, and actual

23

and undue hardship.

24

57

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 58 of 74 Page ID #:58

1
2
3
4

187. Plaintiffs have no adequate remedy at law to correct the continuing
deprivation of their most cherished liberties.
WHEREFORE, Plaintiffs respectfully pray for relief against the State as hereinafter
set forth in their prayer for relief.

5
6

COUNT II – THE GOVERNOR’S ORDERS VIOLATE
PLAINTIFFS’ RIGHTS TO PEACEABLE ASSEMBLY
UNDER THE FIRST AMENDMENT

7

188. Plaintiffs hereby reallege and adopt each and every allegation in paragraphs

8

1–154 above.

9

189. The First Amendment to the United States Constitution, as applied to the

10

states by the Fourteenth Amendment, prohibits the State from abridging the right of the

11

people peaceably to assemble.

12
13
14
15
16
17

190. The Governor’s orders, on their face and as applied, are an unconstitutional
prior restraint on Plaintiffs’ right to assemble.
191. The Governor’s orders, on their face and as applied, unconstitutionally
discriminate against Plaintiffs’ assembly on the basis of viewpoint.
192. The Governor’s orders, on their face and as applied, unconstitutionally
discriminate against Plaintiffs’ assembly on the basis of content.

18

193. By specifically permitting and encouraging protesters expressing particular

19

content of a particular viewpoint while prohibiting the religious content of Plaintiffs’

20

worship services, the Governor has discriminated against Plaintiffs’ assembly on the

21

basis of content and viewpoint.

22

194. The State lacks a compelling, legitimate, or rational interest in the

23

Governor’s orders’ application of differential standards for churches and religious

24

58

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 59 of 74 Page ID #:59

1

gatherings than those applicable to exempted businesses, non-religious entities, and

2

protesters.

3

195. The Governor’s orders, on their face and as applied, are not the least

4

restrictive means to accomplish any permissible government purpose sought to be served

5

by the orders.

6
7
8
9

196. The Governor’s orders, on their face and as applied, are not narrowly tailored
to serve the government’s purported interest in the orders.
197. The Governor’s orders, on their face and as applied, do not leave open ample
alternative channels of communication for Plaintiffs.

10

198. The Governor’s orders, on their face and as applied, are irrational and

11

unreasonable and impose unjustifiable and unreasonable restrictions on Plaintiffs’

12

constitutionally protected right to assemble.

13

199. The Governor’s orders, on their face and as applied, impermissibly vest

14

unbridled discretion in the hands of government officials, including Governor Newsom

15

and his designees, to apply or not apply the Governor’s orders in a manner to restrict free

16

assembly.

17

200. The Governor’s favorably disparate treatment of protesters who engaged in

18

assemblies of thousands without criminal sanction and at the express encouragement of

19

the Governor demonstrates that he has unbridled discretion to apply or not apply his

20

orders as he sees fit.

21

201. The Governor’s orders, on their face and as applied, are underinclusive by

22

limiting the gathering prohibitions and restrictions to only religious activities and other

23

activities deemed not “Essential.”

24

59

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 60 of 74 Page ID #:60

1
2

202. The Governor’s orders, on their face and as applied, are unconstitutionally
vague and overbroad as they chill and abridge the free assembly rights of Plaintiffs.

3

203. On their face and as applied, the Governor’s orders violate Plaintiffs’ rights

4

to free assembly and have caused, are causing, and will continue to cause Plaintiffs to

5

suffer immediate and irreparable injury and undue and actual hardship.

6
7
8
9
10
11
12
13

204. Plaintiffs have no adequate remedy at law to correct the continuing
deprivation of their most cherished liberties.
WHEREFORE, Plaintiffs respectfully pray for the relief against the State as
hereinafter set forth in their prayer for relief.
COUNT III – THE GOVERNOR’S ORDERS VIOLATE
PLAINTIFFS’ RIGHTS TO FREEDOM OF SPEECH
UNDER THE FIRST AMENDMENT
205. Plaintiffs hereby reallege and adopt each and every allegation in paragraphs
1–154 above.

14

206. The Free Speech Clause of the First Amendment to the United States

15

Constitution, as applied to the states by the Fourteenth Amendment, prohibits the State

16

from abridging Plaintiffs’ freedom of speech.

17
18
19
20
21
22

207. The Governor’s orders, on their face and as applied, are an unconstitutional
prior restraint on Plaintiffs’ right to free speech.
208. The Governor’s orders, on their face and as applied, unconstitutionally
discriminate against Plaintiffs’ speech on the basis of viewpoint.
209. The Governor’s orders, on their face and as applied, unconstitutionally
discriminate against Plaintiffs’ speech on the basis of content.

23
24

60

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 61 of 74 Page ID #:61

1

210. By specifically permitting and encouraging protesters expressing particular

2

content of a particular viewpoint while prohibiting the religious content of Plaintiffs’

3

worship services, the Governor has unquestionably discriminated against Plaintiffs’

4

speech on the basis of content and viewpoint.

5

211. The State lacks a compelling, legitimate, or rational interest in the

6

Governor’s orders’ application of differential standards for churches and religious

7

gatherings than those applicable to exempted businesses, non-religious entities, and

8

protesters.

9

212. The Governor’s orders, on their face and as applied, are not the least

10

restrictive means to accomplish any permissible government purpose sought to be served

11

by the orders.

12
13
14
15

213. The Governor’s orders, on their face and as applied, are not narrowly tailored
to serve the government’s purported interest.
214. The Governor’s orders, on their face and as applied, do not leave open ample
alternative channels of communication for Plaintiffs.

16

215. The Governor’s orders, on their face and as applied, are irrational and

17

unreasonable and impose unjustifiable and unreasonable restrictions on Plaintiffs’

18

constitutionally protected right to free speech.

19

216. The Governor’s orders, on their face and as applied, impermissibly vest

20

unbridled discretion in the hands of government officials, including Governor Newsom

21

and his designees, to apply or not apply the Governor’s orders in a manner to restrict free

22

speech.

23
24

61

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 62 of 74 Page ID #:62

1

217. The Governor’s favorably disparate treatment of protesters who engaged in

2

assemblies of thousands without criminal sanction and at the express encouragement of

3

the Governor demonstrates that he has unbridled discretion to apply or not apply his

4

orders as he sees fit.

5

218. The Governor’s orders, on their face and as applied, are underinclusive by

6

limiting the gathering prohibitions and restrictions to only religious activities and other

7

activities deemed not “Essential.”

8
9

219. The Governor’s orders, on their face and as applied, are unconstitutionally
vague and overbroad as they chill and abridge the free speech rights of Plaintiffs.

10

220. On their face and as applied, the Governor’s orders violate Plaintiffs’ right

11

to free speech and have caused, are causing, and will continue to cause Plaintiffs to suffer

12

immediate and irreparable injury and undue and actual hardship.

13
14
15
16
17
18
19
20

221. Plaintiffs have no adequate remedy at law to correct the continuing
deprivation of their most cherished liberties.
WHEREFORE, Plaintiffs respectfully pray for the relief against the State as
hereinafter set forth in their prayer for relief.
COUNT IV – THE GOVERNOR’S ORDERS VIOLATE
PLAINTIFFS’ RIGHTS UNDER THE ESTABLISHMENT CLAUSE
OF THE FIRST AMENDMENT
222. Plaintiffs hereby reallege and adopt each and every allegation in paragraphs
1–154 above.

21

223. The Establishment Clause of the First Amendment to the United States

22

Constitution, as applied to the states by the Fourteenth Amendment, prohibits the

23

government from establishing a religion.

24

62

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 63 of 74 Page ID #:63

1
2

224. The Establishment Clause also prohibits excessive government entanglement
with religion.

3

225. The Establishment Clause also prohibits the government from showing

4

hostility towards religion and prohibits showing favoritism towards one religious sect

5

over another or between non-religion and religion.

6

226. The government-mandated prohibitions and restrictions on religious

7

gatherings in the Governor’s orders violates the Establishment Clause because the State

8

of California thereby dictates the manner in which Christians and churches must worship

9

or whether they may worship at all.

10

227. The Establishment Clause does not permit the State of California to dictate

11

under penalty of criminal sanctions the manner, style, form, practices, or sacraments of

12

religious worship and thereby impose its own version of religious worship on every

13

church and citizen of the State.

14

228. The State, through Governor Newsom’s Orders, is purporting to prescribe

15

what shall be orthodox in matters of religious worship, and is thus running roughshod

16

over the Establishment Clause. See W. Va. State Bd. of Educ. v. Barnette, 319 U.S. 624,

17

642 (1943) (“If there is any fixed star in our constitutional constellation, it is that no

18

official, high or petty, can prescribe what shall be orthodox in politics, nationalism,

19

religion, or other matters of opinion or force citizens to confess by word or act their faith

20

therein.” (emphasis added)).

21

229. The Governor’s prohibition on singing and chanting during a religious

22

worship service is an impermissible prescription for what shall be orthodox in matters of

23

worship and religious belief.

24

63

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 64 of 74 Page ID #:64

1

230. The Governor’s prohibition on in-home Bible studies, in-home life groups,

2

and in-home worship services is an impermissible prescription for what shall be orthodox

3

in matters of worship and religious belief. The Governor may not dictate how individuals

4

gather together to worship the Lord, express their faith, minister to one another, and

5

exercise their religious faith.

6
7

231. The Governor’s orders, on their face and as applied, display and permit
government officials to display impermissible hostility towards religious gatherings.

8

232. The Governor’s orders, on their face and as applied, have permitted singing

9

and chanting by mass gatherings of protesters while imposing a total ban on singing or

10

chanting during religious worship services.

11

233. The Governor’s orders, on their face and as applied, impermissibly show

12

favoritism towards certain non-religious gatherings, such as protests, over religious

13

gatherings.

14

234. The Governor’s express statements of support and encouragement of

15

protesters while imposing draconian prohibitions and restrictions on Plaintiffs’ worship

16

services demonstrates the unquestionable government hostility toward Plaintiffs’

17

religious gatherings and worship services.

18
19

235. The Governor’s orders, on their face and as applied, violate the
Establishment Clause because they excessively entangle the government with religion.

20

236. By setting up a system of permissible religious activities in Plaintiffs’ church

21

buildings (providing food, shelter, clothing, or other necessities of life without numerical

22

restriction) and impermissible religious activities in a worship service (gathering in any

23

number or above a certain number for a service, singing, and chanting), the Governor

24

64

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 65 of 74 Page ID #:65

1

has excessively entangled California with religious beliefs, teachings, and doctrine on

2

proper expressions of faith in worship.

3

237. By setting up a system whereby thousands of individuals may gather to sing

4

and chant in protest without threat of criminal sanction while smaller groups of religious

5

adherents cannot gather to sing and chant as religious worship, whether in church or in

6

in-home worship services, Bible studies, or life groups, the Governor has excessively

7

entangled California with religious beliefs, teachings, and doctrine on proper expressions

8

of faith.

9

238. The Governor’s orders, on their face and as applied, purport to inform

10

religious adherents and believers how they may choose to worship, assemble together,

11

or exercise their religious freedoms.

12

239. The Governor’s orders, on their face and as applied, purport to establish an

13

acceptable method of religious practice and worship, place a numerical limitation on the

14

scope of how such religious practice and worship may occur, and provide a government

15

imprimatur for only certain forms of “permissible” worship.

16

240. The Governor’s orders, on their face and as applied, demonstrate overt

17

hostility to religious practice and worship that does not conform to government

18

sanctioned religious exercises.

19

241. By explicitly and publicly stating his belief that it was impossible for

20

protesters to stay home instead of marching together by the thousands while continuing

21

to call religious gatherings non-essential and impermissible, the Governor has

22

demonstrated hostility towards those religious adherents that believe it is impossible and

23

sinful for them to forsake the assembling of themselves together for worship.

24

65

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 66 of 74 Page ID #:66

1

242. The Governor’s orders, on their face and as applied, have caused, are

2

causing, and will continue to cause Plaintiffs immediate and irreparable harm, and actual

3

and undue hardship.

4
5
6
7

243. Plaintiffs have no adequate remedy at law to correct the continuing
deprivation of their most cherished constitutional liberties.
WHEREFORE, Plaintiffs respectfully pray for the relief against the State as
hereinafter set forth in their prayer for relief.

8

COUNT V – THE GOVERNOR’S ORDERS VIOLATE
PLAINTIFFS’ RIGHTS TO EQUAL PROTECTION
UNDER THE FOURTEENTH AMENDMENT

9
10
11
12
13

244. Plaintiffs hereby reallege and adopt each and every allegation in paragraphs
1–154 above.
245. The Fourteenth Amendment to the United States Constitution guarantees
Plaintiffs the right to equal protection under the law.

14

246. The Governor’s orders, on their face and as applied, are an unconstitutional

15

abridgement of Plaintiffs’ right to equal protection under the law, are not neutral, and

16

specifically target Plaintiffs’ and other religious gatherings for unequal treatment.

17

247. The Governor’s orders, on their face and as applied, are an unconstitutional

18

abridgment of Plaintiffs’ right to equal protection because they permit the State to treat

19

Plaintiffs differently from other similarly situated businesses, non-religious entities, and

20

protesters on the basis of the religious content and viewpoint of Plaintiffs’ gatherings.

21

248. The Governor’s orders create a system of exempt categories that permit

22

“Essential” businesses and activities, and protesters, to gather without restriction or threat

23
24

66

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 67 of 74 Page ID #:67

1

of criminal penalty while imposing disparate treatment on Plaintiffs’ religious worship

2

services.

3

249. By explicitly and publicly declaring support for mass gatherings of protesters

4

in flagrant violation of his own orders and asking that hey continue, while at the same

5

time imposing draconian prohibitions on Plaintiffs’ religious worship services, the

6

Governor has created a class of prohibited gatherings without any rational, legitimate,

7

significant, or compelling interest.

8
9
10
11

250. The Governor’s system of categories represents disparate treatment based
upon classifications in violation equal protection.
251. The Governor’s orders, on their face and as applied, impermissibly
discriminate between certain non-religious gatherings and religious gatherings.

12

252. The State lacks a compelling, significant, legitimate, or rational interest in

13

the Governor’s orders’ application of different standards for churches and religious

14

gatherings from those applicable to exempted businesses, non-religious activities, and

15

protesters.

16

253. The Governor’s orders, on their face and as applied, are not the least

17

restrictive means to accomplish any permissible government purpose sought to be

18

served.

19
20

254. The Governor’s orders, on their face and as applied, do not have a rational
basis.

21

255. The Governor’s orders, on their face and as applied, are irrational and

22

unjustifiable and impose irrational and unjustifiable restrictions on Plaintiffs’ religious

23

gatherings.

24

67

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 68 of 74 Page ID #:68

1

256. The Governor’s orders, on their face and as applied, have caused, are

2

causing, and will continue to cause Plaintiffs immediate and irreparable harm, and actual

3

and undue hardship.

4
5
6
7
8
9
10
11
12
13

257. Plaintiffs have no adequate remedy at law to correct the continuing
deprivation of their most cherished liberties.
WHEREFORE, Plaintiffs respectfully pray for relief against the State as hereinafter
set forth in their prayer for relief.
COUNT VI – THE GOVERNOR’S ORDERS VIOLATE
THE GUARANTEE CLAUSE OF ARTICLE IV, SECTION 4
OF THE UNITED STATES CONSTITUTION
258. Plaintiffs hereby reallege and adopt each and every allegation in paragraphs
1–154 above.
259. Article IV, § 4 of the United States Constitution requires the United States to
guarantee to every citizen in the nation a republican form of government.

14

260. The Guarantee Clause’s distinguishing feature is that the republican form of

15

government it guarantees is the right of the people to choose their own governmental

16

administration and pass their own laws.

17

261. As interpreted by the federal judiciary and prominent scholars, the Guarantee

18

Clause mandates that the federal government guarantee a form of government for all

19

citizens in which supreme power resides in a body of citizens entitled to vote and

20

exercised by elected officers responsible to such citizens.

21

262. The Governor’s orders’ express, unilateral, and unequivocal exercises of

22

purported executive authority over the constitutional rights of Plaintiffs deprive Plaintiffs

23

of the right to select their own government administration, pass their own laws, and

24

68

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 69 of 74 Page ID #:69

1

maintain a government administration directly responsible to the people, including by

2

laws that are enacted by the legislature in constitutional recognition of the separation of

3

powers.

4

263. The impermissible exercise of exclusive and unaccountable executive

5

authority—in perpetuity—violates the Guarantee Clause of the United States

6

Constitution.

7

264. The Governor’s orders, on their face and as applied, have caused, are

8

causing, and will continue to cause Plaintiffs immediate and irreparable harm, and actual

9

and undue hardship.

10
11
12
13

265. Plaintiffs have no adequate remedy at law to correct the continuing
deprivation of their most cherished liberties.
WHEREFORE, Plaintiffs respectfully pray for the relief against the State as
hereinafter set forth in their prayer for relief.

14

PRAYER FOR RELIEF

15

WHEREFORE, Plaintiffs pray for relief as follows:

16

A.

That the Court issue a temporary restraining order, restraining and enjoining

17

Governor Newsom, all State officers, agents, employees, attorneys, and all other persons

18

in active concert or participation with them, from enforcing, attempting to enforce,

19

threatening to enforce, or otherwise requiring compliance with the Governor’s orders or

20

any other future order to the extent any such order prohibits Plaintiffs’ religious worship

21

services and imposes prohibitions on singing, chanting, and other forms of worship in

22

which such religious services may be conducted, or imposing any other restrictions on

23

in-person worship services at Plaintiffs’ churches if Plaintiffs meet the social distancing,

24

69

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 70 of 74 Page ID #:70

1

enhanced sanitization, and personal hygiene guidelines otherwise acceptable at so-called

2

“Essential” businesses and operations. To be clear, Plaintiffs do not seek a complete

3

exemption from social distancing or personal hygiene protocols which the Governor has

4

effectively granted to mass gatherings of protesters, even though the Constitution

5

demands equal treatment; rather, Plaintiffs merely seek a TRO preventing Plaintiffs,

6

their pastors, and their congregants from being subject to criminal sanctions for

7

participating in indoor worship services this Sunday, or singing or chanting therein,

8

during which Plaintiffs will implement social distancing and hygiene protections on

9

an equal basis with permitted non-religious gatherings.

10

B.

That the Court issue a preliminary injunction pending trial, and a permanent

11

injunction upon judgment, restraining and enjoining Governor Newsom, all State

12

officers, agents, employees, attorneys, and all other persons in active concert or

13

participation with them, from enforcing the Governor’s orders so that:

14

i.

The State will not apply the Governor’s orders in any manner as to

15

infringe Plaintiffs constitutional rights by discriminating against their right to

16

assembly, speech, free exercise of religion, equal protection, and all other

17

constitutional rights outlined herein;

18

ii.

The State will apply the Governor’s orders in a manner that treats

19

Plaintiffs’ religious gatherings on equal terms as gatherings for or in so-called

20

“Essential” businesses or non-religious activities that are not subject to the

21

prohibitions in the Governor’s orders;

22
23

iii.

The State will permit religious gatherings so long as they comply with

the same social distancing and personal hygiene recommendations pursuant to

24

70

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 71 of 74 Page ID #:71

1

which the State allows so-called “ Essential” businesses and non-religious activities

2

to accommodate gatherings of persons without numerical limit under the

3

Governor’s orders;
iv.

4

The State will permit Plaintiffs the opportunity to comport their

5

behavior to any further limitations or restrictions that the State may impose in any

6

future modification, revision, or amendment of the Governor’s orders or similar

7

legal directive;

8

v.

9

The State will cease threatening criminal violations against Plaintiffs’

churches, pastors, and congregants; and
vii.

10

The State will not bring any criminal, public health, or other

11

enforcement actions against Plaintiffs as threatened in the Governor’s orders and

12

public statements.

13

C.

That the Court enter a declaratory judgment declaring that the Governor’s

14

orders, both on their face and as applied, are unconstitutional under the United States

15

Constitution, and further declaring that:

16
17
18
19
20

i.

The State has violated Plaintiffs rights to freedom of assembly by

impermissibly prohibiting and restricting religious gatherings;
ii.

The State has violated Plaintiffs rights to freedom of speech by

impermissibly prohibiting and restricting religious gatherings;
iii.

The State has violated Plaintiffs rights to free exercise of religion by

21

impermissibly prohibiting and restricting religious gatherings, by substantially

22

burdening their religious exercise according to their sincerely held beliefs, by

23

applying gathering criteria that are neither neutral nor generally applicable as to

24

71

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 72 of 74 Page ID #:72

1

religious and non-religious gatherings, by establishing a religious gerrymander

2

against religious worship gatherings, by establishing a system of individualized

3

exemptions that exclude similarly situated non-religious gatherings from the

4

prohibitions and restrictions applicable to Plaintiffs’ religious worship gatherings,

5

and by imposing government directives on the manner in which Plaintiffs may

6

conduct religious worship services, such as prohibiting singing and chanting;
iv.

7

The State has violated Plaintiffs’ rights to equal protection of the laws

8

by impermissibly prohibiting religious gatherings, and by applying criteria that

9

treats religious gatherings in a discriminatory and dissimilar manner as that applied

10

to various non-religious gatherings and protesters, rioters, and looters;
v.

11

The State has violated the Establishment Clause by impermissibly

12

demonstrating hostility towards religious gatherings and by impermissibly showing

13

favoritism to certain non-religious gatherings, including mass protests; and
vi.

14

The Governor has violated the Guarantee Clause by impermissibly

15

exercising executive authority in an unconstitutional manner.

16

D.

17
18

That the Court award Plaintiffs nominal damages for the violation of

Plaintiffs’ constitutional rights.
E.

That the Court adjudge, decree, and declare the rights and other legal

19

relations within the subject matter here in controversy so that such declaration shall have

20

the full force and effect of final judgment.

21
22

F.

That the Court retain jurisdiction over the matter for the purposes of

enforcing the Court’s order.

23
24

72

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 73 of 74 Page ID #:73

1

G.

That the Court declare Plaintiffs are prevailing parties and award Plaintiffs

2

the reasonable costs and expenses of this action, including a reasonable attorney’s fee, in

3

accordance with 42 U.S.C. § 1988.

4
5
6

H.

That the Court grant such other and further relief as the Court deems

equitable and just under the circumstances.
Respectfully submitted,

7
8
9
10
11
12
13
14
15
16
17

/s/ Nicolai Cocis
Nicolai Cocis, CA Bar No. 204703
nic@cocislaw.com
Law Office of Nicolai Cocis
25026 Las Brisas Road
Murrieta, CA 92562
Phone/Facsimile: (951) 695-1400

/s/ Daniel J. Schmid
Mathew D. Staver*
court@LC.org
Horatio G. Mihet*
hmihet@LC.org
Roger K Gannam*
rganname@LC.org
Daniel J. Schmid*
dschmid@LC.org
LIBERTY COUNSEL
P.O. Box 540774
Orlando, FL 328854
Phone: (407) 875-1776
Facsimile: (407) 875-0770
*Pro Hac Vice Admission Pending

Attorneys for Plaintiffs

18
19
20
21
22
23
24

73

Case 2:20-cv-06414-JFW-PJW Document 1 Filed 07/17/20 Page 74 of 74 Page ID #:74

1
2
3
4
5
6
7
8
9
10
11

VERIFICATION
I, Che Ahn, am over the age of eighteen years and am the Pastor of Harvest Rock
Church and President of Harvest International Ministries. The statements and allegations
that pertain to me and/or Plaintiffs Harvest Rock Church or Harvest International
Ministry or which I make in this VERIFIED COMPLAINT are true and correct, and
based upon my personal knowledge (unless otherwise indicated). If called upon to testify
to their truthfulness, I would and could do so competently. I declare under penalty of
perjury, under the laws of the United States and the State of California, that the foregoing
statements are true and correct to the best of my knowledge.
Dated:

July 16, 2020
/s/ Che Ahn
Che Ahn

12
13
14
15
16
17
18
19
20
21
22
23
24

74

Case 2:20-cv-06414-JFW-PJW Document 1-1 Filed 07/17/20 Page 1 of 5 Page ID #:75

Case 2:20-cv-06414-JFW-PJW Document 1-1 Filed 07/17/20 Page 2 of 5 Page ID #:76

Case 2:20-cv-06414-JFW-PJW Document 1-1 Filed 07/17/20 Page 3 of 5 Page ID #:77

Case 2:20-cv-06414-JFW-PJW Document 1-1 Filed 07/17/20 Page 4 of 5 Page ID #:78

Case 2:20-cv-06414-JFW-PJW Document 1-1 Filed 07/17/20 Page 5 of 5 Page ID #:79

Case 2:20-cv-06414-JFW-PJW Document 1-2 Filed 07/17/20 Page 1 of 5 Page ID #:80

Case 2:20-cv-06414-JFW-PJW Document 1-2 Filed 07/17/20 Page 2 of 5 Page ID #:81

Case 2:20-cv-06414-JFW-PJW Document 1-2 Filed 07/17/20 Page 3 of 5 Page ID #:82

Case 2:20-cv-06414-JFW-PJW Document 1-2 Filed 07/17/20 Page 4 of 5 Page ID #:83

Case 2:20-cv-06414-JFW-PJW Document 1-2 Filed 07/17/20 Page 5 of 5 Page ID #:84

Case 2:20-cv-06414-JFW-PJW Document 1-3 Filed 07/17/20 Page 1 of 1 Page ID #:85

ORDER OF THE STATE PUBLIC HEALTH OFFICER
March 19, 2020
To protect public health, I as State Public Health Officer and Director of the
California Department of Public Health order all individuals living in the State of
California to stay home or at their place of residence except as needed to
maintain continuity of operations of the federal critical infrastructure sectors, as
outlined at https://www.cisa.gov/identifying-critical-infrastructure-during-covid-19.
In addition, and in consultation with the Director of the Governor's Office of
Emergency Services, I may designate additional sectors as critical in order to
protect the health and well-being of all Californians.
Pursuant to the authority under the Health and Safety Code 120125, 120140,
131080, 120130(c), 120135, 120145, 120175 and 120150, this order is to go into
effect immediately and shall stay in effect until further notice.
The federal government has identified 16 critical infrastructure sectors whose
assets, systems, and networks, whether physical or virtual, are considered so vital
to the United States that their incapacitation or destruction would have a
debilitating effect on security, economic security, public health or safety, or any
combination thereof. I order that Californians working in these 16 critical
infrastructure sectors may continue their work because of the importance of these
sectors to Californians' health and well-being.
This Order is being issued to protect the public health of Californians. The
California Department of Public Health looks to establish consistency across the
state in order to ensure that we mitigate the impact of COVID-19. Our goal is
simple, we want to bend the curve, and disrupt the spread of the virus.
The supply chain must continue, and Californians must have access to such
necessities as food, prescriptions, and health care. When people need to leave
their homes or places of residence, whether to obtain or perform the functions
above, or to otherwise facilitate authorized necessary activities, they should at all
times practice social distancing.

SONIA Y. ANGELL, MD, MPH

91 Jq/zo20

DATE

Case 2:20-cv-06414-JFW-PJW Document 1-4 Filed 07/17/20 Page 1 of 11 Page ID #:86
U.S. Department of Homeland Security
Cybersecurity & Infrastructure Security Agency
Office of the Director

Washington, DC 20528

March 19, 2020
MEMORANDUM ON IDENTIFICATION OF ESSENTIAL CRITICAL
INFRASTRUCTURE WORKERS DURING COVID-19 RESPONSE
FROM:

Christopher C. Krebs
Director
Cybersecurity and Infrastructure Security Agency (CISA)

As the Nation comes together to slow the spread of COVID-19, on March 16th, the President issued
updated Coronavirus Guidance for America. This guidance states that:
“If you work in a critical infrastructure industry, as defined by the Department of
Homeland Security, such as healthcare services and pharmaceutical and food supply, you
have a special responsibility to maintain your normal work schedule.”
The Cybersecurity and Infrastructure Security Agency (CISA) executes the Secretary of Homeland
Security’s responsibilities as assigned under the Homeland Security Act of 2002 to provide strategic
guidance, promote a national unity of effort, and coordinate the overall federal effort to ensure the
security and resilience of the Nation's critical infrastructure. CISA uses trusted partnerships with
both the public and private sectors to deliver infrastructure resilience assistance and guidance to a
broad range of partners.
In accordance with this mandate, and in collaboration with other federal agencies and the private
sector, CISA developed an initial list of “Essential Critical Infrastructure Workers” to help State and
local officials as they work to protect their communities, while ensuring continuity of functions
critical to public health and safety, as well as economic and national security. The list can also
inform critical infrastructure community decision-making to determine the sectors, sub-sectors,
segments, or critical functions that should continue normal operations, appropriately modified to
account for Centers for Disease Control (CDC) workforce and customer protection guidance.
The attached list identifies workers who conduct a range of operations and services that are essential
to continued critical infrastructure viability, including staffing operations centers, maintaining and
repairing critical infrastructure, operating call centers, working construction, and performing
management functions, among others. The industries they support represent, but are not necessarily
limited to, medical and healthcare, telecommunications, information technology systems, defense,
food and agriculture, transportation and logistics, energy, water and wastewater, law enforcement,
and public works.

Case 2:20-cv-06414-JFW-PJW Document 1-4 Filed 07/17/20 Page 2 of 11 Page ID #:87

We recognize that State, local, tribal, and territorial governments are ultimately in charge of
implementing and executing response activities in communities under their jurisdiction, while the
Federal Government is in a supporting role. As State and local communities consider
COVID-19-related restrictions, CISA is offering this list to assist prioritizing activities related to
continuity of operations and incident response, including the appropriate movement of critical
infrastructure workers within and between jurisdictions.
Accordingly, this list is advisory in nature. It is not, nor should it be considered to be, a federal
directive or standard in and of itself.
In addition, these identified sectors and workers are not intended to be the authoritative or exhaustive
list of critical infrastructure sectors and functions that should continue during the COVID-19
response. Instead, State and local officials should use their own judgment in using their authorities
and issuing implementation directives and guidance. Similarly, critical infrastructure industry
partners will use their own judgment, informed by this list, to ensure continued operations of critical
infrastructure services and functions. All decisions should appropriately balance public safety while
ensuring the continued delivery of critical infrastructure services and functions.
CISA will continue to work with you and our partners in the critical infrastructure community to
update this list as the Nation’s response to COVID-19 evolves. We also encourage you to submit
how you might use this list so that we can develop a repository of use cases for broad sharing across
the country.
Should you have questions about this list, please contact CISA at CISA.CAT@cisa.dhs.gov.

Attachment: “Guidance on the Essential Critical Infrastructure Workforce: Ensuring Community
and National Resilience in COVID-19 Response”

2

Case 2:20-cv-06414-JFW-PJW Document 1-4 Filed 07/17/20 Page 3 of 11 Page ID #:88

Guidance on the Essential Critical Infrastructure Workforce:
Ensuring Community and National Resilience in COVID-19
Response
Version 1.0 (March 19, 2020)

THE IMPORTANCE OF ESSENTIAL CRITICAL INFRASTRUCTURE WORKERS
Functioning critical infrastructure is imperative during the response to the COVID-19 emergency for both public health
and safety as well as community well-being. Certain critical infrastructure industries have a special responsibility in
these times to continue operations.
This guidance and accompanying list are intended to support State, Local, and industry partners in identifying the
critical infrastructure sectors and the essential workers needed to maintain the services and functions Americans
depend on daily and that need to be able to operate resiliently during the COVID-19 pandemic response.
This document gives guidance to State, local, tribal, and territorial jurisdictions and the private sector on defining
essential critical infrastructure workers. Promoting the ability of such workers to continue to work during periods of
community restriction, access management, social distancing, or closure orders/directives is crucial to community
resilience and continuity of essential functions.

CONSIDERATIONS FOR GOVERNMENT AND BUSINESS
This list was developed in consultation with federal agency partners, industry experts, and State and local officials,
and is based on several key principles:
1. Response efforts to the COVID-19 pandemic are locally executed, State managed, and federally supported
2. Everyone should follow guidance from the CDC, as well as State and local government officials, regarding
strategies to limit disease spread.
3. Workers should be encouraged to work remotely when possible and focus on core business activities. Inperson, non-mandatory activities should be delayed until the resumption of normal operations.
4. When continuous remote work is not possible, businesses should enlist strategies to reduce the likelihood of
spreading the disease. This includes, but is not necessarily limited to, separating staff by off-setting shift
hours or days and/or social distancing. These steps can preserve the workforce and allow operations to
continue.

CONNECT WITH US
www.cisa.gov
For more information,
email CISA.CAT@cisa.dhs.gov

Linkedin.com/company/cybersecurityand-infrastructure-security-agency
@CISAgov | @cyber | @uscert_gov
Facebook.com/CISA

Case 2:20-cv-06414-JFW-PJW Document 1-4 Filed 07/17/20 Page 4 of 11 Page ID #:89

Essential Critical Infrastructure Workforce

5. All organizations should implement their business continuity and pandemic plans, or put plans in place if they
do not exist. Delaying implementation is not advised and puts at risk the viability of the business and the
health and safety of the employees.
6. In the modern economy, reliance on technology and just-in-time supply chains means that certain workers
must be able to access certain sites, facilities, and assets to ensure continuity of functions.
7. Government employees, such as emergency managers, and the business community need to establish and
maintain lines of communication.
8. When government and businesses engage in discussions about critical infrastructure workers, they need to
consider the implications of business operations beyond the jurisdiction where the asset or facility is located.
Businesses can have sizeable economic and societal impacts as well as supply chain dependencies that are
geographically distributed.
9. Whenever possible, jurisdictions should align access and movement control policies related to critical
infrastructure workers to lower the burden of workers crossing jurisdictional boundaries.

IDENTIFYING ESSENTIAL CRITICAL INFRASTRUCTURE WORKERS
The following list of sectors and identified essential critical infrastructure workers are an initial recommended set and
are intended to be overly inclusive reflecting the diversity of industries across the United States. CISA will continually
solicit and accept feedback on the list (both sectors/sub sectors and identified essential workers) and will evolve the
list in response to stakeholder feedback. We will also use our various stakeholder engagement mechanisms to work
with partners on how they are using this list and share those lessons learned and best practices broadly. We ask that
you share your feedback, both positive and negative on this list so we can provide the most useful guidance to our
critical infrastructure partners. Feedback can be sent to CISA.CAT@CISA.DHS.GOV.

CONNECT WITH US
www.cisa.gov
For more information,
email CISA.CAT@cisa.dhs.gov

Linkedin.com/company/cybersecurityand-infrastructure-security-agency
@CISAgov | @cyber | @uscert_gov
Facebook.com/CISA

Case 2:20-cv-06414-JFW-PJW Document 1-4 Filed 07/17/20 Page 5 of 11 Page ID #:90

Essential Critical Infrastructure Workforce

HEALTHCARE / PUBLIC HEALTH
•
•

•

•

•

•
•
•
•
•

•
•
•
•
•
•

Workers providing COVID-19 testing; Workers that perform critical clinical research needed for COVID-19
response
Caregivers (e.g., physicians, dentists, psychologists, mid-level practitioners, nurses and assistants, infection
control and quality assurance personnel, pharmacists, physical and occupational therapists and assistants,
social workers, speech pathologists and diagnostic and therapeutic technicians and technologists)
Hospital and laboratory personnel (including accounting, administrative, admitting and discharge, engineering,
epidemiological, source plasma and blood donation, food service, housekeeping, medical records, information
technology and operational technology, nutritionists, sanitarians, respiratory therapists, etc.)
Workers in other medical facilities (including Ambulatory Health and Surgical, Blood Banks, Clinics, Community
Mental Health, Comprehensive Outpatient rehabilitation, End Stage Renal Disease, Health Departments, Home
Health care, Hospices, Hospitals, Long Term Care, Organ Pharmacies, Procurement Organizations, Psychiatric
Residential, Rural Health Clinics and Federally Qualified Health Centers)
Manufacturers, technicians, logistics and warehouse operators, and distributors of medical equipment,
personal protective equipment (PPE), medical gases, pharmaceuticals, blood and blood products, vaccines,
testing materials, laboratory supplies, cleaning, sanitizing, disinfecting or sterilization supplies, and tissue and
paper towel products
Public health / community health workers, including those who compile, model, analyze and communicate
public health information
Blood and plasma donors and the employees of the organizations that operate and manage related activities
Workers that manage health plans, billing, and health information, who cannot practically work remotely
Workers who conduct community-based public health functions, conducting epidemiologic surveillance,
compiling, analyzing and communicating public health information, who cannot practically work remotely
Workers performing cybersecurity functions at healthcare and public health facilities, who cannot practically
work remotely
Workers conducting research critical to COVID-19 response
Workers performing security, incident management, and emergency operations functions at or on behalf of
healthcare entities including healthcare coalitions, who cannot practically work remotely
Workers who support food, shelter, and social services, and other necessities of life for economically
disadvantaged or otherwise needy individuals, such as those residing in shelters
Pharmacy employees necessary for filling prescriptions
Workers performing mortuary services, including funeral homes, crematoriums, and cemetery workers
Workers who coordinate with other organizations to ensure the proper recovery, handling, identification,
transportation, tracking, storage, and disposal of human remains and personal effects; certify cause of death;
and facilitate access to mental/behavioral health services to the family members, responders, and survivors of
an incident

CONNECT WITH US
www.cisa.gov
For more information,
email CISA.CAT@cisa.dhs.gov

Linkedin.com/company/cybersecurityand-infrastructure-security-agency
@CISAgov | @cyber | @uscert_gov
Facebook.com/CISA

Case 2:20-cv-06414-JFW-PJW Document 1-4 Filed 07/17/20 Page 6 of 11 Page ID #:91

Essential Critical Infrastructure Workforce

LAW ENFORCEMENT, PUBLIC SAFETY, FIRST RESPONDERS
•
•
•
•
•
•

Personnel in emergency management, law enforcement, Emergency Management Systems, fire, and
corrections, including front line and management
Emergency Medical Technicians
911 call center employees
Fusion Center employees
Hazardous material responders from government and the private sector.
Workers – including contracted vendors -- who maintain digital systems infrastructure supporting law
enforcement and emergency service operations.

FOOD AND AGRICULTURE
•
•
•

•

•
•
•
•
•
•
•

•

•
•

Workers supporting groceries, pharmacies and other retail that sells food and beverage products
Restaurant carry-out and quick serve food operations - Carry-out and delivery food employees
Food manufacturer employees and their supplier employees—to include those employed in food processing
(packers, meat processing, cheese plants, milk plants, produce, etc.) facilities; livestock, poultry, seafood
slaughter facilities; pet and animal feed processing facilities; human food facilities producing by-products for
animal food; beverage production facilities; and the production of food packaging
Farm workers to include those employed in animal food, feed, and ingredient production, packaging, and
distribution; manufacturing, packaging, and distribution of veterinary drugs; truck delivery and transport; farm
and fishery labor needed to produce our food supply domestically
Farm workers and support service workers to include those who field crops; commodity inspection; fuel ethanol
facilities; storage facilities; and other agricultural inputs
Employees and firms supporting food, feed, and beverage distribution, including warehouse workers, vendormanaged inventory controllers and blockchain managers
Workers supporting the sanitation of all food manufacturing processes and operations from wholesale to retail
Company cafeterias - in-plant cafeterias used to feed employees
Workers in food testing labs in private industries and in institutions of higher education
Workers essential for assistance programs and government payments
Employees of companies engaged in the production of chemicals, medicines, vaccines, and other substances
used by the food and agriculture industry, including pesticides, herbicides, fertilizers, minerals, enrichments,
and other agricultural production aids
Animal agriculture workers to include those employed in veterinary health; manufacturing and distribution of
animal medical materials, animal vaccines, animal drugs, feed ingredients, feed, and bedding, etc.;
transportation of live animals, animal medical materials; transportation of deceased animals for disposal;
raising of animals for food; animal production operations; slaughter and packing plants and associated
regulatory and government workforce
Workers who support the manufacture and distribution of forest products, including, but not limited to timber,
paper, and other wood products
Employees engaged in the manufacture and maintenance of equipment and other infrastructure necessary to
agricultural production and distribution

CONNECT WITH US
www.cisa.gov
For more information,
email CISA.CAT@cisa.dhs.gov

Linkedin.com/company/cybersecurityand-infrastructure-security-agency
@CISAgov | @cyber | @uscert_gov
Facebook.com/CISA

Case 2:20-cv-06414-JFW-PJW Document 1-4 Filed 07/17/20 Page 7 of 11 Page ID #:92

Essential Critical Infrastructure Workforce

ENERGY
Electricity industry:
•
•
•
•

•
•
•
•
•

Workers who maintain, ensure, or restore the generation, transmission, and distribution of electric power,
including call centers, utility workers, reliability engineers and fleet maintenance technicians
Workers needed for safe and secure operations at nuclear generation
Workers at generation, transmission, and electric blackstart facilities
Workers at Reliability Coordinator (RC), Balancing Authorities (BA), and primary and backup Control Centers
(CC), including but not limited to independent system operators, regional transmission organizations, and
balancing authorities
Mutual assistance personnel
IT and OT technology staff – for EMS (Energy Management Systems) and Supervisory Control and Data
Acquisition (SCADA) systems, and utility data centers; Cybersecurity engineers; cybersecurity risk management
Vegetation management crews and traffic workers who support
Environmental remediation/monitoring technicians
Instrumentation, protection, and control technicians

Petroleum workers:
•
•
•
•
•
•
•
•

Petroleum product storage, pipeline, marine transport, terminals, rail transport, road transport
Crude oil storage facilities, pipeline, and marine transport
Petroleum refinery facilities
Petroleum security operations center employees and workers who support emergency response services
Petroleum operations control rooms/centers
Petroleum drilling, extraction, production, processing, refining, terminal operations, transporting, and retail for
use as end-use fuels or feedstocks for chemical manufacturing
Onshore and offshore operations for maintenance and emergency response
Retail fuel centers such as gas stations and truck stops, and the distribution systems that support them

Natural and propane gas workers:
•
•
•
•
•
•
•
•

Natural gas transmission and distribution pipelines, including compressor stations
Underground storage of natural gas
Natural gas processing plants, and those that deal with natural gas liquids
Liquefied Natural Gas (LNG) facilities
Natural gas security operations center, natural gas operations dispatch and control rooms/centers natural gas
emergency response and customer emergencies, including natural gas leak calls
Drilling, production, processing, refining, and transporting natural gas for use as end-use fuels, feedstocks for
chemical manufacturing, or use in electricity generation
Propane gas dispatch and control rooms and emergency response and customer emergencies, including
propane leak calls
Propane gas service maintenance and restoration, including call centers

CONNECT WITH US
www.cisa.gov
For more information,
email CISA.CAT@cisa.dhs.gov

Linkedin.com/company/cybersecurityand-infrastructure-security-agency
@CISAgov | @cyber | @uscert_gov
Facebook.com/CISA

Case 2:20-cv-06414-JFW-PJW Document 1-4 Filed 07/17/20 Page 8 of 11 Page ID #:93

Essential Critical Infrastructure Workforce

•
•

Processing, refining, and transporting natural liquids, including propane gas, for use as end-use fuels or
feedstocks for chemical manufacturing
Propane gas storage, transmission, and distribution centers

WATER AND WASTEWATER
Employees needed to operate and maintain drinking water and wastewater/drainage infrastructure, including:
• Operational staff at water authorities
• Operational staff at community water systems
• Operational staff at wastewater treatment facilities
• Workers repairing water and wastewater conveyances and performing required sampling or monitoring
• Operational staff for water distribution and testing
• Operational staff at wastewater collection facilities
• Operational staff and technical support for SCADA Control systems
• Chemical disinfectant suppliers for wastewater and personnel protection
• Workers that maintain digital systems infrastructure supporting water and wastewater operations

TRANSPORTATION AND LOGISTICS
•

•
•
•
•
•
•
•

•
•
•
•

Employees supporting or enabling transportation functions, including dispatchers, maintenance and repair
technicians, warehouse workers, truck stop and rest area workers, and workers that maintain and inspect
infrastructure (including those that require cross-border travel)
Employees of firms providing services that enable logistics operations, including cooling, storing, packaging,
and distributing products for wholesale or retail sale or use.
Mass transit workers
Workers responsible for operating dispatching passenger, commuter and freight trains and maintaining rail
infrastructure and equipment
Maritime transportation workers - port workers, mariners, equipment operators
Truck drivers who haul hazardous and waste materials to support critical infrastructure, capabilities, functions,
and services
Automotive repair and maintenance facilities
Manufacturers and distributors (to include service centers and related operations) of packaging materials,
pallets, crates, containers, and other supplies needed to support manufacturing, packaging staging and
distribution operations
Postal and shipping workers, to include private companies
Employees who repair and maintain vehicles, aircraft, rail equipment, marine vessels, and the equipment and
infrastructure that enables operations that encompass movement of cargo and passengers
Air transportation employees, including air traffic controllers, ramp personnel, aviation security, and aviation
management
Workers who support the maintenance and operation of cargo by air transportation, including flight crews,
maintenance, airport operations, and other on- and off- airport facilities workers

CONNECT WITH US
www.cisa.gov
For more information,
email CISA.CAT@cisa.dhs.gov

Linkedin.com/company/cybersecurityand-infrastructure-security-agency
@CISAgov | @cyber | @uscert_gov
Facebook.com/CISA

Case 2:20-cv-06414-JFW-PJW Document 1-4 Filed 07/17/20 Page 9 of 11 Page ID #:94

Essential Critical Infrastructure Workforce

PUBLIC WORKS
•
•

•
•
•

Workers who support the operation, inspection, and maintenance of essential dams, locks and levees
Workers who support the operation, inspection, and maintenance of essential public works facilities and
operations, including bridges, water and sewer main breaks, fleet maintenance personnel, construction of
critical or strategic infrastructure, traffic signal maintenance, emergency location services for buried utilities,
maintenance of digital systems infrastructure supporting public works operations, and other emergent issues
Workers such as plumbers, electricians, exterminators, and other service providers who provide services that
are necessary to maintaining the safety, sanitation, and essential operation of residences
Support, such as road and line clearing, to ensure the availability of needed facilities, transportation, energy
and communications
Support to ensure the effective removal, storage, and disposal of residential and commercial solid waste and
hazardous waste

COMMUNICATIONS AND INFORMATION TECHNOLOGY
Communications:
•

•
•
•
•
•
•

•

Maintenance of communications infrastructure- including privately owned and maintained communication
systems- supported by technicians, operators, call-centers, wireline and wireless providers, cable service
providers, satellite operations, undersea cable landing stations, Internet Exchange Points, and manufacturers
and distributors of communications equipment
Workers who support radio, television, and media service, including, but not limited to front line news
reporters, studio, and technicians for newsgathering and reporting
Workers at Independent System Operators and Regional Transmission Organizations, and Network Operations
staff, engineers and/or technicians to manage the network or operate facilities
Engineers, technicians and associated personnel responsible for infrastructure construction and restoration,
including contractors for construction and engineering of fiber optic cables
Installation, maintenance and repair technicians that establish, support or repair service as needed
Central office personnel to maintain and operate central office, data centers, and other network office facilities
Customer service and support staff, including managed and professional services as well as remote providers
of support to transitioning employees to set up and maintain home offices, who interface with customers to
manage or support service environments and security issues, including payroll, billing, fraud, and
troubleshooting
Dispatchers involved with service repair and restoration

Information Technology:
•
•
•

Workers who support command centers, including, but not limited to Network Operations Command Center,
Broadcast Operations Control Center and Security Operations Command Center
Data center operators, including system administrators, HVAC & electrical engineers, security personnel, IT
managers, data transfer solutions engineers, software and hardware engineers, and database administrators
Client service centers, field engineers, and other technicians supporting critical infrastructure, as well as

CONNECT WITH US
www.cisa.gov
For more information,
email CISA.CAT@cisa.dhs.gov

Linkedin.com/company/cybersecurityand-infrastructure-security-agency
@CISAgov | @cyber | @uscert_gov
Facebook.com/CISA

Case 2:20-cv-06414-JFW-PJW Document 1-4 Filed 07/17/20 Page 10 of 11 Page ID #:95

Essential Critical Infrastructure Workforce

•

•
•
•

manufacturers and supply chain vendors that provide hardware and software, and information technology
equipment (to include microelectronics and semiconductors) for critical infrastructure
Workers responding to cyber incidents involving critical infrastructure, including medical facilities, SLTT
governments and federal facilities, energy and utilities, and banks and financial institutions, and other critical
infrastructure categories and personnel
Workers supporting the provision of essential global, national and local infrastructure for computing services
(incl. cloud computing services), business infrastructure, web-based services, and critical manufacturing
Workers supporting communications systems and information technology used by law enforcement, public
safety, medical, energy and other critical industries
Support required for continuity of services, including janitorial/cleaning personnel

OTHER COMMUNITY-BASED GOVERNMENT OPERATIONS AND ESSENTIAL
FUNCTIONS
•
•
•
•
•
•
•
•
•
•
•
•

Workers to ensure continuity of building functions
Security staff to maintain building access control and physical security measures
Elections personnel
Federal, State, and Local, Tribal, and Territorial employees who support Mission Essential Functions and
communications networks
Trade Officials (FTA negotiators; international data flow administrators)
Weather forecasters
Workers that maintain digital systems infrastructure supporting other critical government operations
Workers at operations centers necessary to maintain other essential functions
Workers who support necessary credentialing, vetting and licensing operations for transportation workers
Customs workers who are critical to facilitating trade in support of the national emergency response supply
chain
Educators supporting public and private K-12 schools, colleges, and universities for purposes of facilitating
distance learning or performing other essential functions, if operating under rules for social distancing
Hotel Workers where hotels are used for COVID-19 mitigation and containment measures

CRITICAL MANUFACTURING
•

Workers necessary for the manufacturing of materials and products needed for medical supply chains,
transportation, energy, communications, food and agriculture, chemical manufacturing, nuclear facilities, the
operation of dams, water and wastewater treatment, emergency services, and the defense industrial base.

HAZARDOUS MATERIALS
•
•
•

Workers at nuclear facilities, workers managing medical waste, workers managing waste from pharmaceuticals
and medical material production, and workers at laboratories processing test kits
Workers who support hazardous materials response and cleanup
Workers who maintain digital systems infrastructure supporting hazardous materials management operations

CONNECT WITH US
www.cisa.gov
For more information,
email CISA.CAT@cisa.dhs.gov

Linkedin.com/company/cybersecurityand-infrastructure-security-agency
@CISAgov | @cyber | @uscert_gov
Facebook.com/CISA

Case 2:20-cv-06414-JFW-PJW Document 1-4 Filed 07/17/20 Page 11 of 11 Page ID #:96

Essential Critical Infrastructure Workforce

FINANCIAL SERVICES
•
•
•

Workers who are needed to process and maintain systems for processing financial transactions and services
(e.g., payment, clearing, and settlement; wholesale funding; insurance services; and capital markets activities)
Workers who are needed to provide consumer access to banking and lending services, including ATMs, and to
move currency and payments (e.g., armored cash carriers)
Workers who support financial operations, such as those staffing data and security operations centers

CHEMICAL
•

•
•
•
•

Workers supporting the chemical and industrial gas supply chains, including workers at chemical manufacturing
plants, workers in laboratories, workers at distribution facilities, workers who transport basic raw chemical
materials to the producers of industrial and consumer goods, including hand sanitizers, food and food
additives, pharmaceuticals, textiles, and paper products.
Workers supporting the safe transportation of chemicals, including those supporting tank truck cleaning
facilities and workers who manufacture packaging items
Workers supporting the production of protective cleaning and medical solutions, personal protective equipment,
and packaging that prevents the contamination of food, water, medicine, among others essential products
Workers supporting the operation and maintenance of facilities (particularly those with high risk chemicals and/
or sites that cannot be shut down) whose work cannot be done remotely and requires the presence of highly
trained personnel to ensure safe operations, including plant contract workers who provide inspections
Workers who support the production and transportation of chlorine and alkali manufacturing, single-use
plastics, and packaging that prevents the contamination or supports the continued manufacture of food, water,
medicine, and other essential products, including glass container manufacturing

DEFENSE INDUSTRIAL BASE
•

•

Workers who support the essential services required to meet national security commitments to the federal
government and U.S. Military. These individuals, include but are not limited to, aerospace; mechanical and
software engineers, manufacturing/production workers; IT support; security staff; security personnel;
intelligence support, aircraft and weapon system mechanics and maintainers
Personnel working for companies, and their subcontractors, who perform under contract to the Department of
Defense providing materials and services to the Department of Defense, and government-owned/contractoroperated and government-owned/government-operated facilities

CONNECT WITH US
www.cisa.gov
For more information,
email CISA.CAT@cisa.dhs.gov

Linkedin.com/company/cybersecurityand-infrastructure-security-agency
@CISAgov | @cyber | @uscert_gov
Facebook.com/CISA

Case 2:20-cv-06414-JFW-PJW Document 1-5 Filed 07/17/20 Page 1 of 2 Page ID #:97

Case 2:20-cv-06414-JFW-PJW Document 1-5 Filed 07/17/20 Page 2 of 2 Page ID #:98

Case 2:20-cv-06414-JFW-PJW Document 1-6 Filed 07/17/20 Page 1 of 13 Page ID #:99

California’s Roadmap to
Modify the Stay-at-Home Order

Case 2:20-cv-06414-JFW-PJW Document 1-6 Filed 07/17/20 Page 2 of 13 Page ID #:100

Efforts to flatten the curve

Case 2:20-cv-06414-JFW-PJW Document 1-6 Filed 07/17/20 Page 3 of 13 Page ID #:101

Until we build immunity, our
actions will be aligned to achieve
the following
Ensure our ability to
care for the sick
within our hospitals

Build the capacity to
protect the health and
well-being of the public

Prevent infection in
people who are at high
risk for severe disease

Reduce social,
emotional and
economic disruptions

Case 2:20-cv-06414-JFW-PJW Document 1-6 Filed 07/17/20 Page 4 of 13 Page ID #:102

Current efforts are hard to sustain

Impact on economy

Impact on poverty

Impact on healthcare

Case 2:20-cv-06414-JFW-PJW Document 1-6 Filed 07/17/20 Page 5 of 13 Page ID #:103

California’s 6 indicators
for modifying the
Stay-at-Home Order

Case 2:20-cv-06414-JFW-PJW Document 1-6 Filed 07/17/20 Page 6 of 13 Page ID #:104

1

The ability to monitor and protect our
communities through testing, contact
tracing, isolating, and supporting
those who are positive or exposed
Key Questions
 How prepared is our state to test everyone who is
symptomatic?
 Do we have the ability to identify contacts of those who
are positive to reduce further transmission?

Case 2:20-cv-06414-JFW-PJW Document 1-6 Filed 07/17/20 Page 7 of 13 Page ID #:105

2

The ability to prevent infection in
people who are at risk for more
severe COVID-19
Key Questions
 Are older Californians and the medically vulnerable living in
their own homes supported so they can continue appropriate
physical distancing?
 Have we developed a plan to quickly identify and contain
outbreaks in facilities housing older Californians, those living
with disabilities, those currently incarcerated, and those with
co-morbidities?

Case 2:20-cv-06414-JFW-PJW Document 1-6 Filed 07/17/20 Page 8 of 13 Page ID #:106

3

The ability of the hospital and
health systems to handle surges
Key Questions:
 Do we have adequate bed capacity, staff and supplies
such as ventilators and masks?
 Can our healthcare system adequately address COVID19 and other critical healthcare needs?

Case 2:20-cv-06414-JFW-PJW Document 1-6 Filed 07/17/20 Page 9 of 13 Page ID #:107

4

The ability to develop therapeutics
to meet the demand

Key Questions:
 Have we built a coalition of private, public, and academic
partners to accelerate the development of therapeutics?
 Have we identified potential therapeutics that have shown
promise?

Case 2:20-cv-06414-JFW-PJW Document 1-6 Filed 07/17/20 Page 10 of 13 Page ID #:108

5

The ability for businesses, schools,
and child care facilities to support
physical distancing
Key Questions
 Have we worked with businesses to support physical
distancing practices and introduced guidelines to provide
health checks when employees or the general public enter
the premises?
 Do we have supplies and equipment to keep the workforce
and customers safe?

Case 2:20-cv-06414-JFW-PJW Document 1-6 Filed 07/17/20 Page 11 of 13 Page ID #:109

6

The ability to determine when to
reinstitute certain measures, such
as the stay-at-home orders, if
necessary
Key Questions
 Are we tracking the right data to provide us an early warning
system?
 Do we have the ability to quickly communicate the need to
reinstate these measures?

Case 2:20-cv-06414-JFW-PJW Document 1-6 Filed 07/17/20 Page 12 of 13 Page ID #:110

Things will look different…

Restaurants will
likely reopen with
fewer tables

Face coverings will
likely be common in
public

New opportunities
will likely arise to
support mitigation

Case 2:20-cv-06414-JFW-PJW Document 1-6 Filed 07/17/20 Page 13 of 13 Page ID #:111

covid19.ca.gov

Case 2:20-cv-06414-JFW-PJW Document 1-7 Filed 07/17/20 Page 1 of 23 Page ID #:112
April 28, 2020

ESSENTIAL WORKFORCE
On March 19, 2020, Governor Newsom issued Executive Order N-33-20 directing all residents
immediately to heed current State public health directives to stay home, except as needed to maintain
continuity of operations of essential critical infrastructure sectors and additional sectors as the State
Public Health Officer may designate as critical to protect health and well-being of all Californians.
In accordance with this order, the State Public Health Officer has designated the following list of
“Essential Critical Infrastructure Workers” to help state, local, tribal, and industry partners as they work
to protect communities, while ensuring continuity of functions critical to public health and safety, as
well as economic and national security.
Sector Index:
1.
2.
3.
4.
5.
6.
7.
8.
9.
10.
11.
12.
13.

Health and Public Health Sector
Emergency Services Sector
Food and Agriculture Sector
Energy Sector
Water and Wastewater Sector
Transportation and Logistics Sector
Communications and Information Technology Sector
Government Operations and Other Community-Based Essential Functions
Critical Manufacturing Sector
Financial Services Sector
Chemical Sector
Defense Industrial Base Sector
Industrial, Commercial, Residential and Sheltering Facilities and Services

Relevant Guidance For All Sectors:
•
•
•

Face Coverings Guidance
• Orientación Sobre el Uso de Mascarillas de Tela
Self-Isolation for Older Adults and Those Who Have Elevated Risk
• Aislamiento para Adultos Mayores y Personas que Tienen un Riesgo Elevado
Employers, health care workers and workers in general industry

1

Case 2:20-cv-06414-JFW-PJW Document 1-7 Filed 07/17/20 Page 2 of 23 Page ID #:113
April 28, 2020

1. HEALTHCARE / PUBLIC HEALTH
Sector Profile
The Healthcare and Public Health (HPH) Sector is large, diverse, and open, spanning both the public
and private sectors. It includes publicly accessible healthcare facilities, research centers, suppliers,
manufacturers, and other physical assets and vast, complex public-private information technology
systems required for care delivery and to support the rapid, secure transmission and storage of large
amounts of HPH data.
Essential Workforce, if remote working is not practical:
1. Health care providers and caregivers (including physicians, dentists, psychologists, mid-level
practitioners, nurses, assistants, and aids; infection control and quality assurance personnel;
pharmacists; physical, respiratory, speech and occupational therapists and assistants; social
workers and providers serving individuals with disabilities including developmental disabilities;
optometrists; speech pathologists; chiropractors; diagnostic and therapeutic technicians; and
radiology technologists).
2. Workers required for effective clinical, command, infrastructure, support service,
administrative, security and intelligence operations across the direct patient care and full
healthcare and public health spectrum, including accounting, administrative, admitting and
discharge, engineering, accrediting, certification, licensing, credentialing, epidemiological,
source plasma and blood donation, food service, environmental services, housekeeping, medical
records, information technology and operational technology, nutritionists, sanitarians;
emergency medical services workers; prehospital workers including but not limited to urgent
care workers; inpatient and hospital workers; outpatient care workers; home care workers;
workers at long-term care facilities, residential and community-based providers; workplace
safety workers).
3. Workers needed to support transportation to and from healthcare facilities and provider
appointments.
4. Workers needed to provide laundry services, food services, reprocessing of medical equipment,
and waste management.
5. Vendors and suppliers (including imaging, pharmacy, oxygen services, durable medical
equipment)
6. Workers who perform critical clinical research, development, and testing needed for COVID-19
response.
7. Workers in other medical and life science facilities (including Ambulatory Health and Surgical,
Blood Banks, Clinics, Community Mental Health, Comprehensive Outpatient rehabilitation, End
Stage Renal Disease, Health Departments, Home Health care, Hospices, Hospitals, Long Term
Care, Organ Pharmacies, Procurement Organizations, Psychiatric, Residential, Rural Health
Clinics and Federally Qualified Health Centers, and retail facilities specializing in medical goods
and supplies, including cannabis).
8. Workers for health manufacturing (including life science companies, and companies that have
shifted production to medical supplies), materials and parts suppliers, technicians, logistics and
warehouse operators, printers, packagers, and distributors of medical equipment (including
those who test and repair), personal protective equipment (PPE), isolation barriers, medical
2

Case 2:20-cv-06414-JFW-PJW Document 1-7 Filed 07/17/20 Page 3 of 23 Page ID #:114
April 28, 2020

9.
10.
11.
12.
13.
14.
15.
16.
17.
18.

19.

20.

21.

gases, pharmaceuticals (including materials used in radioactive drugs, and cannabis products),
dietary supplements, blood and blood products, vaccines, testing materials, laboratory supplies,
cleaning, sanitizing, disinfecting or sterilization supplies, personal hygiene products, and tissue
and paper towel products.
Public health / community health workers, including those who compile, model, analyze and
communicate public health information.
Behavioral and mental health workers responsible for coordination, outreach, engagement, and
treatment to individuals in need of mental health and/or behavioral services.
Donors of blood bone marrow, blood stem cell, or plasma and the workers of the organizations
that operate and manage related activities.
Workers that manage health plans, billing, and health information.
Workers who conduct community-based public health functions, conducting epidemiologic
surveillance, compiling, analyzing and communicating public health information.
Workers performing IT and cybersecurity functions at healthcare and public health facilities.
Workers performing security, incident management, and emergency operations functions at or
on behalf of healthcare entities including healthcare coalitions.
Pharmacy employees, including workers necessary to maintain uninterrupted prescription
filling.
Workers in retail facilities specializing in medical goods and supplies.
Public health and environmental health workers, including workers specializing in environmental
health that focus on implementing environmental controls, sanitary and infection control
interventions, healthcare facility safety and emergency preparedness planning, engineered work
practices, and developing guidance and protocols for appropriate PPE to prevent COVID-19
disease transmission; Public health/ community health workers (including call center workers)
who conduct community- based public health functions, conducting epidemiologic surveillance
and compiling, analyzing, and communicating public health information.
Mortuary services providers, including workers performing mortuary, funeral, cremation burial,
cemetery, and related services, including funeral homes, crematoriums, cemetery workers and
coffin makers.
Workers who coordinate with other organizations to ensure the proper recovery, handling,
identification, transportation, tracking, storage, and disposal of human remains and personal
effects; certify cause of death; and facilitate access to behavioral and mental health services to
the family members, responders, and survivors of an incident.
Workers supporting veterinary hospitals and clinics.

Relevant Sector Guidance:
•
•
•
•
•
•
•
•

•

All Facility Letters for health care facilities, including long-term care facilities
Health care facilities, Skilled Nursing Facilities
Individuals with Access and Functional Needs
Medical Waste Management - Interim Guidelines
Outpatient Healthcare Facility Infection Control Recommendations for Suspect COVID-19 Patients
Prioritization of Patients for Laboratory Testing for COVID-19
Veterinary Professionals and Premises
Regional Centers:
• Visits to Licensed Residential Facilities
• Risk Mitigation Strategies for ARFPSHN, ICF/DD-CN
Adult and Senior Care Facilities
3

Case 2:20-cv-06414-JFW-PJW Document 1-7 Filed 07/17/20 Page 4 of 23 Page ID #:115
April 28, 2020

•
•
•
•
•

• Cuidado a los Adultos Mayores
Community care facilities, including assisted living facilities and child care
Medi-Cal Managed Care Health Plans: COVID – 19 Screening and Testing
Coverage Options Fact Sheet
• Opciones De Cobertura
Department of Managed Health Care All Plan Letter
California Department of Insurance Bulletin

4

Case 2:20-cv-06414-JFW-PJW Document 1-7 Filed 07/17/20 Page 5 of 23 Page ID #:116
April 28, 2020

2. EMERGENCY SERVICES SECTOR
Sector Profile
The Emergency Services Sector (ESS) is a community of highly-skilled, trained personnel, along with
the physical and cyber resources, that provide a wide range of prevention, preparedness, response,
and recovery services during both day-to-day operations and incident response. The ESS includes
geographically distributed facilities and equipment in both paid and volunteer capacities organized
primarily at the federal, state, local, tribal, and territorial levels of government, such as city police
departments and fire stations, county sheriff’s offices, Department of Defense police and fire
departments, and town public works departments. The ESS also includes private sector resources,
such as industrial fire departments, private security organizations, and private emergency medical
services providers.
Essential Workforce, if remote working is not practical:
1. Public, private, and voluntary personnel (front line and management) in emergency
management, law enforcement, fire and rescue services, emergency medical services,
corrections, rehabilitation and reentry, search and rescue, hazardous material response, and
technicians supporting maritime and aviation emergency response.
2. Public Safety Answering Points and 911 call center employees; personnel involved in access to
emergency services including the emergency alert system and wireless emergency alerts.
3. Fusion Center employees
4. Workers who support weather disaster / natural hazard monitoring, response, mitigation, and
prevention, including personnel conducting, supporting, or facilitating wildfire mitigation
activities
5. Workers – including contracted vendors -- who maintain, manufacture, or supply equipment
and services supporting law enforcement, fire, EMS, and and emergency service response
operations (including safety equipment, electronic security, and uniforms)
6. Workers responding to abuse and neglect of children, elders and dependent adults.
7. Animal control officers and humane officers
8. Security staff to maintain building access control and physical security measures
9. Workers and contracted vendors who maintain and provide services and supplies to public
safety facilities, including emergency communication center, public safety answering points,
public safety communications centers, emergency operation centers, fire and emergency
medical services stations, police and law enforcement stations and facilities.
Relevant Sector Guidance:
•
•

Public Health Guidance about COVID-19 for California State Prisons
First responders, including paramedics and EMTs

5

Case 2:20-cv-06414-JFW-PJW Document 1-7 Filed 07/17/20 Page 6 of 23 Page ID #:117
April 28, 2020

3. FOOD AND AGRICULTURE
Sector Profile
The Food and Agricultural (FA) Sector is composed of complex production, processing, and delivery
systems and has the capacity to feed people and animals both within and beyond the boundaries of
the United States. Beyond domestic food production, the FA Sector also imports many ingredients
and finished products, leading to a complex web of growers, processors, suppliers, transporters,
distributors, and consumers. This sector is critical to maintaining and securing our food supply.
Essential Workforce, if remote working is not practical:
1. Workers supporting groceries, pharmacies, convenience stores, and other retail that sells food
or beverage products, and animal/pet food, retail customer support service, information
technology support staff, for online orders, pickup/takeout or delivery.
2. Workers supporting restaurant carry-out and quick serve food operations, including food
preparation, carry-out and delivery food employees.
3. Food manufacturer employees and their supplier employees to include those employed in food
ingredient production and processing facilities; aquaculture and seafood harvesting facilities;
livestock, poultry, seafood slaughter facilities; pet and animal feed processing facilities; human
food facilities producing by-products for animal food; beverage production facilities; and the
production of food packaging, including recycling operations and processing.
4. Farmers, farm and ranch workers, and agribusiness support services to include those employed
in auction and sales; grain and oilseed handling, storage, processing and distribution; animal
food, feed, and ingredient production, packaging, and distribution; manufacturing, packaging,
and distribution of veterinary drugs; truck delivery and transport.
5. Farmers, farm and ranch workers, support service workers and their supplier employees
producing food supply domestically and for export to include those engaged in raising,
cultivating, harvesting, packing, storing, or delivering to storage or to market or to a carrier for
transportation to market any agricultural or horticultural commodity for human consumption;
those engaged in producing and harvesting field crops; cannabis growers; agricultural and
commodity inspection; fuel ethanol facilities; storage facilities; biodiesel and renewable diesel
facilities; and other agricultural inputs
6. Employees and firms supporting food, feed, and beverage distribution and ingredients used in
these products including warehouse workers, vendor-managed inventory controllers, and
blockchain managers.
7. Workers supporting the sanitation of all food manufacturing processes and operations from
wholesale to retail.
8. Workers supporting the growth and distribution of plants and associated products for home
gardens.
9. Workers in cafeterias used to feed workers, particularly worker populations sheltered against
COVID-19
10. Workers in animal diagnostic and food testing laboratories
11. Workers essential for assistance programs and government payments
12. Government, private, and non-governmental organizations’ workers essential for food
assistance programs (including school lunch programs) and government payments.
6

Case 2:20-cv-06414-JFW-PJW Document 1-7 Filed 07/17/20 Page 7 of 23 Page ID #:118
April 28, 2020
13. Employees of companies engaged in the production, storage, transport, and distribution of
chemicals; medicines, including cannabis; vaccines; and other substances used by the food and
agriculture industry, including seeds, pesticides, herbicides, fertilizers, minerals, enrichments,
and other agricultural production aids.
14. Animal agriculture workers to include those employed in veterinary health (including those
involved in supporting emergency veterinary or livestock services); raising of animals for food;
animal production operations; livestock markets; slaughter and packing plants, manufacturers,
renderers, and associated regulatory and government workforce.
15. Transportation supporting animal agricultural industries, including movement of animal medical
and reproductive supplies and material, animal vaccines, animal drugs, feed ingredients, feed,
and bedding, live animals, animal medical materials; transportation of deceased animals for
disposal; and associated regulatory and government workforce
16. Workers who support sawmills and the manufacture and distribution of fiber and forest
products, including, but not limited to timber, paper, and other wood and fiber products
17. Employees engaged in the manufacture and maintenance of equipment and other infrastructure
necessary to agricultural production and distribution
18. Workers at animal care facilities that provide food, shelter, veterinary and/or routine care and
other necessities of life for animals.
Relevant Sector Guidance:
•
•

Food, Beverage, Other Services
• Alimentos, Bebidas y Otros Sitios de Servicios Relacionados
Food Industry and Food Supply Chain

7

Case 2:20-cv-06414-JFW-PJW Document 1-7 Filed 07/17/20 Page 8 of 23 Page ID #:119
April 28, 2020

4. ENERGY
Sector Profile
The Energy Sector consists of widely diverse and geographically dispersed critical assets and systems
that are often interdependent of one another. This critical infrastructure is divided into three
interrelated segments or subsectors—electricity, oil, and natural gas—to include the production,
refining, storage, and distribution of oil, gas, and electric power. The Energy Sector supplies fuels to
the transportation industry, electricity to households and businesses, and other sources of energy
that are integral to growth and production across the Nation. In turn, it depends on the Nation’s
transportation, information technology, communications, finance, water, and government
infrastructures.
Essential Workforce, if remote working is not possible:
1. Workers supporting the energy sector, regardless of the energy source, segment of the system,
or infrastructure the worker is involved in, or who are needed to monitor, operate, engineer,
and maintain the reliability, safety, environmental health, physical and cyber security of the
energy system, including power generation, transmission and distribution.
2. Workers supporting the energy sector, regardless of the energy source, needed for construction,
manufacturing, transportation and logistics, maintenance, and permitting.
3. IT and OT technology for essential energy sector operations including support workers,
customer service operations, call centers, and emergency response and customer emergency
operations; energy management systems, control systems, Supervisory Control and Data
Acquisition SCADA systems, and energy sector entity data centers; cybersecurity engineers; and
cybersecurity risk management.
4. Workers providing services related to energy sector fuels and supply chains, supporting the
procurement, mining, drilling, processing, refining, manufacturing, refueling, construction,
logistics, transportation (including marine transport, terminals, rail and vehicle transport),
permitting operation and maintenance, security, waste disposal, storage, and monitoring of
support for resources;
5. Workers supporting environmental remediation and monitoring.
6. Workers supporting manufacturing and distribution of equipment, supplies, and parts necessary
to maintain production, maintenance, restoration, and service at energy sector facilities across
all energy sectors, and regardless of the energy source.
7. Workers at Independent System Operators and Regional Transmission Organizations, and
Network Operations staff, engineers and technicians to manage the network or operate
facilities.
8. Workers at Reliability Coordinator, Balancing Authorities, and primary and backup Control
Centers, including but not limited to independent system operators, regional transmission
organizations, and balancing authorities; and workers involved in energy commodity trading and
scheduling.
9. Mutual assistance personnel, which may include workers from outside of the state or local
jurisdiction
10. Retail fuel centers such as gas stations and truck stops, and the distribution systems that
support them.
8

Case 2:20-cv-06414-JFW-PJW Document 1-7 Filed 07/17/20 Page 9 of 23 Page ID #:120
April 28, 2020

5. WATER AND WASTEWATER
Sector Profile
The Water and Wastewater Sector is a complex sector composed of drinking water and wastewater
infrastructure of varying sizes and ownership types. Multiple governing authorities pertaining to the
Water and Wastewater Sector provide for public health, environmental protection, and security
measures, among others.
Essential Workforce, if remote working is not practical:
Employees needed to operate and maintain drinking water and wastewater/drainage infrastructure,
including:
1.
2.
3.
4.
5.
6.
7.
8.
9.

Operational staff at water authorities
Operational staff at community water systems
Operational staff at wastewater treatment facilities
Workers repairing water and wastewater conveyances and performing required sampling or
monitoring
Operational staff for water distribution and testing
Operational staff at wastewater collection facilities
Operational staff and technical support for SCADA Control systems
Chemical disinfectant suppliers for water and wastewater and personnel protection
Workers that maintain digital systems infrastructure supporting water and wastewater
operations

9

Case 2:20-cv-06414-JFW-PJW Document 1-7 Filed 07/17/20 Page 10 of 23 Page ID #:121
April 28, 2020

6. TRANSPORTATION AND LOGISTICS
Sector Profile
The Transportation Systems Sector consists of seven key subsectors, or modes:
•

Aviation includes aircraft, air traffic control systems, and airports, heliports, and landing strips.
Commercial aviation services at civil and joint-use military airports, heliports, and sea plane
bases. In addition, the aviation mode includes commercial and recreational aircraft (manned
and unmanned) and a wide variety of support services, such as aircraft repair stations, fueling
facilities, navigation aids, and flight schools.

•

Highway and Motor Carrier encompasses roadway, bridges, and tunnels. Vehicles include trucks,
including those carrying hazardous materials; other commercial vehicles, including bicycles,
commercial motor coaches and school buses; vehicle and driver licensing systems; taxis,
transportation services including Transportation Network Companies, and delivery services
including Delivery Network Companies; traffic management systems; AND cyber systems used
for operational management.

•

Maritime Transportation System consists of coastline, ports, waterways, and intermodal
landside connections that allow the various modes of transportation to move people and goods
to, from, and on the water.

•

Mass Transit and Passenger Rail includes terminals, operational systems, and supporting
infrastructure for passenger services by transit buses, trolleybuses, monorail, heavy rail—also
known as subways or metros—light rail, passenger rail, and vanpool/rideshare.

•

Pipeline Systems consist of pipelines carrying natural gas hazardous liquids, as well as various
chemicals. Above-ground assets, such as compressor stations and pumping stations, are also
included.

•

Freight Rail consists of major carriers, smaller railroads, active railroad, freight cars, and
locomotives.

•

Postal and Shipping includes large integrated carriers, regional and local courier services, mail
services, mail management firms, and chartered and delivery services.

Essential Workforce, if remote working is not practical:
1. Employees supporting or enabling transportation functions, including truck drivers, bus drivers,
dispatchers, maintenance and repair technicians, warehouse workers, truck stop and rest area
workers, towing and recovery services, roadside assistance workers, intermodal transportation
personnel, and workers that maintain and inspect infrastructure
2. Working supporting or providing services that enable logistics operations for essential sectors,
wholesale and retail sale, including warehousing, cooling, storing, packaging, and distributing
products for wholesale or retail sale or use.
3. Workers supporting maintenance and operation of essential highway infrastructure, including
roads, bridges, and tunnels.

10

Case 2:20-cv-06414-JFW-PJW Document 1-7 Filed 07/17/20 Page 11 of 23 Page ID #:122
April 28, 2020
4. Workers of firms providing services, supplies, and equipment that enable warehouse and
operations, including cooling, storing, packaging, and distributing products for wholesale or
retail sale or use.
5. Mass transit workers providing critical transit services and/or performing critical or routine
maintenance to mass transit infrastructure or equipment.
6. Employees supporting personal and commercial transportation services, including taxis, bicycle
services, Transportation Network Companies, and delivery services including Delivery Network
Companies
7. Workers responsible for operating dispatching passenger, commuter and freight trains and
maintaining rail infrastructure and equipment
8. Maritime transportation and inland waterway workers – to include maintenance and repair –
including port authority and commercial facility personnel, dredgers, port workers, mariners,
ship crewmembers, ship pilots and tugboat operators, ship supply, chandler, and equipment
operators.
9. Workers who support the operation, inspection, and maintenance of essential dams, locks, and
levees.
10. Workers who support the inspection and maintenance of aids to navigation and other
government-provided services that ensure continued maritime commerce.
11. Workers supporting transportation of chemicals, hazardous, medical, waste and recyclable
materials to support critical sectors and infrastructure.
12. Automotive repair, maintenance, and transportation equipment manufacturing and distribution
facilities.
13. Transportation safety inspectors, including hazardous material inspectors and accident
investigator inspectors
14. Manufacturers and distributors (to include service centers and related operations) of lighting
and communication systems, specialized signage and structural systems, emergency response
equipment and support materials, printers, printed materials, packaging materials, pallets,
crates, containers, and other supplies needed to support manufacturing, packaging staging and
distribution operations
15. Postal, parcel, courier, last-mile delivery, and shipping workers, to include private companies
who accept, process, transport, and deliver information and goods.
16. Workers who supply equipment and materials for maintenance of transportation equipment.
17. Employees who repair and maintain vehicles, aircraft, rail equipment, marine vessels, bicycles,
and the equipment and infrastructure that enables operations that encompass movement of
cargo and passengers
18. Workers who support air transportation for cargo and passengers, including operation
distribution, maintenance, and sanitation. This includes air traffic controllers, flight dispatchers,
maintenance personnel, ramp workers, fueling agents, flight crews, airport safety inspectors and
engineers, airport operations personnel, aviation and aerospace safety workers, security,
commercial space personnel, operations personnel, accident investigators, flight instructors,
and other on- and off-airport facilities workers.
19. Workers critical to the manufacturing, distribution, sales, rental, leasing, repair, and
maintenance of vehicles and other transportation equipment (including electric vehicle charging
stations) and the supply chains that enable these operations, subject to adhering public health
guidance issued by CDPH.
20. Workers who support the operation, inspection, and maintenance of essential public works
facilities and operations, including bridges, water and sewer main breaks, fleet maintenance
personnel, construction of critical or strategic infrastructure, construction material
11

Case 2:20-cv-06414-JFW-PJW Document 1-7 Filed 07/17/20 Page 12 of 23 Page ID #:123
April 28, 2020
suppliers, traffic signal maintenance, emergency location services for buried utilities,
maintenance of digital systems infrastructure supporting public works operations, and other
emergent issues
21. Workers who support, such as road and line clearing, to ensure the availability of needed
facilities, transportation, energy and communications.

12

Case 2:20-cv-06414-JFW-PJW Document 1-7 Filed 07/17/20 Page 13 of 23 Page ID #:124
April 28, 2020

7. COMMUNICATIONS AND INFORMATION TECHNOLOGY
Sector Profile
The Communications Sector provides products and services that support the efficient operation of
today’s global information-based society. Communication networks enable people around the world
to contact one another, access information instantly, and communicate from remote areas. This
involves creating a link between a sender (including voice signals) and one or more recipients using
technology (e.g., a telephone system or the Internet) to transmit information from one location to
another. Technologies are changing at a rapid pace, increasing the number of products, services,
service providers, and communication options. The national communications architecture is a
complex collection of networks that are owned and operated by individual service providers. Many
of this sector’s products and services are foundational or necessary for the operations and services
provided by other critical infrastructure sectors. The nature of communication networks involves
both physical infrastructure (buildings, switches, towers, antennas, etc.) and cyber infrastructure
(routing and switching software, operational support systems, user applications, etc.), representing
a holistic challenge to address the entire physical-cyber infrastructure.
The IT Sector provides products and services that support the efficient operation of today’s global
information-based society and are integral to the operations and services provided by other critical
infrastructure Sectors. The IT Sector is comprised of small and medium businesses, as well as large
multinational companies. Unlike many critical infrastructure Sectors composed of finite and easily
identifiable physical assets, the IT Sector is a functions-based Sector that comprises not only physical
assets but also virtual systems and networks that enable key capabilities and services in both the
public and private sectors.
Essential Workforce – Communications, if remote working is not practical:
1. Maintenance of communications infrastructure- including privately owned and maintained
communication systems- supported by technicians, operators, call-centers, wireline and wireless
providers, cable service providers, satellite operations, Internet Exchange Points, Network
Access Points, back haul and front haul facilities, and manufacturers and distributors of
communications equipment.
2. Workers performing functions related to undersea cable infrastructure and support facilities,
including cable landing sites, beach manhole vaults and covers, submarine cable depots, and
submarine cable ship facilities
3. Government and private sector employees supporting Department of Dense internet and
communications facilities.
4. Workers who support radio, television, and media service, including, but not limited to front line
news reporters, studio, and technicians for newsgathering, reporting, and publishing news.
5. Network Operations staff, engineers and/or technicians to include IT managers and staff, HVAC
& electrical engineers, security personnel, software and hardware engineers, and database
administrators that manage the network or operate facilities
6. Workers responsible for infrastructure construction and restoration, including contractors for
construction and engineering of fiber optic cables, buried conduit, small cells, other wireless
facilities, and other communications sector-related infrastructure. This includes construction of
13

Case 2:20-cv-06414-JFW-PJW Document 1-7 Filed 07/17/20 Page 14 of 23 Page ID #:125
April 28, 2020

7.
8.
9.

10.

11.
12.

13.

14.

new facilities and deployment of new technology required to address congestion or customer
usage on remote services.
Installation, maintenance and repair technicians that establish, support or repair service as
needed.
Central office personnel to maintain and operate central office, data centers, and other network
office facilities, and critical support personnel assisting front line employees
Customer service and support staff, including managed and professional services as well as
remote providers of support to transitioning employees to set up and maintain home offices,
who interface with customers to manage or support service environments and security issues,
including payroll, billing, fraud, logistics and troubleshooting
Workers providing electronic security, fire, monitoring, and life safety services, and who ensure
physical security, cleanliness, and the safety of facilities and personnel, including those who
provide temporary licensing waivers for security personnel to work in other States or
Municipalities.
Dispatchers involved with service repair and restoration
Retail customer service personnel at critical service center locations for onboarding customers,
distributing and repairing equipment and other supply chain personnel, to support individuals’
remote emergency communications needs;
External Affairs personnel to assist in coordinating with local, state, and federal officials to
address communications needs supporting COVID-19 response, public safety, and national
security.
Workers responsible for ensuring that persons with disabilities have access to and the benefits
of various communications platforms, including those involved in the provision of
telecommunication relay services, closed captioning of broadcast television for the deaf, video
relay services for deaf citizens who prefer communication via American Sign Language over text,
and audio-description for television programming.

Essential Workforce - Information Technology, if remote working is not practical:
15. Workers who support command centers, including, but not limited to Network Operations
Command Centers, Broadcast Operations Control Center and Security Operations Command
Centers
16. Data center operators, including system administrators, HVAC & electrical engineers, security
personnel, IT managers and purchasers, data transfer solutions engineers, software and
hardware engineers, and database administrators
17. Workers who support client service centers, field engineers, and other workers supporting
critical infrastructure, as well as manufacturers and supply chain vendors that provide hardware
and software, support services, research and development, information technology equipment
(to include microelectronics and semiconductors), and HVAC and electrical equipment for
critical infrastructure and test labs and certification agencies that qualify such equipment for
critical infrastructure.
18. Workers needed to pre-empt and respond to cyber incidents involving critical infrastructure,,
and entities supporting the functioning of critical infrastructure sectors
19. Suppliers, designers, transporters and other workers supporting the manufacture, distribution,
and construction of essential global, national and local infrastructure for computing services
(including cloud computing services and teleworking capabilities), business infrastructure,
financial transactions, web-based services, and critical manufacturing
14

Case 2:20-cv-06414-JFW-PJW Document 1-7 Filed 07/17/20 Page 15 of 23 Page ID #:126
April 28, 2020
20. Workers supporting communications systems, information technology, and work from home
solutions
21. Employees required to support Software as a Service businesses that enable remote working,
performance of business operations, distance learning, media services, and digital health
offerings, or required for technical support crucial for business continuity and connectivity.

15

Case 2:20-cv-06414-JFW-PJW Document 1-7 Filed 07/17/20 Page 16 of 23 Page ID #:127
April 28, 2020

8. GOVERNMENT OPERATIONS AND OTHER COMMUNITY-BASED
ESSENTIAL FUNCTIONS
Essential Workforce, if remote working is not practical.
1. Critical government workers, as defined by the employer and consistent with Continuity of
Operations Plans and Continuity of Government plans.
2. County workers responsible for determining eligibility for safety net benefits
3. The Courts, consistent with guidance released by the California Chief Justice
4. Workers who support administration and delivery of unemployment insurance programs,
income maintenance, employment service, disaster assistance, workers’ compensation
insurance and benefits programs, and pandemic assistance
5. Workers to ensure continuity of building functions, including but not limited to security and
environmental controls, the manufacturing and distribution of the products required for these
functions, and the permits and inspection for construction.
6. Elections personnel
7. Federal, State, and Local, Tribal, and Territorial employees who support Mission Essential
Functions and communications networks
8. Trade Officials (FTA negotiators; international data flow administrators)
9. Weather forecasters
10. Workers that maintain digital systems infrastructure supporting other critical government
operations
11. Workers who support necessary credentialing, vetting and licensing operations for critical sector
workers and operations.
12. Workers who are critical to facilitating trade in support of the national, state, and local
emergency response supply chain
13. Workers supporting public and private childcare establishments, pre-K establishments, K-12
schools, colleges, and universities for purposes of distance learning, provision of school
meals, or care and supervision of minors to support essential workforce across all sectors
14. Staff at government offices who perform title search, notary, and recoding services in support of
mortgage and real estate services and transactions;
15. Workers and instructors supporting academies and training facilities and courses for the
purpose of graduating students and cadets that comprise the essential workforce for all
identified critical sectors
16. Clergy for essential support and faith-based services that are provided through streaming or
other technologies that support physical distancing and state public health guidelines.
17. Human services providers, especially for at risk populations, including home delivered meal
providers for older adults, people with disabilities, and others with chronic health conditions;
home-maker services for frail, homebound, older adults; personal assistance services providers
to support activities of daily living for older adults, people with disabilities, and others with
chronic health conditions who live independently in the community with supports and services;
home health providers who deliver health care services for older adults, people with disabilities,
and others with chronic health conditions who live independently in the community with
supports and services.
18. Government entities, and contractors that work in support of local, state, and federal public
health and medical mission sets, including but not limited to supporting access to healthcare
and associated payment functions, conducting public health functions, providing medical care,
16

Case 2:20-cv-06414-JFW-PJW Document 1-7 Filed 07/17/20 Page 17 of 23 Page ID #:128
April 28, 2020
supporting emergency management, or other services necessary for supporting the COVID-19
response.
Relevant Sector Guidance:
•

•
•
•

Schools and institutions of higher education
• Guidance for schools (PDF)
• Directrices para las escuelas sobre el nuevo coronavirus o COVID-19 (PDF)
• Guidance for colleges and universities
• Directrices para las instituciones de educación superior sobre el nuevo coronavirus o
COVID-19
Guidance for K-12 Schools: Distance Learning, School Meals, Child Care and Student Supervision
Guidance for Using Disinfectants at Schools and Child Cares
• Recordatorios para el uso de desinfectantes en las escuelas y guarderías
Community care facilities, including assisted living facilities and child care

17

Case 2:20-cv-06414-JFW-PJW Document 1-7 Filed 07/17/20 Page 18 of 23 Page ID #:129
April 28, 2020

9. CRITICAL MANUFACTURING
Sector Profile
The Critical Manufacturing Sector identifies several industries to serve as the core of the sector:
Primary Metals Manufacturing, Machinery Manufacturing, Electrical Equipment, Appliance, and
Component Manufacturing, Transportation Equipment Manufacturing Products made by these
manufacturing industries are essential to many other critical infrastructure sectors.
Essential Workforce, if remote working is not practical
1. Workers necessary for the manufacturing of metals, industrial minerals, semiconductors,
materials and products needed for supply chains of the critical infrastructure sectors.
2. Workers necessary for the manufacturing of materials and products needed to manufacture
medical equipment and personal protective equipment
3. Workers necessary for mining and production of critical minerals, materials and associated
essential supply chains, and workers engaged in the manufacture and maintenance of
equipment and other infrastructure necessary for mining production and distribution.
4. Workers who produce or manufacture parts or equipment that supports continued operations
for any essential services and increase in remote workforce, including computing and
communication devices, semiconductors, and equipment such as security tools for Security
Operations Centers (SOCs) or data centers.
5. Workers manufacturing or providing parts and equipment that enable the maintenance and
continued operation of essential businesses and facilities.

18

Case 2:20-cv-06414-JFW-PJW Document 1-7 Filed 07/17/20 Page 19 of 23 Page ID #:130
April 28, 2020

10. FINANCIAL SERVICES
Sector Profile
The Financial Services Sector includes thousands of depository institutions, providers of investment
products, insurance companies, other credit and financing organizations, and the providers of the
critical financial utilities and services that support these functions. Financial institutions vary widely
in size and presence, ranging from some of the world’s largest global companies with thousands of
employees and many billions of dollars in assets, to community banks and credit unions with a small
number of employees serving individual communities. Whether an individual savings account,
financial derivatives, credit extended to a large organization, or investments made to a foreign
country, these products allow customers to: Deposit funds and make payments to other parties;
Provide credit and liquidity to customers; Invest funds for both long and short periods; Transfer
financial risks between customers.
Essential Workforce, if remote working is not practical:
1. Workers who are needed to process and maintain systems for processing financial transactions
and services, including payment, clearing, and settlement; wholesale funding; insurance
services; and capital markets activities
2. Workers who are needed to maintain orderly market operations to ensure the continuity of
financial transactions and services.
3. Workers who are needed to provide business, commercial, and consumer access to banking and
non-bank financial and lending services, including ATMs, lending money transmission, and to
move currency, checks, securities, and payments
4. Workers who support financial operations, such as those staffing call, data and security
operations centers, managing physical security, or providing accounting services.
5. Workers supporting production and distribution of debit and credit cards.
6. Workers providing electronic point of sale support personnel for essential businesses and
workers.

19

Case 2:20-cv-06414-JFW-PJW Document 1-7 Filed 07/17/20 Page 20 of 23 Page ID #:131
April 28, 2020

11. CHEMICAL & HAZARDOUS MATERIALS
Sector Profile
The Chemical Sector—composed of a complex, global supply chain—converts various raw materials
into diverse products that are essential to modern life. Based on the product produced, the sector
can be divided into five main segments, each of which has distinct characteristics, growth dynamics,
markets, new developments, and issues: Basic chemicals; Specialty chemicals; Agricultural
chemicals; Pharmaceuticals; Consumer products.
Essential Workforce, if remote working is not practical:
1. Workers supporting the chemical and industrial gas supply chains, including workers at chemical
manufacturing plants, workers in laboratories, workers at distribution facilities, workers who
transport basic raw chemical materials to the producers of industrial and consumer goods,
including hand sanitizers, food and food additives, pharmaceuticals, textiles, building materials,
plumbing, electrical and paper products.
2. Workers supporting the safe transportation of chemicals, including those supporting tank truck
cleaning facilities and workers who manufacture packaging items
3. Workers supporting the production of protective cleaning and medical solutions, personal
protective equipment, disinfectants, and packaging that prevents the contamination of food,
water, medicine, among others essential products
4. Workers supporting the operation and maintenance of facilities (particularly those with high risk
chemicals and/ or sites that cannot be shut down) whose work cannot be done remotely and
requires the presence of highly trained personnel to ensure safe operations, including plant
contract workers who provide inspections
5. Workers who support the production and transportation of chlorine and alkali manufacturing,
single-use plastics, and packaging that prevents the contamination or supports the continued
manufacture of food, water, medicine, and other essential products, including glass container
manufacturing
6. Workers at nuclear facilities, workers managing medical waste, workers managing waste from
pharmaceuticals and medical material production, and workers at laboratories processing test
kits
7. Workers who support hazardous materials response and cleanup
8. Workers who maintain digital systems infrastructure supporting hazardous materials
management operations
9. Workers who support the removal, storage, and disposal of residential and commercial solid
waste and hazardous waste, including landfill and recycling operations.

20

Case 2:20-cv-06414-JFW-PJW Document 1-7 Filed 07/17/20 Page 21 of 23 Page ID #:132
April 28, 2020

12.

DEFENSE INDUSTRIAL BASE
Sector Profile
The Defense Industrial Base Sector is the worldwide industrial complex that enables research and
development, as well as design, production, delivery, and maintenance of military weapons systems,
subsystems, and components or parts, to meet U.S. military requirements. The Defense Industrial
Base partnership consists of Department of Defense components, Defense Industrial Base
companies and their subcontractors who perform under contract to the Department of Defense,
companies providing incidental materials and services to the Department of Defense, and
government-owned/contractor-operated and government-owned/government-operated facilities.
Defense Industrial Base companies include domestic and foreign entities, with production assets
located in many countries. The sector provides products and services that are essential to mobilize,
deploy, and sustain military operations.
Essential Workforce, if remote working is not practical:
1. Workers who support the essential services required to meet national security commitments to
the federal government and U.S. Military, including, but are not limited to, space and aerospace
workers, nuclear matters workers, mechanical and software engineers (various disciplines),
manufacturing and production workers, IT support, security staff, security personnel,
intelligence support, aircraft and weapon system mechanics and maintainers, and sanitary
workers who maintain the hygienic viability of necessary facilities.
2. Personnel working for companies, and their subcontractors, who perform under contract or subcontract to the Department of Defense (DoD) and the Department of Energy (DoE) (on nuclear
matters), as well as personnel at government-owned/contractor operated facilities, and who
provide materials and services to the DoD and DoE (on nuclear matters), including support for
weapon systems, software systems and cybersecurity, defense and intelligence
communications, surveillance, sale of U.S. defense articles and services for export to foreign
allies and partners (as authorized by the U.S. government), and space systems and other
activities in support of our military, intelligence, and space forces.

21

Case 2:20-cv-06414-JFW-PJW Document 1-7 Filed 07/17/20 Page 22 of 23 Page ID #:133
April 28, 2020

13. INDUSTRIAL, COMMERCIAL, RESIDENTIAL, and SHELTERING FACILITIES
AND SERVICES
Essential Workforce, if remote working is not practical:
1. Construction Workers who support the construction, operation, inspection, and maintenance of
construction sites and construction projects (including housing, commercial, and mixed-use
construction); and workers who support the supply chain of building materials from production
through application/installation, including cabinetry, fixtures, doors, cement, hardware,
plumbing, electrical, heating/cooling, refrigeration, appliances, paint/coatings, and employees
who provide services that enable repair materials and equipment for essential functions.
2. Workers such as plumbers, electricians, exterminators, and other service providers who provide
services that are necessary to maintaining the safety, sanitation, construction material sources,
and essential operation of construction sites and construction projects (including those that
support such projects to ensure the availability of needed facilities, transportation, energy and
communications; and support to ensure the effective removal, storage, recycling and disposal of
solid waste and hazardous waste)
3. Workers such as plumbers, electricians, exterminators, and other service providers who provide
services that are necessary to maintaining the safety, sanitation, and essential operation of
residences, businesses, and buildings such as hospitals and senior living facilities, including any
facility supporting COVID-19 response.
4. Workers who support the supply chain of building materials from production through
application and installation, including cabinetry, fixtures, doors, cement, hardware, plumbing
(including parts and services), electrical, heating and cooling, refrigeration, appliances, paint and
coatings, and workers who provide services that enable repair materials and equipment for
essential functions.
5. Workers in hardware and building materials stores, consumer electronics, technology and
appliances retail, and related merchant retailers, wholesalers and distributors that support
essential workforce functions where sales and operations cannot be conducted online
6. Warehouse operators, including vendors and support personnel critical for business continuity
(including heating, ventilation, and air conditioning (HVAC) and electrical engineers, security
personnel, and janitorial staff), e-commerce or online commerce, and customer service for
essential functions.
7. Workers supporting the operations of commercial buildings that are critical to safety, security,
and the continuance of essential activities, such as on-site property managers, building
engineers, security staff, fire safety directors, janitorial personnel, and service technicians (e.g.,
mechanical, HVAC, plumbers, electricians, and elevator).
8. Workers supporting ecommerce through distribution, warehouse, call center facilities, and
other essential operational support functions, that accept, store, and process goods, and that
facilitate their transportation and delivery
9. Workers distributing, servicing, repairing, installing residential and commercial HVAC systems,
boilers, furnaces and other heating, cooling, refrigeration, and ventilation equipment.
10. Workers managing or servicing hotels or other commercial and residential buildings that are
used for COVID-19 mitigation and containment measures, treatment measures, provide
accommodation for essential workers, or providing housing solutions, including measures to
protect homeless populations.

22

Case 2:20-cv-06414-JFW-PJW Document 1-7 Filed 07/17/20 Page 23 of 23 Page ID #:134
April 28, 2020
11. Workers responsible for the leasing of residential and commercial properties to provide
individuals and families with ready access to available housing.
12. Residential and commercial real estate workers, limited to scheduled property viewings to a
potential buying party. This does not extend to open-house viewings, nor viewings with more
than one buying party at a time.
13. Professional services, such as legal or accounting services, when necessary to assist in
compliance with legally mandated activities and critical sector services
14. Workers responsible for handling property management, maintenance, and related service calls
who can coordinate the response to emergency “at-home” situations requiring immediate
attention, as well as facilitate the reception of deliveries, mail, and other necessary services.
15. Workers supporting the entertainment industries, studios, and other related establishments,
provided they follow covid-19 public health guidance around physical distancing.
16. Workers that provide or determine eligibility for food, shelter, in-home supportive services,
child welfare, adult protective services and social services, and other necessities of life for
economically disadvantaged or otherwise needy individuals (including family members)
17. Workers performing services in support of the elderly and disabled populations who coordinate
a variety of services, including health care appointments and activities of daily living.
18. Workers who provide support to vulnerable populations to ensure their health and well-being
including family care providers.
19. Workers providing dependent care services, particularly those whose services ensure essential
workers can continue to work.
20. Workers who support food, shelter, and social services, and other necessities of life for
economically disadvantaged or otherwise needy individuals, such as those residing in shelters.
21. Workers in laundromats, laundry services, and dry cleaners.
22. Workers providing disinfection services, for all essential facilities in essential sectors
23. Workers necessary for the installation, maintenance, distribution, and manufacturing of water
and space heating equipment and its components.
24. Support required for continuity of services, including commercial disinfectant services,
janitorial/cleaning personnel, and support personnel functions that need freedom of movement
to access facilities in support of front-line employees.
Relevant Sector Guidance:
•
•
•
•
•
•
•
•

Cleaning & Waste Management for Residences 2/2020
Essential/Emergency Personnel Providing Critical In-Home Services
Home cleaning with COVID-19 positive individuals
Recommended Strategic Approaches for COVID-19 Response for Individuals Experiencing
Homelessness
Flow Chart: COVID-19 Recommended Protocol for People Experiencing Homelessness
Homeless Assistance Providers
Immigrant Communities
• Las Comunidades de Inmigrantes
Pets & People

23

Case 2:20-cv-06414-JFW-PJW Document 1-8 Filed 07/17/20 Page 1 of 3 Page ID #:135

ORDER OF THE STATE PUBLIC HEALTH
OFFICER
May 7, 2020
On March 19, 2020, I issued an order directing all individuals living in the State of
California to stay at home except as needed to facilitate authorized, necessary
activities or to maintain the continuity of operations of critical infrastructure
sectors. (See https://covid19.ca.gov/stay-home-except-for-essential-needs/.) I
then set out California’s path forward from this “Stay-at-Home” Order in
California’s Pandemic Roadmap https://www.gov.ca.gov/wpcontent/uploads/2020/05/5.4.20-Update-on-Californias-PandemicRoadmap.pdf.That Roadmap identifies four stages of the pandemic: safety and
preparation (Stage 1), reopening of lower-risk workplaces and other spaces
(Stage 2), reopening of higher-risk workplaces and other spaces (Stage 3), and
finally an easing of final restrictions leading to the end of the stay at home order
(Stage 4).
Today, COVID-19 continues to present a significant risk to the health of
individuals throughout California. There are confirmed cases of the virus in 54 of
the 58 counties across the State, and each day over the past two weeks over
one thousand new cases have been confirmed in California and dozens of
people have lost their lives due to the virus. However, owing to Californians’
mitigation efforts, statewide data currently demonstrates stable rates of new
infections and hospitalizations, the maintenance of surge capacity, and an
improved ability to test, contact trace, isolate, and provide support to
individuals exposed to COVID-19. As State Public Health Officer, I have
determined that the statewide data now supports the gradual movement of the
entire state from Stage 1 to Stage 2 of California’s Pandemic Resilience
Roadmap.

Case 2:20-cv-06414-JFW-PJW Document 1-8 Filed 07/17/20 Page 2 of 3 Page ID #:136

Gradual movement into Stage 2 is intended to reintroduce activities and sectors
in a phased manner and with necessary modifications, in order to protect public
health and result in a lower risk for COVID-19 transmission and outbreak in a
community. Such deliberate phasing is critical to allowing the State to protect
the public, and to mitigate and manage the impact of the re-openings, such
that our health care delivery system has the capacity to respond to potential
increased demands. Differences across the state in the prevalence of COVID19, as well as testing rates, containment capability, and hospital capacity, have
resulted in differences among local health jurisdictions’ ability to safely progress
through the various stages. The low and stable data reported by some local
health officers in their local health jurisdictions, combined with sufficient COVID19 preparedness, justifies allowance for some variation in the speed with which
some local health jurisdictions will be able to move through the phases of Stage
2.
NOW, THEREFORE, I as State Public Health Officer and Director of the
California Department of Public Health, order:
1. All local health jurisdictions in the state may begin gradual
movement into Stage 2, as set forth in this Order, effective on May 8,
2020; however, a local health jurisdiction may implement or
continue more restrictive public health measures if the jurisdiction’s
Local Health Officer believes conditions in that jurisdiction warrant it.
2. I will progressively designate sectors, businesses, establishments, or
activities that may reopen with certain modifications, based on public
health and safety needs, and I will add additional sectors, businesses,
establishments, or activities at a pace designed to protect public health
and safety. Those sectors, businesses, establishments, or activities that are
permitted to open will be designated, along with necessary modifications,
at https://covid19.ca.gov/roadmap/, as I announce them.
3. To the extent that such sectors are re-opened, Californians may leave
their homes to work at, patronize, or otherwise engage with those
businesses, establishments, or activities and must, when they do so,
continue at all times to practice physical distancing, minimize their time
outside of the home, and wash their hands frequently. To prevent further
spread of COVID-19 to and within other jurisdictions within the State,
Californians should not travel significant distances and should stay close to
home. My March 19, 2020, Order otherwise remains in full effect.

Case 2:20-cv-06414-JFW-PJW Document 1-8 Filed 07/17/20 Page 3 of 3 Page ID #:137

4. The California Department of Public Health has set forth criteria to help
local health officers assess the capacity of their local health jurisdictions to
move through Stage 2. Local health jurisdictions that meet the criteria and
follow the process set forth
https://www.cdph.ca.gov/Programs/CID/DCDC/Pages/COVID19/COVID-19-County-Variance-Attestation-Memo.aspx will be permitted
to move through Stage 2 more quickly than the State as a whole and
reopen additional low-risk businesses before the rest of the state, if they
choose to do so. A list of the sectors, businesses, establishments, or
activities, and any necessary modifications, that such a qualifying
jurisdiction may choose to reopen will be available at
https://covid19.ca.gov/roadmap-counties/, and may be expanded if I
deem it to be in the interest of public health and safety.
Pursuant to the authority under EO N-60-20, and Health and Safety
Code sections 120125, 120140, 131080, 120130(c), 120135, 120145,
120175 and 120150, this Order is to go into effect immediately and
shall stay in effect until further notice.
This Order is being issued to protect the public health of Californians
as we move as expeditiously to minimize risk to the extent possible
throughout the Stages of the Pandemic Resilience Roadmap.

Sonia Y Angell, MD, MPH
State Public Health Officer & Director
California Department of Public Health

012314545Case 2:20-cv-06414-JFW-PJW Document
678997 7ÿ61-9
ÿÿ
 07/17/20
98ÿ2ÿ67
8 871 of 5
Filed
Page

#$%&'()*#+*,$%

-7 ./0/12ÿ0456746/ÿ

89:;

=9>?@?9:A9ÿ=CDEFDG

Page ID #:138

<

H4I2ÿ7JK42/KÿL75/ÿMNOÿPQPQÿ42ÿPRMQÿST

U40VWXY5V45IÿZ4[/ÿ\//5ÿI24]V56ÿZX^/ÿ45KÿI4[V56ÿ0V[/IÿIV51/ÿ2Z/ÿI24Y2ÿXWÿX7YÿI242/_VK/ÿI24]`42`
ZX^/ÿXYK/YÿVII7/KÿX5ÿT4Y1ZÿMaOÿPQPQbÿcZ/I/ÿ/WWXY2IÿZ4[/ÿ400X_/Kÿ2Z/ÿI242/ÿ2Xÿ^X[/ÿWXY_4YKÿX5
X7YÿYX4K^4JÿWXYÿ^XKVW]V56ÿ2Z/ÿI242/_VK/ÿXYK/Ybÿ
e/ÿ4Y/ÿ5X_ÿV5ÿ/4Y0]ÿfgDh9ÿiOÿ_Z/Y/ÿY/24V0OÿY/042/Kÿ0X6VI2V1Iÿ45Kÿ^457W4127YV56OÿXWj1/
_XYkJ041/IOÿ0V^V2/KÿJ/YIX540ÿI/Y[V1/IOÿX72KXXYÿ^7I/7^IOÿ1ZV0Kÿ14Y/Oÿ45Kÿ/II/52V40ÿ\7IV5/II/I
145ÿXJ/5ÿ_V2Zÿ^XKVj142VX5IbÿcZ/ÿI242/ÿVIÿVII7V56ÿ67VK451/ÿ2XÿZ/0Jÿ2Z/I/ÿ_XYkJ041/IÿY/XJ/5
I4W/0]b

fm+,nÿ(o
fDp9gqÿD:EÿGr9GDr9E:9>>

fm+,nÿio
sCt9rur?>vÿtCrvG@DA9>

81192 !11

l
l

21"

h

012314545Case 2:20-cv-06414-JFW-PJW Document
678997 7ÿ61-9
ÿÿ
 07/17/20
98ÿ2ÿ67
8 872 of 5
Filed
Page

ijklmÿnoÿ
p-ST/,q,-RUÿr$,Usg+./R

ijklmÿtoÿ
m&Qÿ$uÿi'+(ÿp$f/ÿv,Q/,

Page ID #:139

h

#$%&'(ÿ*+,-+&./

01234ÿ6ÿ47829:;<9ÿ=;>>ÿ?4ÿ8@2:4Aÿ;9ÿ3B2AC2>>DEÿ0<F4ÿG<FFC9;1;4:ÿF2DÿF<H4ÿ1@B<C3@ÿ01234ÿ6
I2:14Bÿ;Iÿ1@4Dÿ2B4ÿ2?>4ÿ1<ÿ:@<=ÿ3B4214Bÿ8B<3B4::EÿJ<C91;4:ÿ1@21ÿ@2H4ÿF41ÿ1@4ÿB42A;94::ÿGB;14B;2
29Aÿ=<BK4Aÿ=;1@ÿ1@4ÿJ2>;I<B9;2ÿL482B1F491ÿ<IÿMC?>;GÿN42>1@ÿG29ÿ<849ÿF<B4ÿ=<BK8>2G4:ÿ2:
<C1>;94Aÿ<9ÿ1@4ÿJ<C91DÿO2B;29G4ÿ8234E

P&Q%R',(ÿS%-Q+&./ÿ'$ÿ,/Q%./ÿ'T/ÿ,-RU

J2>;I<B9;2ÿF<H4Aÿ;91<ÿ01234ÿ6ÿ<IÿF<A;ID;93ÿ1@4ÿ:1214V:ÿ012DW21WN<F4ÿ<BA4Bÿ<9ÿX2DÿYZÿ6[6[Eÿ\CB
8B<3B4::ÿ;9ÿ2G@;4H;93ÿK4Dÿ8C?>;Gÿ@42>1@ÿF41B;G:ÿ=;>>ÿ2>><=ÿ2ÿ3B2AC2>ÿB4W<849;93ÿ<IÿJ2>;I<B9;2V:
4G<9<FDE
]4ÿB4G<39;^4ÿ1@4ÿ;F82G1ÿ<Iÿ4G<9<F;Gÿ@2BA:@;8Eÿ]4ÿFC:1ÿ341ÿ<CBÿ4G<9<FDÿB<2B;93ÿ<9G4ÿ232;9
29Aÿ8C1ÿ82DG@4GK:ÿ;9ÿ84<8>4V:ÿ8<GK41:Eÿ_C1ÿ1@4ÿB;:Kÿ<IÿJ\OL̀Wabÿ;9I4G1;<9ÿ;:ÿ:1;>>ÿB42>ÿI<Bÿ2>>
J2>;I<B9;29:ÿ29AÿG<91;9C4:ÿ1<ÿ?4ÿI212>E
c@4ÿ:1214ÿ;:ÿ;::C;93ÿ3C;A29G4ÿI<Bÿ?C:;94::4:ÿ1<ÿI<>><=Zÿ;Iÿ1@4DVB4ÿ84BF;114Aÿ1<ÿ<849ÿ84BÿJ<C91D
MC?>;GÿN42>1@ÿBC>4:E

d;9Aÿ1@4ÿ̀9AC:1BDÿeC;A29G4

#%R'$f/,Rÿ+&Qÿ-&Q-*-Q%+gR

81192 !11

41"

012314545Case 2:20-cv-06414-JFW-PJW Document
678997 7ÿ61-9
ÿÿ
 07/17/20
98ÿ2ÿ67
8 873 of 5
Filed
Page

Page ID #:140

$%&'()*+&ÿ-./ÿ0./010/%-2&ÿ-+*ÿ*.3(%+-4*/ÿ'(ÿ&'-5ÿ6()*ÿ07ÿ'6*5ÿ6-1*ÿ-ÿ7*1*+ÿ(+ÿ('6*+ÿ$89:;<=>
&5)?'()&@ÿA6(&*ÿB0'6ÿ&5)?'()&ÿ(+ÿ*2*1-'*/ÿ'*)?*+-'%+*&ÿ&6(%2/ÿ.('ÿ&6(?Cÿ4*'ÿ&*+103*&ÿ0.
?*+&(.Cÿ4(ÿ'(ÿB(+DCÿ(+ÿ4-'6*+ÿB0'6ÿ('6*+&@ÿ:7ÿ5(%E+*ÿ.('ÿ&%+*ÿ07ÿ'60&ÿ-??20*&ÿ'(ÿ5(%Cÿ36*3Dÿ5(%+
&5)?'()&ÿB0'6ÿ'60&ÿF5)?'()ÿF3+**.*+@
G046*+ÿ+0&Dÿ0./010/%-2&ÿH(1*+ÿIJÿ(+ÿB0'6ÿ&*+0(%&ÿ)*/03-2ÿ3(./0'0(.&Kÿ&6(%2/ÿ3(.'0.%*ÿ'(ÿ&'-5ÿ6()*
%.'02ÿF'-4*ÿL@ÿM0.0)0N*ÿ*++-./&ÿO5ÿ4*''0.4ÿ4+(3*+0*&ÿ/*201*+*/ÿ(+ÿ-&D0.4ÿ7(+ÿ6*2?ÿ7+()ÿ7+0*./&ÿ(+
7-)025@
PQRSÿUVWXYZ[ÿ$+(B/*/ÿ&*''0.4&ÿ0.3+*-&*ÿ5(%+ÿ+0&Dÿ(7ÿ*\?(&%+*ÿ'(ÿ$89:;<=>@ÿ]*-+ÿ-ÿ7-3*ÿ3(1*+0.4
(+ÿ32('6ÿ)-&DCÿ&'-5ÿIÿ7**'ÿ-B-5ÿ7+()ÿ('6*+&Cÿ-1(0/ÿ'(%360.4ÿ5(%+ÿ7-3*Cÿ-./ÿB-&6ÿ5(%+ÿ6-./&
B6*.ÿ5(%ÿ4*'ÿ6()*@

^
P_V`XÿabÿPVWX_ZÿVcdÿSeXSVeXdcXUU

$(.'0.%*ÿ'(ÿO%02/ÿ(%'ÿ'*&'0.4Cÿ3(.'-3'ÿ'+-30.4CÿffgCÿ-./ÿ6(&?0'-2ÿ&%+4*ÿ3-?-30'5@
$(.'0.%*ÿ'(ÿ)-D*ÿ*&&*.'0-2ÿB(+D?2-3*&ÿ-&ÿ&-7*ÿ-&ÿ?(&&0O2*h
f65&03-2ÿ-./ÿB(+Dÿi(Bÿ-/-?'-'0(.
g&&*.'0-2ÿB(+D7(+3*ÿ&-7*'5ÿ.*'
M-D*ÿffgÿ)(+*ÿB0/*25ÿ-1-02-O2*
:./010/%-2ÿO*6-10(+ÿ36-.4*&

F'-5ÿ-'ÿ6()*ÿ*\3*?'ÿ7(+ÿ*&&*.'0-2ÿ-./ÿ?*+)0''*/ÿ-3'010'0*&
f+*?-+*ÿ&*3'(+<O5<&*3'(+ÿ&-7*'5ÿ4%0/*20.*&ÿ7(+ÿ*\?-./*/ÿB(+D7(+3*@

^^^
P_V`XÿjbÿkRlXemenUoÿlReoSYVpXU

q+-/%-225ÿ(?*.0.4ÿ&()*ÿ2(B*+ÿ+0&DÿB(+D?2-3*&ÿB0'6ÿ-/-?'-'0(.&ÿ-'ÿ-ÿ?-3*
/*&04.*/ÿ'(ÿ?+('*3'ÿ?%O203ÿ6*-2'6ÿ-./ÿ&-7*'5Cÿ&'-+'0.4ÿB0'6h
81192 !11

"1#

012314545Case 2:20-cv-06414-JFW-PJW Document
678997 7ÿ61-9
ÿÿ
 07/17/20
98ÿ2ÿ67
8 874 of 5
Filed
Page

Page ID #:141

#$%&'(
)&*+,&-%+.'*/
0,1-$2ÿ456$*ÿ%$($57.8ÿ*7%ÿ9722':($;
0+%<77.ÿ)+2$+=2
>'='%$<ÿ?$.27*&(ÿ@$.A'-$2

>'='%ÿ%'=$ÿ7+%2'<$ÿ%6$ÿ67=$ÿ&*<ÿ%.&A$(ÿ7*(Bÿ,7.ÿ9$.='22':($ÿ&-%'A'%'$2Cÿ2+-6ÿ&2
6$&(%6-&.$Cÿ,77<Cÿ7+%<77.ÿ$D$.-'2$ÿ&*<ÿ.$-.$&%'7*ÿ4'*<'A'<+&(2ÿ&*<ÿ67+2$67(<2
7*(B;Eÿ@%&/$ÿFÿ&*<ÿGÿ57.8Cÿ&*<ÿ(7-&(ÿ26799'*/ÿ7.ÿ7%6$.ÿ&-%'A'%'$2ÿ.$(&%$<ÿ%7ÿ79$*
2$-%7.2E
@7=$ÿ-7+*%'$2ÿ=&Bÿ=7A$ÿ=7.$ÿH+'-8(Bÿ%6.7+/6ÿ2%&/$ÿGCÿ,7((75'*/ÿ/+'<$('*$2ÿ(&'<
7+%ÿ7*ÿ%6$ÿ-7+*%BÿA&.'&*-$ÿ9&/$E
0%6$.ÿ-7+*%'$2ÿ=&Bÿ=&'*%&'*ÿ=7.$ÿ.$2%.'-%'A$ÿ9+:('-ÿ6$&(%6ÿ=$&2+.$2E
)7*'%7.ÿ-.'%'-&(ÿ'*<'-&%7.2ÿ&*<ÿ&(%$.ÿ2-79$ÿ7,ÿ.$79$*'*/ÿ',ÿ*$-$22&.Bÿ%7ÿ9.7%$-%
9+:('-ÿ6$&(%6ÿ&*<ÿ2&,$%BE

I
JKLMNÿPQÿRSMTNUVUSWXÿYZUX[\L]NW

?6&2$ÿ'*ÿ6'/6$.^.'28ÿ57.89(&-$2ÿ&%ÿ&ÿ9&-$ÿ<$2'/*$<ÿ%7ÿ9.7%$-%ÿ9+:('-ÿ6$&(%6ÿ&*<
2&,$%BCÿ:$/'**'*/ÿ5'%6ÿ('='%$<ÿ9$.27*&(ÿ-&.$ÿ&*<ÿ.$-.$&%'7*&(ÿA$*+$2ÿ45'%6
57.89(&-$ÿ=7<'1-&%'7*2;E
_.&A$(ÿ,7.ÿ9$.='22':($ÿ&-%'A'%'$2Cÿ2+-6ÿ&2ÿ6$&(%6-&.$Cÿ,77<Cÿ2%&/$2ÿF^`ÿ57.8Cÿ&*<
(7-&(ÿ7.ÿ&-%'A'%'$2ÿ26799'*/ÿ.$(&%$<ÿ%7ÿ79$*ÿ2$-%7.2E
)7*'%7.ÿ-.'%'-&(ÿ'*<'-&%7.2ÿ&*<ÿ&(%$.ÿ2-79$ÿ7,ÿ.$79$*'*/ÿ',ÿ*$-$22&.Bÿ%7ÿ9.7%$-%
9+:('-ÿ6$&(%6ÿ&*<ÿ2&,$%BE
81192 !11

31"

#
$%&'(ÿ*+ÿ,-.ÿ/0ÿ1%&2ÿ&%ÿ3/4(ÿ/5.(5

012314545Case 2:20-cv-06414-JFW-PJW Document
678997 7ÿ61-9
ÿÿ
 07/17/20
98ÿ2ÿ67
8 875 of 5
Filed
Page

Page ID #:142

6789:8;;<ÿ>?@Aÿ;87B@7ÿB8CD@7EABÿF@A:@Gÿ8Cÿ8ÿ?8H@ÿH>AGEGC@ACÿIECDÿ?:J;EHÿD@8;CD
8A9ÿG8K@C<LÿG:HDÿ8GÿAEBDCH;:JGLÿH>AH@7CÿF@A:@GLÿ8A9ÿ;EF@ÿ8:9E@AH@ÿG?>7CGM
6789:8;;<ÿ7@G:N@ÿ7@N8EAEABÿ8HCEFECE@Gÿ8A9ÿC78F@;M
O>AEC>7ÿH7ECEH8;ÿEA9EH8C>7Gÿ8A9ÿ8;C@7ÿGH>?@ÿ>Kÿ7@>?@AEABÿEKÿA@H@GG87<ÿC>ÿ?7>C@HC
?:J;EHÿD@8;CDÿ8A9ÿG8K@C<M

j@?87CN@ACÿ>Kÿd:J;EHÿk@8;CD
6>F@7A>7lGÿm@IG7>>N
cHH@GGEJE;EC<
d7EF8H<ÿd>;EH<
b@@9J8Hn
PQRSTUVWÿ3/%XY-(Zÿ[\]^^\_``\_`aaÿO\bÿ]cO\]dOLÿe8\e:ÿ]cO\adO
fKgHE8;ÿh8;EK>7AE8ÿeC8C@ÿ6>F@7AN@ACÿi@JGEC@
h>:AC<ÿ8;@7CG ÿe@87HD ÿo8HnÿC>ÿC>?

81192 !11

"1"

Case 2:20-cv-06414-JFW-PJW Document 1-10 Filed 07/17/20 Page 1 of 13 Page ID #:143

23456789ÿ
56 ÿ
 56 2ÿ

ÿÿ!ÿ
"#ÿ$#ÿÿ
%&ÿ$ÿ
"#ÿ2&'&ÿ
2("ÿ
)*ÿ+,-ÿ+.+.ÿ
ÿ #89/
$
/%$ÿ

0ÿ

Case 2:20-cv-06414-JFW-PJW Document 1-10 Filed 07/17/20 Page 2 of 13 Page ID #:144

01231425ÿ

78ÿ ÿÿÿÿÿÿ ÿ7ÿ8ÿ  ÿÿÿ!  8ÿ
" #8ÿÿÿ ÿ$$ÿ8ÿ ÿ%8&ÿ# $ÿ!  88$ÿÿ$'ÿÿ #ÿ
ÿ$"ÿÿ$" ÿÿ!7()*ÿ# 8&ÿÿ" "8+ÿÿ
,ÿ#" ÿÿ!7()*ÿ8ÿÿ ÿÿ!  88$ÿ$ÿ8 ÿ'ÿ'ÿ-8 .8+ÿ/" ÿ
8$$ÿ 8&$ÿ #ÿ0'ÿ#ÿ1$#ÿ" "ÿ 0ÿ8 ÿ$'#"#$2ÿÿ$0ÿ8$$ÿ ÿ# 'ÿ
$ÿ8ÿ +ÿ!8ÿ& "$ÿ8 8&ÿ" "ÿ&ÿ34ÿ ÿÿ8ÿ $ÿ.ÿ$$ÿ
8'8&ÿ# ÿ 88$ÿ$ ÿ$ÿ ÿ ÿ8&ÿ$ $ÿ ÿ$ÿ ÿÿ&ÿ
$-ÿÿ $"5 8ÿ8ÿ$$ÿ #" 8$+ÿ, 8$#$$8ÿ$ÿ# $ÿ-'ÿ.8ÿ" "ÿ
ÿ8ÿ$ÿ 8 ÿ.ÿ8ÿ8 ÿ"$8ÿ08ÿÿ ÿ"$8ÿ $ÿ8 ÿ 0ÿ8'ÿ
$'#"#$ÿ ÿ $ÿ8 ÿ'ÿ0"ÿ$'#"#$+ÿ
 $ÿ8 # 8ÿ ÿÿ8#ÿ8ÿ $ÿÿ!7()*ÿ'ÿ8$'ÿ ÿ
" 8 ÿ& "$ÿ8 8&ÿ# 8&ÿ  ÿ8 $ ÿ. -$ÿ$ÿ8 ÿ0 ÿÿ
$ÿ#+ÿ,ÿ 0ÿ8ÿ#"ÿ -$ÿ8ÿÿ 8&ÿÿ. -" $ÿ8 8&ÿ ÿ
. -$ÿ ÿÿ$-ÿÿ %8&ÿ ÿ 8$#8&ÿ!7()*ÿ8 8+ÿ67 #"$ÿÿ$ÿ
. -" $ÿ8 ÿ" $ÿÿ. $"ÿ8&*#ÿ ÿ $ÿ"$8$ÿ ÿ
"  8ÿ.  $$ÿ# ÿ" $$8&ÿ"8$ÿ8ÿ& 'ÿ$ $+ÿÿ
8$ÿ$'** #ÿ $ÿ ÿ# ÿÿ$ÿ$$8ÿ ÿÿ" $$ÿ$"$ÿÿ-8ÿÿ
8$ÿÿ$ 'ÿÿ. -$ÿ8ÿÿ"+ÿÿ
9'ÿ"088ÿ" $ÿ8 :ÿ
; "'$ ÿ$8 8&ÿÿÿ# 7##ÿ78ÿ" $$
; $ÿÿ ÿ 08&$ÿ'ÿ#"'$ÿ8ÿ0 8$ÿ1.ÿ$"  'ÿ"  8
$ÿ8 ÿ%2ÿ8ÿ 8&& 8$<0$ $
; %8ÿ 8. $8&ÿ8ÿ& ÿ 88&ÿ8ÿ$8 8
;  88&ÿ#"'$ÿ8ÿ0 8$ÿ8ÿ$ÿ8ÿÿ#8$ÿÿÿ!7()*
"088ÿ"8+
)8ÿ8ÿÿ.ÿÿ  ÿÿ 0ÿ8ÿ" ÿ"" "ÿ" $$$ÿÿ8'ÿ8.ÿ
$$ÿÿ8$$ÿ8ÿ. -" $ÿ8ÿ.8ÿ'ÿ ÿ8ÿÿ808ÿ%-'ÿ8ÿ
. -ÿ.ÿ"ÿ ÿ $ÿÿ ÿÿ$" ÿÿÿ0$+ÿÿ

=>3=0?2ÿ

,$ÿ #8ÿ" 0$ÿ& 8 ÿ ÿ" $ÿÿ. $"ÿ8ÿ" 0$ÿÿ&$ÿ
$0$ÿ8ÿ ÿ# 8$ÿ1@ABA@@ACÿEFÿGFHHAGEIJAHKÿLMÿN" $ÿÿ. $"O2ÿÿ
$"" ÿÿ$ ÿ 8ÿ80 8#8ÿ ÿ#"'$ÿ88$ÿ8ÿ 8$ÿ0 8$ÿ
$  $ÿ8ÿÿÿ'"$ÿÿ. -$ÿ1 ÿÿ  0'ÿ$ÿN$O2ÿ$ÿ.ÿ$ÿ
8&& 8$ÿ. $""$ÿ0$ $ÿ+ÿP@ABA@@ACÿEFÿGFHHAGEIJAHKÿLMÿNJIMIEF@MOÿF@ÿ
N 8&& 8$OQRÿ

Case 2:20-cv-06414-JFW-PJW Document 1-10 Filed 07/17/20 Page 3 of 13 Page ID #:145

2345ÿ7849 ÿ9 5ÿÿ47 ÿ 5ÿÿ534ÿÿ58 ÿ4 5 ÿ 44ÿ83 ÿ
4ÿ45ÿ5 7ÿ  9 9ÿ3 ÿ 5ÿÿ534ÿ 48 ÿÿ 44ÿÿ54 5ÿ
9ÿ3 ÿ9ÿ 4445ÿÿ35ÿ3ÿÿ8 ÿÿ!"#ÿ4 8947ÿ9 ÿ
985ÿ 9ÿ35ÿ43ÿ49445ÿ
$ ÿ43ÿ93  ÿÿ354 ÿ945 47ÿ  47ÿ4ÿÿ 77 4 ÿ547ÿÿ
84ÿ94 ÿ385395ÿÿ 4 ÿÿ 5 ÿ43ÿ 45ÿÿ4 ÿ3473 ÿ45%ÿ
ÿ49 5 9ÿ 54554 ÿÿ3 ÿ!"#ÿ485ÿ 9ÿ ÿ58ÿ4ÿ4  59ÿ5ÿÿ
4 4 ÿ3544& 4 ÿ 9ÿ9 3ÿ5 4ÿ 7ÿÿ8 ÿ84 5ÿ ÿ
 48ÿ 4445ÿ58 3ÿ5ÿ54747ÿ 9ÿ78ÿ 44 ÿ 7 ÿ3 ÿ45%98 4 ÿ
34 9ÿ3873ÿ54'ÿ ÿÿ354 ÿ945 47ÿ
() 5ÿÿ534ÿ85ÿ3 ÿ44ÿ 9 ÿÿ*+,ÿÿ84947ÿ  4ÿÿ
 '48ÿÿ"--ÿ 9 5ÿ343  ÿ45ÿ ÿ2345ÿ444 ÿ4ÿ ÿ4ÿ ÿÿ3 ÿ45
*"9 5ÿÿÿ8 ÿ84ÿ./012.ÿ4/50627/829:ÿ0556;<01ÿ;=ÿ6/1>?>;@:ÿ:/6<>A/:ÿ084
88ÿ  45ÿ 4445ÿÿ 5ÿÿ534ÿ434ÿ3 4ÿB845944 5
C ÿ*"9 5ÿ3 ÿ 44ÿ!   ÿÿ)84ÿD 3ÿ4ÿ 584 ÿ43ÿ8 ÿ
!   5ÿÿ)84ÿD 3ÿ4ÿ4ÿ 9ÿ5555ÿ3 ÿ4 ÿÿ3 5ÿ459ÿ445ÿ
 ÿ84ÿ3 3ÿ 9ÿ49 ÿ83 ÿ94 4 ÿ5ÿ ÿÿÿ3 594ÿ54 ÿÿ
4445ÿ4ÿ 5ÿÿ534ÿ
EFGHIÿ2345ÿ7849 ÿ45ÿÿ4 9 9ÿÿ9ÿ 4 ÿ 9ÿ54 ÿ9 4 ÿÿ
45ÿÿ35ÿ4ÿ 9ÿ349 ÿ 9ÿ9  ÿ54 5ÿ53ÿ 9ÿ98 4 ÿ
4445ÿ43 ÿ 7447ÿ8 547ÿ4 ÿ%ÿ 9ÿ3 ÿ 4445ÿ3 ÿ
 5ÿ 9ÿ7 4& 4 5ÿÿ534ÿ ÿ49 ÿ7 4& 4 5ÿ3 ÿ ÿ
3 5ÿ 4445ÿ85ÿÿ4 ÿ7849 ÿ ÿ3 ÿ!"#ÿJ 544 ÿ
J 9 ÿ 54ÿÿ
23 ÿ7849 ÿ45ÿÿ4 9 9ÿÿ% ÿÿ ÿ ÿ ÿ4735ÿ43 ÿ58ÿ
78ÿÿ 4 ÿ 7 4 9ÿ 9ÿ45ÿÿ'3 854 ÿ5ÿ4ÿ9 5ÿÿ4 89 ÿ
8 ÿ3 3ÿ9 5ÿÿ45ÿ4ÿÿ58548ÿÿ ÿ'4547ÿ5 ÿ 9ÿ3 39ÿ
78ÿK84 5ÿ58 3ÿ5ÿ35ÿÿ LMDN"ÿMÿ8 ÿ ÿ3 7 5ÿÿ84ÿ
3 3ÿ7849 ÿ 9ÿ5L ÿ9 5ÿ5ÿ3 ÿ!"#ÿ548 4 ÿ 48 5ÿ LMDNÿ
3 5ÿÿ5 ÿ 9ÿ3 3ÿ7849 ÿ ÿ3 4ÿ LMDNÿO849 ÿ ÿJ K84 5ÿÿ
) ÿP% 5ÿÿ 485ÿ  7 ÿ23 ÿ!ÿ3 5ÿ9944 ÿ7849 ÿÿ
8 4ÿ 9ÿ43 59ÿ7 4& 4 5ÿ

0ÿ

Case 2:20-cv-06414-JFW-PJW Document 1-10 Filed 07/17/20 Page 4 of 13 Page ID #:146

ÿ

3456789 ÿ7 ÿ89ÿ

ÿÿÿÿ!"#$%#$&$ÿ'()*+%,-ÿ#.!ÿ#ÿÿ./ÿ
!$!ÿ#&!0ÿÿ$!0#.ÿ"ÿ0ÿ!&ÿÿ!"ÿÿ1ÿ
12ÿÿ#!ÿÿ$ÿ!"#$ÿ!ÿ0#0ÿÿ#3ÿ
ÿ*1&/ÿ$!$ÿ&!0!ÿ&!ÿÿ!$ÿÿ1#0ÿÿÿ
!"#$ÿÿ!$1ÿ&!ÿ$!004$2ÿ&!0!ÿ!4ÿ'()*+%,-ÿ
!4"ÿ0!2ÿ&&ÿ1ÿ$!225.!3ÿ
ÿ6ÿ1ÿ$!004$ÿÿ&&ÿ1ÿ0#!/ÿ#.ÿ!ÿÿ
#3ÿ
ÿ724/ÿ.4ÿ!"#$ÿ&!ÿ$!0#$ÿÿÿ#ÿ1ÿ
1!$40ÿ1ÿ$!$ÿ1&$$ÿ1&13ÿ
ÿ*.2ÿ/ÿ'()*+%,-ÿÿ1ÿ10ÿ&ÿ/ÿ!"%1ÿ
&$!ÿ$!41ÿ.ÿ$!41ÿ!ÿ"ÿ!&ÿ&$!3ÿ8#1ÿÿ#ÿÿ
11ÿ!ÿ#.ÿ&4ÿ$3ÿ
ÿ*1&/ÿ$!ÿ$!$ÿ9ÿ:ÿ&ÿ&!ÿ,;ÿ04ÿ!ÿ0!<ÿ!&ÿÿ
&$1ÿ&&ÿ00ÿ1ÿ"ÿ#ÿ!ÿ!ÿ'()*+%,-ÿ#!.ÿ&&ÿ
1ÿ$!ÿ$!$3ÿÿ
ÿ=1ÿ!ÿÿ241ÿ!3ÿ>4ÿ!ÿ1!ÿ!ÿ$!41ÿ4ÿÿ!"#$ÿ
ÿÿ0/ÿ$4ÿ!#!ÿ!ÿÿ0#!/ÿ$!1ÿ!ÿ013ÿÿ

ÿ
ÿ

?47@ÿ45ÿAB784C ÿ9DÿE48FG 5ÿ?59Hÿ

ÿ*&!0!ÿ!ÿ'()*+%,-ÿ!ÿ!ÿ#.ÿÿ&!0ÿ#12ÿ1ÿ$ÿ
41/2ÿÿ$!1!ÿ0/ÿ0"ÿ1.14ÿ0!ÿ4$#ÿ!ÿ
$!$2ÿÿ.43ÿÿ
ÿI&%$2ÿÿ!0ÿ$412ÿ0#4ÿ15!ÿ/0#!0ÿ$$"ÿ
42ÿ'+'ÿ2413ÿÿ
ÿ6ÿ0#!$ÿ!&ÿ!ÿ$!02ÿ!ÿ!"ÿ!ÿ#$#2ÿÿ$.ÿ&ÿ&&ÿ
.ÿ/0#!0ÿ!&ÿ'()*+%,-ÿÿ1$1ÿ/ÿÿ'+' ÿ4$ÿÿÿ
&J4ÿ$!42ÿ&.ÿ1&&$4/ÿ2ÿ$ÿ04$ÿ#ÿ!ÿ!ÿ
$ÿ!ÿ!&ÿÿ!ÿ0ÿ!ÿ&ÿ/ÿ!ÿ!0!ÿ/ÿ.ÿÿ.ÿ
ÿ12!1ÿÿ'()*+%,-3ÿÿ

ÿ

0ÿ

Case 2:20-cv-06414-JFW-PJW Document 1-10 Filed 07/17/20 Page 5 of 13 Page ID #:147

2ÿ45ÿ7889ÿ 8 ÿ85ÿÿ8ÿ7 5 7ÿ8 5 8ÿ7888ÿ  ÿ
8778ÿÿ5ÿ8778ÿÿ8ÿ87ÿ575ÿ5ÿ7ÿ7ÿ5ÿ 8ÿ
 87ÿ ÿ8ÿ87ÿ8ÿ8ÿ5ÿ !ÿ#$%&'($ÿ
2ÿ48ÿ 5 8ÿ5ÿ8)8ÿ *7ÿ*ÿ75ÿ ÿ*8ÿ  ÿ
7ÿ*ÿ75ÿ5ÿ+,ÿ78 5 7ÿ-5ÿ7ÿ ÿ7.8ÿ*ÿÿ87ÿ
/,0ÿ85ÿ5ÿ1,0ÿ7555ÿ*8ÿ7ÿ5ÿ8ÿ5ÿÿ79ÿ5ÿ
 *7ÿ75ÿ8ÿ232ÿ 8874ÿ
2ÿ48ÿ 5 8ÿ5ÿ7 ÿ 7 ÿ5ÿÿ*59ÿ ÿ5ÿ*59ÿ 8ÿ
-788ÿ57 ÿ37 ÿ78 5ÿ85*4ÿ
2ÿ558ÿ78ÿ5ÿ 8ÿ587ÿ  6ÿ
7ÿ8 8ÿ587ÿ5ÿ5ÿ58 ÿ8ÿ*88ÿ ÿ8ÿ5ÿ875ÿ
58 8ÿ8) 8ÿ-5594ÿÿÿ
7ÿ8 8ÿ587ÿÿ8ÿ58 ÿ858ÿ8ÿ8ÿ*88ÿÿ5ÿ5ÿ
8 8ÿ8ÿ88 ÿ5ÿ7 ÿ 7 ÿ ÿ8)8ÿ *7ÿÿ
7ÿ8 8ÿ587ÿ 7ÿ58ÿ8ÿ578ÿ ÿ 5ÿ
7ÿ9 5887ÿ75ÿ*7ÿ5ÿ7.8ÿ 7ÿ858ÿ ÿ8ÿ7ÿ5ÿ
 :7ÿ 8ÿ587ÿÿ
7ÿ;5 ÿ5 ÿ8ÿ887ÿ578ÿ ÿ 5ÿ
7ÿ8 8ÿ587ÿ75ÿ8ÿ*78 ÿ8ÿ8 ÿ7ÿÿ
2ÿ978ÿÿ87ÿ5ÿ7ÿ  ÿ8 5ÿ5 ÿ ÿ588ÿ
*5987ÿ8ÿ75ÿ58ÿ8 ÿÿ2<=>3?@Aÿ885ÿ5 87ÿ ÿ
8ÿ8 877ÿ559ÿ3777ÿ878ÿ875787ÿ8 ÿ5ÿ 8ÿ*ÿ
5.57ÿ7ÿ8 5ÿ5 ÿ B5ÿ588ÿ7ÿ
2ÿ>5 5ÿ5ÿ8 58ÿ5ÿ58 8?75758 ÿ88ÿ887ÿ8ÿ
8 588ÿ ÿ8ÿ88 ÿ5ÿ8 88ÿÿ*5ÿ 98ÿÿ ÿ
878ÿ5ÿ7ÿÿ5 8ÿC88ÿ 5ÿ5 5ÿ5D58 8ÿ
&EF(E'G!ÿ!H&&FEIJK(ÿ!JLMÿN$'O$ÿ'KPÿ#FEM$E!ÿLFG&$K!'IJFKÿQFEÿRST?
@AUÿJKLNHPJK(ÿ$G&NFV$$!ÿ!JLMÿN$'O$ÿEJ(WI!ÿHKP$Eÿ8D8 87ÿ87ÿ
2557ÿX87578ÿ; D ÿ8 &NFV$$!ÿEJ(WI!ÿIFÿ#FEM$E!ÿ
5 875ÿ887ÿ ÿ87 5ÿ5ÿ8ÿ*59?88 877ÿ5ÿ
2<=>3?YZÿ&HE!H'KIÿIFÿIW$ÿ[FO$EKFE!D9\8 8ÿ<8ÿ]?/+?+,ÿ
ÿ
ÿ

ÿ

0ÿ

Case 2:20-cv-06414-JFW-PJW Document 1-10 Filed 07/17/20 Page 6 of 13 Page ID #:148

ÿ

345676589ÿ 4 ÿ98ÿ945ÿ464ÿ

ÿÿ !"#ÿ"$%ÿ&' ! ÿ&($$)&ÿ*ÿ"++ÿ&"**ÿ"ÿ,ÿ
-)$$$)ÿ*ÿ,ÿ&,*.ÿ/"0ÿ&#ÿ,ÿ !"#%&' ! ÿ&($ÿ
"&ÿ(+&ÿ($"(ÿ1,ÿ&"**ÿÿ,ÿ2$ÿ!&&-+.ÿ3,ÿ&($&ÿ"$ÿ
&"**ÿ&,#+ÿ1"ÿ*"(ÿ($)&ÿ*ÿ,ÿ&($$).ÿÿ
ÿ4*ÿ5#$)ÿ&+*6&($$)ÿ"ÿ, 7ÿ1,(,ÿ&ÿ"$ÿ"!!!"ÿ"+$"ÿÿ
!$)ÿÿ"ÿ,ÿ&"-+&, $7ÿ$&#ÿ,"ÿ&($$)ÿ1"&ÿ!* ÿ
!ÿÿ,ÿ10ÿ"$%ÿ+#$ÿ+"$)ÿ,ÿ, ÿ*ÿ,ÿ&,*ÿ"$ÿ
*++1&ÿ898ÿ)#+$&7ÿ"&ÿ&(-ÿ$ÿ,ÿ:!(&ÿ*ÿ; !+'ÿ:"$$)ÿ
&($ÿ"-.ÿ
ÿ;$(#")ÿ&"**ÿ"$ÿ($))"$&%&&ÿ1,ÿ"ÿ&(0ÿÿ2,-$)ÿ
&' ! &ÿ*ÿ8<=496>?7ÿÿ1,ÿ,"ÿ*" +'ÿ  -&ÿ1,ÿ"ÿ+7ÿÿ&"'ÿ
, .ÿ
ÿ; !+'&ÿ&,#+ÿ!ÿ"$ÿ$&#ÿ10&ÿ"$ÿ+#$&ÿ#&ÿ"++ÿ
5#ÿ!(ÿ5#! $7ÿ$(+#$)ÿ'ÿ!($ÿ"$ÿ)+&7ÿ
1,ÿ$(&&"'.ÿ
ÿ+"(&ÿ*ÿ1&,!ÿ&,#+ÿ($&ÿ1,ÿ&!&"-+ÿ)+&ÿ#&ÿ "'ÿ-ÿ
,+!*#+ÿÿ&#!!+ $ÿ*5#$ÿ,"$1"&,$)ÿÿ#&ÿ*ÿ,"$ÿ&"$@Aÿ
2" !+&ÿ"ÿ*ÿ&"**ÿ1,ÿ"ÿ&($$)ÿ,&ÿ*ÿ&' ! &ÿÿ,"$+$)ÿ
( $+'ÿ#(,ÿ &.ÿB++ÿ10&ÿ"$ÿ+#$&ÿ&,#+ÿ1"ÿ)+&ÿ
1,$ÿ,"$+$)ÿ &ÿ($" $"ÿ-'ÿ-'ÿ*+#&.ÿÿÿ
ÿC"(ÿ($)&ÿ"ÿ&$)+'ÿ( $ÿ1,$ÿ&"**ÿ"ÿ$ÿ,ÿ($'ÿ
*ÿ,&.ÿD0&ÿ"$ÿ+#$&ÿ&,#+ÿ,"ÿ*"(ÿ($)&ÿ""+"-+ÿ
"$ÿ1"ÿ, ÿ1,$ÿ"ÿ"++ÿ*"(+&7ÿ$ÿ**(&7ÿ1,$ÿ "0$)ÿ, ÿ&&ÿ
"&ÿ!"ÿ*ÿ!$)ÿ&(&7ÿÿ$ÿ"ÿ,(+ÿ#$)ÿ106+"ÿ"+ÿ
1,ÿ,&.ÿC"(ÿ($)&ÿ #&ÿ$ÿ-ÿ&,".ÿ+"(&ÿ*ÿ1&,!ÿ"ÿ
)$"++'ÿ$(#")ÿÿ!ÿ*"(ÿ($)&ÿ-#ÿ #&ÿ!ÿ, ÿ
1,$ÿ5#ÿ-'ÿ !+'ÿ#+&ÿÿ,&ÿ)#+$&.ÿ
ÿE"**7ÿ+#$&7ÿ(.ÿ&,#+ÿ$ÿ$ÿ,ÿ, ÿÿ&ÿ& $ÿ1,ÿ"&ÿ
&ÿ!&ÿ*7ÿ2,-ÿ&' ! &ÿ*7ÿÿ,"&ÿ-$ÿ$ÿ($"(ÿ1,ÿ
& $ÿ$*(ÿ1,ÿ8<=496>?ÿ*ÿ"$ÿ"!!!"ÿ1"$)ÿ!ÿ"&ÿ
&(-ÿ-'ÿ898ÿ)#+$&.ÿ
ÿ+"(&ÿ*ÿ1&,!ÿ #&ÿ"0ÿ"&$"-+ÿ "&#&7ÿ$(+#$)ÿ!&$)ÿ
&)$")ÿ$ÿ&")(ÿ"$ÿ,),+'6&-+ÿ+("$&7ÿÿ $ÿ
($))"$&%&&ÿ,"ÿ,'ÿ&,#+ÿ#&ÿ*"(ÿ($)&ÿ"$ÿ!"((ÿ
!,'&("+ÿ&"$($)ÿ1,$ÿ!&&-+.ÿ3"-&ÿ"$ÿ(,+$ÿ#$ÿ")ÿ
1ÿ&,#+ÿ$ÿ1"ÿ*"(ÿ($)&7ÿ$ÿ"(("$(ÿ1,ÿ898ÿ)#+$&.ÿÿ

ÿ

0ÿ

Case 2:20-cv-06414-JFW-PJW Document 1-10 Filed 07/17/20 Page 7 of 13 Page ID #:149

2ÿ456ÿ589 ÿ 6 ÿ656ÿ65ÿ6 ÿ65665ÿ69ÿ8ÿ98 9 6ÿ
6ÿ565ÿ6ÿ6ÿ8ÿ869ÿ986 5585ÿÿ5ÿ58ÿ ÿ
6ÿ6ÿ ÿÿ6ÿ8965ÿ9ÿ8ÿ5ÿ8 6ÿÿ6669ÿ
5 8 5ÿ8ÿ6ÿÿ96 56ÿ5ÿ8ÿ698 ÿ59ÿ96ÿ9865ÿ
59 ÿ59ÿ  5ÿ8ÿ5 !ÿÿ98ÿ
6"66#ÿ686ÿÿÿ6ÿ9 ÿ$ÿÿ8665ÿ6ÿ58ÿ
6986ÿ8ÿ6 ÿ986 5585ÿ8ÿ656ÿ9965ÿÿ
896 65ÿÿ56965ÿ8ÿ8ÿ698 ÿ655ÿ
2ÿ%86 5585ÿ58ÿ6ÿ59666ÿ8ÿ6 66ÿ8ÿ
5 8 5ÿ8ÿ ÿ8ÿ 965ÿ8ÿ85ÿÿ56ÿ8ÿ56ÿ ÿ
5 !6ÿÿ8ÿ6 ÿ96ÿ9865ÿÿ

ÿ
'()*+,+-ÿ*+.ÿ/,0,+1)23,+-ÿ4563626(0ÿ

2ÿ768 ÿ88ÿ96 ÿ8ÿÿ9ÿ6 5ÿ59ÿ5ÿ865ÿ 5ÿ
9 65ÿ 66ÿ88 5ÿ8965ÿ65ÿÿ5ÿ6 5ÿÿ6 5ÿ8ÿ
655ÿÿ6655ÿ9ÿ5  5ÿ5 65ÿ  5ÿÿ66 8ÿ
9885ÿ86"6ÿ569ÿ98 8ÿ56ÿ5965ÿ9ÿ
8885ÿ865ÿ  5ÿ9 65ÿ5ÿÿ8 5ÿ8 8ÿ
865ÿ8ÿ 65ÿ 5ÿÿ65ÿÿ56 ÿ6 5ÿ
2ÿ95 5ÿ6"6ÿ96 ÿÿ5698ÿ8ÿ658 ÿ8ÿ6 5ÿ59ÿ
5ÿ655ÿÿ9965ÿÿ5ÿ6ÿ69655 ÿ96 ÿ895ÿ
786ÿ 6ÿ8ÿ865ÿ8ÿ 6 6ÿ96 ÿ9965ÿÿ6ÿ
5ÿ%6 ÿ55 65ÿ58ÿ6ÿ556ÿÿ8ÿ85ÿ5ÿ
:;<=ÿ?@ÿ=ABÿC=;@@DCÿE?FÿGH=IBCJÿ
2ÿK5986ÿ5 ÿ6 5ÿ56ÿÿ85ÿÿ56965ÿ59ÿ5ÿ6ÿ
885ÿ9585ÿ6ÿ5ÿ69#ÿ666ÿ8556ÿÿ86ÿ56L
56ÿ8ÿ ÿ9865ÿ8ÿ5ÿ986 5585ÿ8ÿÿ658 ÿ6 5ÿ
56 ÿM8ÿ5 ÿ8ÿ6" 6ÿÿ5 65ÿ59ÿ5ÿ865ÿ
896ÿ6" 6ÿ98 65ÿ69ÿ666ÿ8556ÿN66ÿ5 6ÿ779ÿ
2ÿO66ÿ59ÿ6 5ÿ 5ÿ6ÿ5 6ÿ569ÿ666ÿ55ÿ8ÿ565ÿ
966ÿ5ÿ 86ÿ6"6ÿ9ÿ6ÿ88Pÿ5 6ÿ896ÿ
6" 6ÿ9865ÿÿ 965ÿ65ÿ66865ÿ68 5ÿ
565ÿ69#ÿÿ6 5ÿÿ5 6ÿ85ÿ6 5ÿ69ÿÿÿ96 6ÿ
8 6ÿ8ÿ6ÿ596ÿ
2ÿ956ÿ ÿ5 ÿ9 65ÿ5ÿ868 ÿÿ5896ÿÿ ÿ 65ÿ
ÿ86ÿ8 ÿ58 ÿ 6ÿ865ÿÿ ÿ5 !6ÿ6ÿ
666ÿ%856ÿ 86ÿ6"6ÿ96 ÿÿ569ÿ
  5ÿ9 65ÿ ÿ6ÿ56ÿ 86ÿ86ÿ456ÿ5 6ÿ8ÿ6896ÿ
  5ÿ

ÿ

0ÿ

Case 2:20-cv-06414-JFW-PJW Document 1-10 Filed 07/17/20 Page 8 of 13 Page ID #:150

2ÿ4565789 ÿ 5796ÿ7ÿ676ÿ 65ÿ676ÿ576 976ÿ7ÿ9ÿ
59 6ÿ7ÿ56ÿ7ÿ5 6ÿ9997ÿ9 ÿ69ÿ76ÿ95 97ÿ
78 96ÿÿ99 579ÿ59ÿ565789 57ÿ696ÿ5ÿ
8ÿ68ÿ6ÿ68 96ÿ6 ÿ6ÿ8 ÿ 8896ÿÿ
2ÿ7659ÿ657ÿ5669ÿ69ÿ96ÿ8ÿ79765656ÿ
5ÿ7ÿ6ÿ68 96ÿÿ99ÿÿ8 55ÿ6ÿ 59ÿ5ÿ
69596ÿ456ÿ7ÿ9 9ÿ69ÿ96ÿ9997ÿ9 ÿ69ÿ59ÿ
5669ÿÿ69ÿ96ÿ7ÿ56ÿ69ÿ6ÿ6957ÿ7ÿ86ÿ7ÿ
796ÿ9 ÿ89ÿ9 ÿ69ÿ
2ÿ!76ÿ7ÿ6755"9ÿ5697696ÿ 966ÿ9799ÿ6659ÿÿ
977 96ÿ7ÿ7 ÿ96ÿ6 ÿ6ÿ 9957ÿ 6ÿ596ÿ7ÿ
99ÿ7576ÿ
2ÿ#97ÿ657ÿ9757ÿ9 56ÿ9656 976ÿ6ÿ69ÿ 6ÿ
9ÿ8ÿ69ÿ576ÿ$%!4&'(ÿ7ÿ9ÿ)757 97ÿ9 57ÿ
*97 ÿ+) *,&9ÿ56ÿ7ÿ8ÿ ÿ576 576ÿ-69ÿ
565789 76ÿ99ÿÿ9ÿ9889 59ÿ576ÿ9 957ÿ5ÿ976ÿ
59ÿ69ÿ9 ÿ6576ÿ+.ÿ9676ÿ9ÿ7ÿ8ÿ9,ÿÿ
ÿ6576ÿ5ÿÿ96ÿ/01ÿÿÿ9ÿ59ÿ8ÿ9ÿ
23456789ÿ;4<=>?8ÿ2@655ÿ@46>A>ABÿ<AÿC6A3567@3484D2ÿ?>487@><A2ÿ6A?ÿE6FGHIJKÿ
959 976ÿ8ÿ689ÿ69ÿ#L96ÿ7ÿ7996ÿ657ÿ9796ÿÿ
565789 76ÿ6ÿ9ÿ96ÿÿ9ÿ9 59ÿ95 97ÿ6ÿ
959ÿÿ9ÿ ÿ576 576ÿ
2ÿ#6ÿ9556ÿ 976ÿ7ÿ57976ÿ89ÿ9 ÿ6959ÿÿ997ÿÿ9ÿ
596ÿ9ÿ69 57ÿ6659ÿ*6Lÿ79765656ÿÿ57ÿ95ÿ7ÿ
69ÿ6ÿ8ÿ967ÿ 976ÿ7ÿ696ÿM88ÿ7976ÿ7ÿ
5656ÿ6ÿ9ÿ96ÿ97ÿ757ÿ<@N842Dÿ?>4@OÿF>A8A2Pÿ2N<82Pÿ8@79ÿ
2ÿ4567579ÿ6657ÿ88957ÿ96ÿ7ÿ65 5ÿ59 6ÿÿ 9ÿ9997ÿ
99ÿ-69ÿ9759ÿ557ÿ576ÿ6 ÿ6ÿ69 9ÿÿQ96ÿÿÿ
7ÿ959ÿ9757 657ÿ7ÿ7ÿ9ÿ979ÿ7ÿ565789 9ÿ
7659ÿ5 9 9757ÿ55ÿ669 6ÿÿÿ79765656ÿÿ
L9ÿ &899ÿ889576ÿÿ
2ÿRLÿL57ÿ6ÿ9997ÿ6 96ÿ96579ÿ8ÿ79765656ÿ
ÿ65L799ÿ6ÿÿ99ÿÿ7ÿLÿ99ÿ6 979ÿ ÿ ÿ95ÿ
9ÿÿ9ÿ8ÿ
2ÿ457ÿ 99576ÿ7ÿ69596ÿ57 9ÿ896ÿ659ÿ5ÿ8ÿ9Q 9ÿÿ
9757ÿ6576ÿ+99ÿ9 557,ÿ7ÿ957ÿ97557ÿ
669 6ÿ
2ÿ7659ÿ57657ÿ9ÿ5&9885597 ÿ5ÿ9796ÿ57ÿ9ÿ
S3>F?>ABD2ÿ6>4ÿ5>F@842ÿ@<ÿ@N8ÿN>BN82@ÿ8585597 ÿ6659ÿ7ÿ L57ÿ9ÿ
ÿ

0ÿ

Case 2:20-cv-06414-JFW-PJW Document 1-10 Filed 07/17/20 Page 9 of 13 Page ID #:151

23456578953 ÿ93ÿ578 ÿ9ÿ8 959ÿ36ÿ3954ÿ85ÿ8 4ÿ 958953 ÿ5ÿ
3 5ÿ88 ÿ36657ÿ8 4ÿ39ÿ87ÿ

ÿ
 !ÿ"#$$%ÿ&'()!$)ÿ

*ÿ,87ÿ36ÿ3 5ÿ34ÿ73 95ÿ93ÿ354ÿ57ÿ93-ÿ89 895ÿ
2934 ÿ.7ÿ8 ÿ58ÿ59 9ÿ5ÿ8 4/3ÿ7344ÿ9825-ÿ93 ÿ
4505ÿ971ÿ ÿ3 52ÿÿ
*ÿ33 54ÿ345-ÿ50 3 ÿ295- ÿ8 4ÿ3545-ÿ50 3 ÿ57ÿ
3954ÿ ÿ3 52ÿÿ
*ÿ422 9ÿ28 ÿ93ÿ ÿ578ÿ4598 75-ÿ36ÿ89ÿ8 9ÿ5ÿ69ÿ
29 ÿ36 ÿ9866ÿ73 --8 9/5593 ÿ97ÿ75ÿ78 ÿ574ÿÿ36ÿ
578ÿ895953 ÿ3ÿ58ÿ7ÿ.-ÿ633ÿ3ÿÿ2865-ÿ3ÿ5- ÿ93ÿ
545789ÿÿ3ÿ34ÿ59ÿ8 4ÿ98 41ÿ873 65-ÿ895-ÿ8 4ÿ
98 45-ÿ88 ÿ93ÿ285985ÿ578ÿ4598 75-ÿ36ÿ5ÿ69ÿ3ÿ23ÿ
29 ÿ73 --8 9/5593 ÿ632ÿ4566 9ÿ334 ÿ33 54ÿ52595-ÿ
895-ÿ93ÿ89 89ÿ3 ÿ922 ÿ36ÿ9ÿ82ÿ334ÿ28ÿ2ÿ
894ÿ93-9ÿ29ÿ34ÿ285985ÿ89ÿ8 9ÿ5ÿ69ÿ36ÿ4598 7ÿ632ÿ
39ÿ334 ÿÿ
*ÿ33 54ÿ4457895-ÿ9866ÿ93ÿÿ3ÿ285985ÿ4598 7ÿ45-ÿ
8795595ÿ
*ÿ:39 ÿ57ÿ93ÿ5259ÿ9ÿ -9ÿ36ÿ952ÿ73 --8 9/5593 ÿ 4ÿ89ÿ
6875595ÿ ÿ3 52ÿ75ÿ734ÿ574ÿ52595-ÿ7ÿ8 65-ÿ
73 --8 9/5593 ÿ93ÿ9ÿ3 ÿ-82 9ÿ89ÿ32ÿ263ÿ8 58ÿ97ÿÿ
*ÿ33ÿ87ÿ36ÿ3 5ÿ63ÿ5598953 ÿ3954ÿ36ÿ744ÿ57ÿ
295-ÿ97ÿ ÿ3 52ÿÿ
*ÿ33 54ÿ522 95-ÿ8ÿ8953 ÿ92ÿ93ÿ5259ÿ9ÿ22ÿ36ÿ
73 --8 9/5593 ÿ899 45-ÿ6875595ÿ89ÿ8ÿ952ÿ75ÿ78 ÿ574ÿ9ÿÿ
36ÿ45-598ÿ89632 ÿ3ÿ39ÿ9ÿ36ÿ933ÿ
*ÿ; 738-ÿ73 --8 9/5593 ÿ93ÿ29ÿ59ÿ9ÿ82ÿ-3ÿ89578ÿ
 ÿ57ÿ29ÿ6 9ÿ8 4/3ÿ5ÿ8ÿ7985ÿ22ÿ36ÿ
3ÿ93ÿ2ÿ 9ÿ75ÿ78 ÿ47ÿ9ÿ84ÿ36ÿ98 2553 ÿ2ÿ
25525<5-ÿ9ÿ22ÿ36ÿ4566 9ÿ545548ÿ3ÿ732ÿ593ÿ73ÿ
73 9879ÿ59ÿ87ÿ39ÿ
*ÿ33 54ÿ3665-ÿ8445953 8ÿ295-ÿ952ÿ.ÿ48ÿ3ÿÿ61ÿ3ÿ989ÿ
6ÿ-9ÿ899 4ÿ295-ÿ8 4ÿ57ÿ89ÿ3 ÿ952ÿ38 ÿ295-ÿ
88 ÿ29 ÿ87ÿÿ8 ÿ47524ÿ5ÿ95ÿ-548 7ÿ

ÿ

0ÿ

Case 2:20-cv-06414-JFW-PJW Document 1-10 Filed 07/17/20 Page 10 of 13 Page ID
#:152

ÿ

3ÿ56789 6 ÿ ÿ 67ÿÿ 89  ÿ89  767697ÿ9ÿ
 ÿ ÿÿ768ÿ67 8 7ÿ 6ÿ86667ÿ78ÿ7ÿ89 8 7ÿ
 ÿ96ÿ ÿ6ÿ ÿ8 69 7ÿ ÿ  8 7ÿÿ
3ÿ6 ÿ79 ÿ6ÿ6ÿ ÿ8ÿ9ÿ97ÿ6ÿ 6ÿ9 79ÿ 6ÿ ÿ9ÿ
6 8ÿ 6ÿ86 ÿ9ÿ9 ÿ67ÿÿ ÿ6 ÿ 6ÿ6766ÿ86667ÿ
97ÿÿ7ÿ ÿ6789 6 ÿ86667ÿ ÿ768 7ÿ9ÿ86 ÿ
 ÿ768ÿ67 86ÿ9ÿÿ7ÿ76!ÿ ÿ8 9ÿ ÿ6 6 ÿÿ
3ÿ" 89  ÿ89  767697ÿ9ÿ768ÿ67 8 ÿ 7 7ÿ9ÿ
9 7ÿ9 76 ÿ 6ÿ9 79ÿ96ÿ9 86ÿ78 7ÿ ÿ9ÿ ÿ ÿ
866ÿ6ÿ ÿ9ÿ9ÿ ÿ ÿÿÿ
3ÿ9 76 ÿ666ÿ9 86ÿ9ÿ669 7ÿ 9ÿ8  ÿ 977ÿ78ÿ7ÿ
96ÿ 7ÿ9ÿ  7ÿ9ÿ ÿ7 ÿ9 79ÿ
3ÿ5 68 ÿ7ÿ9ÿ68ÿ 77ÿ9ÿ 6ÿ997ÿ9 ÿ ÿ9ÿ8 7ÿ9ÿ
976ÿ ÿ ÿ89 6ÿ6ÿ967ÿ9ÿ899 ÿ7ÿ9 76 ÿ
76ÿ7 7ÿ9ÿ ÿ 9ÿ6ÿ8 7ÿ9ÿ76ÿ ÿ7 ÿÿÿÿ7ÿ
76!ÿ ÿÿ9ÿ9 ÿ 779 79ÿ9 7ÿ#7ÿ
89  767697ÿ9ÿ6 ÿ ÿ ÿ6ÿÿ76ÿ9 ÿ9ÿ666$ ÿ
89779 ÿ9ÿ 9ÿ% 89 ÿ ÿ67677ÿ89  767697ÿ9ÿ
7ÿ967ÿ 6ÿ997ÿ 8ÿ6ÿ ÿ9 ÿ ÿ9ÿ6 6ÿ
768ÿ67 86ÿ ÿ666$ ÿ89779 ÿ9ÿ68ÿ9ÿ ÿ! ÿ
9776ÿ
3ÿ&9ÿ9ÿ9ÿ997ÿ9 ÿ 6ÿ ÿ 697ÿ  ÿ89  767697ÿ
ÿ 6ÿ ÿ!66ÿ86667ÿ6ÿ9776ÿ ÿ6ÿ889 8 ÿ 6ÿ
78 6ÿ ÿ7 ÿ99897ÿÿÿ
3ÿ97ÿ9ÿ768ÿ899 ÿ7ÿ78ÿ7ÿÿ997ÿ68 7ÿ9 7ÿ
8ÿ  ÿ 9ÿÿ6 ÿ9ÿ89  ÿ ÿ6 8ÿ9 76 ÿ
676ÿ67ÿ9ÿ687ÿ768ÿ67 8 ÿ
ÿ776ÿ
 ÿ ÿ67ÿ89 6 ÿ7ÿ9ÿ 7ÿ7ÿÿ
3ÿ'ÿ9ÿ 68ÿ66ÿ  ÿ9 67ÿ ÿ8 ÿ76 7ÿ696ÿ
89  767697ÿ ÿÿ69 ÿÿ
3ÿ( 9 ÿ9ÿ768 ÿ9ÿ6ÿ9 )89 6ÿ9 8ÿ 6 7ÿ9ÿ
89 669 7ÿ  ÿ89 6 7ÿ78ÿ7ÿ9 7ÿ767ÿ ÿ 777ÿ
"ÿ ÿ8  ÿ  ÿ
ÿ77ÿ% ÿ ÿ67ÿÿ977666ÿ9ÿ
89 6 ÿ77ÿ7ÿ89  7ÿ67697ÿ 8ÿÿ79 ÿ
89  ÿ9ÿ7ÿ* 6 ÿ9ÿ9 8ÿ ÿ 7ÿ97ÿ ÿ9 ÿ
76ÿÿ89669 ÿ9ÿ8 ÿ89 67ÿ9 86 ÿ777ÿ 9ÿ8 ÿ
767ÿ( 7ÿ9 86 ÿ* 6 ÿ78ÿ7ÿ767ÿ ÿ777ÿ79 ÿ
 ÿ9 ÿ6768 ÿ
ÿ77ÿ
3ÿ% ÿ 76ÿ67ÿÿ* 6ÿ866ÿ96ÿ868 7ÿ   ÿ9776ÿ
9ÿ66ÿ776ÿ ÿ ÿ ÿ9ÿ8 ÿ ÿ6768ÿ 76ÿ86667ÿ
01ÿ

Case 2:20-cv-06414-JFW-PJW Document 1-10 Filed 07/17/20 Page 11 of 13 Page ID
#:153

23456789 ÿ3 4 87ÿ8 39ÿ5ÿ ÿ 757 ÿ8ÿ5 ÿ757ÿ5ÿ3739ÿ
8ÿ84ÿÿ5 ÿÿ
ÿ 453967ÿ56 ÿ83ÿ 8 7ÿ878 ÿ54 ÿ84 ÿ 39ÿ755 ÿ
453734 ÿ755 ÿ4ÿ5ÿ85ÿ57ÿ8ÿ8 ÿÿ ÿ  3ÿ 5ÿ
84 ÿ45 739ÿ87ÿ7539ÿ745 3 ÿ8ÿ8ÿ ÿ57ÿ
45397983!57ÿ83ÿ8ÿ  48ÿ 3ÿ 48ÿ834 ÿ5ÿ8ÿ
8 ÿÿ ÿÿ35ÿ5 ÿ
ÿ28ÿ74538ÿ88 ÿ83ÿ8 89 8 ÿ57ÿ55ÿ784ÿÿ5 ÿ
83ÿ 938ÿ 878ÿ756 ÿ57ÿ37ÿ83ÿÿ35ÿ 39ÿ755 ÿ
54 ÿ4ÿ5ÿ ÿ8383ÿ 48ÿ83439ÿ83ÿ 3ÿ ÿ3834 ÿ
5ÿ 5ÿ45 ÿ8 39ÿ84ÿ5 7ÿ
ÿ"ÿ ÿ36 7ÿ5ÿ368ÿ739ÿ3ÿ83ÿ 857ÿ83ÿ367ÿ ÿ6 ÿ5ÿ
84 ÿ45 739ÿ#5ÿ9389 ÿ798739ÿ ÿ54 ÿ
ÿ$% ÿ7844 ÿ 3ÿ8 ÿ83ÿ3 4 87ÿ5ÿÿ ÿ36 7ÿ5ÿ8ÿ
83ÿ45397983!57ÿ3ÿ54 ÿ 39ÿ84 ÿ4ÿ8ÿ53 ÿ ÿ&ÿ
8 ÿ346 ÿ4 639ÿ'9ÿ899 739ÿ87! 3ÿ (ÿ 839ÿ
873839ÿ8 ÿ57ÿ53ÿ75739ÿ767339ÿ5ÿ84 ÿ5ÿ57ÿ3ÿ
8 ÿ57ÿ45336 ÿ6 ÿ5ÿ57ÿ 3ÿ8 ÿÿ
ÿ)53 7ÿ5739ÿ57 7ÿ83ÿ563 7ÿ5ÿ7*6 ÿ5ÿ6 ÿ
553ÿ8ÿ3% ÿ 7ÿ45384ÿÿ45397983!57ÿ83ÿ5 7ÿ
8ÿ'9ÿ54 ÿ6 ÿ78 7ÿ83ÿ5739ÿ8 ÿ83ÿ6 7ÿ57ÿ838939ÿ
8378 ÿ3  ÿ7569ÿ57(ÿÿ
ÿ+899 7ÿ8ÿ78ÿ3ÿ45834 ÿÿ89 ÿ83ÿ567ÿ796853ÿ5ÿ
8383ÿ 48ÿ83439ÿ75545ÿÿ
ÿ,45336 ÿ353 38ÿ78 ÿ83ÿ3456789 ÿ834 ÿ 39 ÿ8ÿ
53 ÿ83ÿ373 ÿ
ÿ)5 ÿ - 74 ÿÿ 453ÿ64ÿ8 ÿ8ÿ8 ÿ83ÿ
55  ÿ83ÿ75  ÿ ÿ ÿ5ÿ45397983!57ÿ368ÿ
8 ÿ3 4 87ÿ)53 7ÿ  739ÿ ÿ83ÿ357853ÿ475348ÿ
ÿ)53 7ÿ39ÿ ÿ36 7ÿ5ÿ 5ÿ8ÿ6 ÿ ÿ7 755ÿ8ÿ53 ÿ ÿ
5ÿ85ÿ57ÿ 48ÿ83439ÿÿ
ÿ,456789 ÿ8ÿ45397983ÿ57ÿ4ÿ75ÿ398939ÿ3ÿ
83 8 ÿ69 ÿ83ÿ87ÿ97 39 ÿ8ÿ78ÿ 48ÿ834 ÿ
&8 ÿ78 538ÿ 8 67 ÿ5ÿ73ÿ 5ÿ5ÿ8 ÿ57ÿ6 ÿ5 7ÿ
97 39 ÿ
ÿ  453967ÿ8739ÿ5ÿ5ÿÿ453979853ÿ53ÿ83ÿ367ÿ75 7ÿ
87853ÿ'9ÿ4539ÿ 7ÿ5 7ÿ84 (ÿ.ÿ 75739ÿ7 -3ÿ
ÿ

00ÿ

Case 2:20-cv-06414-JFW-PJW Document 1-10 Filed 07/17/20 Page 12 of 13 Page ID
#:154

345678439ÿ4 354ÿ64 784ÿ73ÿ ÿ53ÿ54ÿ834ÿ7ÿ37ÿ44ÿÿ
73 84ÿ73ÿÿ3374ÿ444 ÿ64 7843ÿÿ
ÿ  7 4ÿÿ35ÿ 7ÿ453 ÿ4  84ÿÿ34567843ÿ ÿ45ÿ
544ÿ8767743ÿÿ34ÿ ÿ54ÿ6 454ÿÿ!"#ÿ787$ÿ45ÿ
 3ÿ ÿ34ÿ7ÿ8%577743ÿ
ÿ

&'()*+,-./*'()ÿ1'-ÿ23.4,)ÿ'1ÿ5'-)6*7ÿ

ÿ!738 7 4ÿ457$ÿ343456784ÿÿ ÿ4645$43ÿ!ÿÿÿ
883ÿ5ÿ37%75ÿ%734ÿ47$ÿ ÿ5787$ÿ464 3ÿÿ785434ÿ
4ÿ5738ÿÿ8533ÿ8 %77 ÿÿÿ ÿ4645$43ÿ% 3ÿ4ÿ345649ÿ
5674ÿ74%3ÿ7ÿ37$4345649ÿ7334ÿ8 7453ÿ 4 4645ÿ3374ÿÿ
9%443ÿ5ÿ6 4453ÿ34567$ÿÿ3 ÿ3ÿ 3ÿ54: 4 ÿ ÿ
45ÿ7334ÿ$643ÿ ÿ84ÿ86457$3ÿÿ
ÿ;5 $ÿ8 3745ÿ738 7 7$ÿ37$7$9ÿ$5 ÿ54877 9ÿ ÿ45ÿ
587843ÿ ÿ455% 843ÿ 454ÿ454ÿ73ÿ785434ÿ7847ÿ5ÿ
5 3%7337 ÿ5%ÿ8 %74ÿ4 4ÿ543ÿ<7ÿ587843ÿ38 ÿ
3ÿ7%77$ÿ4ÿ %45ÿ44ÿ54877$ÿ5ÿ37$7$9ÿ4 357$ÿ 378ÿ
73 87$ÿ$5445ÿ ÿ37ÿ44ÿ444 ÿ449ÿ5ÿÿÿ84454ÿ
434ÿ587843ÿ 374ÿ7ÿ 378ÿ73 87$9ÿ489ÿ7ÿ434ÿ587843ÿ
8 ÿ4ÿ738 7 4ÿÿ
ÿ 3745ÿ%77$ÿ587843ÿÿ54ÿ348778ÿÿ578 5ÿ7ÿ577 3ÿ
ÿ%7$ ÿ4 8 5$4ÿ4ÿ354ÿÿ!"#ÿ9%43ÿ54ÿ
738 7 7$ÿ87337$ÿÿ57ÿ=4839ÿ7$ÿ5743ÿÿ4ÿ455%4ÿÿ
445ÿ449ÿ677$ÿ4ÿ34ÿÿÿ8%% ÿ8 9ÿ457$ÿ8%% 7 ÿ
7ÿ4ÿ ÿ734ÿÿ ÿ4ÿ $ 49ÿ5677$ÿ54884ÿ8%% 7 ÿ
74%3ÿ ÿ8 753ÿ575ÿÿ34567849ÿ489ÿ7ÿ885 84ÿ7ÿ!ÿ$ 74743ÿÿ
ÿ

&'()*+,-./*'()ÿ1'-ÿ>?(,-.3)ÿ

ÿ 3745ÿ54 84ÿ67375ÿ887ÿ ÿ3$$45ÿ67377 ÿ7%43ÿÿ 4539ÿ
8439ÿ489ÿ7ÿ3374ÿ@ÿÿ84 7$ÿ ÿ737487 ÿ%43543ÿ3ÿ
438574ÿ7ÿ73ÿ$ 7 84ÿA 4 4645ÿ33749ÿ54%7ÿ673753ÿÿ%77ÿ
 378ÿ73 84ÿ5%ÿ48 ÿ459ÿ5%ÿ3ÿ ÿ6 44539ÿ ÿ5%ÿ
4ÿ48434ÿÿ
ÿ 3745ÿ%77$ÿ547$7 3ÿ5ÿ8 5ÿ587843ÿ 4 ÿ37$ÿ5ÿ
35 7$ÿ743ÿÿ34ÿ ÿ64ÿ74ÿ5%ÿ!"#9ÿ7ÿ885 84ÿ
7ÿ$ 7 84ÿ5%ÿ!BCÿ ÿ4ÿ!ÿÿ37$ÿ4ÿÿ5ÿ35 7$ÿ
54ÿ7%5 ÿ547$7 3ÿ5ÿ8 5ÿ5878439ÿ58ÿ7ÿ 45ÿ%4ÿ3ÿ
 ÿ%7743ÿÿ54 84ÿ4354ÿ3ÿ% 8 ÿ3ÿ3374ÿDÿ44ÿ
ÿ

01ÿ

Case 2:20-cv-06414-JFW-PJW Document 1-10 Filed 07/17/20 Page 13 of 13 Page ID
#:155

ÿ
ÿ
ÿ
ÿ
ÿ
ÿ
ÿ
ÿ
ÿ
ÿ
ÿ
ÿ
ÿ
ÿ
ÿ
ÿ

345678734679 ÿ79ÿ6 ÿ4867767ÿ6ÿ 45ÿ734ÿ ÿ49ÿ7ÿ6 5ÿ
7ÿ ÿ3479 ÿÿ7ÿ3 3ÿ6ÿÿ476794ÿ356867 ÿ
73 96ÿ79879 ÿ3568679ÿ5ÿ6 ÿ ÿ9ÿ49ÿ6ÿ8 ÿ4ÿ
48 ÿ7ÿÿ
ÿ96ÿ49ÿ83ÿ76ÿ84ÿ7498 ÿ5 4579 ÿ776ÿ9ÿ46 579 ÿ
7 ÿ654 ÿ79 ÿ9 54ÿ5ÿ6ÿ ÿ7ÿ5ÿ !"#$%&ÿ68ÿÿ
ÿ97 5ÿ6 5ÿ58 94679ÿ49ÿ7784679ÿÿ578 ÿ546ÿ
6ÿ348 ÿÿ573ÿ679 ÿ4 ÿ4ÿ433784ÿ5ÿ9 54ÿ578 ÿ

ÿ
%'7
6794ÿ575 96ÿ6ÿ ÿ897 5ÿ5ÿ9 54ÿ334679ÿ(48 ÿÿ573ÿ6ÿ
83ÿ76ÿ4ÿ4) *+'ÿ64945ÿ49ÿ ÿ35345ÿ6ÿ4 5ÿ6ÿ76ÿ7498 ÿ4ÿ ÿ4ÿ
7498 ÿ5ÿ6 ÿ 965ÿ5ÿ#74ÿ965ÿ49ÿ(5 9679ÿ,#-ÿ49ÿ6 ÿ475974ÿ
# 3456 96ÿÿ(78ÿ+ 46ÿ,#(+-ÿ'76794ÿ348 ÿÿ573ÿ6ÿ ÿ35345ÿ6ÿ465ÿ
6 75ÿ3 54679ÿ4ÿ6ÿ7 79 ÿ8 49 ÿ

ÿ

01ÿ

Case 2:20-cv-06414-JFW-PJW Document 1-11 Filed 07/17/20 Page 1 of 14 Page ID #:156

COVID-19
INDUSTRY
GUIDANCE:
Places of Worship
and Providers of
Religious Services
and Cultural
Ceremonies
July 1, 2020
covid19.ca.gov

Case 2:20-cv-06414-JFW-PJW Document 1-11 Filed 07/17/20 Page 2 of 14 Page ID #:157

OVERVIEW
On March 19, 2020, the State Public Health Officer and Director of the California
Department of Public Health issued an order requiring most Californians to stay at
home to disrupt the spread of COVID-19 among the population.
The impact of COVID-19 on the health of Californians is not yet fully known. Reported
illness ranges from very mild (some people have no symptoms) to severe illness that
may result in death. Certain groups, including people aged 65 or older and those with
serious underlying medical conditions, such as heart or lung disease or diabetes, are
at higher risk of hospitalization and serious complications. Transmission is most likely
when people are in close contact or in a poorly ventilated area with an infected
person, even if that person does not have any symptoms or has not yet developed
symptoms.
Precise information about the number and rates of COVID-19 by industry or
occupational groups, including among critical infrastructure workers, is not available
at this time. There have been multiple outbreaks in a range of workplaces, indicating
that workers are at risk of acquiring or transmitting COVID-19 infection. Examples of
these workplaces include places of worship, hospitals, long-term care facilities,
prisons, food production, warehouses, meat processing plants, and grocery stores.
As stay-at-home orders are modified, it is essential that all possible steps be taken
to ensure the safety of workers and the public.
Key prevention practices include:
✓ physical distancing to the maximum extent possible,
✓ use of face coverings by workers and volunteers (where respiratory protection
is not required) and congregants/visitors,
✓ frequent handwashing and regular cleaning and disinfection,
✓ training workers and volunteers on these and other elements of the COVID-19
prevention plan.
In addition, it will be critical to have in place appropriate processes to identify new
cases of illness in workplaces and, when they are identified, to intervene quickly and
work with public health authorities to halt the spread of the virus.

PURPOSE
This document provides guidance for places of worship and providers of religious
services and cultural ceremonies (referred to collectively as “places of worship”)
to support a safe, clean environment for workers, interns and trainees, volunteers,
scholars, and all other types of workers as well as congregants, worshippers,
visitors, etc. (referred to collectively as “visitors” or “congregants”). This guidance
does not obligate places of worship to resume in-person activity. Further, it is
strongly recommended that places of worship continue to facilitate remote

Case 2:20-cv-06414-JFW-PJW Document 1-11 Filed 07/17/20 Page 3 of 14 Page ID #:158
services and other related activities for those who are vulnerable to COVID-19
including older adults and those with co-morbidities.
Even with adherence to physical distancing, convening in a congregational setting
of multiple different households to practice a personal faith carries a relatively higher
risk for widespread transmission of the COVID-19 virus, and may result in increased
rates of infection, hospitalization, and death, especially among more vulnerable
populations. In particular, activities such as singing and chanting negate the riskreduction achieved through six feet of physical distancing.
*Places of worship must therefore discontinue singing and chanting activities and limit
indoor attendance to 25% of building capacity or a maximum of 100 attendees,
whichever is lower. Local Health Officers are advised to consider appropriate
limitations on outdoor attendance capacities, factoring their jurisdiction's key COVID19 health indicators. At a minimum, outdoor attendance should be limited naturally
through implementation of strict physical distancing measures of a minimum of six
feet between attendees from different households, in addition to other relevant
protocols within this document.
This revised limitation will be subject to regular review by the California Department
of Public Health in consultation with local Departments of Public Health to assess the
impact of these imposed limits on public health and provide further direction as
part of a phased-in restoration of activities in places of worship.
NOTE: This guidance is not intended for food preparation and service, delivery
of items to those in need, childcare and daycare services, school and
educational activities, in-home caregiving, counseling, office work, and other
activities that places and organizations of worship may provide. Organizations
that perform these activities must follow applicable guidance on the COVID-19
Resilience Roadmap website.
The guidance is not intended to revoke or repeal any worker rights, either statutory,
regulatory or collectively bargained, and is not exhaustive, as it does not include
county health orders, nor is it a substitute for any existing safety and health-related
regulatory requirements such as those of Cal/OSHA.1 Stay current on changes to
public health guidance and state/local orders, as the COVID-19 situation continues.
Cal/OSHA has more safety and health guidance on their Cal/OSHA Guidance on
Requirements to Protect Workers from Coronavirus webpage. The CDC has additional
guidance for community- and faith-based organizations.

Required Use of Face Coverings
On June 18, CDPH issued Guidance on the Use of Face Coverings, which broadly
requires the use of face coverings for both members of the public and workers in all
public and workplace settings where there is a high risk of exposure.
People in California must wear face coverings when they are engaged in work,

Case 2:20-cv-06414-JFW-PJW Document 1-11 Filed 07/17/20 Page 4 of 14 Page ID #:159
whether at the workplace or performing work off-site, when:
•

Interacting in-person with any member of the public;

•

Working in any space visited by members of the public, regardless of whether
anyone from the public is present at the time;

•

Working in any space where food is prepared or packaged for sale or
distribution to others;

•

Working in or walking through common areas, such as hallways, stairways,
elevators, and parking facilities;

•

In any room or enclosed area where other people (except for members of the
person’s own household or residence) are present when unable to physically
distance;

•

Driving or operating any public transportation or paratransit vehicle, taxi, or
private car service or ride-sharing vehicle when passengers are present. When
no passengers are present, face coverings are strongly recommended.

Complete details, including all requirements and exemptions to these rules, can be
found in the guidance. Face coverings are strongly encouraged in other
circumstances, and employers can implement additional face covering
requirements in fulfilling their obligation to provide workers with a safe and healthful
workplace. Employers should provide face coverings to workers or reimburse workers
for the reasonable cost of obtaining them.
Employers should develop an accommodation policy for any worker who meets one
of the exemptions from wearing a face covering. If a worker who would otherwise be
required to wear a face covering because of frequent contact with others cannot
wear one due to a medical condition, they should be provided with a non-restrictive
alternative, such as a face shield with a drape attached to the bottom edge, if
feasible, and if the medical condition permits it.
Businesses that are open to the public should be cognizant of the exemptions to
wearing face coverings in the CDPH Face Covering Guidance and may not exclude
any member of the public for not wearing a face covering if that person is complying
with the guidance. Businesses will need to develop policies for handling these
exemptions among customers, clients, visitors, and workers.

Case 2:20-cv-06414-JFW-PJW Document 1-11 Filed 07/17/20 Page 5 of 14 Page ID #:160

Workplace Specific Plan
•

Establish a written, workplace-specific COVID-19 prevention plan at every
location, perform a comprehensive risk assessment of all work areas and
all work tasks, and designate a person at each workplace to implement
the plan.

•

Incorporate the CDPH Face Covering Guidance into the Workplace
Specific Plan and include a policy for handling exemptions.

•

Identify contact information for the local health department where the
workplace is located for communicating information about COVID-19
outbreaks among workers and congregants/visitors.

•

Train and communicate with workers and worker representatives on the
plan and make the plan available to workers and their representatives.

•

Regularly evaluate workplaces for compliance with the plan and
document and correct deficiencies identified.

•

Investigate any COVID-19 illness and determine if any work-related
factors could have contributed to risk of infection. Update the plan as
needed to prevent further cases.

•

Implement the necessary processes and protocols when a workplace
has an outbreak, in accordance with CDPH guidelines.

•

Identify close contacts (within six feet for 15 minutes or more) of an
infected worker and take steps to isolate COVID-19 positive workers
and close contacts.

• Adhere to the guidelines below. Failure to do so could result in workplace
illnesses that may cause operations to be temporarily closed or limited.

Topics for Worker and Volunteer Training
•

Information on COVID-19, how to prevent it from spreading, and which
underlying health conditions may make individuals more susceptible
to contracting the virus.

•

Self-screening at home, including temperature and/or symptom checks
using CDC guidelines.

•

The importance of not coming to work or participating in activities
o If a worker has symptoms of COVID-19 as described by the CDC,

Case 2:20-cv-06414-JFW-PJW Document 1-11 Filed 07/17/20 Page 6 of 14 Page ID #:161
such as a fever or chills, cough, shortness of breath or difficulty
breathing, fatigue, muscle or body aches, headache, new loss of
taste or smell, sore throat, congestion or runny nose, nausea,
vomiting, or diarrhea, OR
o If a worker was diagnosed with COVID-19 and has not yet been
released from isolation, OR
o If within the past 14 days, a worker has had contact with someone
who has been diagnosed with COVID-19 and is considered
potentially infectious (i.e. still on isolation).
•

To return to work after a worker receives a COVID-19 diagnosis only if 10
days have passed since symptoms first appeared, their symptoms have
improved, and the worker has had no fevers (without the use of fever
reducing medications) for the last 72 hours. A worker without symptoms
who was diagnosed with COVID-19 can return to work only if 10 days
have passed since the date of the first positive COVID-19 test.

•

To seek medical attention if their symptoms become severe, including
persistent pain or pressure in the chest, confusion, or bluish lips or face.
Updates and further details are available on CDC’s webpage.

•

The importance of frequent handwashing with soap and water, including
scrubbing with soap for 20 seconds (or using hand sanitizer with at least
60% ethanol or 70% isopropanol when workers cannot get to a sink or
handwashing station, per CDC guidelines).

•

The importance of physical distancing, both at work and off work time
(see Physical Distancing section below).

•

Proper use of face coverings, including:
o Face coverings do not protect the wearer and are not personal
protective equipment (PPE).
o Face coverings can help protect people near the wearer, but do not
replace the need for physical distancing and frequent handwashing.
o Face coverings must cover the nose and mouth.
o Workers should wash or sanitize hands before and after using or
adjusting face coverings.
o Avoid touching the eyes, nose, and mouth.
o Face coverings must not be shared and should be washed or
discarded after each shift.

•

Information contained in the CDPH Guidance for the Use of Face

Case 2:20-cv-06414-JFW-PJW Document 1-11 Filed 07/17/20 Page 7 of 14 Page ID #:162
Coverings, which mandates the circumstances in which face
coverings must be worn and the exemptions, as well as any policies,
work rules, and practices the employer has adopted to ensure the
use of face coverings. Training should also include the employer’s
policies on how people who are exempted from wearing a face
covering will be handled.
•

Ensure all types of workers including temporary, independent
contractors, and volunteer workers are also properly trained in
COVID-19 prevention policies and have necessary PPE. Discuss these
responsibilities ahead of time with organizations supplying temporary,
contract, and/or volunteer staff.

•

Information on paid leave benefits the worker may be entitled to
receive that would make it financially easier to stay at home. See
additional information on government programs supporting sick leave
and worker’s compensation for COVID- 19, including worker’s sick
leave rights under the Families First Coronavirus Response Act and
worker’s rights to workers’ compensation benefits and presumption of
the work-relatedness of COVID-19 pursuant to the
Governor’s Executive Order N-62-20 while that Order is in effect.

Individual Control Measures and Screening
•

Provide temperature and/or symptom screenings for all workers at the
beginning of their shift. Make sure the temperature/symptom screener
avoids close contact with workers to the extent possible.

•

If requiring self-screening at home, which is an appropriate alternative to
providing it at the establishment, ensure that screening was performed
prior to the worker and/or volunteer leaving the home for their shift and
follows CDC guidelines, as described in the Topics for Worker Training
section above.

•

Encourage workers and congregants/visitors who are sick or exhibiting
symptoms of COVID-19, or who have family members who are ill, to
stay home.

•

Employers must provide and ensure workers and volunteers use all
required protective equipment, including eye protection and gloves,
where necessary.

•

Places of worship should consider where disposable gloves use may be
helpful to supplement frequent handwashing or use of hand sanitizer;
examples are for workers who are screening others for symptoms or
handling commonly touched items. All workers and volunteers should
wear gloves when handling items contaminated by body fluids.

Case 2:20-cv-06414-JFW-PJW Document 1-11 Filed 07/17/20 Page 8 of 14 Page ID #:163
•

Workers, volunteers, etc., should not enter the home or visit someone
who has tested positive for, exhibited symptoms of, or has been in
contact with someone infected with COVID-19 for an appropriate
waiting period as described by CDC guidelines.

•

Places of worship must take reasonable measures, including posting
signage in strategic and highly-visible locations and in reservation
confirmations, to remind congregants and visitors that they must use face
coverings and practice physical distancing and should frequently wash
their hands with soap for at least 20 seconds, use hand sanitizer, and not
touch their face.

•

Use social media, website, texts, email, newsletters, etc., to communicate
the steps being taken to protect congregants/visitors and workers so that
they are familiar with the policies (including to stay home if experiencing
symptoms or are at increased risk of becoming sick, face coverings,
physical distancing, handwashing and/or sanitizing, and cough
etiquette), before arriving at the facility. Workers and volunteers are
strongly encouraged to remind congregants/visitors of these practices
with announcements during services or on welcoming guests.

•

Remind congregants and visitors in advance to bring a face
covering and make them available to anyone who arrives without
one, if possible.

•

Congregants/visitors should be screened for temperature and/or
symptoms upon arrival to places of worship and asked to use hand
sanitizer.

Cleaning and Disinfecting Protocols
•

Perform thorough cleaning of high traffic areas such as lobbies, halls,
chapels, meeting rooms, offices, libraries, and study areas and areas of
ingress and egress including stairways, stairwells, handrails, and elevator
controls. Frequently disinfect commonly used surfaces including
doorknobs, toilets, handwashing facilities, pulpits and podiums,
donation boxes or plates, altars, and pews and seating areas.

•

Establish frequent cleaning and disinfection of personal work areas such
as desks and cubicles and supply the necessary cleaning products.
Provide time for workers to implement cleaning practices during their
shift. Cleaning assignments should be assigned during working hours as
part of the workers’ job duties.

•

Discourage sharing items used in worship and services (such as prayer
books, cushions, prayer rugs, etc.) whenever possible and provide singleuse or digital copies or ask congregants/visitors to bring personal items

Case 2:20-cv-06414-JFW-PJW Document 1-11 Filed 07/17/20 Page 9 of 14 Page ID #:164
instead. Avoid sharing work equipment and supplies, such as phones,
office equipment, computers, etc., wherever possible. Never share PPE.
•

Where such items must be shared, disinfect between shifts or uses,
whichever is more frequent, including the following: shared office
equipment (copiers, fax machines, printers, telephones, keyboards,
staplers, etc.) and shared worship items, etc., with a cleaner
appropriate for the surface.

•

Ensure that sanitary facilities stay operational and stocked at all times
and provide additional soap, paper towels, and hand sanitizer when
needed. Consider more frequently cleaning and disinfecting
handwashing facilities that are used more often. Use signage to
reinforce handwashing.

•

Disinfect microphones and stands, music stands, instruments and other
items on pulpits and podiums between each use. Consult equipment
manufacturers to determine appropriate disinfection steps,
particularly for soft, porous surfaces such as foam mufflers.

•

Consider using disposable seat covers for congregants/visitors,
particularly on porous surfaces or where a facility has multiple daily
services. Discard and replace seat covers between each use. Provide
disposable or washable covers on pillows used as seating on floors and
change/wash them after each use.

•

Install hand sanitizer dispensers, touchless whenever possible, at
entrances and contact areas such as meeting rooms, lobbies,
and elevator landings.

•

When choosing disinfecting chemicals, establishments should use
products approved for use against COVID-19 on the Environmental
Protection Agency (EPA)-approved list and follow product instructions.
Use disinfectants labeled to be effective against emerging viral
pathogens, diluted household bleach solutions (5 tablespoons per gallon
of water), or alcohol solutions with at least 70% alcohol that are
appropriate for the surface. Provide workers training on the chemical
hazards, manufacturer’s directions, ventilation requirements, and
Cal/OSHA requirements for safe use. Workers and volunteers using
cleaners or disinfectants should wear gloves or other protective
equipment as required by the product instructions. Follow the asthmasafer cleaning methods recommended by the California Department of
Public Health and ensure proper ventilation.

•

Wash religious garments and linens after each service or event, at the
highest water setting possible. Ask congregants/visitors to bring their
own storage bags for personal garments and shoes. Workers,
congregants, and visitors should wear gloves when handling others’
dirty linens, shoes, etc.

Case 2:20-cv-06414-JFW-PJW Document 1-11 Filed 07/17/20 Page 10 of 14 Page ID
#:165
•

Discontinue passing offering plates and similar items that move between
people. Use alternative giving options such as secure drop boxes that do
not require opening/closing and can be cleaned and disinfected.
Consider implementing digital systems that allow congregants/visitors to
make touch-free offerings.

•

Mark walking paths between spaces designated for congregants/visitors
to sit/kneel so that people do not walk where someone may touch their
head to the floor.

•

During meetings and services, introduce fresh outside air, for example by
opening doors/windows (weather permitting) and operating ventilation
systems.

•

Where possible, do not clean floors by sweeping or other methods
that can disperse pathogens into the air. Use a vacuum with a HEPA
filter wherever possible.

•

Consider installing portable high-efficiency air cleaners, upgrading the
building’s air filters to the highest efficiency possible, and making
other modifications to increase the quantity of outside air and
ventilation in worship areas, offices, and other spaces.

Physical Distancing Guidelines
•

Places of worship should continue to provide services through alternative
methods (such as via internet live and/or recorded streaming, telephone,
drive-in, etc.) whenever possible.

•

Consider holding in-person meetings and providing in-person services
outside whenever possible.

•

Implement measures to ensure physical distancing of at least six feet
between workers and congregants/visitors, etc. This can include use of
physical partitions or visual cues (e.g., floor or pew markings or signs to
indicate where people should sit and stand). Reconfigure seating and
standing areas to maintain physical distancing of six feet or more
between congregants/visitors from different households. Consider
limiting seating to alternate rows. Members of the same household may
be seated together but should maintain at least six feet of distance from
other households.

•

Consider dedicating workers to help people maintain distances
during activities.

•

Shorten services to limit the length of time congregants/visitors spend at
facilities whenever possible. This could include limiting speeches, asking
congregants/visitors to put on garments at home before arrival, etc.

Case 2:20-cv-06414-JFW-PJW Document 1-11 Filed 07/17/20 Page 11 of 14 Page ID
#:166
•

Close places of worship for visitation outside of scheduled services,
meetings, etc., whenever possible.

•

Consider implementing a reservation system to limit the number of
congregants/visitors attending facilities at a time. This can include the
use of digital platforms or other types of tools.

•

Encourage congregants/visitors to meet with the same group, particularly
when services meet frequently and/or require a certain number of
people to be present. This can reduce the spread of transmission by
minimizing the number of different individuals who come into close
contact with each other.

•

Consider offering additional meeting times (per day or per week) so that
fewer guests attend meetings and services at one time. Clean meeting
areas between each use as described in this guidance.

•

Discontinue large gatherings that encourage congregants/visitors to
travel and break physical distances during activities, such as concerts,
large holiday and life event celebrations and remembrances.

•

Children should remain in the care of those in their household unit and
not interact with children of other parties at any time while visiting
facilities. Close play areas and discontinue activities and services for
children where physical distancing of at least six feet cannot be
maintained.

•

Encourage congregants/visitors to physically distance themselves from
others outside their household, avoid touching surfaces, and to leave the
facility if they do not feel well.

•

Consider limiting touching for religious and/or cultural purposes, such as
holding hands, to members of the same household.

•

Dedicate workers to direct guests to meeting rooms upon entry to
places of worship rather than congregating in lobbies or common
areas. Consider using ushers to help people find places to sit and stand
that are at least six feet apart from other guests/household groups. Ask
congregants/visitors to arrive and leave in a single group to minimize
crossflow of people. Welcome and dismiss congregants/visitors from
altars, podiums, meeting rooms, etc. in an orderly way to maintain
physical distancing and minimize crossflow of traffic, to the extent
possible.

•

Prop or hold doors open during peak periods when congregants/visitors
are entering and exiting facilities, if possible and in accordance with
security and safety protocols.

•

Close or restrict common areas, such as break rooms, kitchenettes, foyers,

Case 2:20-cv-06414-JFW-PJW Document 1-11 Filed 07/17/20 Page 12 of 14 Page ID
#:167
etc. where people are likely to congregate and interact. Consider
installing barriers or increase physical distance between tables/seating
when there is continued use of these areas.
•

Remove from service or find low-community touch alternatives for
communal/religious water containers such as fonts, sinks, and vessels.
Empty and change water between uses. Where there is a possibility of
contaminant splash, workers, congregants, visitors, etc., are strongly
encouraged to use equipment to protect the eyes, nose, and mouth
using a combination of face coverings, protective glasses, and/or face
shields. Reusable protective equipment such as shields and glasses
should be properly disinfected between uses.

•

When washing is a required activity, modify practices whenever possible
to limit splashing and the need to clean and disinfect washing facilities.
Encourage necessary washing to be performed at home prior to
entering a facility, if possible.

•

Reconfigure podiums and speaker areas, office spaces, meeting rooms,
conference rooms, etc., to allow for at least six feet between people.

•

Establish directional hallways and passageways for foot traffic, if possible,
and designate separate routes for entry and exit into meeting rooms,
offices, etc., to help maintain physical distancing and lessen the
instances of people closely passing each other.

•

Limit the number of individuals riding in an elevator at a time. Post
signage regarding these policies.

•

Utilize practices, when feasible and necessary, to limit the number of
workers and congregants/visitors in office, meeting spaces, etc., at one
time. This may include scheduling (e.g. staggering start/end times),
establishing alternating days for onsite reporting, returning to places of
worship in phases, or continued use of telework when feasible.

•

Consider offering workers and volunteers who request modified duties
options that minimize their contact with congregants/visitors and
other workers (e.g., office duties rather than working as an usher or
managing administrative needs through telework).

•

Stagger worker breaks, in compliance with wage and hour regulations,
to maintain physical distancing protocols.

•

Discontinue nonessential travel and encourage distance meetings via
phone and internet.

•

Close self-service item selection such as pamphlet displays and
bookshelves and provide these items to congregants/visitors individually
as necessary. Consider delivering items and information electronically.

Case 2:20-cv-06414-JFW-PJW Document 1-11 Filed 07/17/20 Page 13 of 14 Page ID
#:168
•

Consider limiting the number of people that use the restroom at one time
to allow for physical distancing.

•

Discourage workers, congregants, visitors, etc., from engaging in
handshakes, hugs, and similar greetings that break physical distance.
Take reasonable measures to remind people to wave or use other
greetings.

•

Reconfigure parking lots to limit congregation points and ensure proper
separation (e.g., closing every other space). If performing drive-in
services, ensure vehicle windows and doors are closed if six feet of
distance is not possible between vehicles.

•

Continue to support non-in person attendance of services and other
related activities by those who are vulnerable to COVID-19 including
older adults and those with co-morbidities.

Considerations for Places of Worship
•

Discontinue offering self-service food and beverages. Do not hold
potlucks or similar family-style eating and drinking events that increase
the risk of cross contamination. If food and beverages must be served,
provide items in single-serve, disposable containers whenever possible.
Workers or volunteers serving food should wash hands frequently and
wear disposable gloves.

•

Discontinue singing (in rehearsals, services, etc.), chanting, and other
practices and performances where there is increased likelihood for
transmission from contaminated exhaled droplets. Consider practicing
these activities through alternative methods (such as internet streaming)
that ensure individual congregation members perform these activities
separately in their own homes.

•

Consider modifying practices that are specific to particular faith traditions
that might encourage the spread of COVID-19. Examples are
discontinuing kissing of ritual objects, allowing rites to be performed by
fewer people, avoiding the use of a common cup, offering communion
in the hand instead of on the tongue, providing pre-packed communion
items on chairs prior to service, etc., in accordance with CDC guidelines.

Case 2:20-cv-06414-JFW-PJW Document 1-11 Filed 07/17/20 Page 14 of 14 Page ID
#:169

Considerations for Funerals

1Additional

•

Consider reduced visitor capacity and stagger visitation times at funerals,
wakes, etc., if possible. Follow all cleaning and disinfection measures as
described in this guidance. Whenever possible, remind visitors to maintain
physical distance from each other, from workers and volunteers, and
from the deceased.

•

Consider modifying religious or cultural practices when washing or
shrouding bodies of those who have died from COVID-19, in
accordance with guidance from CDPH and the CDC. If washing the
body or shrouding are important religious or cultural practices, work
with funeral home staff and families to reduce exposure as much as
possible. All people participating in these activities must wear
disposable gloves and if there will be splashing of fluids, people must
use additional protective equipment including protection for the eyes,
nose, and mouth, such as face shields.

•

Consult and comply with local guidance regarding limits on gathering
sizes, travel, holding funerals for those who died from COVID-19, etc.

•

Consider other recommendations and modifications of services related
to places of worship outlined above, as applicable for funeral services.

requirements must be considered for vulnerable populations. Places of worship must
comply with all Cal/OSHA standards and be prepared to adhere to its guidance as well as
guidance from the Centers for Disease Control and Prevention (CDC) and the California
Department of Public Health (CDPH). Additionally, places of worship must be prepared to alter
their operations as those guidelines change.

Case 2:20-cv-06414-JFW-PJW Document 1-12 Filed 07/17/20 Page 1 of 14 Page ID #:170

COVID-19
INDUSTRY
GUIDANCE:
Places of Worship
and Providers of
Religious Services
and Cultural
Ceremonies
July 6, 2020
covid19.ca.gov

1

Case 2:20-cv-06414-JFW-PJW Document 1-12 Filed 07/17/20 Page 2 of 14 Page ID #:171

OVERVIEW
On March 19, 2020, the State Public Health Officer and Director of the California
Department of Public Health issued an order requiring most Californians to stay at
home to disrupt the spread of COVID-19 among the population.
The impact of COVID-19 on the health of Californians is not yet fully known. Reported
illness ranges from very mild (some people have no symptoms) to severe illness that
may result in death. Certain groups, including people aged 65 or older and those with
serious underlying medical conditions, such as heart or lung disease or diabetes, are
at higher risk of hospitalization and serious complications. Transmission is most likely
when people are in close contact or in a poorly ventilated area with an infected
person, even if that person does not have any symptoms or has not yet developed
symptoms.
Precise information about the number and rates of COVID-19 by industry or
occupational groups, including among critical infrastructure workers, is not available
at this time. There have been multiple outbreaks in a range of workplaces, indicating
that workers are at risk of acquiring or transmitting COVID-19 infection. Examples of
these workplaces include places of worship, hospitals, long-term care facilities,
prisons, food production, warehouses, meat processing plants, and grocery stores.
As stay-at-home orders are modified, it is essential that all possible steps be taken
to ensure the safety of workers and the public.
Key prevention practices include:
✓ physical distancing to the maximum extent possible,
✓ use of face coverings by workers and volunteers (where respiratory protection
is not required) and congregants/visitors,
✓ frequent handwashing and regular cleaning and disinfection,
✓ training workers and volunteers on these and other elements of the COVID-19
prevention plan.
In addition, it will be critical to have in place appropriate processes to identify new
cases of illness in workplaces and, when they are identified, to intervene quickly and
work with public health authorities to halt the spread of the virus.

PURPOSE
This document provides guidance for places of worship and providers of religious
services and cultural ceremonies (referred to collectively as “places of worship”)
to support a safe, clean environment for workers, interns and trainees, volunteers,
scholars, and all other types of workers as well as congregants, worshippers,
visitors, etc. (referred to collectively as “visitors” or “congregants”). This guidance
does not obligate places of worship to resume in-person activity. Further, it is
strongly recommended that places of worship continue to facilitate remote
2

Case 2:20-cv-06414-JFW-PJW Document 1-12 Filed 07/17/20 Page 3 of 14 Page ID #:172
services and other related activities for those who are vulnerable to COVID-19
including older adults and those with co-morbidities.
Even with adherence to physical distancing, convening in a congregational setting
of multiple different households to practice a personal faith carries a relatively higher
risk for widespread transmission of the COVID-19 virus, and may result in increased
rates of infection, hospitalization, and death, especially among more vulnerable
populations. In particular, activities such as singing and chanting negate the riskreduction achieved through six feet of physical distancing.
*Places of worship must therefore discontinue indoor singing and chanting activities
and limit indoor attendance to 25% of building capacity or a maximum of 100
attendees, whichever is lower. Local Health Officers are advised to consider
appropriate limitations on outdoor attendance capacities, factoring their jurisdiction's
key COVID-19 health indicators. At a minimum, outdoor attendance should be limited
naturally through implementation of strict physical distancing measures of a minimum
of six feet between attendees from different households, in addition to other relevant
protocols within this document.
This revised limitation will be subject to regular review by the California Department
of Public Health in consultation with local Departments of Public Health to assess the
impact of these imposed limits on public health and provide further direction as
part of a phased-in restoration of activities in places of worship.
NOTE: This guidance is not intended for food preparation and service, delivery
of items to those in need, childcare and daycare services, school and
educational activities, in-home caregiving, counseling, office work, and other
activities that places and organizations of worship may provide. Organizations
that perform these activities must follow applicable guidance on the COVID-19
Resilience Roadmap website.
The guidance is not intended to revoke or repeal any worker rights, either statutory,
regulatory or collectively bargained, and is not exhaustive, as it does not include
county health orders, nor is it a substitute for any existing safety and health-related
regulatory requirements such as those of Cal/OSHA.1 Stay current on changes to
public health guidance and state/local orders, as the COVID-19 situation continues.
Cal/OSHA has more safety and health guidance on their Cal/OSHA Guidance on
Requirements to Protect Workers from Coronavirus webpage. The CDC has additional
guidance for community- and faith-based organizations.

Required Use of Face Coverings
On June 18, CDPH issued Guidance on the Use of Face Coverings, which broadly
requires the use of face coverings for both members of the public and workers in all
public and workplace settings where there is a high risk of exposure.
People in California must wear face coverings when they are engaged in work,
3

Case 2:20-cv-06414-JFW-PJW Document 1-12 Filed 07/17/20 Page 4 of 14 Page ID #:173
whether at the workplace or performing work off-site, when:
•

Interacting in-person with any member of the public;

•

Working in any space visited by members of the public, regardless of whether
anyone from the public is present at the time;

•

Working in any space where food is prepared or packaged for sale or
distribution to others;

•

Working in or walking through common areas, such as hallways, stairways,
elevators, and parking facilities;

•

In any room or enclosed area where other people (except for members of the
person’s own household or residence) are present when unable to physically
distance;

•

Driving or operating any public transportation or paratransit vehicle, taxi, or
private car service or ride-sharing vehicle when passengers are present. When
no passengers are present, face coverings are strongly recommended.

Complete details, including all requirements and exemptions to these rules, can be
found in the guidance. Face coverings are strongly encouraged in other
circumstances, and employers can implement additional face covering
requirements in fulfilling their obligation to provide workers with a safe and healthful
workplace. Employers should provide face coverings to workers or reimburse workers
for the reasonable cost of obtaining them.
Employers should develop an accommodation policy for any worker who meets one
of the exemptions from wearing a face covering. If a worker who would otherwise be
required to wear a face covering because of frequent contact with others cannot
wear one due to a medical condition, they should be provided with a non-restrictive
alternative, such as a face shield with a drape attached to the bottom edge, if
feasible, and if the medical condition permits it.
Businesses that are open to the public should be cognizant of the exemptions to
wearing face coverings in the CDPH Face Covering Guidance and may not exclude
any member of the public for not wearing a face covering if that person is complying
with the guidance. Businesses will need to develop policies for handling these
exemptions among customers, clients, visitors, and workers.

4

Case 2:20-cv-06414-JFW-PJW Document 1-12 Filed 07/17/20 Page 5 of 14 Page ID #:174

Workplace Specific Plan
•

Establish a written, workplace-specific COVID-19 prevention plan at every
location, perform a comprehensive risk assessment of all work areas and
all work tasks, and designate a person at each workplace to implement
the plan.

•

Incorporate the CDPH Face Covering Guidance into the Workplace
Specific Plan and include a policy for handling exemptions.

•

Identify contact information for the local health department where the
workplace is located for communicating information about COVID-19
outbreaks among workers and congregants/visitors.

•

Train and communicate with workers and worker representatives on the
plan and make the plan available to workers and their representatives.

•

Regularly evaluate workplaces for compliance with the plan and
document and correct deficiencies identified.

•

Investigate any COVID-19 illness and determine if any work-related
factors could have contributed to risk of infection. Update the plan as
needed to prevent further cases.

•

Implement the necessary processes and protocols when a workplace
has an outbreak, in accordance with CDPH guidelines.

•

Identify close contacts (within six feet for 15 minutes or more) of an
infected worker and take steps to isolate COVID-19 positive workers
and close contacts.

• Adhere to the guidelines below. Failure to do so could result in workplace
illnesses that may cause operations to be temporarily closed or limited.

Topics for Worker and Volunteer Training
•

Information on COVID-19, how to prevent it from spreading, and which
underlying health conditions may make individuals more susceptible
to contracting the virus.

•

Self-screening at home, including temperature and/or symptom checks
using CDC guidelines.

•

The importance of not coming to work or participating in activities
o If a worker has symptoms of COVID-19 as described by the CDC,

5

Case 2:20-cv-06414-JFW-PJW Document 1-12 Filed 07/17/20 Page 6 of 14 Page ID #:175
such as a fever or chills, cough, shortness of breath or difficulty
breathing, fatigue, muscle or body aches, headache, new loss of
taste or smell, sore throat, congestion or runny nose, nausea,
vomiting, or diarrhea, OR
o If a worker was diagnosed with COVID-19 and has not yet been
released from isolation, OR
o If within the past 14 days, a worker has had contact with someone
who has been diagnosed with COVID-19 and is considered
potentially infectious (i.e. still on isolation).
•

To return to work after a worker receives a COVID-19 diagnosis only if 10
days have passed since symptoms first appeared, their symptoms have
improved, and the worker has had no fevers (without the use of fever
reducing medications) for the last 72 hours. A worker without symptoms
who was diagnosed with COVID-19 can return to work only if 10 days
have passed since the date of the first positive COVID-19 test.

•

To seek medical attention if their symptoms become severe, including
persistent pain or pressure in the chest, confusion, or bluish lips or face.
Updates and further details are available on CDC’s webpage.

•

The importance of frequent handwashing with soap and water, including
scrubbing with soap for 20 seconds (or using hand sanitizer with at least
60% ethanol or 70% isopropanol when workers cannot get to a sink or
handwashing station, per CDC guidelines).

•

The importance of physical distancing, both at work and off work time
(see Physical Distancing section below).

•

Proper use of face coverings, including:
o Face coverings do not protect the wearer and are not personal
protective equipment (PPE).
o Face coverings can help protect people near the wearer, but do not
replace the need for physical distancing and frequent handwashing.
o Face coverings must cover the nose and mouth.
o Workers should wash or sanitize hands before and after using or
adjusting face coverings.
o Avoid touching the eyes, nose, and mouth.
o Face coverings must not be shared and should be washed or
discarded after each shift.

•

Information contained in the CDPH Guidance for the Use of Face

6

Case 2:20-cv-06414-JFW-PJW Document 1-12 Filed 07/17/20 Page 7 of 14 Page ID #:176
Coverings, which mandates the circumstances in which face
coverings must be worn and the exemptions, as well as any policies,
work rules, and practices the employer has adopted to ensure the
use of face coverings. Training should also include the employer’s
policies on how people who are exempted from wearing a face
covering will be handled.
•

Ensure all types of workers including temporary, independent
contractors, and volunteer workers are also properly trained in
COVID-19 prevention policies and have necessary PPE. Discuss these
responsibilities ahead of time with organizations supplying temporary,
contract, and/or volunteer staff.

•

Information on paid leave benefits the worker may be entitled to
receive that would make it financially easier to stay at home. See
additional information on government programs supporting sick leave
and worker’s compensation for COVID- 19, including worker’s sick
leave rights under the Families First Coronavirus Response Act and
worker’s rights to workers’ compensation benefits and presumption of
the work-relatedness of COVID-19 pursuant to the
Governor’s Executive Order N-62-20 while that Order is in effect.

Individual Control Measures and Screening
•

Provide temperature and/or symptom screenings for all workers at the
beginning of their shift. Make sure the temperature/symptom screener
avoids close contact with workers to the extent possible.

•

If requiring self-screening at home, which is an appropriate alternative to
providing it at the establishment, ensure that screening was performed
prior to the worker and/or volunteer leaving the home for their shift and
follows CDC guidelines, as described in the Topics for Worker Training
section above.

•

Encourage workers and congregants/visitors who are sick or exhibiting
symptoms of COVID-19, or who have family members who are ill, to
stay home.

•

Employers must provide and ensure workers and volunteers use all
required protective equipment, including eye protection and gloves,
where necessary.

•

Places of worship should consider where disposable gloves use may be
helpful to supplement frequent handwashing or use of hand sanitizer;
examples are for workers who are screening others for symptoms or
handling commonly touched items. All workers and volunteers should
wear gloves when handling items contaminated by body fluids.

7

Case 2:20-cv-06414-JFW-PJW Document 1-12 Filed 07/17/20 Page 8 of 14 Page ID #:177
•

Workers, volunteers, etc., should not enter the home or visit someone
who has tested positive for, exhibited symptoms of, or has been in
contact with someone infected with COVID-19 for an appropriate
waiting period as described by CDC guidelines.

•

Places of worship must take reasonable measures, including posting
signage in strategic and highly-visible locations and in reservation
confirmations, to remind congregants and visitors that they must use face
coverings and practice physical distancing and should frequently wash
their hands with soap for at least 20 seconds, use hand sanitizer, and not
touch their face.

•

Use social media, website, texts, email, newsletters, etc., to communicate
the steps being taken to protect congregants/visitors and workers so that
they are familiar with the policies (including to stay home if experiencing
symptoms or are at increased risk of becoming sick, face coverings,
physical distancing, handwashing and/or sanitizing, and cough
etiquette), before arriving at the facility. Workers and volunteers are
strongly encouraged to remind congregants/visitors of these practices
with announcements during services or on welcoming guests.

•

Remind congregants and visitors in advance to bring a face
covering and make them available to anyone who arrives without
one, if possible.

•

Congregants/visitors should be screened for temperature and/or
symptoms upon arrival to places of worship and asked to use hand
sanitizer.

Cleaning and Disinfecting Protocols
•

Perform thorough cleaning of high traffic areas such as lobbies, halls,
chapels, meeting rooms, offices, libraries, and study areas and areas of
ingress and egress including stairways, stairwells, handrails, and elevator
controls. Frequently disinfect commonly used surfaces including
doorknobs, toilets, handwashing facilities, pulpits and podiums,
donation boxes or plates, altars, and pews and seating areas.

•

Establish frequent cleaning and disinfection of personal work areas such
as desks and cubicles and supply the necessary cleaning products.
Provide time for workers to implement cleaning practices during their
shift. Cleaning assignments should be assigned during working hours as
part of the workers’ job duties.

•

Discourage sharing items used in worship and services (such as prayer
books, cushions, prayer rugs, etc.) whenever possible and provide singleuse or digital copies or ask congregants/visitors to bring personal items
8

Case 2:20-cv-06414-JFW-PJW Document 1-12 Filed 07/17/20 Page 9 of 14 Page ID #:178
instead. Avoid sharing work equipment and supplies, such as phones,
office equipment, computers, etc., wherever possible. Never share PPE.
•

Where such items must be shared, disinfect between shifts or uses,
whichever is more frequent, including the following: shared office
equipment (copiers, fax machines, printers, telephones, keyboards,
staplers, etc.) and shared worship items, etc., with a cleaner
appropriate for the surface.

•

Ensure that sanitary facilities stay operational and stocked at all times
and provide additional soap, paper towels, and hand sanitizer when
needed. Consider more frequently cleaning and disinfecting
handwashing facilities that are used more often. Use signage to
reinforce handwashing.

•

Disinfect microphones and stands, music stands, instruments and other
items on pulpits and podiums between each use. Consult equipment
manufacturers to determine appropriate disinfection steps,
particularly for soft, porous surfaces such as foam mufflers.

•

Consider using disposable seat covers for congregants/visitors,
particularly on porous surfaces or where a facility has multiple daily
services. Discard and replace seat covers between each use. Provide
disposable or washable covers on pillows used as seating on floors and
change/wash them after each use.

•

Install hand sanitizer dispensers, touchless whenever possible, at
entrances and contact areas such as meeting rooms, lobbies,
and elevator landings.

•

When choosing disinfecting chemicals, establishments should use
products approved for use against COVID-19 on the Environmental
Protection Agency (EPA)-approved list and follow product instructions.
Use disinfectants labeled to be effective against emerging viral
pathogens, diluted household bleach solutions (5 tablespoons per gallon
of water), or alcohol solutions with at least 70% alcohol that are
appropriate for the surface. Provide workers training on the chemical
hazards, manufacturer’s directions, ventilation requirements, and
Cal/OSHA requirements for safe use. Workers and volunteers using
cleaners or disinfectants should wear gloves or other protective
equipment as required by the product instructions. Follow the asthmasafer cleaning methods recommended by the California Department of
Public Health and ensure proper ventilation.

•

Wash religious garments and linens after each service or event, at the
highest water setting possible. Ask congregants/visitors to bring their
own storage bags for personal garments and shoes. Workers,
congregants, and visitors should wear gloves when handling others’
dirty linens, shoes, etc.
9

Case 2:20-cv-06414-JFW-PJW Document 1-12 Filed 07/17/20 Page 10 of 14 Page ID
#:179
•

Discontinue passing offering plates and similar items that move between
people. Use alternative giving options such as secure drop boxes that do
not require opening/closing and can be cleaned and disinfected.
Consider implementing digital systems that allow congregants/visitors to
make touch-free offerings.

•

Mark walking paths between spaces designated for congregants/visitors
to sit/kneel so that people do not walk where someone may touch their
head to the floor.

•

During meetings and services, introduce fresh outside air, for example by
opening doors/windows (weather permitting) and operating ventilation
systems.

•

Where possible, do not clean floors by sweeping or other methods
that can disperse pathogens into the air. Use a vacuum with a HEPA
filter wherever possible.

•

Consider installing portable high-efficiency air cleaners, upgrading the
building’s air filters to the highest efficiency possible, and making
other modifications to increase the quantity of outside air and
ventilation in worship areas, offices, and other spaces.

Physical Distancing Guidelines
•

Places of worship should continue to provide services through alternative
methods (such as via internet live and/or recorded streaming, telephone,
drive-in, etc.) whenever possible.

•

Consider holding in-person meetings and providing in-person services
outside whenever possible.

•

Implement measures to ensure physical distancing of at least six feet
between workers and congregants/visitors, etc. This can include use of
physical partitions or visual cues (e.g., floor or pew markings or signs to
indicate where people should sit and stand). Reconfigure seating and
standing areas to maintain physical distancing of six feet or more
between congregants/visitors from different households. Consider
limiting seating to alternate rows. Members of the same household may
be seated together but should maintain at least six feet of distance from
other households.

•

Consider dedicating workers to help people maintain distances
during activities.

•

Shorten services to limit the length of time congregants/visitors spend at
facilities whenever possible. This could include limiting speeches, asking
congregants/visitors to put on garments at home before arrival, etc.
10

Case 2:20-cv-06414-JFW-PJW Document 1-12 Filed 07/17/20 Page 11 of 14 Page ID
#:180
•

Close places of worship for visitation outside of scheduled services,
meetings, etc., whenever possible.

•

Consider implementing a reservation system to limit the number of
congregants/visitors attending facilities at a time. This can include the
use of digital platforms or other types of tools.

•

Encourage congregants/visitors to meet with the same group, particularly
when services meet frequently and/or require a certain number of
people to be present. This can reduce the spread of transmission by
minimizing the number of different individuals who come into close
contact with each other.

•

Consider offering additional meeting times (per day or per week) so that
fewer guests attend meetings and services at one time. Clean meeting
areas between each use as described in this guidance.

•

Discontinue large gatherings that encourage congregants/visitors to
travel and break physical distances during activities, such as concerts,
large holiday and life event celebrations and remembrances.

•

Children should remain in the care of those in their household unit and
not interact with children of other parties at any time while visiting
facilities. Close play areas and discontinue activities and services for
children where physical distancing of at least six feet cannot be
maintained.

•

Encourage congregants/visitors to physically distance themselves from
others outside their household, avoid touching surfaces, and to leave the
facility if they do not feel well.

•

Consider limiting touching for religious and/or cultural purposes, such as
holding hands, to members of the same household.

•

Dedicate workers to direct guests to meeting rooms upon entry to
places of worship rather than congregating in lobbies or common
areas. Consider using ushers to help people find places to sit and stand
that are at least six feet apart from other guests/household groups. Ask
congregants/visitors to arrive and leave in a single group to minimize
crossflow of people. Welcome and dismiss congregants/visitors from
altars, podiums, meeting rooms, etc. in an orderly way to maintain
physical distancing and minimize crossflow of traffic, to the extent
possible.

•

Prop or hold doors open during peak periods when congregants/visitors
are entering and exiting facilities, if possible and in accordance with
security and safety protocols.

•

Close or restrict common areas, such as break rooms, kitchenettes, foyers,
11

Case 2:20-cv-06414-JFW-PJW Document 1-12 Filed 07/17/20 Page 12 of 14 Page ID
#:181
etc. where people are likely to congregate and interact. Consider
installing barriers or increase physical distance between tables/seating
when there is continued use of these areas.
•

Remove from service or find low-community touch alternatives for
communal/religious water containers such as fonts, sinks, and vessels.
Empty and change water between uses. Where there is a possibility of
contaminant splash, workers, congregants, visitors, etc., are strongly
encouraged to use equipment to protect the eyes, nose, and mouth
using a combination of face coverings, protective glasses, and/or face
shields. Reusable protective equipment such as shields and glasses
should be properly disinfected between uses.

•

When washing is a required activity, modify practices whenever possible
to limit splashing and the need to clean and disinfect washing facilities.
Encourage necessary washing to be performed at home prior to
entering a facility, if possible.

•

Reconfigure podiums and speaker areas, office spaces, meeting rooms,
conference rooms, etc., to allow for at least six feet between people.

•

Establish directional hallways and passageways for foot traffic, if possible,
and designate separate routes for entry and exit into meeting rooms,
offices, etc., to help maintain physical distancing and lessen the
instances of people closely passing each other.

•

Limit the number of individuals riding in an elevator at a time. Post
signage regarding these policies.

•

Utilize practices, when feasible and necessary, to limit the number of
workers and congregants/visitors in office, meeting spaces, etc., at one
time. This may include scheduling (e.g. staggering start/end times),
establishing alternating days for onsite reporting, returning to places of
worship in phases, or continued use of telework when feasible.

•

Consider offering workers and volunteers who request modified duties
options that minimize their contact with congregants/visitors and
other workers (e.g., office duties rather than working as an usher or
managing administrative needs through telework).

•

Stagger worker breaks, in compliance with wage and hour regulations,
to maintain physical distancing protocols.

•

Discontinue nonessential travel and encourage distance meetings via
phone and internet.

•

Close self-service item selection such as pamphlet displays and
bookshelves and provide these items to congregants/visitors individually
as necessary. Consider delivering items and information electronically.
12

Case 2:20-cv-06414-JFW-PJW Document 1-12 Filed 07/17/20 Page 13 of 14 Page ID
#:182
•

Consider limiting the number of people that use the restroom at one time
to allow for physical distancing.

•

Discourage workers, congregants, visitors, etc., from engaging in
handshakes, hugs, and similar greetings that break physical distance.
Take reasonable measures to remind people to wave or use other
greetings.

•

Reconfigure parking lots to limit congregation points and ensure proper
separation (e.g., closing every other space). If performing drive-in
services, ensure vehicle windows and doors are closed if six feet of
distance is not possible between vehicles.

•

Continue to support non-in person attendance of services and other
related activities by those who are vulnerable to COVID-19 including
older adults and those with co-morbidities.

Considerations for Places of Worship
•

Discontinue offering self-service food and beverages. Do not hold
potlucks or similar family-style eating and drinking events that increase
the risk of cross contamination. If food and beverages must be served,
provide items in single-serve, disposable containers whenever possible.
Workers or volunteers serving food should wash hands frequently and
wear disposable gloves.

•

Discontinue singing (in rehearsals, services, etc.), chanting, and other
practices and performances where there is increased likelihood for
transmission from contaminated exhaled droplets. Consider practicing
these activities through alternative methods (such as internet streaming)
that ensure individual congregation members perform these activities
separately in their own homes.

•

Consider modifying practices that are specific to particular faith traditions
that might encourage the spread of COVID-19. Examples are
discontinuing kissing of ritual objects, allowing rites to be performed by
fewer people, avoiding the use of a common cup, offering communion
in the hand instead of on the tongue, providing pre-packed communion
items on chairs prior to service, etc., in accordance with CDC guidelines.

13

Case 2:20-cv-06414-JFW-PJW Document 1-12 Filed 07/17/20 Page 14 of 14 Page ID
#:183

Considerations for Funerals
•

Consider reduced visitor capacity and stagger visitation times at funerals,
wakes, etc., if possible. Follow all cleaning and disinfection measures as
described in this guidance. Whenever possible, remind visitors to maintain
physical distance from each other, from workers and volunteers, and
from the deceased.

•

Consider modifying religious or cultural practices when washing or
shrouding bodies of those who have died from COVID-19, in
accordance with guidance from CDPH and the CDC. If washing the
body or shrouding are important religious or cultural practices, work
with funeral home staff and families to reduce exposure as much as
possible. All people participating in these activities must wear
disposable gloves and if there will be splashing of fluids, people must
use additional protective equipment including protection for the eyes,
nose, and mouth, such as face shields.

•

Consult and comply with local guidance regarding limits on gathering
sizes, travel, holding funerals for those who died from COVID-19, etc.

•

Consider other recommendations and modifications of services related
to places of worship outlined above, as applicable for funeral services.

1Additional

requirements must be considered for vulnerable populations. Places of worship must
comply with all Cal/OSHA standards and be prepared to adhere to its guidance as well as
guidance from the Centers for Disease Control and Prevention (CDC) and the California
Department of Public Health (CDPH). Additionally, places of worship must be prepared to alter
their operations as those guidelines change.

14

Case 2:20-cv-06414-JFW-PJW Document 1-13 Filed 07/17/20 Page 1 of 5 Page ID #:184

State of California—Health and Human Services Agency

California Department of Public Health
SONIA Y. ANGELL, MD, MPH
State Public Health Officer & Director

GAVIN NEWSOM
Governor

Statewide Public Health Officer Order,
July 13, 2020

On March 19, 2020, I issued an order directing all individuals living in the State of
California to stay at home except as needed to facilitate authorized, necessary activities
or to maintain the continuity of operations of critical infrastructure sectors. I then set out
California’s path forward from this “Stay-at-Home” Order in California’s Pandemic
Resilience Roadmap. On May 7th, I announced that statewide data supported the
gradual movement of the entire state into Stage 2 of the Pandemic Resilience
Roadmap. On May 8th, the Governor outlined a process where counties that met
specific criteria could move more quickly than other parts of the state through Stage 2 of
modifying the Stay-at-Home order, including certain businesses deemed higher risk.
The statewide data has since demonstrated a significant increase in the spread of
COIVD-19, resulting in public health conditions that demand measures responsive to
those conditions be put into place with haste. On June 28, 2020, the California
Department of Public Health (CDPH) issued guidance setting forth the need to close
bars and similar establishments in counties that – due to concerning levels of disease
transmission, hospitalizations, or insufficient testing – had been on the County
Monitoring List, which includes counties that show concerning levels of disease
transmission, hospitalizations, insufficient testing, or other critical epidemiological
markers, for 14 days. On July 1, 2020, CDPH issued guidance specific to counties on
the County Monitoring List for three consecutive days, requiring closure of the indoor
operations of various sectors, including restaurants, wineries, and certain entertainment
venues, as well as all bars indoor and outdoor. Based on my judgment as the State
Public Health Officer, it is now necessary to take these steps statewide, to take
additional steps for counties on the County Monitoring List, and to continue to monitor
and modify the process of reopening.
The current data reflect that community spread of infection is of increasing concern
across the state. On July 1, 2020, there were 19 counties on the County Monitoring List.
As of July 13, 2020, there are 32 counties on the list, and additional counties may soon
be added as data warrants. In addition to the impact on the general population,
community spread increases the likelihood of expanded transmission of COVID-19 in
congregate settings such as nursing homes, homeless shelters, jails and prisons.
Infection of these vulnerable populations in these settings can be catastrophic. Higher

CDPH, MS 0500  P.O. Box 997377  Sacramento, CA 95899-7377
(916) 558-1784
Internet Address: www.cdph.ca.gov

Case 2:20-cv-06414-JFW-PJW Document 1-13 Filed 07/17/20 Page 2 of 5 Page ID #:185

levels of community spread also increase the likelihood of infection among individuals at
high risk of serious outcomes from COVID-19, including the elderly and those with
underlying health conditions who might live or otherwise interact with an infected
individual.
The Pandemic Resilience Roadmap classifies bars, pubs, breweries, brewpubs, dine-in
restaurants, wineries and tasting rooms, family entertainment centers, zoos, museums,
and cardrooms as Stage 2 or Stage 3 sectors with high risk of transmission due to a
number of features of the businesses and the behaviors that occur within them. Public
health studies have shown that the risk of transmission is exacerbated in indoor spaces,
particularly when lacking appropriate ventilation. These sectors are settings where
groups convene and may mix with others for a prolonged period of time, increasing the
risk of escalating the transmission rate of COVID-19. While physical distancing is critical
to mitigating exposure, it is more effective at protecting an individual with brief
exposures or outdoor exposures. In contrast to indoor spaces, wind and the viral dilution
in outdoor spaces can help reduce viral load.
Bars, both indoor and outdoor, have additional risk factors. A bar, foundationally, is a
social setting where typically not only small groups convene, but also where groups mix
with other groups. Bars also have an added risk imposed by the consumption of alcohol
as a primary activity offered in such venues. Alcohol consumption slows brain activity,
reduces inhibition, and impairs judgment, factors which contribute to reduced
compliance with recommended core personal protective measures, such as the
mandatory use of face coverings and maintaining six feet of distance from people in
different households, both indoors and outdoors. Louder environments and the
cacophony of conversation that are typical in bar settings also require raised voices and
greater projection of orally emitted viral droplets.
For counties on the County Monitoring List, the risks and impacts of disease
transmission are even greater. The science suggests that for indoor operations the odds
of an infected person transmitting the virus are dramatically higher compared to an
open-air environment. Thus, for those counties on the list, it is necessary to close indoor
operations for additional sectors which promote the closed-space mixing of populations
beyond households and/or make adherence to physical distancing with face coverings
difficult, including: gyms and fitness centers, places of worship, protests, offices for
non-Critical Infrastructure sectors as designated on covid19.ca.gov, personal care
services (including nail salons, massage parlors, and tattoo parlors), hair salons and
barbershops, and malls.
///
///
///
///
///
///

Case 2:20-cv-06414-JFW-PJW Document 1-13 Filed 07/17/20 Page 3 of 5 Page ID #:186

NOW, THEREFORE, I, as State Public Health Officer and Director of the California
Department of Public Health, order all of the following:
Statewide Order Relative to Bars, Pubs, Brewpubs, and Breweries
1. Bars, pubs, brewpubs, and breweries, whether operating indoors or outdoors, shall
be closed across the state, unless an exception below applies.
a. Bars, pubs, brewpubs, and breweries, may operate outdoors if they are
offering sit-down, outdoor, dine-in meals. Alcohol can be sold only in the
same transaction as a meal. When operating outdoors, they must follow the
dine-in restaurant guidance and should continue to encourage takeout and
delivery service whenever possible.
b. Bars, pubs, brewpubs, and breweries that do not provide sit-down meals
themselves, but can contract with another vendor to do so, can serve dine-in
meals when operating outdoors provided both businesses follow the dine-in
restaurant guidance and alcohol is sold only in the same transaction as a
meal.
c. Venues that are currently authorized to provide off sale beer, wine, and spirits
to be consumed off premises and do not offer sit-down, dine-in meals must
follow the guidance for retail operations and offer curbside sales only.
d. Concert, performance, or entertainment venues must remain closed until they
are allowed to resume modified or full operation through a specific reopening
order or guidance. Establishments that serve full meals must discontinue this
type of entertainment until these types of activities are allowed to resume
modified or full operation.
2. Indoor operations shall be restricted across the state as specified below:
a. Dine-in restaurants must close indoor seating to customers. During this
closure all dine-in restaurants may continue to utilize outdoor seating and
must comply with the guidance for outdoor dining. Restaurants should
continue to encourage takeout and delivery service whenever possible.
b. Wineries and tasting rooms must close indoor services to customers. During
this closure all wineries and tasting rooms operating outdoors must comply
with the guidance for restaurants, wineries, and bars.
c. Family entertainment centers and movie theaters must close indoor services
and attractions to customers.
1. Family entertainment centers may continue to provide outdoor services
and attractions to customers, and must comply with the guidance for
movie theaters and family entertainment centers.

Case 2:20-cv-06414-JFW-PJW Document 1-13 Filed 07/17/20 Page 4 of 5 Page ID #:187

2. Drive-in movie theaters may continue to operate and should follow

additional applicable guidance for drive-in movie theaters.
d. Indoor attractions at zoos and museums must close to visitors.
1. Zoos and museums may continue to operate outdoor attractions and
must follow the guidance for zoos and museums.
e. Cardrooms must close indoor services to customers and must follow the
guidance for cardrooms.
Order for Closure of Additional Indoor Sectors for Counties on Monitoring List
3. Counties that currently appear on CDPH’s County Monitoring List and have been on
the list for three consecutive days, and counties that subsequently appear for three
consecutive days or more while this order remains effective, must close all indoor
operations of the following types of businesses/events/activities:
a.
b.
c.
d.
e.

Gyms and Fitness Centers
Places of Worship
Protests
Offices for Non-Critical Infrastructure Sectors
Personal Care Services (including nail salons, massage parlors, and tattoo
parlors)
f. Hair salons and barbershops
g. Malls
Terms of Orders

4. This order shall go into effect immediately.
5. These closures shall remain in effect until I determine it is appropriate to modify the
order based on public health conditions.
6. Outdoor operations may be conducted under a tent, canopy, or other sun shelter but
only as long as no more than one side is closed, allowing sufficient outdoor air
movement.
7. I will continue to monitor the epidemiological data and will modify the sectors that
may be open both statewide and in counties on the Monitoring List as required by the
evolving public health conditions. If I determine that it is appropriate to reopen, close, or
modify the operations of any additional sectors, those sectors will be posted at:
https://covid19.ca.gov/roadmap-counties/.
8. My guidance mandating the wearing of face coverings and my guidance prohibiting
gatherings continue to apply statewide, except as specifically permitted in other orders
or guidance documents. To prevent further spread of COVID-19 to and within other

Case 2:20-cv-06414-JFW-PJW Document 1-13 Filed 07/17/20 Page 5 of 5 Page ID #:188

Case 2:20-cv-06414-JFW-PJW Document 1-14 Filed 07/17/20 Page 1 of 10 Page ID #:189

Case 2:20-cv-06414-JFW-PJW Document 1-14 Filed 07/17/20 Page 2 of 10 Page ID #:190

Case 2:20-cv-06414-JFW-PJW Document 1-14 Filed 07/17/20 Page 3 of 10 Page ID #:191

Case 2:20-cv-06414-JFW-PJW Document 1-14 Filed 07/17/20 Page 4 of 10 Page ID #:192

Case 2:20-cv-06414-JFW-PJW Document 1-14 Filed 07/17/20 Page 5 of 10 Page ID #:193

Case 2:20-cv-06414-JFW-PJW Document 1-14 Filed 07/17/20 Page 6 of 10 Page ID #:194

Case 2:20-cv-06414-JFW-PJW Document 1-14 Filed 07/17/20 Page 7 of 10 Page ID #:195

Case 2:20-cv-06414-JFW-PJW Document 1-14 Filed 07/17/20 Page 8 of 10 Page ID #:196

Case 2:20-cv-06414-JFW-PJW Document 1-14 Filed 07/17/20 Page 9 of 10 Page ID #:197

Case 2:20-cv-06414-JFW-PJW Document 1-14 Filed 07/17/20 Page 10 of 10 Page ID
#:198

Case 2:20-cv-06414-JFW-PJW Document 1-15 Filed 07/17/20 Page 1 of 11 Page ID #:199

ORDER OF THE STATE HEALTH OFFICER
SUSPENDING CERTAIN PUBLIC GATHERINGS
DUE TO RISK OF INFECTION BY COVID-19
(APPLICABLE STATEWIDE)
AMENDED APRIL 3, 2020
WHEREAS Coronavirus Disease 2019 (COVID-19) has been detected in Alabama; and
WHEREAS the appearance of COVID-19 in the State poses the potential of widespread
exposure to an infectious agent that poses significant risk of substantial harm to a large number
of people; and
WHEREAS the State Board of Health has designated COVID-19 to be a disease of
epidemic potential, a threat to the health and welfare of the public, or otherwise of public health
importance; and
WHEREAS, on March 13, 2020, on recommendation of the State Health Officer, Kay
Ivey, Governor of the State of Alabama, declared a state public health emergency exists in the
State of Alabama; and
WHEREAS, on March 16, 2020, the Jefferson County Health Officer, in response to a
rapidly growing number of cases of COVID-19 being detected in Jefferson County, issued an
order suspending certain public gatherings in that county; and
WHEREAS, on March 17, 2020, the State Health Officer issued a similar order for
counties surrounding Jefferson, including Blount, St. Clair, Shelby, Tuscaloosa, and Walker
Counties, and
WHEREAS, on March 19, 2020, the State Health Officer issued an order, and on March
20, 2020, and March 27, 2020, amended orders, of statewide application suspending certain
public gatherings; and
WHEREAS further social distancing measures are necessary to be implemented on a
statewide basis to prevent the spread of COVID-19; and
WHEREAS Ala. Code § 22-2-2(4) authorizes the State Health Officer, on behalf of the
State Board of Health, to direct that conditions prejudicial to health in public places within the
State be abated;
NOW THEREFORE, THESE PREMISES CONSIDERED, it is ordered that the
following Stay at Home order be implemented statewide:
1. Effective Saturday, April 4, 2020, at 5:00 P.M., every person is ordered to stay at his or
her place of residence except as necessary to perform any of the following “essential activities”:
1

Case 2:20-cv-06414-JFW-PJW Document 1-15 Filed 07/17/20 Page 2 of 11 Page ID #:200

a. To obtain necessary supplies. A person may leave his or her place of residence to obtain
the following supplies for himself or herself, for other household members, including
pets, or for a loved one or friend who cannot or should not leave home or cannot care for
himself or herself:
(i)

Food and other consumer goods necessary to maintain a person’s daily routine or
to maintain the safety, sanitation, and routine operation of a home or residence;

(ii)

Supplies needed to work from home;

(iii)

Pharmaceutical prescriptions or other medical supplies;

(iv)

Fuel for automobiles or other vehicles or other vehicle supplies;

(v)

Materials for distance learning or other education-related purposes; and

(vi)

Any other supplies necessary to maintain a person’s or pet’s daily routine or to
maintain the safety, sanitation, and routine operation of a home or residence.

b. To obtain or provide necessary services. A person may leave his or her place of
residence to obtain or provide the following services for himself or herself, for other
household members, including pets, or for a loved one or friend who cannot or should not
leave home or cannot care for himself or herself:
(i)

Dental, medical, or surgical procedures allowed under paragraph 14 of this Order;

(ii)

Government-funded services or benefits;

(iii)

Automobile repair services;

(iv)

Services vital to the treatment or care of people with physical, intellectual, or
developmental disabilities, or people with substance-use disorders;

(v)

Services related to any public or private distance learning activities and education
continuity, including all services under education continuity plans approved by
the State Superintendent of Education; and

(vi)

Any other services necessary to maintain a person’s or pet’s health and safety or
to preserve the person’s ability to perform an essential activity as defined in this
paragraph.

c. To attend religious services. A person may leave his or her place of residence to attend
an event that is a religious worship service, wedding, or funeral in either of the following
circumstances:
(i)

The event involves fewer than 10 people and the people maintain a consistent sixfoot distance from one another; or
2

Case 2:20-cv-06414-JFW-PJW Document 1-15 Filed 07/17/20 Page 3 of 11 Page ID #:201

(ii)

The event is a “drive-in” worship service that adheres to the following rules:
1. All participants shall remain in their vehicles for the entirety of the
service;
2. The participants in each vehicle all share the same place of residence; and
3. Participants do not come within six feet of participants in other vehicles.

d. To take care of others. A person may leave his or her place of residence to care for a
family member, friend, or pet in another household, or to donate blood, or to transport
family members, friends, or pets as allowed by this Order.
e. To work. A person may leave his or her place of residence to perform work at “essential
businesses and operations” as defined in paragraph 2 below or to perform essential workrelated activities as follows:
(i)

Work-related activities to maintain the value of a business, establishment,
corporation or other organization, such as managing inventory, ensuring security,
and processing payroll and employee benefits;

(ii)

Work-related activities to enable people to work or shop remotely from their
residences or to allow people to buy products through drive-by, curbside, or doorto-door delivery; or

(iii)

Work-related activities that do not require any regular interaction within six feet
of another person.

f. To engage in outdoor activity. A person may leave his or her place of residence to
participate in outdoor activity that involves fewer than 10 people so long as the person
maintains a consistent six-foot distance from other persons.
g. To seek shelter. A person may leave his or her place of residence to seek shelter if
required by his or her employment by an “essential service of business” or if his or her
residence is unsafe or at imminent risk of becoming unsafe. A person may also leave his
or her place of residence to seek help from providers of basic necessities to economically
disadvantaged people, such as food pantries.
h. To travel as required by law. A person may leave his or her place of residence to travel
as required by law enforcement or court order, including the transportation of children
required by a custody agreement.
i. To see family members. A person may leave his or her place of residence to visit the
residence of other persons who are related to him or her.
Anyone leaving his or her home or place of residence as authorized in this order shall take
reasonable steps to maintain six feet of separation from other persons.
3

Case 2:20-cv-06414-JFW-PJW Document 1-15 Filed 07/17/20 Page 4 of 11 Page ID #:202

2. For the purposes of this Order, “essential businesses and operations” means and
includes:
a. Government operations, including public safety and first responders, law enforcement,
fire prevention and response, courts and court personnel, military, emergency
management personnel, corrections, probation and parole, child protection, child welfare,
EMTs, 911 call-center employees, all workers and vendors that support law enforcement
and emergency management operations and services, and other federal, state, tribal, or
local officials or employees;
b. Health-care providers and caregivers, including physicians, dentists, mental health
workers, nurses, chiropractors, physical therapists, veterinarians, hospitals/clinics,
medical practices, research and laboratory operations, hospice, health care facilities,
clinical staff, nursing homes, residential health care facilities, adult day care centers,
blood banks, congregate-care facilities, assisted living facilities, elder care, medical
wholesale and distribution, home health workers and aides, medical supply and
equipment manufacturers and providers, medical waste disposal, hazardous waste
disposal, other ancillary healthcare services;
c. Infrastructure Operations, including electric, natural gas, and water utilities, nuclear
facilities and other generating facilities, utility poles and components, fuel pipelines and
transmission systems, petroleum producers, telecommunications, electronic security and
life safety services, wireless communication companies, communications sales and
customer support, telecommunication and data centers, cybersecurity operations;
businesses and other operations concerned with flood control, aviation, and the
maintenance, operation, or construction of dams, airports, ports, roads and highways, and
mass transit; automotive sales and repair, vehicle rental and taxi services, network
providers (such as Uber and Lyft), freight and passenger rail, motor carriers, pipelines,
and other transportation infrastructure and businesses, water and waste water systems,
transportation companies such as airlines and bus lines, hazardous waste disposal, hotels
and commercial lodging services, and RV parks;
d. Manufacturing facilities, including food processing and production; companies that
produce pharmaceuticals, food additives, medical equipment, medical devices and
supplies, technology, biotechnology, chemical products, telecommunications products;
automotive production and suppliers, airplane, ship, and space vehicle or rocket
manufacturers; companies involved in healthcare, energy, steel and steel products, fuel
and petroleum exploration and production, lubricants, greases and engine oils, mining,
national defense, sanitary and cleaning products, household products, personal care
products, products used by any other Essential Business or Operation;
e. Agricultural operations and farms, including food cultivation, livestock, cattle, poultry
and seafood operations, transportation of agricultural products, livestock auctions,
feedlots, dealers and brokers of livestock, farmer’s markets, feed stores, repairers and
suppliers of agricultural equipment, gas, diesel and petroleum suppliers, companies
involved with aquaculture, horticulture, and chemicals, including pesticide, herbicide,
4

Case 2:20-cv-06414-JFW-PJW Document 1-15 Filed 07/17/20 Page 5 of 11 Page ID #:203

and fertilizer producers and distributors, forest products businesses, including those
involved in forestry operations, logging, manufacture of lumber and paper products; meat
processing facilities, rendering facilities and transporters, feed processing facilities,
veterinary services;
f. Essential retailers, defined as all supermarkets, food and beverage stores, including
liquor stores and warehouse clubs, food providers, convenience stores, office-supply
stores, bookstores, computer stores, pharmacies, health care supply stores, hardware
stores, home improvement stores, building materials stores, stores that sell electrical,
plumbing, and heating materials, gun stores, gas stations; auto, farm equipment, bicycle,
motorcycle, and boat supply and repair stores, and businesses that ship or deliver
groceries, food, and goods directly to residences;
g. Restaurants and bars;
h. Essential personal services, defined as trash collection, mail and shipping services,
home repair, automotive sales and repair; warehouse, distribution and fulfillment centers,
kennels, animal shelters, laundromats/laundry service, drycleaners, childcare facilities,
public transportation, and providers of business services including security and payroll;
funeral, cemetery, and related services;
i. Media operations, including newspapers, digital news sites, television, radio and other
media services;
j. Education operations, including educators supporting public and private K-12 schools,
colleges and universities or other educational institutions, for purposes of facilitating
distance learning and education continuity plans approved by the State Superintendent of
Education, performing critical research or other essential functions, including public
schools preparing and transporting distance-learning materials and meals to eligible
students and colleges providing lodging for students (all in compliance with paragraph 12
below);
k. Financial services, including banks and related financial institutions, credit unions,
payday lenders, businesses that process credit card and other financial transactions, and
other services related to financial markets;
l. Professional Services, including legal services, accounting services, insurance services,
real estate services (including appraisal and title services);
m. Providers of basic necessities to economically disadvantaged populations including
businesses, religious and secular non-profit organizations, food banks, homeless shelters
and congregate-care facilities;
n. Construction and construction-related services, including building and construction,
lumber, building materials and hardware businesses, electricians, plumbers, other
construction tradesmen and tradeswomen, exterminators; cleaning and janitorial,
HVACR and water heating businesses; painting, moving and relocating services, other
5

Case 2:20-cv-06414-JFW-PJW Document 1-15 Filed 07/17/20 Page 6 of 11 Page ID #:204

skilled trades, and other related construction firms and professionals for maintaining
essential infrastructure;
o. Essential public services, defined as services necessary to maintain the safety, sanitation
and essential operations of residences and essential businesses and essential business
operations, including law enforcement, fire prevention and response, firearm and
ammunition manufacturers and retailers, building code enforcement, security, emergency
management and response, building cleaning including disinfection, automotive sales and
repair, mortuaries and cemeteries;
p. Military or defense operations, including employers and personnel who support the
essential products and services required to meet national security commitments, including
personnel working for companies and their subcontractors, who perform under contract to
the Department of Defense providing materials and services to the Department of
Defense and government-owned/contractor-operated and governmentowned/government-operated facilities.
q. Essential services or product providers, defined as vendors that provide services or
products, including logistics, transportation, and technology support, child care programs
and services, medical waste disposal, hazardous waste disposal, services needed to ensure
the continuing operation of an essential business or operation, operation of government
agencies, and to provide for the health, safety and welfare of the public;
r. Religious entities, including religious and faith-based facilities, entities and groups;
s. Federally-designated critical infrastructure, defined as workers and related industries
identified by the U.S. Department of Homeland Security, Cybersecurity & Infrastructure
Security Agency (CISA) in its “Memorandum on Identification of Essential Critical
Infrastructure Workers During COVID-19 Response,” https://www.cisa.gov/identifyingcritical-infrastructure-during-covid-19, as may be amended;
t. Other state-designated essential businesses and operations, defined as businesses and
operations deemed essential by the Alabama Department of Public Health or the Alabama
Emergency Management Agency; and
u. Support operations for essential businesses and operations, defined as employees,
contractors, agents, suppliers, or vendors of an essential business or operation as defined
in this paragraph.
3. Operators of “essential businesses and operations” as defined in paragraph 2 may, but
need not, issue credentials to their employees verifying their status as an employee of an
essential business or operation. The decision to provide any such credentials is left to the
discretion of the essential business or operation.

6

Case 2:20-cv-06414-JFW-PJW Document 1-15 Filed 07/17/20 Page 7 of 11 Page ID #:205

4. “Essential businesses and operations” as defined in paragraph 2 shall take all
reasonable steps, for employees and customers, to (a) avoid gatherings of 10 persons or more and
(b) maintain a consistent six-foot distance between persons.
5. Effective March 28, 2020, at 5:00 P.M., the following businesses, venues, and
activities shall be closed to non-employees or not take place:
a. Entertainment venues as follows:
(i)

Night clubs

(ii)

Bowling alleys

(iii)

Arcades

(iv)

Concert venues

(v)

Theaters, auditoriums, and performing arts centers

(vi)

Tourist attractions (including museums and planetariums)

(vii)

Racetracks

(viii)

Indoor children’s play areas

(ix)

Adult entertainment venues

(x)

Adult novelty stores

(xi)

Casinos

(xii)

Bingo halls

(xiii)

Venues operated by social clubs

b. Athletic facilities and activities as follows:
(i)

Fitness centers and commercial gyms

(ii)

Spas and public or commercial swimming pools

(iii)

Yoga, barre, and spin facilities

(iv)

Spectator sports

(v)

Sports that involve interaction with another person of closer than 6 feet

(vi)

Activities that require use of shared sporting apparatus and equipment
7

Case 2:20-cv-06414-JFW-PJW Document 1-15 Filed 07/17/20 Page 8 of 11 Page ID #:206

(vii)

Activities on commercial or public playground equipment

c. Close-contact service providers as follows:
(i)

Barber shops

(ii)

Hair salons

(iii)

Waxing salons

(iv)

Threading salons

(v)

Nail salons and spas

(vi)

Body art facilities and tattoo services

(vii)

Tanning salons

(viii)

Massage therapy establishments and services

6. Effective Saturday, April 4, 2020, at 5:00 P.M., all “essential retailers” as defined in
paragraph 2, including grocery stores, pharmacies, and “big box” stores, shall comply with the
following rules in addition to any other applicable provisions of this Order:
a. Emergency maximum occupancy rate. Occupancy shall be limited to no more than 50
percent of the normal occupancy load as determined by the fire marshal. This
“emergency maximum occupancy rate” shall be posted in a conspicuous place, and
enough staff shall be posted at the store entrances and exits to enforce this requirement.
b. Social distancing. An employee of the essential retailer place may not knowingly allow
customers or patrons to congregate within six feet of one another.
c. Sanitation. The essential retailer shall take reasonable steps to comply with guidelines on
sanitation from the Centers for Disease Control and Prevention and the Alabama
Department of Public Health.
7. Notwithstanding any other provision of this Order, a business may continue to operate
through curbside pickup, delivery, remotely, or any other method that does not involve a
customer entering its building, provided that the business takes all reasonable steps to ensure a
consistent six-foot distance between persons.
8. Effective March 28, 2020, at 5:00 P.M., all non-work related gatherings of 10 persons
or more, or non-work related gatherings of any size that cannot maintain a consistent six-foot
distance between persons, are prohibited.
9. Effective immediately, any person who has tested positive for COVID-19—other than
institutionalized persons—shall be quarantined to their place of residence for a period of 14 days
8

Case 2:20-cv-06414-JFW-PJW Document 1-15 Filed 07/17/20 Page 9 of 11 Page ID #:207

after receiving positive test results. Any person quarantined pursuant to this provision shall not
leave their place of residence for any reason other than to seek necessary medical treatment.
Any person requiring assistance while under quarantine may contact Alabama Voluntary
Organizations Active in Disaster (VOAD), http://alvoad.communityos.org/cms/. While under
quarantine, the person must shall take precautions as directed by his or her health care provider
or the Department of Public Health to prevent the spread of the disease to others.
10. Effective March 28, 2020, at 5:00 P.M., all beaches shall be closed. For purposes of
this section, the term “beach” means the sandy shoreline area abutting the Gulf of Mexico,
whether privately or publicly owned, including beach access points.
11. Effective, March 20, 2020, all regular programs at Senior Citizen Centers shall be
ended except that Senior Citizen Centers and their partners are urged to assure that their clients
continue to receive needed meals via curbside pick-up or delivery.
12. Effective March 20, 2020, the following shall be closed:
a.
In-person instruction or classes at all schools, public and private, including but not
limited to: elementary, secondary, postsecondary, technical, or specialty schools, and colleges
and universities.
(i) This order is not intended to prevent any employers from making continued
necessary staffing decisions. Employers are authorized to advise employees to work
from home or maintain flexible work schedules. If working from home is not feasible,
the employee should practice social distancing, maintaining consistent six-foot distance
between persons, for the duration of this order and follow public health guidelines.
(ii) This order shall not apply to daytime special activities programs provided by
local boards of education for children, ages 6 through 12 as of March 13, 2020, of first
responders (including EMS and fire services) and licensed health-care providers and their
essential employees; and essential employees of the following categories of employers:
state and local governments, law enforcement, hospitals, nursing home/long-term care
facilities, (including assisted living and specialty-care assisted living facilities), end-stage
renal disease treatment centers, pharmacies, and grocery stores. In these special activities
programs, 12 or more children shall not be allowed in any one room at the same time, and
operators of these programs are encouraged to use enhanced sanitation practices
consistent with guidance from the CDC and the Alabama Department of Public Health.
b.
Facilities providing child day care, including any child day care facility described
in Ala. Code § 38-7-2, at which 12 or more children are in a room or other enclosed space at the
same time. Center employees are encouraged to use enhanced sanitation and social-distancing
practices consistent with guidance from the Centers for Disease Control and Prevention and the
Alabama Department of Public Health. This Order does not change the Minimum Standards for
Day Care promulgated by the Alabama Department of Human Resources, except that 12 or more
children shall not be allowed in a room or other enclosed space at the same time.
9

Case 2:20-cv-06414-JFW-PJW Document 1-15 Filed 07/17/20 Page 10 of 11 Page ID
#:208

13. Effective March 20, 2020, all Hospitals and Nursing Home/Long Term Care
Facilities (including Assisted Living and Specialty Care Assisted Living Facilities) shall prohibit
visitation of all visitors, as defined by the facility, and non-essential health care personnel, except
for certain compassionate care situations such as maternity and end-of-life.
14. Effective March 28, 2020 at 5:00 P.M., all dental, medical, or surgical procedures
shall be postponed until further notice, subject to the following exceptions:
a.
Dental, medical, or surgical procedures necessary to treat an emergency medical
condition. For purposes of this order, “emergency medical condition” is defined as a medical
condition manifesting itself by acute symptoms of sufficient severity (including severe pain,
psychiatric disturbances, and/or symptoms of substance abuse) such that the absence of
immediate medical attention could reasonably be expected by a person’s licensed medical
provider to result in placing the health of the person in serious jeopardy or causing serious
impairment to bodily functions or serious dysfunction of bodily organs.
b.
Dental, medical, or surgical procedures necessary to avoid serious harm from an
underlying condition or disease, or necessary as part of a patient’s ongoing and active treatment.
15. Effective March 19, 2020, at 5:00 P.M., all restaurants, bars, breweries, or similar
establishments shall not permit on-premises consumption of food or drink.
a.
Such establishments may continue to offer food for take-out or delivery provided
the social distancing protocols, including maintaining a consistent six-foot distance between
persons, are followed.
b.
Such establishments are strongly encouraged to offer online ordering and curbside
pick-up of food.
c.
Hospital food service areas are excluded from this order provided they have their
own social distancing plan.
16. This Order shall remain in full force and effect until 5:00 P.M. on April 30, 2020.
Prior to 5:00 P.M. on April 30, 2020, a determination shall be made whether to extend this
Order—or, if circumstances permit, to relax this Order.
17. This Order supersedes and preempts all orders previously issued by the State Health
Officer and Jefferson and Mobile County Health Officers concerning COVID-19 mitigation
measures, and this Order shall remain in full force and effect until rescinded by order of the State
Health Officer or its expiration. After the date this order is issued, the Jefferson and Mobile
County Health Officers are authorized, after approval by the State Health Officer, to implement
more stringent measures as local circumstances require.
This Order also supersedes and preempts any county and municipal orders or ordinances,
whenever adopted, that purport to impose less stringent COVID-19-related curfew or quarantine
measures.
10

Case 2:20-cv-06414-JFW-PJW Document 1-15 Filed 07/17/20 Page 11 of 11 Page ID
#:209

Done on this 3rd day of April, 2020.

_________________________
Scott Harris, M.D., M.P.H.
State Health Officer

11

Case 2:20-cv-06414-JFW-PJW Document 1-16 Filed 07/17/20 Page 1 of 4 Page ID #:210

Case 2:20-cv-06414-JFW-PJW Document 1-16 Filed 07/17/20 Page 2 of 4 Page ID #:211

Case 2:20-cv-06414-JFW-PJW Document 1-16 Filed 07/17/20 Page 3 of 4 Page ID #:212

Case 2:20-cv-06414-JFW-PJW Document 1-16 Filed 07/17/20 Page 4 of 4 Page ID #:213

Case 2:20-cv-06414-JFW-PJW Document 1-17 Filed 07/17/20 Page 1 of 6 Page ID #:214

STATE OF CONNECTICUT
BY HIS EXCELLENCY
NED LAMONT
EXECUTIVE ORDER NO. 7N

PROTECTION OF PUBLIC HEALTH AND SAFETY DURING COVID-19 PANDEMIC
AND RESPONSE- INCREASED DISTANCING, EXPANDED FAMILY ASSISTANCE,
AND ACADEMIC ASSESSMENT SUSPENSION
WHEREAS, on March I 0, 2020, I issued declarations of public health and civil preparedness
emergencies, proclaiming a state of emergency throughout the State of Connecticut as a result of
the coronavirus disease 2019 (COVID-19) outbreak in the United States and confirmed spread in
Connecticut; and
WHEREAS, my Executive Order No. 7, dated March 12, 2020, among other things, prohibited
gatherings of 250 people or more for social and recreational activities, including but not limited
to, community, civic, leisure, and sp011ing events; parades; conceits; festivals; movie screenings;
plays or performances; conventions; and similar activities, and suspended various statutes and
regulations to protect public health and safety; and
WHEREAS, my Executive Order No. 7A, dated March 13, 2020, authorized the Commissioner
of Public Health to restrict entrance into nursing homes and similar facilities to protect people who
are most vulnerable to COVID-19; and
WHEREAS, my Executive Order No. 7B, dated March 14, 2020, among other things, modified
in-person open meetings requirements, waived ce11ain rules to mitigate the critical shortage of
hand sanitizer and personal protective equipment (PPE), maintain and increase the availability of
childcare, and provide for increased healthcare resources and facilities; and
WHEREAS, my Executive Order No. 7C, dated March 15, 2020, among other things, cancelled
classes in public schools for at least two weeks, provided for closure and remote conduct of
business at Department of Motor Vehicle branches, extended deadlines for municipal budget
preparations, and suspended or modified laws and regulations governing health care data and
visitation at certain health care and congregate care settings; and
WHEREAS, my Executive Order No. 70, dated March 16, 2020, restricted social and recreational
gatherings of all types to fewer than 50 people, closed bars and restaurants to all service except
food and non-alcoholic beverage takeout and delive1y, closed gyms, fitness centers and movie
theaters, and prohibited on-site operations at off-track betting facilities; and
WHEREAS, my Executive Order No. 7E, dated March 17, 2020, among other things, waived the
requirement for an 180-day school year, limited fingerprinting availability to that for critical

Case 2:20-cv-06414-JFW-PJW Document 1-17 Filed 07/17/20 Page 2 of 6 Page ID #:215

requirements, extended the duration of various licenses and permits under the authority of the
Commissioner of Emergency Services and public protection, and suspended certain requirements
for recoupment of overpayment and hearings conducted by the Depmtment of Social Services; and
WHEREAS, my Executive Order No. 7F, dated March 18, 2020, ordered the closure of Large
Shopping Malls, the closure of places of public amusement except public parks and open recreation
areas, expanded Medicaid telehealth coverage, waived in-person service, hearing, and screening
requirements for certain Probate Court proceedings in vulnerable group care settings, and clarified
my order cancelling school classes; and
WHEREAS, my Executive Order No. 70, dated March 19, 2020, ordered the postponement of
the presidential primary, suspended non-critical court operations, expanded the availability of
telehealth services, and enacted additional public health measures; and
WHEREAS, my Executive Order No. 7H, dated March 20, 2020, limited the workplace
operations of non-essential businesses, and on-profit, created a process to designate those that are
essential, and provided for consistency across the state in governmental response to the COVID19 pandemic; and
WHEREAS, my Executive Order No. 71, dated March 21, 2020, among other things, granted
various forms of financial relief to recipients of public health and economic assistance, enacted
measures to protect the health of children in the care of the Department of Children and Families,
and enacted a series of measures to allow municipalities and their administrative bodies to conduct
essential business while reducing the risk of COVID-19 transmission; and
WHEREAS, my Executive Order No. 7J, dated March 22, 2020, among other things, expanded
the availability of tempormy retired workers to fill critical staffing needs, provided authority to
expedite acquisition and leasing of property to meet emergency response needs, and clarified
restrictions on the operations of non-essential businesses; and
WHEREAS, my Executive Order No. 7K, dated March 23, 2020, among other things, suspended
non-critical operations of the Probate Comt and the Workers' Compensation Commission,
authorized remote notarization, and provided the Commissioner of Public Health with additional
authority to expedite the public health response to the COVID-19 pandemic; and
WHEREAS, my Executive Order No. 71, dated March 24, 2020, among other things, extended
the cancellation of public school classes through April 20, 2020, opened fishing season early to
provide a safe recreational activity during this period of limited availability of other options,
provided for continued availability of medical marijuana for patients with debilitating conditions,
eased the ability for certain patients to transfer between nursing homes, and provided for increased
availability of vital records services; and
WHEREAS, my Executive Order No. 7M, dated March 25, 2020, preserved the rights of the
public in ce1tain proceedings under the Connecticut Freedom of Information Act and authorized
commissioners of state agencies to suspend or modify administrative deadlines and other
requirements of Chapter 54 of the Connecticut General Statutes and other agency-specific
administrative requirements; and

Case 2:20-cv-06414-JFW-PJW Document 1-17 Filed 07/17/20 Page 3 of 6 Page ID #:216

WHEREAS, COVID-19 is a respiratory disease that spreads easily from person to person and
may result in serious illness or death; and
WHEREAS, the World Health Organization has declared the COVID-19 outbreak a pandemic;
and
WHEREAS, the risk of severe illness and death from COVID-19 appears to be higher for
individuals who are 60 years of age or older and for those who have chronic health conditions; and
WHEREAS, to reduce spread ofCOVID-19, the United States Centers for Disease Control and
Prevention and the Connecticut Department of Public Health recommend implementation of
community mitigation strategies to increase containment of the virus and to slow transmission of
the virus, including cancellation of gatherings of ten people or more and social distancing in
smaller gatherings; and
WHEREAS, confirmed COVID-19 infections and resulting hospitalizations have increased
significantly in recent days, at the same time that residents of areas with high infection rates have
arrived in Connecticut, creating a need to enact further mandato1y distancing measures to limit the
rate of spread of the disease; and
WHEREAS, Public Act 19-117, codified as Section 22a-246a of the 2020 Supplement to the
Connecticut General Statutes, in order to reduce waste and litter and their resulting harm to the
quality of the environment and waters of the State of Connecticut and associated environmental
costs, imposed a 10-cent-per-bag tax on single-use plastic checkout bags at various retail and other
establishments; and
WHEREAS, while the Connecticut Department of Public Health has examined this issue and
found that existing precautions, including frequent handwashing for at least 20 seconds or use of
alcohol based sanitizer, avoiding touching the face with unwashed hands, and routine cleaning of
public spaces and frequently handled items will greatly reduce the risk of COVID-19 transmission
for workers in high volume retail settings, many employees of retail establishments have expressed
concern about the handling of such bags; and
WHEREAS, retail and especially grocery and restaurant workers are making a critical
contribution to keeping food readily available to the public during this public health and civil
preparedness emergency, their continued contribution is essential to the state's ability to enact
appropriate distancing measures, and their concerns are respected; and
WHEREAS, Connecticut law mandates annual statewide assessments to measure student
achievement and to determine school accountability, in addition to the federal testing requirements
which were waived by the U.S. Department of Education on March 20, 2020 for the full state; and
WHEREAS, in light of the major disruption caused by the cancellation of classes statewide in
Connecticut, on March 20, 2020, the Connecticut State Depmtment of Education secured a federal
waiver for the 2019-20 school year from (i) all state-mandated assessments in all grades and
subjects; and (ii) district/school accountability measures under the Eve1y Student Succeeds Act;
and

Case 2:20-cv-06414-JFW-PJW Document 1-17 Filed 07/17/20 Page 4 of 6 Page ID #:217

WHEREAS, demand for firearms and ammunition since the declaration of this public health and
civil preparedness emergency has increased dramatically, for example with 19,943 firearms
purchase or transfer authorizations completed in March 2020 so far compared to 12,572 in all of
March 2019, resulting in difficulty for dealers in transmitting authorization requests, larger than
normal lines and crowds, and significant burdens on the staff and systems who process such
requests, compromising their ability to process the requests and perform other critical emergency
services and public safety duties; and
WHEREAS, upon a proclamation that a civil preparedness emergency exists, section 28-9(b) of
the Connecticut General Statutes authorizes the modification or suspension in whole or in part by
executive order of any statute or regulation or requirement or part thereof that conflicts with the
efficient and expeditious execution of civil preparedness functions or the protection of public
health;
NOW, THEREFORE, I, NED LAMONT, Governor of the State of Connecticut, by virtue of the
authority vested in me by the Constitution and the laws of the State of Connecticut, do hereby
ORDER AND DIRECT:
I. Restriction of Social and Recreational Gatherings to No More Than 5
People. Effective immediately, and through April 30, 2020, unless earlier
modified, extended, or terminated by me, the prior order set forth in Executive
Order No. 7D, prohibiting social and recreational gatherings of 50 people or
more, is hereby amended and modified to require that all such gatherings of
six (6) or more people, including but not limited to, community, civic, leisure,
or sporting events; parades; conceits; festivals; plays or live performances;
conventions; and similar activities, are prohibited throughout the State of
Connecticut, except that religious, spiritual or worship gatherings shall not be
subject to such increased restrictions, and shall instead remain subject to the
prohibition on gatherings of 50 or more people, provided that they employ
reasonable and appropriate distancing measures. To further clarify this order,
it does not apply to government operations, private workplaces, retail
establishments, or other activities that are not social or recreational gatherings.
2. Restrictions on Restaurant Payment and Pickup Operations. Where
reasonably practicable, restaurants, eating establishments, and any bars that
remain open for sales of food for off-premise consumption, shall limit entrance
of customers into their locations to the minimum extent necessary to pick up
and/or pay for orders, use touchless payment systems, and require remote
ordering and payment, whether by telephone, computer, mobile application, or
other technology. Nothing in this order shall require any such business to
acquire or use ordering or payment technology that they do not already
possess, prohibit drive-through ordering and pickup, or prohibit in-person
payment or cash payment where there is no reasonable alternative. Previously
issued guidance for hospital and business cafeterias remains in effect.

Case 2:20-cv-06414-JFW-PJW Document 1-17 Filed 07/17/20 Page 5 of 6 Page ID #:218

3. Further Restrictions on Retail Operations. Any retail establishment that has
been allowed to remain open and permit customers inside such establishment
during this public health and civil preparedness emergency shall take
appropriate and reasonable measures to ensure customers maintain six feet of
distance between each other, and to manage any resulting lines to maintain
such distance while people are waiting to enter, and where reasonably
practical, employ touchless payment technology if they already have such
technology available.
a. Firearms Transactions by Appointment Only. Effective
immediately and through May 15, 2020, unless earlier modified,
extended, or terminated by me, because the nature of certain
regulated retail transactions, including purchase, sale, and transfer
of firearms, ammunition, and their components or supplies, requires
the customer's presence inside the business to accommodate certain
parts of those transactions or associated background check
processes, and in order to limit person-to-person contact as much as
possible and manage the large increase in requests for authorizations
for such transactions and the resulting burdens on the
communications technology and public safety staff responsible for
reviewing and providing such authorizations, any firearms dealer
shall conduct all such transactions by appointment only, shall limit
such appointments to a number that will maintain a distance of six
feet between any customers and/or staff in a store, including
customers and staff conducting such transactions, and shall allow
entrance into their establishments only to those customers
conducting such transactions.
4. Temporary Suspension of Tax on Single-Use Checkout Bags. All
provisions of Section 355 of Public Act 19-117, as codified in Section 22a246a of the 2020 Supplement to the Connecticut General Statutes, regarding
single-use plastic checkout bags, are temporarily suspended through May 15,
2020, unless earlier modified, extended, or terminated by me. The
Commisioner of Revenue Services shall issue any implementing order he
deems necessmy, and any guidance for businesses on accounting or other
necessmy measures during this temporary suspension.

5. Employees Not Required to Bag Items in Reusable Bags. Effective
immediately and through May 15, 2020, unless earlier modified, extended, or
terminated by me, no employer in a retail establishment shall require any
employee to bag any item in a customer-provided reusable bag, provided that
nothing in this order shall prohibit customers who wish to use such reusable

Case 2:20-cv-06414-JFW-PJW Document 1-17 Filed 07/17/20 Page 6 of 6 Page ID #:219

bags from doing so; such customers shall bag their own items where the
employee of the retail establishment declines to do so.
6. Suspension of 21-month Limit on Temporary Family Assistance. Section
17b-l 12 of the Co1mecticut General Statutes and any implementing regulations
are modified to exclude from the statutory 21-month time limit on receipt of
Tempora1y Family Assistance all months of such assistance received during
the public health and civil preparedness emergency.
7. Suspension of School Testing Assessments for 2019-20 School Year. The
provisions of Section 10-14n of the Co1U1ecticut General Statutes related to the
administration of all state summative and alternate assessments; Section 1014t, related to the administration of universal screening reading assessment for
students in Grades K-3; and Section 10-265g, related to the administration of
reading assessments in priority districts at the end of the school year, are
hereby suspended for the 2019-20 school year. Any associated regulations,
rules, and policies regarding statewide assessments are modified to authorize
the Commissioner of Education to temporarily waive any requirements
contained therein as he deems necessary to respond to the effects of the
COVID-19 pandemic.
Unless otherwise specified herein, this order shall take effect immediately and shall remain in
effect for the duration of the public health and civil preparedness emergency, unless earlier
modified or terminated by me.
Dated at Hartford, Co1U1ecticut, this 26th day of March, 2020.

Ned Lamont
Governor

:tt:c;~m;~
Denise W. Merrill
Secretaiy of the State

(

Case 2:20-cv-06414-JFW-PJW Document 1-18 Filed 07/17/20 Page 1 of 14 Page ID #:220

Case 2:20-cv-06414-JFW-PJW Document 1-18 Filed 07/17/20 Page 2 of 14 Page ID #:221

Case 2:20-cv-06414-JFW-PJW Document 1-18 Filed 07/17/20 Page 3 of 14 Page ID #:222

Case 2:20-cv-06414-JFW-PJW Document 1-18 Filed 07/17/20 Page 4 of 14 Page ID #:223

Case 2:20-cv-06414-JFW-PJW Document 1-18 Filed 07/17/20 Page 5 of 14 Page ID #:224

Case 2:20-cv-06414-JFW-PJW Document 1-18 Filed 07/17/20 Page 6 of 14 Page ID #:225

Case 2:20-cv-06414-JFW-PJW Document 1-18 Filed 07/17/20 Page 7 of 14 Page ID #:226

Case 2:20-cv-06414-JFW-PJW Document 1-18 Filed 07/17/20 Page 8 of 14 Page ID #:227

Case 2:20-cv-06414-JFW-PJW Document 1-18 Filed 07/17/20 Page 9 of 14 Page ID #:228

Case 2:20-cv-06414-JFW-PJW Document 1-18 Filed 07/17/20 Page 10 of 14 Page ID
#:229

Case 2:20-cv-06414-JFW-PJW Document 1-18 Filed 07/17/20 Page 11 of 14 Page ID
#:230

Case 2:20-cv-06414-JFW-PJW Document 1-18 Filed 07/17/20 Page 12 of 14 Page ID
#:231

Case 2:20-cv-06414-JFW-PJW Document 1-18 Filed 07/17/20 Page 13 of 14 Page ID
#:232

Case 2:20-cv-06414-JFW-PJW Document 1-18 Filed 07/17/20 Page 14 of 14 Page ID
#:233

Case 2:20-cv-06414-JFW-PJW Document 1-19 Filed 07/17/20 Page 1 of 6 Page ID #:234

COVID-19

State of Illinois
Illinois Department of Public Health

525-535 West Jefferson Street

JB Pritzker, Governor

•

S p r i n g f i e l d , I l l i n o i s 6 2 76 1 - 0 0 0 1

•

w w w. d p h . i l l i n o i s . g o v

Ngozi O. Ezike, MD, Director

COVID-19 Guidance for Places of Worship and
Providers of Religious Services

6/30/2020

This document provides guidance for places of worship and providers of religious services to support the safest
possible environment for faith leaders, employees, volunteers, scholars, and all other types of workers, as well as
congregants, worshippers, and visitors.
This guidance does not obligate or encourage places of worship to resume in-person activity. Indeed, it is
strongly recommended that places of worship continue to facilitate remote services, particularly for those who
are vulnerable to COVID-19, including older adults and those with chronic conditions. Even with adherence to
physical distancing, multiple different households convening in a congregational setting to worship carries a
higher risk for widespread transmission of the virus that causes COVID-19, and may result in increased rates of
infection, hospitalization, and death, especially among more vulnerable populations. In particular, the high risk
associated with activities like singing, and group recitation can negate the risk-reducing behaviors, such as 6 feet
of physical distancing.
Recognizing the centrality of worship in many people’s lives and the spiritual and emotional value of prayer,
community, and faith, this guidance provides recommendations for places of worship that choose to resume or
expand in-person activities.

The Safest Options: Remote Services and Drive-In Services
A common thread joining many faiths is a deep respect for human life and health, which prioritizes protecting
our neighbors and the vulnerable among us. Places of worship may choose to express those values by practicing
the safest forms of worship through remote services and drive-in services.

Remote services
Remote services can be streamed online, broadcast by radio, and/or conducted by telephone or dial-in. Remote
services are the only way to guarantee places of worship will not become sources of new infection.

Drive-in services
Drive-in services involve congregants driving to a common location and worshiping together from their vehicle,
while listening to either a remote service or one broadcast through speakers. If done correctly, these types of
services pose a low risk of infection.
Some best practices include:
•

Congregants who are living together travel together, without introducing new people to the vehicle.

•

Congregants always remain in their vehicles.

Protecting Health, Improving Lives
Nationally Accredited by PHAB

Version Number 2.0

Case 2:20-cv-06414-JFW-PJW Document 1-19 Filed 07/17/20 Page 2 of 6 Page ID #:235
•

Maintain distance between cars so that there is more than 6 feet between any group of congregants and
another group of congregants – particularly if car windows are open.

•

Regularly sanitize restrooms and have sufficient soap and hand sanitizer.

525-535 West Jefferson Street

For further guidance

•

S p r i n g f i e l d , I l l i n o i s 6 2 76 1 - 0 0 0 1

•

w w w. d p h . i l l i n o i s . g o v

Places of worship may look to the additional guidance referenced below:
CDC Interim Guidance for Communities of Faith:https://www.cdc.gov/coronavirus/2019-ncov/php/faith-based.
html

Guidelines for re-configuring places of worship for social distancing
Reconfigure seating and standing areas to maintain physical distancing of 6 feet or more between congregants/
visitors from different households. Consider both limiting seating to alternate rows and assigning seating in
advance.
Shorten services to limit the length of time congregants/visitors spend at facilities whenever possible. This could
include limiting speeches/sermons and asking congregants/visitors to put on garments at home before arrival.
Consider implementing a reservation system to limit the number of congregants/visitors attending facilities at a
time. This can include the use of digital platforms or other types of tools.
Consider offering additional times for services or meetings (per day or per week) so fewer guests attend at one
time. Dedicate staff to direct guests immediately to their seats upon entry to places of worship rather than
congregating in lobbies or common areas.
Consider using ushers to help people find places to sit and stand that are at least 6 feet apart from other guests/
household groups. Develop and communicate a plan to welcome and dismiss congregants/visitors from seating
areas, altars, podiums, and meeting rooms in an orderly way to maintain physical distancing and minimize
crossflow of traffic.
Avoid assembly line type greetings at the beginning or conclusion of services. Ask congregants/visitors to arrive
and leave in a single household group to minimize crossflow of people.
Consider assigning spaced household arrival times to minimize congregants arriving all at once. Prop or hold
doors open during peak periods when congregants/visitors are entering and exiting facilities, if possible and in
accordance with security and safety protocols.
Close or restrict common areas, such as break rooms, kitchenettes, and foyers where people are likely to
congregate and interact. Consider installing barriers or increase physical distance between tables/seating when
continued use of these areas cannot be avoided. If possible, provide bottled water or touchless water fountains.
For touch drinking fountains, discourage forming a line and create markings to allow social distancing while
waiting, have paper towels available to touch the fountain, and clean and disinfect frequently.
Remove from service or find low-community touch alternatives for communal/religious water containers, such
as fonts, sinks, and vessels. Empty and change water between services/uses. Where there is a possibility of
contaminant splash, strongly encourage staff, congregants, visitors, and others to use equipment to protect their
eyes, noses, and mouths using a combination of face coverings, protective glasses, and/or face shields.
Reusable protective equipment, such as shields and glasses, should be properly disinfected between uses. When
washing is a required activity, modify practices whenever possible to limit splashing and the need to clean and
disinfect washing facilities.

2

Protecting Health, Improving Lives
Nationally Accredited by PHAB

Version Number 1.0

Case 2:20-cv-06414-JFW-PJW Document 1-19 Filed 07/17/20 Page 3 of 6 Page ID #:236

Physical distancing guidelines
Continue to provide services through alternative methods (such as via internet live and/or recorded streaming,
telephone, and drive-in) whenever possible. Implement measures to ensure physical distancing of at least 6
feet
include
5 2 5between
- 5 3 5 W eworkers,
s t J e f fstaff,
e r s oand
n S congregants/visitors.
t r e e t • S p r i n g f i eThis
l d , can
Illin
o i s 6 2use
76 of
1 - 0physical
0 0 1 • partitions
w w w. d por
h . visual
i l l i n ocues
is.gov
(e.g., floor or pew markings or signs to indicate where people should sit and stand). Members of the same
household may be seated together but should maintain at least 6 feet apart from other households. Encourage
congregants/visitors to meet with the same group, particularly when services meet frequently and/or require a
certain number of people to be present. This can reduce the spread of transmission by minimizing the number of
different individuals who come into close contact with each other. Consider dedicating staff or volunteers to help
people maintain distances during services or activities.
Take steps to ensure limited attendance at gatherings that encourage congregants/visitors to travel and break
physical distances, such as concerts and large holiday and life event celebrations and remembrances. Discontinue
these activities whenever possible.
Children should remain in the care of those in their household unit and not interact with children of other parties
at any time while visiting facilities. Close play areas and discontinue activities and services for children where
physical distancing of at least 6 feet cannot be maintained.
Limit touching for religious purposes, such as shaking hands or holding hands, to members of the same
household.

Cleaning and disinfecting protocols
Perform thorough cleaning of high traffic areas, such as lobbies, halls, chapels, meeting rooms, offices, libraries,
and study areas, and areas of ingress and egress, including stairways, stairwells, handrails, and elevator controls.
Frequently disinfect commonly used surfaces including doorknobs, toilets, handwashing facilities, pulpits and
podiums, donation boxes or plates, altars, and pews and seating areas.
Discourage sharing items used in worship and services (such as prayer books, cushions, prayer rugs) whenever
possible and provide single-use or digital copies or ask congregants/visitors to bring personal items instead.
Where such items must be shared, disinfect between uses. Disinfect microphones and stands, music stands,
instruments and other items on pulpits and podiums between each use.
Install hand sanitizer dispensers, touchless whenever possible, at entrances and contact areas such as meeting
rooms, lobbies, and elevator landings.
Consider limiting the number of people that use the restroom at one time to allow for physical distancing.
Consider placing a towel dispenser near the restroom exit with signage for using a towel to touch the door or
having touchless exit.
Discontinue passing offering plates and similar items that move between people. Use alternative giving options
such as secure drop boxes that do not require repeated opening/closing and can be cleaned and disinfected.
Consider implementing digital systems that allow congregants/visitors to make touch-free offerings.
Mark walking paths between spaces designated for congregants/visitors to sit/kneel so that people do not walk
where someone may be touching the floor.
During meetings and services, introduce fresh outside air by opening doors/windows (weather permitting) and
operating ventilation systems.

3

Protecting Health, Improving Lives
Nationally Accredited by PHAB

Version Number 1.0

Case 2:20-cv-06414-JFW-PJW Document 1-19 Filed 07/17/20 Page 4 of 6 Page ID #:237

Modify high-risk religious practices
Consider modifying practices that are specific to faith traditions that might encourage the spread of COVID-19.
Examples are discontinuing kissing of ritual objects, discontinuing bathing rites, allowing rites to be performed by
fewer
people,
prior
service,
the
525-5
3 5 W eproviding
s t J e f f epre-packed
r s o n S t r ecommunion
e t • S p r i items
n g f i eon
l d ,chairs
Illino
i s 6to
2 76
1 - 0 0 0avoiding
1 • ww
w. use
d p hof
. i lal icommon
nois.gov
cup, and offering communion in the hand instead of on the tongue.

Individual control measures and screening
Ensure proper use of face coverings. Congregants/visitors and staff should be screened for temperature and/
or symptoms upon arrival to places of worship and asked to use hand sanitizer and to wear face coverings.
Encourage staff and congregants/visitors who are sick or exhibiting symptoms of COVID-19, or who have family
members who are ill, to stay home.
Post signage in strategic and highly visible locations, to remind congregants/visitors that they should use face
coverings and practice physical distancing whenever possible. Use social media, websites, texts, emails, and
newsletters to communicate the steps being taken to protect congregants/visitors and staff so they are familiar
with the policies (including to stay home if experiencing symptoms or at an increased risk of becoming sick,
face coverings, physical distancing, handwashing and/or sanitizing, and cough etiquette), before arriving at the
facility. Staff and volunteers are strongly encouraged to remind congregants/visitors of these practices with
announcements during services or on welcoming guests.
Consider reaching out separately to those who are ill but desire to be engaged in worship services. Develop a
plan to include those participants by phone, video, or a safe alternative.
Monitor for staff illnesses and have staff remain home if they are ill or have been exposed to a person who is
ill. Know and communicate where staff and congregants can get tested for COVID-19 if they develop symptoms.
Have a clear plan to facilitate contact tracing if an attendee later tests positive for COVID-19.
Recruit non-vulnerable volunteers to assist in activities, particularly those that may require close contact. Limit
offerings of classes or services for children to groups of 50 or fewer and devise an age-appropriate plan for
children to practice social distancing and wear face coverings.

Avoid the riskiest activities
COVID-19 spreads primarily through respiratory droplets in person-to-person contact (within 6 feet); risk grows
as exposure time increases. Some activities at places of worship pose a heightened risk that should be avoided:

Singing and group recitation
Strongly consider discontinuing singing (and post signage discouraging singing), group recitation, and other
practices and performances where there is increased likelihood for transmission from contaminated exhaled
droplets. Modify practices by calling for silent recitation, using prerecorded music, or having a single singer in
a separate area with speaker transmission. If these practices cannot be discontinued, strictly limit the number
people reciting or singing, ensure physical distancing significantly greater than 6 feet between people, and
consider installing plexiglass to provide physical barriers between people, or opt to celebrate these practices
outside with significant physical distancing and other precautions. Use microphones to discourage loud speaking
and provide a barrier (plexiglass) for the speaker.

4

Protecting Health, Improving Lives
Nationally Accredited by PHAB

Version Number 1.0

Case 2:20-cv-06414-JFW-PJW Document 1-19 Filed 07/17/20 Page 5 of 6 Page ID #:238

Food and beverages
Discontinue offering food and beverages. Do not hold potlucks or buffet-style meals or events that increase
the risk of cross contamination. If food and beverages must be served, provide items in single-serve containers
(disposable
containers
525-535 W
e s t J e f fwhenever
e r s o n S tpossible),
r e e t • and
S p r ensure
i n g f i e lcongregants
d , I l l i n o i s or
6 2others
76 1 - 0who
0 0 1 are
• living
w w w.together
d p h . i l l are
i n o seated
is.gov
together and more than 6 feet apart from others. Employees or volunteers serving food should wash hands
frequently and wear disposable gloves and face coverings.

Greetings and person-to-person contact
Discourage staff, congregants, and visitors from engaging in handshakes, hugs, and similar greetings that break
physical distance. Take measures to remind people to wave or use other greetings.

Additional guidance for in-person activities
As places of worship navigate COVID-19, the guidelines below are designed to make in-person indoor worship
and activities safer – recognizing that the safest and recommended options are those listed above, and that
larger gatherings pose greater risk. Strict social distancing, wearing face coverings, and cleaning and disinfecting
are paramount to reducing the risk of infection for in-person gatherings. Places of worship should develop a
COVID-19 plan and be prepared to adapt to updated public health guidance and to restrict in-person activities if
the incidence of COVID-19 within their communities increases. Places of worship should provide training to both
staff and congregants on their COVID-19 plans and share the new safety protocols and processes by email, video,
mail, and posted signage – with frequent updates as new safety protocols are implemented.

Capacity limits
As gatherings grow, they pose a greater risk of becoming a source of COVID-19 transmission. The current
statewide guidelines recommend gatherings of no more than 50 people. Where the 50 -person limit cannot be
followed in places of worship, these guidelines are recommended:
Set a capacity limit for the place of worship that allows for extensive social distancing (6 feet or more) between
congregants. Consider limiting attendance to 25% of building capacity or a maximum of 100 attendees,
whichever is lower. Expand capacity limits gradually, rather than all at once, to allow the opportunity to test
and improve safety protocols. Conduct multiple small services as opposed to one large service. Consider small,
separate services for certain groups – such as those over 65 years of age or those who have serious underlying
medical conditions, or those with small children who will have difficulty social distancing. During services
for those over 65 years of age or those who have serious underlying medical conditions, enforce strict safety
protocols. Consider a reservation system to limit capacity, to assign seating to ensure social distancing, and to
allow for contact tracing in the event of a confirmed COVID-19 case and the need to contact exposed individuals.
Develop and communicate a social distancing plan that includes where congregants will sit, how they will
enter and exit seating areas (including staggered and scheduled arrival times and varied exit times), and how
social distancing can be maintained at all times given the physical layout of the place of worship. Use the social
distancing plan to determine a safe capacity limit.

Relatively Safe Options for In-Person Worship
Faith communities also cherish fellowship. The desire for the human connection of worshipping together,
particularly during a time of crisis, is understandable. However, gatherings of any size pose a risk of COVID-19
transmission. For places of worship that choose to hold in-person activities, the safest course of action is to
congregate outdoors and/or in groups of less than 50 people

5

Protecting Health, Improving Lives
Nationally Accredited by PHAB

Version Number 1.0

Case 2:20-cv-06414-JFW-PJW Document 1-19 Filed 07/17/20 Page 6 of 6 Page ID #:239

Congregate outdoors
Where weather and facilities permit, it is safer for worship and other activity to occur outdoors rather than
indoors. Some best practices include: Congregants who are living together sit together, at least 6 feet apart from
other
and
5 2 5 - congregants
5 3 5 W e s t Jand
e f fgroups.
e r s o n Wear
S t r e eface
t • coverings.
S p r i n g fRefrain
i e l d , I from
l l i n osinging
i s 6 2 76
1 - 0group
0 0 1 recitation,
• w w w. dwhich
p h . i l lsignificantly
inois.gov
increases the risk of transmission of the virus by projecting respiratory droplets. Consider pre-recorded music
or other alternatives. If continuing with singing and group recitation, increase social distance to at least 10 feet
between groups and ensure face coverings are worn. Restrooms should be regularly sanitized and have sufficient
soap and hand sanitizer. Follow applicable guidance below for in-person activities. Congregate in groups of less
than 50 people indoors. For in-person services that are indoors, the safest choice is to limit the number of people
during a given service. Consider holding multiple services for multiple small groups, limiting to 50 in-person
services to special events (e.g., weddings, funerals, baptisms), or limiting in-person activities to private prayer
and worship. Some best practices include:
•

Congregants who are living together sit together, at least 6 feet apart from other groups.

•

Wear face coverings.

•

Especially indoors, refrain from singing and group recitation, which significantly increases the risk of
transmission of the virus by projecting respiratory droplets. Consider pre-recorded music or other
alternatives.

•

If continuing with singing and group recitation, increase social distance to at least 10 feet between groups
and ensure face coverings are worn.

•

Restrooms should be regularly sanitized and have sufficient soap and hand sanitizer. Follow applicable
guidance below for in-person activities.

6

Protecting Health, Improving Lives
Nationally Accredited by PHAB

Version Number 1.0

Case 2:20-cv-06414-JFW-PJW Document 1-20 Filed 07/17/20 Page 1 of 5 Page ID #:240

Case 2:20-cv-06414-JFW-PJW Document 1-20 Filed 07/17/20 Page 2 of 5 Page ID #:241

Case 2:20-cv-06414-JFW-PJW Document 1-20 Filed 07/17/20 Page 3 of 5 Page ID #:242

Case 2:20-cv-06414-JFW-PJW Document 1-20 Filed 07/17/20 Page 4 of 5 Page ID #:243

Case 2:20-cv-06414-JFW-PJW Document 1-20 Filed 07/17/20 Page 5 of 5 Page ID #:244

Case 2:20-cv-06414-JFW-PJW Document 1-21 Filed 07/17/20 Page 1 of 5 Page ID #:245

GOVERNOR DOUGLAS A. DUCEY

STATE OF ARIZONA

*

EXECUTIVE ORDER
Executive Order 2020-18
Stay Home, Stay Healthy, Stay Connected
Physical Distancing to Mitigate COVID-19 Transmission
WHEREAS, Arizona is committed to combating COVID-19, which represents a serious threat to
public health; and
WHEREAS, the State of Arizona has taken proactive actions to mitigate the risk of COVID-19 to
public health and address the economic impact of the COV!D-19 pandemic; and
WHEREAS, on March 11, 2020, pursuant to A.RS. §§ 26-303 and 36-787, I, as Governor of the
State of Arizona, issued a declaration of a Public Health State of Emergency due to the necessity to
prepare for, prevent, respond to, and mitigate the spread of COVID-19; and
WHEREAS, on March 15, 2020, a statewide school closure was issued in coordination with
Superintendent of Public Instiuction Kathy Hoffman, later extended on March 30, 2020, through the
end of the school year; and
WHEREAS, many businesses have greatly reduced their hours and operations as directed by health
officials and in an effort to protect the public health and slow the spread of COVID-19; and
WHEREAS, on March 17, 2020, following updated guidance from the Centers for Disease Control
and Prevention (CDC), the Arizona Department of Health Services (ADHS) issued updated guidance
that included canceling or postponing gatherings of 10 or more people, recommending telework and
other alternatives, restricting access to nursing homes, retirement homes and long-term care facilities
to provide critical assistance, and providing recommendations to restaurants and eating
establishments to mitigate the risk of COVID-19 transmission; and
WHEREAS, on March 19, 2020, Executive Order 2020-09 was issued requiring restaurants in
Arizona counties with confirmed COVID-19 cases to provide dine-out options only and required all
bars, gyms and movie theaters in those counties to close; and
WHEREAS, on March 19, 2020, Executive Order 2020-10 halted all elective surgeries in the State
of Arizona to free up medical resources and maintain the capacity for hospitals and providers to
continue offering vital services; and
WHEREAS, essential services were identified in Executive Order 2020-12 as those specifically
necessary to promote the public health, safety and welfare of the state or assist others in fulfilling
such functions; and

Case 2:20-cv-06414-JFW-PJW Document 1-21 Filed 07/17/20 Page 2 of 5 Page ID #:246

WHEREAS, to combat COVID-19, and at the recommendation of the state's health officials, the

State of Arizona must continue its efforts by further limiting potential exposure through a policy of
physical distancing while maintaining social connectedness; and

WHEREAS, pursuant to A.R.S. §§ 26-303(E), the Governor of Arizona, after a Declaration is
issued, has "the right to exercise, within the area designated, all police power vested in the state by
the constitution and laws of this state"; and
WHEREAS, pursuant to A.R.S. § 36-787(A), during a State of Emergency declared by the
Governor, the Arizona Department of Health Services has primary jurisdiction, responsibility and
authority for:
(1)
Planning and executing public health emergency assessment, mitigation,
preparedness response and recovery of the State;
(2)
Coordinating public health emergency response among State, local and tribal
authorities;
Collaborating with relevant federal government authorities, elected officials or other
(3)
states, private organizations and private sector companies; and
(4)
Coordinating recovery operations and mitigation initiatives subsequent to public
health emergencies; and

WHEREAS, on March 30, 2020, the Director of the Arizona Department of Health Services, based

on an epidemiological assessment of Arizona specific data and in alignment with CDC guidan.ce,
recommended the state implement enhanced mitigation strategies.

NOW, THEREFORE, I, Douglas A. Ducey, Governor of the State of Arizona, by virtue of the
authority vested in me by the Constitution and laws of the State, including but not limited to A.R.S. §
26-303 and after consultation with the Director of the Arizona Department of Health Services, do
hereby order, effective at 5:00 p.m. on March 31, 2020:

1. Arizona shall institute a "Stay home, Stay healthy, Stay connected" policy that promotes
physical distancing, while also encouraging social connectedness. This builds on actions the
state has already taken, and further memorializes some already in effect, to slow the spread of
COVID-19 and protect our citizens.
2. Under this policy, all individuals in the State of Arizona shall limit their time away from their
place of residence or property, except:
a. To conduct or participate in Essential Activities.
b. For employment, to volunteer or participate in Essential Functions.
c. To utilize any services or products provided by Essential Businesses.
d. Employment, if as a sole proprietor or family owned business, work is conducted in a
separate office space from your home and the business is not open to serve the public.
e. No person shall be required to provide documentation or proof of their activities to
justify their activities under this order.
3. Arizonans are encouraged to improve social connectedness, resiliency, and help-seeking
behavior by:

Case 2:20-cv-06414-JFW-PJW Document 1-21 Filed 07/17/20 Page 3 of 5 Page ID #:247

a. Maintaining ongoing connections and communication with current social supports
and structures such as family, friends, neighbors and other social groups;
b. Educating fellow Arizonans on the negative health impacts of social isolation;
c. Developing habits and activities that increase resilience, such as physical activity,
virtual social gatherings, assisting neighbors, implementing or participating in
connection campaigns for at·risk populations, and pa1ticipating in volunteer
activities;
d. Sharing information and awareness of newly available social services and resources
to improve the stability of families and reduce financial stressors; and
e. Sharing information and awareness of resources in the community by providing
information on where and how high risk populations can access suicide prevention
services throughout Arizona, including specific resources that are targeted to high
risk populations.
4. Under this policy, Essential Activities include:
a. Obtaining necessary supplies and services for family, household members and pets,
such as groceries, food and supplies for household consumption and use, supplies and
equipment needed to work from home, assignments for completion of distance
teaming and products necessary to maintain safety, sanitation and essential
maintenance of the home and residence.
b. Engaging in activities essential for the health and safety of family, household
members and pets, including things such as seeking medical, behavioral health or
emergency services and obtaining medical supplies or medication.
c. Caring for a family member, friend, or pet in another household or residence, which
includes but is not limited to transportation of a family member, friend or their pet for
essential health and safety activities and to obtain necessary supplies and services for
the other household.
d. Engaging in outdoor exercise activities, such as walking, hiking, running, biking or
golfing, but only if appropriate physical distancing practices are used.
e. Attending or conducting work or volunteering in Essential Functions which includes
but is not limited to transporting children to child care services for attending work in
an essential service.
f. Engaging in constitutionally protected activities such as speech and religion, and any
legal or court process provided that such is conducted in a manner that provides
appropriate physical distancing to the extent feasible.
5. To the extent individuals are using shared or outdoor spaces when outside their residence or
property for Essential Activities, they shall to the extent possible maintain physical
distancing of at least six feet from any other person, consistent with guidance from the CDC.
6. All persons may leave their place of residence only for Essential Activities, to participate in
or receive Essential Governmental Functions, or to participate in or fulfill Essential Functions
outlined in Executive Order 2020-12.
7. Individuals shall limit use of public transportation to when absolutely necessary to obtain or
conduct Essential Activities or attend work in an Essential Function. While using public
transportation, riders shall maintain to the extent possible recommended physical distancing
of at least six feet from other riders and the operator.

Case 2:20-cv-06414-JFW-PJW Document 1-21 Filed 07/17/20 Page 4 of 5 Page ID #:248

8. Individuals experiencing homelessness are exempt from this directive, but are strongly urged
to obtain shelter as soon as possible and to the maximum extent practicable.
9. Individuals whose residences are unsafe or become unsafe, such as victims of domestic
violence, are permitted and urged to leave their home and stay at a safe alternative location.
10. For purposes of this Executive Order, homes or residences include hotels, motels, shared
rental units, shelters, and similar facilities.
11. Businesses and entities that remain open shall implement rules and procedures that facilitate
physical clistancing and spacing of individuals of at least six feet.
a. All businesses that are classified as Essential Functions may remain open and
maintain operations, but shall establish and implement social distancing and
sanitation measures established by the United States Department of Labor or the
Arizona Department of Health Services.
b. Essential Functions conducted by governmental entities shall remain open.
Government leaders may adjust operations to promote physical distancing, including
but not limited to offering on-line services as feasible, limiting the number of persons
in a physical space or limiting access to specific facilities or areas to protect from the
spread of COVID-19.
c. Employment in Essential Businesses and Operations means an essential employee
performing work for an Essential Function as identified in the "Prohibiting the
Closure of Essential Services" Executive Order list.
12. Non-essential businesses may continue to operate those activities that do not require
in-person, on-site transactions and are encouraged to maintain at least minimum basic
operations that maintain the value of the business' inventory, preserve the condition of the
business' physical plant and equipment, ensure security, process payroll and employee
benefits, facilitate employees of the business being able to continue to work remotely from
their residences, and related functions to include mail pickup.
13. This Executive Order shall not be construed to prohibit working from home, operating a
single owner business with no in-person, on-site public interaction, or restaurants and food
services providing delivery or take-away services, so long as proper physical distancing and
sanitation measures are established and implemented.
14. Arizonans are already acting responsibly during this public health emergency. The intent of
this Executive Order is to ensure that people maintain physical distance to the maximum
extent feasible, while enabling essential services to continue, protecting people's rights and
slowing the spread of COVID-19 to the greatest extent possible. When people need to leave
their places of residence, whether to perform Essential Activities, or to otherwise facilitate
authorized activities necessary for continuity of social and commercial life, they should at all
times and as much as reasonably possible comply with physical distancing recommendations.
All provisions of this Executive Order shall be interpreted to effectuate this intent. Prior to
any enforcement action being taken to enforce this order in accordance with A.R.S. § 26-317,
a person shall be notified and given an opportunity to comply.

Case 2:20-cv-06414-JFW-PJW Document 1-21 Filed 07/17/20 Page 5 of 5 Page ID #:249

15. Pursuant to A.RS. § 26-307, no county, city or town may make or issue any order, rule or
regulation that conflicts with the policy, directives or intent of this Executive Order, including
any order, rule or regulation that limits an individual from conducting, participating in or
receiving Essential Services, Essential Activities or Non-essential Services as outlined in this
order and prior executive orders.
16. If any provision of this Executive Order or its application to any person or circumstance is
held invalid by any court of competent jurisdiction, this invalidity does not affect any other
provision or application of this Executive Order, which can be given effect without the
invalid provision or application. To achieve this purpose, the provisions of this Executive
Order are declared to be severable.
17. This Executive Order shall be in effect until April 30, 2020, unless extended.
IN WITNESS WHEREOF, I have hereunto set my
hand and caused to be affixed the Great Seal of the
State of Arizona.

GOVERNOR

DONE at the Capitol in Phoenix on this Thirtieth Day
of March in the Year Two Thousand and Twenty and
of the Independence of the United States of America
the Two Hundred d Forty-Fourth.

ATTEST:

Secretary of State

Case 2:20-cv-06414-JFW-PJW Document 1-22 Filed 07/17/20 Page 1 of 4 Page ID #:250

STATE OF ARIZONA
OFFICE OF THE ATTORNEY GENERAL
No. I20-008
(R20-008)

ATTORNEY GENERAL OPINION
By

Re: Application of Executive Order 2020-18
to Religious Worship

MARK BRNOVICH
ATTORNEY GENERAL
April 30, 2020
To:

The Honorable Kelly Townsend
Representative
Arizona House of Representatives
Questions Presented
1.

In reference to the right to “peaceably assemble” protected under the US Constitu-

tion, would attendance at a church service constitute an “essential activity” and be considered a
permissible activity under Executive Order 2020-18?
2.

Would parishioners be required to maintain social distancing by being 6 feet

3.

If they are required to maintain 6 feet apart and do not, under what law would

apart?

they be in violation of and what punishment would they be subject to?
Summary Answer
Attendance at a church service is an “essential activity” under Executive Order 2020-18.
The Executive Order does not impose an absolute six-foot social distancing requirement on essential activities that are constitutionally protected. Instead, it provides flexibility to individuals

Case 2:20-cv-06414-JFW-PJW Document 1-22 Filed 07/17/20 Page 2 of 4 Page ID #:251

engaged in constitutionally protected activities by encouraging such activities to be “conducted
in a manner that provides appropriate physical distancing to the extent feasible.” That being
said, nothing in this opinion should be construed to require or recommend places of worship to
reopen; that decision is beyond the scope of a legal opinion.
Background
On March 11, 2020, Arizona Governor Doug Ducey issued a Declaration of Emergency
declaring a State of Emergency throughout Arizona due to the COVID-19 outbreak. Pursuant to
that State of Emergency, on March 30, 2020, Governor Ducey issued Executive Order 2020-18,
which lists certain “Essential Activities” exempted from the order’s general proscription that “all
individuals … shall limit their time away from their place of residence or property.” Ariz. Exec.
Order No. 2020-18 § 2 (March 30, 2020) (“Executive Order”).1 These essential activities include “Engaging in constitutionally protected activities such as speech and religion … provided
that such is conducted in a manner that provides appropriate physical distancing to the extent
feasible.” Id. § 4(f).
Analysis
I.

Attending Places of Worship Is an “Essential Activity”
Attendance at a place of worship is clearly an “essential activity” under Executive Order

2020-18. The Executive Order expressly provides that essential activities include “[e]ngaging in
constitutionally protected activities such as speech and religion.” Executive Order § 4(f).
II.

Social Distancing for Constitutionally Protected Activities
The Executive Order exempts essential activities from the requirement that individuals

limit their time away from their place of residence or property. Executive Order §§ 2, 6. Gener1

On April 29, 2020, the Governor issued Executive Order 2020-33, to which this opinion is also
applicable.
2

Case 2:20-cv-06414-JFW-PJW Document 1-22 Filed 07/17/20 Page 3 of 4 Page ID #:252

ally, when individuals engage in essential activities outside their residence or property, “they
shall to the extent possible maintain physical distancing of at least six feet from any other person, consistent with guidance from the CDC.” Executive Order § 5 (emphasis added). The Executive Order, however, provides even wider latitude when constitutionally protected activities
“such as speech and religion” are involved. For constitutionally protected activities, the Executive Order does not mandate a set distancing requirement. Instead, it provides that such protected activities be “conducted in a manner that provides appropriate physical distancing to the extent feasible.” Executive Order § 4(f) (emphasis added). This flexible language recognizes that
what may be appropriate or feasible in one context may not be appropriate or feasible in another
context. As such, the Executive Order encourages individuals to act responsibly based on individual circumstances. The flexible language also helps ensure that appropriate leeway is provided to individuals engaged in activities afforded heightened protections under both federal and
state constitutions. No doubt recognizing the importance of these protections—even when faced
with an emergency declaration—the “intent of th[e] Executive Order” expressly includes “protecting people’s rights … to the greatest extent possible.” Executive Order § 14.
III.

Applicable Penalties for Constitutionally Protected Activities
As set forth above, the Executive Order does not impose an absolute six-foot social dis-

tancing requirement for essential activities that are constitutionally protected, but rather requires
“appropriate physical distancing to the extent feasible.” Id. § 4(f).
Conclusion
Executive Order 2020-18 proclaims that a state of emergency exists due to COVID-19
and implores all Arizonans to use their best judgment in suspending public activities that can be
delayed, for the purposes of protecting the individual and the public as well as preserving vital

3

Case 2:20-cv-06414-JFW-PJW Document 1-22 Filed 07/17/20 Page 4 of 4 Page ID #:253

healthcare resources. Nevertheless, during times of pandemic and other crises, “[a] frequent recurrence to fundamental principles is essential to the security of individual rights and the perpetuity of free government.” Ariz. Const. art. 2, § 1. Therefore, the Executive Order is properly
interpreted to exempt constitutionally protected activities as “essential” and provides flexibility
in social distancing.
Mark Brnovich
Attorney General

4

Case 2:20-cv-06414-JFW-PJW Document 1-23 Filed 07/17/20 Page 1 of 3 Page ID #:254

Guidance for Houses of Worship During the COVID-19 Crisis
During these challenging times, government and faith communities throughout
Texas need to work together to love our neighbors and slow the spread of Coronavirus.
To facilitate this collaboration, State and local governments must clearly articulate
their directives aimed at mitigating spread of the virus. This updated joint guidance
from the Office of the Attorney General and the Office of the Governor is the official
guidance regarding the effect of Executive Order GA 16 on religious services
conducted in churches, congregations, and houses of worship.
The government must give special consideration to houses of worship when
issuing orders related to the COVID-19 crisis.
The First Amendment to the United States Constitution and Article I of the Texas
Constitution protect the right of Texans to worship and freely exercise their religion
according to the dictates of their own consciences. In addition, the Texas Religious
Freedom Restoration Act (“RFRA”) provides additional protections to faith
communities, and government must ensure that it complies with RFRA when it acts,
even during a disaster. Thus, when state or local governments issue orders
prohibiting people from providing or obtaining certain services, they must ensure that
these orders do not violate these constitutional and statutory rights.
Houses of worship provide “essential services.”
By executive order, Governor Abbott has defined essential services to include
“religious services conducted in churches, congregations, and houses of worship.” 1
Institutions providing these essential services can provide them under certain
conditions described in Executive Order GA 16 and local orders by counties or
municipalities that are consistent with GA 16. To the extent there is conflict between
the Governor’s Executive Order GA 16 and local orders, GA 16 controls. Local
governments may not order houses of worship to close.
Houses of worship should conduct as many activities as possible remotely,
and should follow federal guidelines when providing services in person.
Houses of worship should conduct as many of their activities as possible remotely.
Services that houses of worship cannot conduct remotely should be conducted in
accordance with guidance from the White House and the Centers for Disease Control
and Prevention (“CDC”).2 For example:
Exec. Order No. GA 16 at 3 (Apr. 17, 2020); see also Exec. Order No. GA 14 at 2 (Mar. 31, 2020)
(superseded by GA 16).
2 Ctr. for Disease Control, Interim Guidance for Businesses and Employers to Plan and Respond to
Coronavirus Disease 2019 (COVID-19) (Apr. 9, 2020), https://www.cdc.gov/coronavirus/2019-ncov/
1

1

April 21, 2020

Case 2:20-cv-06414-JFW-PJW Document 1-23 Filed 07/17/20 Page 2 of 3 Page ID #:255

•
•
•

Instruct sick employees, volunteers, and guests to stay home;
Practice social distancing by maintaining appropriate distance between people;
Maintain good hygiene by washing your hands frequently, using hand
sanitizer, using your elbow to cover coughs, and not touching your face;
• Implement environmental cleanliness and sanitization practices; and
• Clean and disinfect work areas frequently.
Houses of worship, like providers of other essential services, are to follow additional
guidance from the White House and CDC whenever possible.3
Houses of worship should help slow the spread of the virus.
Texas is a big state and the transmission rate of COVID-19 varies in different
communities. Texans also have big hearts and should love their neighbors by
evaluating the rate of local community spread to determine the appropriate level of
mitigation strategies to implement.4 Houses of worship play an important role in this
effort, and can use their creativity to help slow the spread of the virus. For example,
a church could hold “drive-in” style services. Or because Executive Order GA 16
permits drive-thrus to provide goods and services, a house of worship may, according
to their faith practices, provide communion or a blessing through a similar drive-up
service.
When conducting services, houses of worship may consider implementing the
following practices:
• Encourage all attendees who are 65 and above to stay home and watch the
services online, or provide a “senior service” exclusively for attendees 65 and
above to attend in person.
• Ask all attendees who have an underlying at-risk health condition to stay home
and watch the services online.
• Equip ushers and greeters with gloves and masks.
• Consider keeping child care closed, unless the house of worship can comply
with CDC guidelines for child care facilities.5

community/guidance-business-response.html; Tex. Dep’t of State Health Servs., Prevention of COVID19 (Apr. 17. 2020), https://www.dshs.texas.gov/coronavirus/#prevent; The President’s Coronavirus
Guidelines for America, 30 Days to Slow the Spread (Mar. 31, 2020), https://www.whitehouse.gov/wpcontent/uploads/2020/03/03.16.20_coronavirus-guidance_8.5x11_315PM.pdf.
3 CDC: https://www.cdc.gov/coronavirus/2019-ncov/community/guidance-business-response.html.
Texas DSHS: https://www.dshs.texas.gov/coronavirus/#prevent.
4
CDC, People Who Are at Higher Risk for Severe Illness (Apr. 15, 2020),
https://www.cdc.gov/coronavirus/2019-ncov/need-extra-precautions/people-at-higher-risk.html;
see
also CDC, Interim Guidance for Administrators and Leaders of Community- and Faith-Based
Organizations to Plan, Prepare, and Respond to Coronavirus Disease 2019 (COVID-19) (Mar. 23,
2020),
https://www.cdc.gov/coronavirus/2019-ncov/community/organizations/guidance-communityfaith-organizations.html.
5 CDC, Guidance for Childcare Programs that Remain Open (Apr. 12, 2020),
https://
www.cdc.gov/coronavirus/2019-ncov/community/schools-childcare/guidance-for-childcare.html.
2

April 21, 2020

Case 2:20-cv-06414-JFW-PJW Document 1-23 Filed 07/17/20 Page 3 of 3 Page ID #:256

•
•
•
•
•
•

Ensure all attendees sanitize their hands and put on a mask before entering
the building.
Ensure attendees sit with their family unit, use social distancing between each
unit, and, if necessary, add more service times to facilitate distancing.
Clergy should dismiss attendees by family unit, maintaining social distancing.
Staff should sanitize seats and frequently touched surfaces between services.
Consider refraining from passing collection plates and instead provide a
central collection box in the building or encourage online giving.
Consider how the sacraments can be administered without attendees having
to touch the same surfaces and objects.

These guidelines do not violate the religious liberty of houses of worship.
Under the extraordinary circumstances in which we temporarily live, these
guidelines provide that houses of worship may remain open. The guidelines make
only recommendations to houses of worship. They do not violate the religious liberty
of houses of worship because the government has a compelling interest in
recommending this guidance (stopping contagion) and the guidance is the least
restrictive means of serving that compelling interest (allowing houses of worship to
stay open for ministry, but suggesting ways that help slow the spread of COVID-19).

3

April 21, 2020

Case 2:20-cv-06414-JFW-PJW Document 1-24 Filed 07/17/20 Page 1 of 4 Page ID #:257

FLORIDA OFFICE:
PO Box 540774
Orlando, FL 32854
Tel 407-875-1776
Fax 407-875-0770
www.LC.org

Via E-Mail and Facsimile:
Hon. Xavier Becerra, Esq.
Office of the Attorney General
California Department of Justice
P.O. Box 944255
Sacramento, CA 94244-2550
Fax: 916-323-5341
xavier.becerra@doj.ca.gov

DISTRICT OF COLUMBIA OFFICE:
122 C Street NW, Ste 360
Washington, DC 20001
Tel 202-289-1776
Fax 407-875-0770
REPLY TO FLORIDA

VIRGINIA OFFICE:
PO Box 11108
Lynchburg, VA 24506
Tel 407-875-1776
Fax 407-875-0770
Liberty@LC.org

July 16, 2020

TIME-SENSITIVE LEGAL DEMAND – RESPONSE REQUIRED BY 10:00 AM PACIFIC
JULY 17, 2020 TO PREVENT FURTHER ACTION BY LIBERTY COUNSEL
RE: Church meeting bans and bans on singing and chanting
Dear Attorney General Becerra:
Liberty Counsel is a national non-profit litigation, education, and public policy
organization with an emphasis on First Amendment liberties. Liberty Counsel represents Pastor
Che Ahn, Harvest Rock Church, and other California churches. (“Clients”). Harvest Rock Church
has satellite and affiliated locations throughout California.
Various COVID-19 orders have been issued by Governor Newsom and other State officials
purporting to prohibit California residents, on pain of criminal sanctions, from gathering for indoor
worship services in 33 counties in California (including those where many of Client satellite
churches are located) or from gathering in-person at Client churches (in the other 25 counties
where worship is not totally prohibited) for worship services, if that worship service includes 101
individuals or more than 25% capacity (whichever is lower).
In addition, for our Client churches in counties that can still meet at all, Governor
Newsom’s orders prohibit them from engaging in singing or chanting during their religious
services, or from having small groups gather inside people’s homes for small-group Bible studies
and worship services.
Governor Newsom treats our Clients differently and discriminatorily, based on different
religious activities in which our Clients engage at their Church buildings. Clients may feed the
hungry, clothe the naked, house the homeless, and provide other critical social services to an

Church
meeting bans and bans on singing and chanting
Case
2:20-cv-06414-JFW-PJW
Document 1-24 Filed 07/17/20 Page 2 of 4 Page ID #:258
July 16, 2020
Page 2

unlimited number of individuals in the same building and be exempt from the Governor’s Orders.
Yet, if Clients transition to a “worship service” with those same hungry, naked, or homeless
individuals, then the Governor’s Orders automatically kick in, and Clients are subject to criminal
penalties.
Additionally, while Governor Newsom has purported to significantly restrict the number
of individuals permitted to “gather” in Client churches, he has imposed no similar restrictions on
the untold thousands of protestors, rioters, and looters who have gathered all throughout California
cities with no threat of criminal sanction, no social distancing, and no restrictions whatsoever. And,
the Governor explicitly encouraged such large gatherings of protestors, rioters, and looters
while condemning churches from signing hymns in their churches.
Governor Newsom may not permit and encourage massive protest and gatherings in blatant
violation of his Orders, some of which are protected by the First Amendment, while prohibiting or
impermissibly burdening religious activities, which are all protected by the First Amendment. In
Church of the Lukumi Babalu Aye, Inc. v. City of Hialeah, 508 U.S. 520 (1993) [hereinafter
Lukumi], the Supreme Court held certain laws prohibiting religious practices violated the First
Amendment, concluding “that the laws in question were enacted by officials who did not
understand, failed to perceive, or chose to ignore the fact that their official actions violated the
Nation's essential commitment to religious freedom.” 508 U.S. at 524.
Officials in other jurisdictions have threatened to impose criminal or other sanctions on
other religious gatherings. In Louisville, Kentucky, for example, the government threatened to use
police to impose criminal sanctions on those individuals found in violation of similar COVID-19
orders and threatened to impose various sanctions on individuals found in violation of such orders.
The United States District Court for the Western District of Kentucky found that the mere threat
of such criminal sanction warranted a TRO. See On Fire Christian Center, Inc. v. Fischer, No.
3:20-cv-264-JRW, 2020 WL 1820249 (W.D. Ky. Apr. 11, 2020). The On Fire TRO enjoined the
Mayor of Louisville from “enforcing, attempting to enforce, threatening to enforce, or otherwise
requiring compliance with any prohibition on drive-in church services at On Fire.” Id. at *1
(emphasis added).
In May 2020, two circuit courts of appeal issued three injunctions pending appeal (IPA)
against enforcement of executive orders restricting worship services. See Maryville Baptist
Church, Inc. v. Beshear, 957 F.3d 610 (6th Cir. 2020); Roberts v. Neace, 958 F.3d 409 (6th Cir.
2020); First Pentecostal Church v. City of Holly Springs, Miss., 959 F.3d 669 (5th Cir. 2020)
(granting IPA to Mississippi church enjoining enforcement of Mississippi Governor’s order
restricting worship). A week after the Sixth Circuit’s Roberts IPA, the Eastern District of North
Carolina issued a TRO enjoining the North Carolina Governor from enforcing a 10-person limit
on religious worship because it violated the Free Exercise Clause. See Berean Baptist Church v.
Cooper, No. 4:20-cv-81-D, 2020 WL 2514313 (E.D.N.C. May 16, 2020).
Twice in April, three times in May, and once in June 2020, federal district courts enjoined
COVID-19 prohibitions on religious worship. On April 18, 2020, the District of Kansas issued a
TRO enjoining enforcement of a restriction on religious gatherings of more than 10 people,
requiring the state to treat worship services the same as exempted “essential” gatherings. See First
Baptist Church. v. Kelly, No. 20-1102-JWB, 2020 WL 1910021, *6–7 (D. Kan. Apr. 18, 2020).
The First Baptist TRO specifically stated that the government’s disparate treatment of religious

Church
meeting bans and bans on singing and chanting
Case
2:20-cv-06414-JFW-PJW
Document 1-24 Filed 07/17/20 Page 3 of 4 Page ID #:259
July 16, 2020
Page 3

gatherings violated the Free Exercise Clause because it showed “religious activities were
specifically targeted for more onerous restrictions than comparable secular activities.” Id. at *7
(emphasis added). The court concluded that restricting religious gatherings while permitting other
non-religious activities “show[s] that these executive orders expressly target religious gatherings
on a broad scale and are, therefore, not facially neutral.” Id.
Finally, the June district court decision enjoining COVID-19 orders restricting religious
worship arose in the context of recent mass, race-related protests. In Soos v. Cuomo, No. 1:20-cv651 (GLS/DJS), slip op. (N.D.N.Y. June 26, 2020) (attached hereto for your ready reference), the
district court preliminarily enjoined executive orders issued by the New York Governor and New
York City Mayor, restricting worship services, after both officials publicly encouraged protests
that violated their orders. Slip op. at 2–14, 31–32, 37–38. Applying Lukumi, the Soos court held
the restrictions were not generally applicable, and therefore had to satisfy strict scrutiny, because
some restrictions applied uniquely to religious worship as a practical matter, and others were not
applied to mass protests that clearly violated the restrictions. Slip op. at 29–32.
In times of national crisis, such as the current uncertainty arising from COVID-19, “the fog
of public excitement obscures the ancient landmarks set up in our Bill of Rights.” American
Communist Ass’n, C.I.O. v. Douds, 339 U.S. 382, 453 (1950) (Black, J., dissenting). But, where
the fog of public excitement is at its apex, “the more imperative is the need to preserve inviolate
the constitutional rights of free speech, free press and free assembly.” De Jonge v. Oregon, 299
U.S. 353, 365 (1937). Without doubt, “[t]herein lies the security of the Republic, the very
foundation of constitutional government.” Id.
Here, the State of California has failed to consider other, substantially less restrictive
alternatives to an arbitrary numerical limitation for “houses of worship.” Other states have
determined that churches are essential and may continue to operate with no numerical restrictions,
provided they follow appropriate social distancing and personal hygiene practices. Strict
enforcement of “gathering orders” limiting churches and religious meeting attendance, while
allowing and encouraging mass protests of tens of thousands is discriminatory and unlawful. The
state may not dictate the method or modes of worship, as it has tried to do in banning singing or
chanting during religious worship services.
The California Office of the Attorney General and other law enforcement agencies, acting
at the direction of the Office of the Governor, are each acting under color of state law. The threat
of enforcement action against our clients and other similarly situated California citizens deprives
them of rights secured by the United States Constitution, including the First and Fourteenth
Amendments to the United States Constitution, in violation of 42 U.S.C. § 1983.
Liberty Counsel therefore requests that the California Office of the Attorney General
respond in writing by 10:00 Pacific on July 17, that the above-detailed Orders have been rescinded.
If I do not receive this response, Liberty Counsel will take further action to prevent irreparable
harm to the rights of our clients. I may be reached at dschmid@lc.org.
.

Church
meeting bans and bans on singing and chanting
Case
2:20-cv-06414-JFW-PJW
Document 1-24 Filed 07/17/20 Page 4 of 4 Page ID #:260
July 16, 2020
Page 4

Sincerely,

CC:
Via Facsimile: (916) 558-3160
The Hon. Gavin Newsom
gavin.newsom@gov.ca.gov
Via Email:
Nicolai Cocis, Esq.

†

Licensed in Virginia

Daniel J. Schmid†

Case 2:20-cv-06414-JFW-PJW Document 1-25 Filed 07/17/20 Page 1 of 2 Page ID #:261

Case 2:20-cv-06414-JFW-PJW Document 1-25 Filed 07/17/20 Page 2 of 2 Page ID #:262

No. 20A_________

IN THE SUPREME COURT OF THE UNITED STATES

HARVEST ROCK CHURCH, INC.; HARVEST INTERNATIONAL MINISTRY,
INC., itself and on behalf of its member Churches in California,
Applicants,
v.
GAVIN NEWSOM,
in his official capacity as Governor of the State of California,
Respondent.

To the Honorable Elena Kagan,
Associate Justice of the Supreme Court of the United States
and Circuit Justice for the Ninth Circuit

EXHIBIT F

Mathew D. Staver (Counsel of Record)
Horatio G. Mihet
Roger K. Gannam
Daniel J. Schmid
LIBERTY COUNSEL
P.O. Box 540774
Orlando, FL 32853
(407) 875-1776
court@LC.org |hmihet@LC.org
rgannam@LC.org | dschmid@LC.org
Counsel for Applicants

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-1, Page 1 of 12

No. 20-55907
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
HARVEST ROCK CHURCH, INC.; HARVEST INTERNATIONAL
MINISTRY, INC., itself and on behalf of its member Churches in California,
Plaintiffs–Appellants
v.
GAVIN NEWSOM,
in his official capacity as Governor of the State of California,
Defendant–Appellee
On Appeal from the United States District Court
for the Central District of California (Los Angeles)
In Case No. 2:20-cv-06414-JCB-KK before the Honorable Jesus G. Bernal
JOINT STATEMENT OF CURRENT COVID-RELATED
RESTRICTIONS ON PLACES OF WORSHIP IN CALIFORNIA
Mathew D. Staver (Counsel of Record)
Horatio G. Mihet
Roger K. Gannam
Daniel J. Schmid
LIBERTY COUNSEL
P.O. Box 540774
Orlando, FL 32854
(407) 875-1776
court@LC.org | hmihet@LC.org
rgannam@LC.org | dschmid@LC.org
Nicolai Cocis
Law Office of Nicolai Cocis
25026 Las Brisas Road
Murrieta, CA 95262
(951) 695-1400
nic@cocislaw.com
Attorneys for Plaintiffs–Appellants

Xavier Becerra
ATTORNEY GENERAL
OF CALIFORNIA
Thomas S. Patterson
Senior Assistant Attorney General
Benjamin M. Glickman
Supervising Deputy Attorney General
Todd Grabarsky
Deputy Attorney General
Seth E. Goldstein
Deputy Attorney General
State Bar No. 238228
1300 I Street, Suite 125
P.O. Box 944255
Sacramento, CA 94244-2550
(916) 210-6063
Seth.Goldstein@doj.ca.gov
Attorneys for Defendant–Appellee

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-1, Page 2 of 12

The parties, in response to the Court’s Order of September 17, 2020 (Dkt. 16),
make the following joint statement:
1.

COVID-Related Restrictions Currently in Effect on Places of Worship
and Comparison to Restrictions on Other Categories of Activity.
The current scheme of COVID-19 restrictions in California is under the

umbrella designation “Blueprint for a Safer Economy” ( the “Blueprint”),1 enacted
August 28, which is a framework of risk tiers and sector-specific restrictions within
each tier, applied and periodically adjusted county-by-county throughout the State.
Exhibit A hereto is a chart (the “Blueprint Sector Chart”) of the Blueprint tiers
and corresponding sector restrictions.2 Attached hereto as Exhibit B is a chart (the
“Blueprint Data Chart”) classifying each county by tier and providing population
and other metrics. Counties may move in both directions within the tier framework.
By way of example, the Blueprint identifies tiers and corresponding specific
restrictions for the “Places of Worship” sector as follows:
Tier 1-Widespread: No in-person, indoor worship allowed; allowed to open
outdoors only with no attendance limit.
Tier 2-Substantial: Allowed to open indoors at maximum of 25% capacity
or 100 people, whichever is fewer, and outdoors with no attendance limit.

Blueprint for a Safer Economy, https://www.cdph.ca.gov/Programs/CID/DCDC/
Pages/COVID-19/COVID19CountyMonitoringOverview.aspx. (last updated Sept.
15, 2020).
2
https://www.cdph.ca.gov/Programs/CID/DCDC/CDPH%20Document
%20Library/COVID-19/Dimmer-Framework-August_2020.pdf.
1

1

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-1, Page 3 of 12

Tier 3-Moderate: Allowed to open indoors at maximum of 50% capacity or
200 people, whichever is fewer, and outdoors with no attendance limit.
Tier 4-Minimal: Allowed to open indoors at maximum of 50% capacity, and
outdoors with no attendance limit.3
In addition, the July 29 Worship Guidance (attached

hereto as Exhibit C)

prohibits indoor singing and chanting for places of worship.4
Political protests are permitted outdoors but are subject to the same indoor
capacity restrictions and singing prohibition as worship services.5 Movie theaters
and restaurants are subject to the same capacity and numerical restrictions as houses
of worship. More stringent capacity and numerical restrictions apply to gyms,
wineries, bars, family entertainment centers, cardrooms, and offices. Less stringent
restrictions apply to critical infrastructure, limited services, hair salons, hotels,
shopping centers, personal care centers, and museums. Concert, performance, or

Places of worship may open for drive-in services (with no attendance limit) and to
conduct services online or through other remote technology statewide. (Dkt. 6-5 at
127.)
4
COVID-19 INDUSTRY GUIDANCE: Places of Worship and Providers of
Religious Services and Cultural Ceremonies (July 29, 2020),
https://files.covid19.ca.gov/pdf/guidance-places-of-worship--en.pdf.
5
Stay home Q&A, https://covid19.ca.gov/stay-home-except-for-essential-needs/
(last updated Sept. 18, 2020, 2:40 PM) (“Can I engage in political protests?”
dropdown) (Exhibit D hereto).
3

2

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-1, Page 4 of 12

entertainment venues should remain closed, while places that serve full meals must
discontinue this type of entertainment.6 Singing is prohibited indoors at schools.7
Gatherings “not covered by existing sector guidance” are prohibited, with
“gatherings” defined as “meetings or other events that bring together people from
different households at the same time in a single space, or place.”8
2.

Changes to Restrictions Since Filing of Complaint and Preliminary
Injunction Hearing.
Since the filing of Appellants’ Verified Complaint (Dkt. 6-5) on July 17, 2020,

and the district court’s preliminary injunction hearing on August 12, 2020 (Dkt. 112 at SER000207–225), the State’s adoption of the Blueprint scheme constitutes the
only material changes to the COVID-19 restrictions applicable to places of worship
and other sectors.9 The Blueprint changes comprise, inter alia, the following:

COVID-19 Industry Guidance: Dine-in Restaurants (July 29, 2020),
https://files.covid19.ca.gov/pdf/guidance-dine-in-restaurants.pdf
(Exhibit
E
hereto).
7
COVID-19 Industry Guidance: Schools and School-Based Programs (Aug. 3,
2020), https://files.covid19.ca.gov/pdf/guidance-schools.pdf (Exhibit F hereto).
8
CDPH Guidance for the Prevention of COVID-19 Transmission for Gatherings
(Sept. 12, 2020), https://www.cdph.ca.gov/Programs/CID/DCDC/Pages/COVID19/Guidance-for-the-Prevention-of-COVID-19-Transmission-for-Gatherings.aspx
(Exhibit G hereto).
9
The July 29 Worship Guidance replaced the July 6 Worship Guidance in effect at
the time of filing (Dkt. 6-5 at 170–183), but did not materially alter the prior
version’s provisions.
6

3

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-1, Page 5 of 12

•

August 28 Health Order. The August 28 Health Order (Exhibit H

hereto) authorizes the Blueprint framework of tiers and sectors.10 The Order leaves
in place all other statewide health guidances not expressly altered by the Order. The
Blueprint also leaves in place, to the extent not expressly altered, the March 19 Stayat-Home Order (Dkt. 6-5 at 85).
The Blueprint tiers and sector-specific restrictions for Places of Worship
under the August 28 Health Order supersede the July 13 Health Order (Dkt. 6-5 at
184). The July 13 Health Order prohibited indoor worship in counties on the County
Monitoring List (32 at the time the Verified Complaint was filed). (Dkt. 6-5 at 186.)
Counties not on the Monitoring List were subject to the July 29 Worship Guidance,
which prohibited (and still prohibits) indoor singing and chanting, and limited indoor
worship services to 25% capacity or 100 people, whichever was fewer.
The 30 counties classified as Tier 1–Widespread under the Blueprint as of
September 15 include most of the counties that were on the now superseded County
Monitoring List at the time the Verified Complaint was filed, including Los Angeles
County where Appellant Harvest Rock Church’s Los Angeles and Pasadena
campuses are located, and Riverside County where its Corona campus is located.

Statewide
Public
Health
Officer
Order
(Aug.
28,
2020),
https://www.cdph.ca.gov/Programs/CID/DCDC/CDPH%20Document%20Library/
COVID-19/8-28-20_Order-Plan-Reducing-COVID19-Adjusting-PermittedSectors-Signed.pdf.
10

4

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-1, Page 6 of 12

Orange County, where Harvest Rock Church’s Irvine campus is located, was on the
County Monitoring List at the time the Verified Complaint was filed, but as of
September 15 was classified as Tier 2–Substantial under the Blueprint. Appellant
Harvest International Ministry, Inc. has 162 member churches located throughout
California in various Blueprint tiers. (V. Compl., Dkt. 6-5, ¶¶ 48, 54, 97, 120–123;
Blueprint Data Chart, Ex. B hereto.)
•

Industry Guidance. Some restrictions applicable to sectors other than

houses of worship under the Blueprint are different as compared to the restrictions
in effect at the time of the Complaint and the preliminary injunction hearing, but
some are not. (See Industry guidance to reduce risk, https://covid19.ca.gov/industryguidance/ (last updated Sept. 17, 2020, 8:31 AM) (hereinafter, “Industry
Guidance”). For example:
o

Grocery stores are designated “Essential Critical Infrastructure”

operations under the Governor’s April 28 Essential Workforce Guidance (V.
Compl., Dkt. 6-5, ¶¶ 77–78; Dkt. 6-5 at 117), in effect at the time of filing, and are
now classified in the “Retail” sector of the Blueprint, subject to the Industry
Guidance and the July 29 Retail Guidance (Exhibit I hereto).11 Whereas, at the
time of filing grocery stores could operate without capacity or numerical limit under

COVID-19 INDUSTRY GUIDANCE: Retail
https://files.covid19.ca.gov/pdf/guidance-retail--en.pdf.
11

5

(July

29,

2020),

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-1, Page 7 of 12

the April 28 Essential Workforce Guidance (Dkt. 6-5 at 117), the Blueprint
permits grocery stores to operate at 50% capacity under Tier 1–Widespread and Tier
2–Substantial, but without numerical limits under Tier 3–Moderate and Tier 4–
Minimal.
o

Other retail stores which are designated “Essential Critical

Infrastructure” operations under the April 28 Essential Workforce Guidance, in
effect at the time of filing, such as Walmart and Costco (Dkt. 6-5 at 117), are also
now classified in the “Retail” sector of the Blueprint, subject to the Industry
Guidance and the July 29 Retail Guidance. Whereas, at the time of filing essential
retail stores could operate without capacity or numerical limit, the Blueprint permits
essential retail stores to operate at 25% capacity under Tier 1–Widespread, 50%
capacity under Tier 2–Substantial, but without numerical limits under Tier 3–
Moderate and Tier 4–Minimal.
o

Laundromats are designated “Essential Critical Infrastructure”

operations under the Governor’s April 28 Essential Workforce Guidance (Dkt. 6-5
at 134), in effect at the time of filing, and are now classified in the “Limited
Services” sector of the Blueprint, subject to the Industry Guidance and July 29
Limited Services Guidance (Exhibit J hereto).12 As was true at the time of filing,

See COVID-19 INDUSTRY GUIDANCE: Limited Services (July 29, 2020),
https://files.covid19.ca.gov/pdf/guidance-limited-services--en.pdf.
12

6

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-1, Page 8 of 12

however, the Blueprint permits laundromats to operate without numerical limit,
subject to distancing and other restrictions.
o

Warehouses are designated “Essential Critical Infrastructure”

operations under the Governor’s April 28 Essential Workforce Guidance (Dkt. 6-5
at 113, 117, 121, 133), in effect at the time of filing, and are now classified in the
“Logistics and warehousing facilities” sector of the Blueprint, subject to the Industry
Guidance and July 29 Logistics and Warehousing Guidance (Exhibit K hereto).13
As was true at the time of filing, however, the Blueprint permits warehouses to
operate without numerical limits, subject to distancing and other restrictions.
o

Movie theaters are classified in the “Movie theaters and family

entertainment centers” sector of the Blueprint, subject to the Industry Guidance and
the July 29 Family Entertainment Guidance (Exhibit L hereto).14 Whereas, at the
time of filing indoor services at movie theaters were prohibited statewide under the
July 13 Health Order, the Blueprint prohibits indoor services under Tier 1–
Widespread, but permits indoor services at 25% capacity or 100 people, whichever

See COVID-19 INDUSTRY GUIDANCE: Logistics and Warehousing Facilities
(July 29, 2020), https://files.covid19.ca.gov/pdf/guidance-logistics-warehousing-en.pdf.
14
See COVID-19 INDUSTRY GUIDANCE: Family Entertainment Centers (July 29,
2020), https://files.covid19.ca.gov/pdf/guidance-family-entertainment--en.pdf.
13

7

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-1, Page 9 of 12

is fewer, under Tier 2–Substantial, 50% capacity or 200 people, whichever is fewer,
under Tier 3–Moderate, and 50% capacity under Tier 4–Minimal.
3.

Effects of Restriction Changes on Parties’ Arguments.
a.

Appellants state severally, and not jointly with Appellee: The

restriction changes do not weaken, and actually strengthen, Appellants’ arguments.
Although the Blueprint tightened some restrictions on some sectors, Appellants’
disparate treatment arguments are essentially unaffected because patrons and
workers of many operations involving patently similar risks (e.g., grocery stores,
other essential retail stores, laundromats, warehouses) retain more favorable
treatment of their liberties as compared to houses of worship, which remain subject
to indoor worship bans in most of the State15 (including in private homes with nonhousehold members), and indoor singing bans and capacity restrictions in the rest of
the state. Houses of worship are also still permitted to provide nonreligious, “critical
infrastructure” services (food, shelter, necessities of life) in their own buildings
without capacity or numerical limits, but cannot conduct religious worship services
for the same number of people in the same buildings. Moreover, in the State’s several
July 29 Guidances incorporated into the Blueprint, the State repeats the admission

As of September 15, 2020, the State classified 30 counties as Tier 1–Widespread
(76.38% of State population), 17 counties as Tier 2–Substantial (22.57% of
population), 9 counties as Tier 3–Moderate (1.02% of population), and 2 counties as
Tier 4–Minimal (< 0.03% of population).
15

8

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-1, Page 10 of 12

that it has no risk data to support the disparities in restrictions between sectors,
including as between houses of worship and critical infrastructure, warehouse, and
grocery operations,16 which nullifies any narrow tailoring argument by the
Governor—and it remains the Governor’s burden to justify the restriction disparities.
(Dkt. 6-1 at 18–19.) Furthermore, the Blueprint prolongs indefinitely the State’s
restriction scheme,17 further defeating narrow tailoring.
b.

Appellee states severally, and not jointly with Appellants:

The changes after the filing of the complaint and the August 12 hearing do not
weaken Appellee’s arguments. Under the Blueprint, activities that pose risks
comparable to or greater than worship services, like movie theatres, concerts, and
sporting events, are still subject to similar or greater restrictions than worship
services. See Exhibit A; SER 170, ¶¶ 21, 22. In addition, while activities like retail

See, e.g., July 29 Retail Guidance, Ex. I hereto, at 2 (“Precise information about
the number and rates of COVID-19 by industry or occupational groups, including
among critical infrastructure workers, is not available at this time. There have
been multiple outbreaks in a range of workplaces, indicating that workers are at risk
of acquiring or transmitting COVID-19 infection. Examples of these workplaces
include hospitals, long-term care facilities, prisons, food production, warehouses,
meat processing plants, and grocery stores.” (emphasis added)); July 29 Limited
Services Guidance, Ex. J hereto, at 2 (same); July 29 Logistics and Warehousing
Guidance, Ex. K hereto, at 2 (same); July 29 Family Entertainment Guidance, Ex. L
hereto, at 2 (same); July 29 Worship Guidance, Ex. C hereto, at 2 (the only Guidance
to include “places of worship” as example).
17
See August 28 Health Order, Ex. H hereto, at 3 (“This order shall remain in effect
until I determine it is appropriate to modify the order based on public health
conditions.”).
16

9

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-1, Page 11 of 12

stores, grocery shopping, laundromats, and warehouses are subject to less stringent
restrictions, those activities do not pose comparable risks because they are not
congregate activities in which large groups of people not normally in contact gather
in one place simultaneously for extended periods of time, much less with singing
and chanting, and also because, in some instances, other means of reducing the risk
of transmission are available. SER 171-172, ¶¶ 26-27.18 Indoor singing and chanting
are prohibited in schools, restaurants, and protests, while other activities with similar
risks, including spectator sports, concerts, and theatrical performances, are
prohibited statewide. Indeed, by relaxing restrictions on many activities and
providing deeper reductions based on the circumstances in each county, the
Blueprint strengthens Appellees’ argument that the State has been considering less
restrictive alternatives and narrowly tailoring its COVID-19 restrictions.19

Plaintiffs’ charitable activities are treated differently because they are not
comparable. As the district court noted, running a food pantry is like a grocery store,
Dkt. 6-2 at 4 (as is a clothes distribution), and homeless shelters are subject to
extensive habitability and sanitary requirements. Moreover, Plaintiffs provide no
information in their complaint about their charitable activities, noting only that they
“feed the hungry, give water to the thirsty, clothe the naked, house the homeless, and
counsel the afflicted” Dkt. 6-5 at 18, ¶ 51, and have therefore not carried their burden
to demonstrate that comparable activities are treated differently.
19
Although Plaintiffs claim in their section and in footnote 16 that the State has
admitted “it has no risk data,” the cited text actually states that “Precise information
about the number and rates of COVID-19 by industry or occupational groups,
including among critical infrastructure workers, is not available at this time.”
18

10

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-1, Page 12 of 12

DATED this September 21, 2020.
/s/ Roger K. Gannam
Mathew D. Staver (Counsel of Record)
Horatio G. Mihet
Roger K. Gannam
Daniel J. Schmid
LIBERTY COUNSEL
P.O. Box 540774
Orlando, FL 32854
(407) 875-1776
court@LC.org | hmihet@LC.org
rgannam@LC.org | dschmid@LC.org

Xavier Becerra
ATTORNEY GENERAL
OF CALIFORNIA
Thomas S. Patterson
Senior Assistant Attorney General
Benjamin M. Glickman
Supervising Deputy Attorney General
/s/ Seth E. Goldstein
Todd Grabarsky
Deputy Attorney General
Seth E. Goldstein
Deputy Attorney General
State Bar No. 238228
1300 I Street, Suite 125
P.O. Box 944255
Sacramento, CA 94244-2550
(916) 210-6063
Seth.Goldstein@doj.ca.gov

Nicolai Cocis
Law Office of Nicolai Cocis
25026 Las Brisas Road
Murrieta, CA 95262
(951) 695-1400
nic@cocislaw.com
Attorneys for Plaintiffs–Appellants

Attorneys for Defendant–Appellee

CERTIFICATE OF SERVICE
I hereby certify that a true and correct copy of the foregoing was filed via the
Court’s ECF filing system and therefore service will be effectuated by the Court’s
electronic notification system upon all counsel or parties of record:
DATED this September 21, 2020.

11

/s/ Roger K. Gannam
Attorney

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-2, Page 1 of 5
SECTORS

Critical Infrastructure

Limited Services

Hair Salons & Barbershops

Widespread

Substantial

Moderate

Minimal

Tier 1

Tier 2

Tier 3

Tier 4

Open

Open

Open

Open

with modifications

with modifications

with modifications

with modifications

Open

Open

Open

Open

with modifications

with modifications

with modifications

with modifications

Open Indoors

Open indoors

Open indoors

Open indoors

with modifications

with modifications

with modifications

with modifications

Open Indoors

Open Indoors

Open Indoors

Open Indoors

with modifications

with modifications

with modifications

with modifications

•

Max 25% capacity

•

Max 50% capacity

All Retail
(including critical
infrastructure, except
standalone grocers)

1

EXHIBIT A

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-2, Page 2 of 5
SECTORS

Substantial

Moderate

Minimal

Tier 1

Tier 2

Tier 3

Tier 4

Open Indoors

Open indoors

Open indoors

Open Indoors

with modifications

with modifications

with modifications

with modifications

•
•
•
Shopping Centers (Malls,
Destination Centers, Swap
Meets)

Widespread

Max 25% capacity
Closed common areas
Closed food courts

•
•
•

Max 50% capacity
Closed common areas
Reduced capacity food
courts (see
restaurants)

•
•

Closed common areas
Reduced capacity food
courts (see
restaurants)

•

Reduced capacity food
courts (see
restaurants)

Outdoor Only

Open indoors

Open indoors

Open indoors

with modifications

with modifications

with modifications

with modifications

Outdoor Only

Open indoors

Open indoors

Open indoors

with modifications

with modifications

with modifications

with modifications

Personal Care Services

Museums, Zoos, and
aquariums

•

Indoor activities max
25% capacity

•

Indoor activities max
50% capacity

2

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-2, Page 3 of 5
SECTORS

Widespread

Substantial

Moderate

Minimal

Tier 1

Tier 2

Tier 3

Tier 4

Outdoor Only with
modifications
Places of Worship

Movie theaters

Hotels and lodging

Gyms and Fitness Centers

Open indoors

Open indoors

Open indoors

with modifications

with modifications

with modifications

•

Max 25% capacity or
100 people, whichever
is fewer

•

Max 50% capacity or
200 people, whichever
is fewer

•

Max 50% capacity

Outdoor Only

Open Indoors

Open indoors

Open indoors

with modifications

with modifications

with modifications

with modifications

•

Max 25% capacity or
100 people, whichever
is fewer

•

Max 50% capacity or
200 people, whichever
is fewer

•

Max 50% capacity

Open

Open

Open

Open

with modifications

with modifications

with modifications

with modifications:

•

+Fitness centers
(+10%)

•
•

+Fitness centers
(+25%)
+Indoor pools

•
•

+Fitness Centers (50%)
+Spa facilities etc

Outdoor Only

Open indoors

Open indoors

Open indoors

with modifications

with modifications

with modifications

with modifications

•

Max 10% capacity

•
•

Max 25% capacity
+indoor pools

•
•
•
•

+Saunas
+Spas
+Steam rooms
Max 50% capacity

3

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-2, Page 4 of 5
SECTORS

Restaurants

Wineries

Bars, Breweries, and
Distilleries

Widespread

Substantial

Moderate

Minimal

Tier 1

Tier 2

Tier 3

Tier 4

Outdoor Only

Open indoors

Open indoors

Open indoors

with modifications

with modifications

with modifications

with modifications

•

Max 25% capacity or
100 people, whichever
is fewer

•

Max 50% capacity or
200 people, whichever
is fewer

•

Max 50% capacity

Outdoor Only

Outdoor Only

Open indoors

Open indoors

with modifications

with modifications

with modifications

with modifications

•

Closed

Closed

Max 25% capacity
indoors, or 100 people,
whichever is fewer

Open Outdoors
with modifications

(where no meal provided)

•

Max 50% capacity or
200 people indoors,
whichever is fewer

Open indoors with
modifications
•

Max 50% capacity

(follow restaurants where
meal is provided)

Family Entertainment
Centers

Outdoor Only

Outdoor Only

with modifications

with modifications

e.g.

e.g.

•
•
•

Kart Racing
Mini Golf
Batting Cages

•
•
•

Kart Racing
Mini Golf
Batting Cages

Open Indoors for naturally
distanced activities
with modifications
•
•
•

Max 25% capacity
Bowling Alleys
Climbing Walls

Open indoors for activities
with increased risk of
proximity and mixing
with modifications
•
•
•
•

Max 50% capacity
Arcade Games
Ice and roller skating
Indoor playgrounds
4

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-2, Page 5 of 5
SECTORS

Cardrooms, Satellite
Wagering

Widespread

Substantial

Moderate

Minimal

Tier 1

Tier 2

Tier 3

Tier 4

Outdoor Only

Outdoor Only

Open indoors

Open indoors

with modifications

with modifications

with modifications

with modifications

•
Remote

Remote

Offices

Professional sports

•
•

Without live audiences
With modifications

Open
•
•

Without live audiences
With modifications

•

Max 50% capacity

Open indoors

Open indoors

with modifications

with modifications

•
Open

Max 25% capacity

Encourage telework

Open
•
•

Without live audiences
With modifications

•

Encourage telework

Open
•
•

Without live audiences
With modifications

5

EXHIBIT B

Blueprint for a Safer Economy
September 15, 2020

Unadjusted
Case Rate per
100,000 excl
prison (7‐day
avg 7‐day lag)
6.0
0.0
1.1
21.5
5.2
7.6
7.1
1.6
2.1
7.8
20.9
3.9
8.7
2.3
6.7
8.9
5.9
2.9
9.1
8.5
7.1
0.8
9.9
13.8
13.6
0.0
13.2
5.8
3.3
4.4
5.6
1.5
5.8
8.5
16.1
6.8
7.9

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-3, Page 1 of 2

Number of Number of
Weeks
Weeks
Meeting
Meeting
Criteria for Criteria for
Tier
Number of
Less
More
Date of Tier Assignment Weeks in Restrictive Restrictive
County
Assessment
9/15
Current Tier
Tier
Tier
1
2
1
0
Alameda
09‐14‐2020
Alpine
09‐14‐2020
4
2
‐
0
2
2
1
0
Amador
09‐14‐2020
1
2
0
‐
Butte
09‐14‐2020
2
2
0
0
Calaveras
09‐14‐2020
1
2
0
‐
Colusa
09‐14‐2020
1
2
0
‐
Contra Costa 09‐14‐2020
3
2
0
0
Del Norte
09‐14‐2020
2
2
2
0
El Dorado
09‐14‐2020
1
2
0
‐
Fresno
09‐14‐2020
Glenn
09‐14‐2020
1
2
0
‐
3
2
0
0
Humboldt
09‐14‐2020
1
2
0
‐
Imperial
09‐14‐2020
2
2
2
0
Inyo
09‐14‐2020
1
2
0
‐
Kern
09‐14‐2020
1
2
0
‐
Kings
09‐14‐2020
Lake
09‐14‐2020
2
2
0
0
2
2
2
0
Lassen
09‐14‐2020
1
2
0
‐
Los Angeles
09‐14‐2020
Madera
09‐14‐2020
1
2
0
‐
2
1
0
0
Marin*
09‐14‐2020
Mariposa
09‐14‐2020
3
2
1
0
1
2
0
‐
Mendocino
09‐14‐2020
1
2
0
‐
Merced
09‐14‐2020
Modoc**
09‐14‐2020
4
1
0
0
3
2
2
0
Mono
09‐14‐2020
1
2
0
‐
Monterey
09‐14‐2020
2
2
0
0
Napa
09‐14‐2020
2
2
2
0
Nevada
09‐14‐2020
2
2
0
0
Orange
09‐14‐2020
2
2
0
0
Placer
09‐14‐2020
Plumas
09‐14‐2020
3
2
0
0
1
2
1
0
Riverside
09‐14‐2020
1
2
0
‐
Sacramento
09‐14‐2020
1
2
0
‐
San Benito
09‐14‐2020
1
2
0
‐
San Bernardino 09‐14‐2020
San Diego*
09‐14‐2020
2
2
0
1

Case Rate
Used for
9/14
Tier
Assessme
Adjusted
nt:
Testing
Using
Previous Metrics Positivity Linear
Overall
for
excl
Adjustme
Tier
08/30/20 prisons (7‐ nt (7‐day
Assessme
to
day avg 7‐ avg 7‐day
nt on 9/8 09/05/20 day lag)
lag)
1
2
3.4
5.6
4
4
0.0
0.0
2
3
1.3
1.1
1
1
8.3
18.2
2
2
3.6
5.2
1
1
8.9
7.6
1
1
4.7
7.1
3
3
0.5
1.6
2
3
1.8
2.1
1
1
6.2
7.5
1
1
11.7
20.9
3
3
1.6
3.7
1
1
5.8
7.8
1
3
1.4
2.3
1
1
7.1
7.5
1
1
4.7
7.5
2
2
3.5
5.9
2
3
1.2
2.9
1
1
3.2
8.1
1
1
9.0
9.3
1
2
3.3
6.0
3
4
0.7
0.8
1
1
5.4
9.9
1
1
5.3
9.5
4
1
1.7
13.6
3
4
0.0
0.0
1
1
9.8
13.9
2
2
2.6
5.2
2
3
2.0
3.3
2
2
3.9
4.7
2
2
4.4
6.1
3
3
0.9
1.5
1
2
6.4
6.7
1
1
5.7
9.0
1
1
8.1
16.1
1
1
6.4
7.4
2
1
4.5
8.1

Case Rate Adjustment Factors
Tests per
100,000 excl
prisons, with
replaced
Linear
approved
Adjustment
Factor Applied county data (7‐
to Case Rate day avg 7‐day
lag)
(>State Avg +
Tests per
Pop>100K or
<State Avg + State Median 100,000 excl
Testing
prisons, (7‐day
TestPos>3.5 +
Rate=216.35 avg 7‐day lag) Population
Pop>100K)
0.935
251.6
251.6
1685886
‐
652.3
652.3
1117
‐
142.4
142.4
38531
0.845
300.1
300.1
217769
‐
171.0
171.0
44289
‐
156.2
156.2
22593
1.000
216.2
216.2
1160099
‐
444.8
444.8
27558
‐
151.6
151.6
193098
0.969
233.1
233.1
1032227
‐
229.3
229.3
29348
0.934
252.3
252.3
134098
0.896
272.7
272.7
191649
‐
161.8
161.8
18453
1.123
149.8
149.8
927251
0.843
301.2
301.2
156444
‐
223.7
223.7
64871
‐
267.0
267.0
30065
0.889
276.6
276.6
10257557
1.098
163.5
163.5
160089
0.854
295.2
278.3
260800
‐
227.2
227.2
17795
‐
209.3
209.3
88439
0.691
383.5
383.5
287420
‐
452.3
452.3
9475
‐
191.3
191.3
13961
1.050
189.5
189.5
448732
0.886
278.0
278.0
139652
‐
169.3
169.3
98710
1.067
180.1
180.1
3228519
1.096
164.5
164.5
400434
‐
82.0
82.0
18997
1.156
131.8
131.8
2468145
1.055
186.6
186.6
1567975
‐
257.7
257.7
64022
1.092
166.3
166.3
2217398
1.032
198.8
133.8
3370418

Blueprint for a Safer Economy
September 15, 2020

09‐14‐2020
09‐14‐2020
09‐14‐2020
09‐14‐2020
09‐14‐2020
09‐14‐2020
09‐14‐2020
09‐14‐2020
09‐14‐2020
09‐14‐2020
09‐14‐2020
09‐14‐2020
09‐14‐2020
09‐14‐2020
09‐14‐2020
09‐14‐2020
09‐14‐2020
09‐14‐2020
09‐14‐2020
09‐14‐2020
09‐14‐2020

2
1
1
1
1
2
2
3
2
3
1
1
1
1
2
3
1
3
1
1
1

2
2
2
2
2
2
2
2
2
2
2
2
2
2
2
2
2
2
2
2
2

1
0
1
1
0
0
0
0
2
0
1
0
0
0
2
0
0
0
0
0
0

0
‐
0
0
‐
0
0
0
0
0
0
‐
‐
‐
0
0
‐
0
‐
‐
‐

2
1
1
1
1
2
2
3
2
3
1
1
1
1
1
3
1
3
1
1
1

3
1
2
2
1
2
2
3
4
3
2
1
1
1
2
3
1
3
1
1
1

2.4
7.1
2.9
4.1
4.8
3.0
3.6
1.7
0.0
2.5
3.4
5.6
5.6
7.0
4.4
1.2
8.7
2.0
4.4
5.8
10.6

3.9
9.5
6.3
6.0
9.1
6.0
5.5
1.4
0.0
2.3
5.3
10.6
9.4
10.7
6.9
1.1
12.3
2.7
7.9
7.5
10.4

*Placed in Red tier after data adjudication with CDPH for week of 09/08/2020
**Will undergo data adjudication with CDPH for high case rate

Small County

Purple ‐ Tier 1

Red ‐ Tier 2

Orange ‐ Tier 3

Yellow ‐ Tier 4

6.5
8.8
7.3
6.2
9.1
7.2
5.5
1.4
0.0
2.3
5.3
11.5
9.6
10.7
6.9
1.1
12.2
2.7
8.3
7.1
10.4

0.600
1.078
0.862
0.973
0.998
0.832
1.000
‐
‐
‐
0.991
0.922
0.979
‐
‐
‐
1.004
‐
0.951
1.056
‐

455.3
174.3
290.9
231.0
217.2
307.4
216.5
199.4
128.4
143.3
221.0
258.6
228.0
209.3
184.3
184.0
214.3
319.3
243.0
186.0
168.6

455.3
174.3
290.9
231.0
217.2
307.4
216.5
199.4
128.4
143.3
221.0
258.6
228.0
209.3
184.3
184.0
214.3
319.3
243.0
186.0
168.6

892280
782545
278862
778001
456373
1967585
273999
177925
3115
43956
444255
496668
562303
105747
65885
13354
484423
52351
852747
223612
79290

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-3, Page 2 of 2

San Francisco
San Joaquin
San Luis Obispo
San Mateo
Santa Barbara
Santa Clara
Santa Cruz
Shasta
Sierra
Siskiyou
Solano
Sonoma
Stanislaus
Sutter
Tehama
Trinity
Tulare
Tuolumne
Ventura
Yolo
Yuba

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-4, Page 1 of 14

COVID-19
INDUSTRY
GUIDANCE:
Places of Worship
and Providers of
Religious Services
and Cultural
Ceremonies
July 29, 2020
covid19.ca.gov

EXHIBIT C

1

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-4, Page 2 of 14

OVERVIEW
On March 19, 2020, the State Public Health Officer and Director of the California
Department of Public Health issued an order requiring most Californians to stay at
home to disrupt the spread of COVID-19 among the population.
The impact of COVID-19 on the health of Californians is not yet fully known. Reported
illness ranges from very mild (some people have no symptoms) to severe illness that
may result in death. Certain groups, including people aged 65 or older and those with
serious underlying medical conditions, such as heart or lung disease or diabetes, are
at higher risk of hospitalization and serious complications. Transmission is most likely
when people are in close contact or in a poorly ventilated area with an infected
person, even if that person does not have any symptoms or has not yet developed
symptoms.
Precise information about the number and rates of COVID-19 by industry or
occupational groups, including among critical infrastructure workers, is not available
at this time. There have been multiple outbreaks in a range of workplaces, indicating
that workers are at risk of acquiring or transmitting COVID-19 infection. Examples of
these workplaces include places of worship, hospitals, long-term care facilities,
prisons, food production, warehouses, meat processing plants, and grocery stores.
As stay-at-home orders are modified, it is essential that all possible steps be taken
to ensure the safety of workers and the public.
Key prevention practices include:
✓ physical distancing to the maximum extent possible,
✓ use of face coverings by workers and volunteers (where respiratory protection
is not required) and congregants/visitors,
✓ frequent handwashing and regular cleaning and disinfection,
✓ training workers and volunteers on these and other elements of the COVID-19
prevention plan.
In addition, it will be critical to have in place appropriate processes to identify new
cases of illness in workplaces and, when they are identified, to intervene quickly and
work with public health authorities to halt the spread of the virus.

PURPOSE
This document provides guidance for places of worship and providers of religious
services and cultural ceremonies (referred to collectively as “places of worship”)
to support a safe, clean environment for workers, interns and trainees, volunteers,
scholars, and all other types of workers as well as congregants, worshippers,
visitors, etc. (referred to collectively as “visitors” or “congregants”). This guidance
does not obligate places of worship to resume in-person activity. Further, it is
strongly recommended that places of worship continue to facilitate remote
2

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-4, Page 3 of 14
services and other related activities for those who are vulnerable to COVID-19
including older adults and those with co-morbidities.
Even with adherence to physical distancing, convening in a congregational setting
of multiple different households to practice a personal faith carries a relatively higher
risk for widespread transmission of the COVID-19 virus, and may result in increased
rates of infection, hospitalization, and death, especially among more vulnerable
populations. In particular, activities such as singing and chanting negate the riskreduction achieved through six feet of physical distancing.
*Places of worship must therefore discontinue indoor singing and chanting activities
and limit indoor attendance to 25% of building capacity or a maximum of 100
attendees, whichever is lower. Local Health Officers are advised to consider
appropriate limitations on outdoor attendance capacities, factoring their jurisdiction's
key COVID-19 health indicators. At a minimum, outdoor attendance should be limited
naturally through implementation of strict physical distancing measures of a minimum
of six feet between attendees from different households, in addition to other relevant
protocols within this document.
This revised limitation will be subject to regular review by the California Department
of Public Health in consultation with local Departments of Public Health to assess the
impact of these imposed limits on public health and provide further direction as
part of a phased-in restoration of activities in places of worship.
NOTE: This guidance is not intended for food preparation and service, delivery
of items to those in need, childcare and daycare services, school and
educational activities, in-home caregiving, counseling, office work, and other
activities that places and organizations of worship may provide. Organizations
that perform these activities must follow applicable guidance on the COVID-19
Resilience Roadmap website.
The guidance is not intended to revoke or repeal any worker rights, either statutory,
regulatory or collectively bargained, and is not exhaustive, as it does not include
county health orders, nor is it a substitute for any existing safety and health-related
regulatory requirements such as those of Cal/OSHA.1 Stay current on changes to
public health guidance and state/local orders, as the COVID-19 situation continues.
Cal/OSHA has more safety and health guidance on their Cal/OSHA Guidance on
Requirements to Protect Workers from Coronavirus webpage. The CDC has additional
guidance for community- and faith-based organizations.

Required Use of Face Coverings
On June 18, CDPH issued Guidance on the Use of Face Coverings, which broadly
requires the use of face coverings for both members of the public and workers in all
public and workplace settings where there is a high risk of exposure.
People in California must wear face coverings when they are engaged in work,
3

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-4, Page 4 of 14
whether at the workplace or performing work off-site, when:
•

Interacting in-person with any member of the public;

•

Working in any space visited by members of the public, regardless of whether
anyone from the public is present at the time;

•

Working in any space where food is prepared or packaged for sale or
distribution to others;

•

Working in or walking through common areas, such as hallways, stairways,
elevators, and parking facilities;

•

In any room or enclosed area where other people (except for members of the
person’s own household or residence) are present when unable to physically
distance;

•

Driving or operating any public transportation or paratransit vehicle, taxi, or
private car service or ride-sharing vehicle when passengers are present. When
no passengers are present, face coverings are strongly recommended.

Complete details, including all requirements and exemptions to these rules, can be
found in the guidance. Face coverings are strongly encouraged in other
circumstances, and employers can implement additional face covering
requirements in fulfilling their obligation to provide workers with a safe and healthful
workplace. Employers must provide face coverings to workers or reimburse workers
for the reasonable cost of obtaining them.
Employers should develop an accommodation policy for any worker who meets one
of the exemptions from wearing a face covering. If a worker who would otherwise be
required to wear a face covering because of frequent contact with others cannot
wear one due to a medical condition, they should be provided with a non-restrictive
alternative, such as a face shield with a drape attached to the bottom edge, if
feasible, and if the medical condition permits it.
Businesses that are open to the public should be cognizant of the exemptions to
wearing face coverings in the CDPH Face Covering Guidance and may not exclude
any member of the public for not wearing a face covering if that person is complying
with the guidance. Businesses will need to develop policies for handling these
exemptions among customers, clients, visitors, and workers.

4

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-4, Page 5 of 14

Workplace Specific Plan
•

Establish a written, workplace-specific COVID-19 prevention plan at every
location, perform a comprehensive risk assessment of all work areas and
all work tasks, and designate a person at each workplace to implement
the plan.

•

Incorporate the CDPH Face Covering Guidance into the Workplace
Specific Plan and include a policy for handling exemptions.

•

Identify contact information for the local health department where the
workplace is located for communicating information about COVID-19
outbreaks among workers and congregants/visitors.

•

Train and communicate with workers and worker representatives on the
plan and make the plan available to workers and their representatives.

•

Regularly evaluate workplaces for compliance with the plan and
document and correct deficiencies identified.

•

Investigate any COVID-19 illness and determine if any work-related
factors could have contributed to risk of infection. Update the plan as
needed to prevent further cases.

•

Implement the necessary processes and protocols when a workplace
has an outbreak, in accordance with CDPH guidelines.

•

Identify close contacts (within six feet for 15 minutes or more) of an
infected worker and take steps to isolate COVID-19 positive workers
and close contacts.

• Adhere to the guidelines below. Failure to do so could result in workplace
illnesses that may cause operations to be temporarily closed or limited.

Topics for Worker and Volunteer Training
•

Information on COVID-19, how to prevent it from spreading, and which
underlying health conditions may make individuals more susceptible
to contracting the virus.

•

Self-screening at home, including temperature and/or symptom checks
using CDC guidelines.

•

The importance of not coming to work or participating in activities
o If a worker has symptoms of COVID-19 as described by the CDC,

5

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-4, Page 6 of 14
such as a fever or chills, cough, shortness of breath or difficulty
breathing, fatigue, muscle or body aches, headache, new loss of
taste or smell, sore throat, congestion or runny nose, nausea,
vomiting, or diarrhea, OR
o If a worker was diagnosed with COVID-19 and has not yet been
released from isolation, OR
o If within the past 14 days, a worker has had contact with someone
who has been diagnosed with COVID-19 and is considered
potentially infectious (i.e. still on isolation).
•

To return to work after a worker receives a COVID-19 diagnosis only if 10
days have passed since symptoms first appeared, their symptoms have
improved, and the worker has had no fevers (without the use of fever
reducing medications) for the last 72 hours. A worker without symptoms
who was diagnosed with COVID-19 can return to work only if 10 days
have passed since the date of the first positive COVID-19 test.

•

To seek medical attention if their symptoms become severe, including
persistent pain or pressure in the chest, confusion, or bluish lips or face.
Updates and further details are available on CDC’s webpage.

•

The importance of frequent handwashing with soap and water, including
scrubbing with soap for 20 seconds (or using hand sanitizer with at least
60% ethanol or 70% isopropanol when workers cannot get to a sink or
handwashing station, per CDC guidelines).

•

The importance of physical distancing, both at work and off work time
(see Physical Distancing section below).

•

Proper use of face coverings, including:
o Face coverings do not protect the wearer and are not personal
protective equipment (PPE).
o Face coverings can help protect people near the wearer, but do not
replace the need for physical distancing and frequent handwashing.
o Face coverings must cover the nose and mouth.
o Workers should wash or sanitize hands before and after using or
adjusting face coverings.
o Avoid touching the eyes, nose, and mouth.
o Face coverings must not be shared and should be washed or
discarded after each shift.

•

Information contained in the CDPH Guidance for the Use of Face

6

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-4, Page 7 of 14
Coverings, which mandates the circumstances in which face
coverings must be worn and the exemptions, as well as any policies,
work rules, and practices the employer has adopted to ensure the
use of face coverings. Training should also include the employer’s
policies on how people who are exempted from wearing a face
covering will be handled.
•

Ensure all types of workers including temporary, independent
contractors, and volunteer workers are also properly trained in
COVID-19 prevention policies and have necessary PPE. Discuss these
responsibilities ahead of time with organizations supplying temporary,
contract, and/or volunteer staff.

•

Information on paid leave benefits the worker may be entitled to
receive that would make it financially easier to stay at home. See
additional information on government programs supporting sick leave
and worker’s compensation for COVID- 19, including worker’s sick
leave rights under the Families First Coronavirus Response Act and
worker’s rights to workers’ compensation benefits and presumption of
the work-relatedness of COVID-19 pursuant to the
Governor’s Executive Order N-62-20 while that Order is in effect.

Individual Control Measures and Screening
•

Provide temperature and/or symptom screenings for all workers at the
beginning of their shift. Make sure the temperature/symptom screener
avoids close contact with workers to the extent possible.

•

If requiring self-screening at home, which is an appropriate alternative to
providing it at the establishment, ensure that screening was performed
prior to the worker and/or volunteer leaving the home for their shift and
follows CDC guidelines, as described in the Topics for Worker Training
section above.

•

Encourage workers and congregants/visitors who are sick or exhibiting
symptoms of COVID-19, or who have family members who are ill, to
stay home.

•

Employers must provide and ensure workers and volunteers use all
required protective equipment, including eye protection and gloves,
where necessary.

•

Places of worship should consider where disposable gloves use may be
helpful to supplement frequent handwashing or use of hand sanitizer;
examples are for workers who are screening others for symptoms or
handling commonly touched items. All workers and volunteers should
wear gloves when handling items contaminated by body fluids.

7

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-4, Page 8 of 14
•

Workers, volunteers, etc., should not enter the home or visit someone
who has tested positive for, exhibited symptoms of, or has been in
contact with someone infected with COVID-19 for an appropriate
waiting period as described by CDC guidelines.

•

Places of worship must take reasonable measures, including posting
signage in strategic and highly-visible locations and in reservation
confirmations, to remind congregants and visitors that they must use face
coverings and practice physical distancing and should frequently wash
their hands with soap for at least 20 seconds, use hand sanitizer, and not
touch their face.

•

Use social media, website, texts, email, newsletters, etc., to communicate
the steps being taken to protect congregants/visitors and workers so that
they are familiar with the policies (including to stay home if experiencing
symptoms or are at increased risk of becoming sick, face coverings,
physical distancing, handwashing and/or sanitizing, and cough
etiquette), before arriving at the facility. Workers and volunteers are
strongly encouraged to remind congregants/visitors of these practices
with announcements during services or on welcoming guests.

•

Remind congregants and visitors in advance to bring a face
covering and make them available to anyone who arrives without
one, if possible.

•

Congregants/visitors should be screened for temperature and/or
symptoms upon arrival to places of worship and asked to use hand
sanitizer.

Cleaning and Disinfecting Protocols
•

Perform thorough cleaning of high traffic areas such as lobbies, halls,
chapels, meeting rooms, offices, libraries, and study areas and areas of
ingress and egress including stairways, stairwells, handrails, and elevator
controls. Frequently disinfect commonly used surfaces including
doorknobs, toilets, handwashing facilities, pulpits and podiums,
donation boxes or plates, altars, and pews and seating areas.

•

Establish frequent cleaning and disinfection of personal work areas such
as desks and cubicles and supply the necessary cleaning products.
Provide time for workers to implement cleaning practices during their
shift. Cleaning assignments should be assigned during working hours as
part of the workers’ job duties.

•

Discourage sharing items used in worship and services (such as prayer
books, cushions, prayer rugs, etc.) whenever possible and provide singleuse or digital copies or ask congregants/visitors to bring personal items
8

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-4, Page 9 of 14
instead. Avoid sharing work equipment and supplies, such as phones,
office equipment, computers, etc., wherever possible. Never share PPE.
•

Where such items must be shared, disinfect between shifts or uses,
whichever is more frequent, including the following: shared office
equipment (copiers, fax machines, printers, telephones, keyboards,
staplers, etc.) and shared worship items, etc., with a cleaner
appropriate for the surface.

•

Ensure that sanitary facilities stay operational and stocked at all times
and provide additional soap, paper towels, and hand sanitizer when
needed. Consider more frequently cleaning and disinfecting
handwashing facilities that are used more often. Use signage to
reinforce handwashing.

•

Disinfect microphones and stands, music stands, instruments and other
items on pulpits and podiums between each use. Consult equipment
manufacturers to determine appropriate disinfection steps,
particularly for soft, porous surfaces such as foam mufflers.

•

Consider using disposable seat covers for congregants/visitors,
particularly on porous surfaces or where a facility has multiple daily
services. Discard and replace seat covers between each use. Provide
disposable or washable covers on pillows used as seating on floors and
change/wash them after each use.

•

Install hand sanitizer dispensers, touchless whenever possible, at
entrances and contact areas such as meeting rooms, lobbies,
and elevator landings.

•

When choosing disinfecting chemicals, establishments should use
products approved for use against COVID-19 on the Environmental
Protection Agency (EPA)-approved list and follow product instructions.
Use disinfectants labeled to be effective against emerging viral
pathogens, diluted household bleach solutions (5 tablespoons per gallon
of water), or alcohol solutions with at least 70% alcohol that are
appropriate for the surface. Provide workers training on the chemical
hazards, manufacturer’s directions, ventilation requirements, and
Cal/OSHA requirements for safe use. Workers and volunteers using
cleaners or disinfectants should wear gloves or other protective
equipment as required by the product instructions. Follow the asthmasafer cleaning methods recommended by the California Department of
Public Health and ensure proper ventilation.

•

Wash religious garments and linens after each service or event, at the
highest water setting possible. Ask congregants/visitors to bring their
own storage bags for personal garments and shoes. Workers,
congregants, and visitors should wear gloves when handling others’
dirty linens, shoes, etc.
9

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-4, Page 10 of 14
•

Discontinue passing offering plates and similar items that move between
people. Use alternative giving options such as secure drop boxes that do
not require opening/closing and can be cleaned and disinfected.
Consider implementing digital systems that allow congregants/visitors to
make touch-free offerings.

•

Mark walking paths between spaces designated for congregants/visitors
to sit/kneel so that people do not walk where someone may touch their
head to the floor.

•

During meetings and services, introduce fresh outside air, for example by
opening doors/windows (weather permitting) and operating ventilation
systems.

•

Where possible, do not clean floors by sweeping or other methods
that can disperse pathogens into the air. Use a vacuum with a HEPA
filter wherever possible.

•

Consider installing portable high-efficiency air cleaners, upgrading the
building’s air filters to the highest efficiency possible, and making
other modifications to increase the quantity of outside air and
ventilation in worship areas, offices, and other spaces.

Physical Distancing Guidelines
•

Places of worship should continue to provide services through alternative
methods (such as via internet live and/or recorded streaming, telephone,
drive-in, etc.) whenever possible.

•

Consider holding in-person meetings and providing in-person services
outside whenever possible.

•

Implement measures to ensure physical distancing of at least six feet
between workers and congregants/visitors, etc. This can include use of
physical partitions or visual cues (e.g., floor or pew markings or signs to
indicate where people should sit and stand). Reconfigure seating and
standing areas to maintain physical distancing of six feet or more
between congregants/visitors from different households. Consider
limiting seating to alternate rows. Members of the same household may
be seated together but should maintain at least six feet of distance from
other households.

•

Consider dedicating workers to help people maintain distances
during activities.

•

Shorten services to limit the length of time congregants/visitors spend at
facilities whenever possible. This could include limiting speeches, asking
congregants/visitors to put on garments at home before arrival, etc.
10

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-4, Page 11 of 14
•

Close places of worship for visitation outside of scheduled services,
meetings, etc., whenever possible.

•

Consider implementing a reservation system to limit the number of
congregants/visitors attending facilities at a time. This can include the
use of digital platforms or other types of tools.

•

Encourage congregants/visitors to meet with the same group, particularly
when services meet frequently and/or require a certain number of
people to be present. This can reduce the spread of transmission by
minimizing the number of different individuals who come into close
contact with each other.

•

Consider offering additional meeting times (per day or per week) so that
fewer guests attend meetings and services at one time. Clean meeting
areas between each use as described in this guidance.

•

Discontinue large gatherings that encourage congregants/visitors to
travel and break physical distances during activities, such as concerts,
large holiday and life event celebrations and remembrances.

•

Children should remain in the care of those in their household unit and
not interact with children of other parties at any time while visiting
facilities. Close play areas and discontinue activities and services for
children where physical distancing of at least six feet cannot be
maintained.

•

Encourage congregants/visitors to physically distance themselves from
others outside their household, avoid touching surfaces, and to leave the
facility if they do not feel well.

•

Consider limiting touching for religious and/or cultural purposes, such as
holding hands, to members of the same household.

•

Dedicate workers to direct guests to meeting rooms upon entry to
places of worship rather than congregating in lobbies or common
areas. Consider using ushers to help people find places to sit and stand
that are at least six feet apart from other guests/household groups. Ask
congregants/visitors to arrive and leave in a single group to minimize
crossflow of people. Welcome and dismiss congregants/visitors from
altars, podiums, meeting rooms, etc. in an orderly way to maintain
physical distancing and minimize crossflow of traffic, to the extent
possible.

•

Prop or hold doors open during peak periods when congregants/visitors
are entering and exiting facilities, if possible and in accordance with
security and safety protocols.

•

Close or restrict common areas, such as break rooms, kitchenettes, foyers,
11

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-4, Page 12 of 14
etc. where people are likely to congregate and interact. Consider
installing barriers or increase physical distance between tables/seating
when there is continued use of these areas.
•

Remove from service or find low-community touch alternatives for
communal/religious water containers such as fonts, sinks, and vessels.
Empty and change water between uses. Where there is a possibility of
contaminant splash, workers, congregants, visitors, etc., are strongly
encouraged to use equipment to protect the eyes, nose, and mouth
using a combination of face coverings, protective glasses, and/or face
shields. Reusable protective equipment such as shields and glasses
should be properly disinfected between uses.

•

When washing is a required activity, modify practices whenever possible
to limit splashing and the need to clean and disinfect washing facilities.
Encourage necessary washing to be performed at home prior to
entering a facility, if possible.

•

Reconfigure podiums and speaker areas, office spaces, meeting rooms,
conference rooms, etc., to allow for at least six feet between people.

•

Establish directional hallways and passageways for foot traffic, if possible,
and designate separate routes for entry and exit into meeting rooms,
offices, etc., to help maintain physical distancing and lessen the
instances of people closely passing each other.

•

Limit the number of individuals riding in an elevator at a time. Post
signage regarding these policies.

•

Utilize practices, when feasible and necessary, to limit the number of
workers and congregants/visitors in office, meeting spaces, etc., at one
time. This may include scheduling (e.g. staggering start/end times),
establishing alternating days for onsite reporting, returning to places of
worship in phases, or continued use of telework when feasible.

•

Consider offering workers and volunteers who request modified duties
options that minimize their contact with congregants/visitors and
other workers (e.g., office duties rather than working as an usher or
managing administrative needs through telework).

•

Stagger worker breaks, in compliance with wage and hour regulations,
to maintain physical distancing protocols.

•

Discontinue nonessential travel and encourage distance meetings via
phone and internet.

•

Close self-service item selection such as pamphlet displays and
bookshelves and provide these items to congregants/visitors individually
as necessary. Consider delivering items and information electronically.
12

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-4, Page 13 of 14
•

Consider limiting the number of people that use the restroom at one time
to allow for physical distancing.

•

Discourage workers, congregants, visitors, etc., from engaging in
handshakes, hugs, and similar greetings that break physical distance.
Take reasonable measures to remind people to wave or use other
greetings.

•

Reconfigure parking lots to limit congregation points and ensure proper
separation (e.g., closing every other space). If performing drive-in
services, ensure vehicle windows and doors are closed if six feet of
distance is not possible between vehicles.

•

Continue to support non-in person attendance of services and other
related activities by those who are vulnerable to COVID-19 including
older adults and those with co-morbidities.

Considerations for Places of Worship
•

Discontinue offering self-service food and beverages. Do not hold
potlucks or similar family-style eating and drinking events that increase
the risk of cross contamination. If food and beverages must be served,
provide items in single-serve, disposable containers whenever possible.
Workers or volunteers serving food should wash hands frequently and
wear disposable gloves.

•

Discontinue singing (in rehearsals, services, etc.), chanting, and other
practices and performances where there is increased likelihood for
transmission from contaminated exhaled droplets. Consider practicing
these activities through alternative methods (such as internet streaming)
that ensure individual congregation members perform these activities
separately in their own homes.

•

Consider modifying practices that are specific to particular faith traditions
that might encourage the spread of COVID-19. Examples are
discontinuing kissing of ritual objects, allowing rites to be performed by
fewer people, avoiding the use of a common cup, offering communion
in the hand instead of on the tongue, providing pre-packed communion
items on chairs prior to service, etc., in accordance with CDC guidelines.

13

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-4, Page 14 of 14

Considerations for Funerals
•

Consider reduced visitor capacity and stagger visitation times at funerals,
wakes, etc., if possible. Follow all cleaning and disinfection measures as
described in this guidance. Whenever possible, remind visitors to maintain
physical distance from each other, from workers and volunteers, and
from the deceased.

•

Consider modifying religious or cultural practices when washing or
shrouding bodies of those who have died from COVID-19, in
accordance with guidance from CDPH and the CDC. If washing the
body or shrouding are important religious or cultural practices, work
with funeral home staff and families to reduce exposure as much as
possible. All people participating in these activities must wear
disposable gloves and if there will be splashing of fluids, people must
use additional protective equipment including protection for the eyes,
nose, and mouth, such as face shields.

•

Consult and comply with local guidance regarding limits on gathering
sizes, travel, holding funerals for those who died from COVID-19, etc.

•

Consider other recommendations and modifications of services related
to places of worship outlined above, as applicable for funeral services.

1Additional

requirements must be considered for vulnerable populations. Places of worship must
comply with all Cal/OSHA standards and be prepared to adhere to its guidance as well as
guidance from the Centers for Disease Control and Prevention (CDC) and the California
Department of Public Health (CDPH). Additionally, places of worship must be prepared to alter
their operations as those guidelines change.

14

Stay home Q&A - Coronavirus COVID-19 Response

1 of 7

https://covid19.ca.gov/stay-home-except-for-essential-needs/

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-5, Page 1 of 7

EXHIBIT D
9/20/2020, 11:49 AM

Stay home Q&A - Coronavirus COVID-19 Response

2 of 7

https://covid19.ca.gov/stay-home-except-for-essential-needs/

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-5, Page 2 of 7

9/20/2020, 11:49 AM

Stay home Q&A - Coronavirus COVID-19 Response

3 of 7

https://covid19.ca.gov/stay-home-except-for-essential-needs/

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-5, Page 3 of 7

9/20/2020, 11:49 AM

Stay home Q&A - Coronavirus COVID-19 Response

4 of 7

https://covid19.ca.gov/stay-home-except-for-essential-needs/

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-5, Page 4 of 7

9/20/2020, 11:49 AM

Stay home Q&A - Coronavirus COVID-19 Response

5 of 7

https://covid19.ca.gov/stay-home-except-for-essential-needs/

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-5, Page 5 of 7

9/20/2020, 11:49 AM

Stay home Q&A - Coronavirus COVID-19 Response

6 of 7

https://covid19.ca.gov/stay-home-except-for-essential-needs/

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-5, Page 6 of 7

9/20/2020, 11:49 AM

Stay home Q&A - Coronavirus COVID-19 Response

7 of 7

https://covid19.ca.gov/stay-home-except-for-essential-needs/

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-5, Page 7 of 7

9/20/2020, 11:49 AM

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-6, Page 1 of 14

COVID-19
INDUSTRY
GUIDANCE:
Dine-In Restaurants
July 29, 2020
All guidance should be implemented
only with county health officer approval
following their review of local
epidemiological data including cases
per 100,000 population, rate of test
positivity, and local preparedness to
support a health care surge, vulnerable
populations, contact tracing, and
testing.
EXHIBIT E

1

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-6, Page 2 of 14

OVERVIEW
On March 19, 2020, the State Public Health Officer and Director of the California
Department of Public Health issued an order requiring most Californians to stay at home
to disrupt the spread of COVID-19 among the population.
The impact of COVID-19 on the health of Californians is not yet fully known. Reported
illness ranges from very mild (some people have no symptoms) to severe illness that may
result in death. Certain groups, including people aged 65 or older and those with serious
underlying medical conditions, such as heart or lung disease or diabetes, are at higher
risk of hospitalization and serious complications. Transmission is most likely when people
are in close contact or in a poorly ventilated area with an infected person, even if that
person does not have any symptoms or has not yet developed symptoms.
Precise information about the number and rates of COVID-19 by industry or occupational
groups, including among critical infrastructure workers, is not available at this time. There
have been multiple outbreaks in a range of workplaces, indicating that workers are at risk
of acquiring or transmitting COVID-19 infection. Examples of these workplaces include
hospitals, long-term care facilities, prisons, food production, warehouses, meat processing
plants, and grocery stores.
As stay-at-home orders are modified, it is essential that all possible steps be taken to
ensure the safety of workers and the public.
Key prevention practices include:
✓ physical distancing to the maximum extent possible,
✓ use of face coverings by workers (where respiratory protection is not required) and
customers/clients,
✓ frequent handwashing and regular cleaning and disinfection,
✓ training workers on these and other elements of the COVID-19 prevention plan.
In addition, it will be critical to have in place appropriate processes to identify new cases
of illness in workplaces and, when they are identified, to intervene quickly and work with
public health authorities to halt the spread of the virus.

PURPOSE
This document provides guidance for dine-in restaurants, brewpubs, craft distilleries,
breweries, bars, pubs, and wineries to support a safe, clean environment for workers and
customers. The guidance is not intended to revoke or repeal any worker rights, either
statutory, regulatory or collectively bargained, and is not exhaustive, as it does not
include county health orders, nor is it a substitute for any existing safety and healthrelated regulatory requirements such as those of Cal/OSHA.1 Stay current on changes to
public health guidance and state/local orders as the COVID-19 situation continues.
Cal/OSHA has more comprehensive guidance on their Cal/OSHA General Guidelines on
Protecting Workers from COVID-19 webpage. The U.S. Food and Drug Administration has
guidance for restaurants and the CDC has additional requirements in their guidance for
businesses and employers.
2

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-6, Page 3 of 14
•

Brewpubs, breweries, bars, pubs, craft distilleries, and wineries should remain closed
until those establishments are allowed to resume modified or full operation unless
they are offering sit-down, dine-in meals. Alcohol can only be sold in the same
transaction as a meal.

•

Brewpubs, breweries, pubs, craft distilleries, and wineries in counties whose health
officer has approved further reopening may follow the guidance for restaurants,
wineries, and bars on the COVID-19 County Roadmap website.

•

Dine-in restaurants, brewpubs, breweries, bars, pubs, craft distilleries, and wineries
that provide sit-down meals should follow the restaurant guidance below and
should continue to encourage takeout and delivery service whenever possible.

•

Brewpubs, breweries, bars, pubs, craft distilleries, and wineries that do not provide
sit-down meals themselves, but can contract with another vendor to do so, can
serve dine-in meals provided both businesses follow the guidance below and
alcohol is only sold in the same transaction as a meal.

•

Venues that are currently authorized to provide off sale beer, wine, and spirits to be
consumed off premises and do not offer sit-down, dine-in meals should follow the
guidance for retail operations and offer curbside sales only, until local and/or
statewide rules allow additional retail activity.

•

Producers of beer, wine, and spirits should follow the guidance for manufacturing
operations.

•

This guidance is not intended for concert, performance, or entertainment venues.
Those types of establishments should remain closed until they are allowed to
resume modified or full operation through a specific reopening order or guidance.
Establishments that serve full meals must discontinue this type of entertainment until
these types of activities are allowed to resume modified or full operation.

Required Use of Face Coverings
On June 18, CDPH issued Guidance on the Use of Face Coverings, which broadly requires
the use of face coverings for both members of the public and workers in all public and
workplace settings where there is a high risk of exposure.
People in California must wear face coverings when they are engaged in work, whether
at the workplace or performing work off-site, when:
•

Interacting in-person with any member of the public;

•

Working in any space visited by members of the public, regardless of whether
anyone from the public is present at the time;

•

Working in any space where food is prepared or packaged for sale or distribution
to others;

•

Working in or walking through common areas, such as hallways, stairways,
3

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-6, Page 4 of 14
elevators, and parking facilities;
•

In any room or enclosed area where other people (except for members of the
person’s own household or residence) are present when unable to physically
distance;

•

Driving or operating any public transportation or paratransit vehicle, taxi, or private
car service or ride-sharing vehicle when passengers are present. When no
passengers are present, face coverings are strongly recommended.

Complete details, including all requirements and exemptions to these rules, can be found
in the guidance. Face coverings are strongly encouraged in other circumstances, and
employers can implement additional face covering requirements in fulfilling their
obligation to provide workers with a safe and healthful workplace. Employers must
provide face coverings to workers or reimburse workers for the reasonable cost of
obtaining them.
Employers should develop an accommodation policy for any worker who meets one of
the exemptions from wearing a face covering. If a worker who would otherwise be
required to wear a face covering because of frequent contact with others cannot wear
one due to a medical condition, they should be provided with a non-restrictive
alternative, such as a face shield with a drape attached to the bottom edge, if feasible,
and if the medical condition permits it.
Businesses that are open to the public should be cognizant of the exemptions to wearing
face coverings in the CDPH Face Covering Guidance and may not exclude any member
of the public for not wearing a face covering if that person is complying with the
guidance. Businesses will need to develop policies for handling these exemptions among
customers, clients, visitors, and workers.

4

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-6, Page 5 of 14

Workplace Specific Plan
•

Establish a written, workplace-specific COVID-19 prevention plan at every
location, perform a comprehensive risk assessment of all work areas and
work tasks, and designate a person at each establishment to implement
the plan.

•

Incorporate the CDPH Face Covering Guidance into the Workplace
Specific Plan and include a policy for handling exemptions.

•

Identify contact information for the local health department where the
restaurant is located for communicating information about COVID-19
outbreaks among workers or customers.

•

Train and communicate with workers and worker representatives on the
plan and make the plan available to workers and their representatives.

•

Regularly evaluate the establishment for compliance with the plan and
document and correct deficiencies identified.

•

Investigate any COVID-19 illness and determine if any work-related factors
could have contributed to risk of infection. Update the plan as needed to
prevent further cases.

•

Implement the necessary processes and protocols when a workplace has
an outbreak, in accordance with CDPH guidelines.

•

Identify close contacts (within six feet for 15 minutes or more) of an infected
worker and take steps to isolate COVID-19 positive worker(s) and close
contacts.

•

Adhere to the guidelines below. Failure to do so could result in workplace
illnesses that may cause operations to be temporarily closed or limited.

Topics for Worker Training
• Information on COVID-19, how to prevent it from spreading, and which
underlying health conditions may make individuals more susceptible to
contracting the virus.
• Self-screening at home, including temperature and/or symptom checks
using CDC guidelines.
• The importance of not coming to work:

5

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-6, Page 6 of 14
o If a worker has symptoms of COVID-19 as described by the CDC, such
as a fever or chills, cough, shortness of breath or difficulty breathing,
fatigue, muscle or body aches, headache, new loss of taste or smell,
sore throat, congestion or runny nose, nausea, vomiting, or diarrhea,
OR
o If a worker was diagnosed with COVID-19 and has not yet been
released from isolation, OR
o If, within the past 14 days, a worker has had contact with someone
who has been diagnosed with COVID-19 and is considered potentially
infectious (i.e. still on isolation).
• To return to work after a worker receives a COVID-19 diagnosis only if 10
days have passed since symptoms first appeared, their symptoms have
improved, and the worker has had no fevers (without the use of fever
reducing medications) for the last 72 hours. A worker without symptoms
who was diagnosed with COVID-19 can return to work only if 10 days have
passed since the date of the first positive COVID-19 test.
• To seek medical attention if their symptoms become severe, including
persistent pain or pressure in the chest, confusion, or bluish lips or face.
Updates and further details are available on CDC’s webpage.
• The importance of frequent handwashing with soap and water, including
scrubbing with soap for 20 seconds (or using hand sanitizer with at least 60%
ethanol or 70% isopropanol when workers cannot get to a sink or
handwashing station, per CDC guidelines).
• The importance of physical distancing, both at work and off work time (see
Physical Distancing section below).
• Proper use of face coverings, including:
o Face coverings do not protect the wearer and are not personal
protective equipment (PPE).
o Face coverings can help protect people near the wearer, but do not
replace the need for physical distancing and frequent handwashing.
o Face coverings must cover the nose and mouth.
o Workers should wash or sanitize hands before and after using or
adjusting face coverings.
o Avoid touching the eyes, nose, and mouth.
o Face coverings must not be shared and should be washed or discarded
after each shift.

6

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-6, Page 7 of 14
• Information contained in the CDPH Guidance for the Use of Face
Coverings, which mandates the circumstances in which face coverings
must be worn and the exemptions, as well as any policies, work rules, and
practices the employer has adopted to ensure the use of face coverings.
Training should also include the employer’s policies on how people who
are exempted from wearing a face covering will be handled.
• Ensure any independent contractors, temporary or contract workers, and
volunteers at the facility are also properly trained in COVID-19 prevention
policies and have necessary supplies and PPE. Discuss these responsibilities
ahead of time with organizations supplying temporary and/or contract
workers.
• Information on paid leave benefits the worker may be entitled to receive
that would make it financially easier to stay at home. See additional
information on government programssupporting sick leave and worker’s
compensation for COVID-19, including workers’ sick leave rights under
the Families First Coronavirus Response Act and the Governor’s Executive
Order N-51-20, and workers’ rights to workers’ compensation benefits and
presumption of the work- relatedness of COVID-19 pursuant to the
Governor’s Executive order N-62- 20 while that Order is in effect.

Individual Control Measures and Screening
•

Provide temperature and/or symptom screenings for all workers at the
beginning of their shift and any vendors, contractors, or other workers
entering the establishment. Make sure the temperature/symptom
screener avoids close contact with workers to the extent possible.

•

If requiring self-screening at home, which is an appropriate alternative to
providing it at the establishment, ensure that screening was performed
prior to the worker leaving the home for their shift and follows CDC
guidelines, as described in the Topics for Worker Training section above.

•

Encourage workers who are sick or exhibiting symptoms of COVID-19 to
stay home.

•

Employers must provide and ensure workers use all required protective
equipment, including face coverings and gloves where necessary.

•

Employers should consider where disposable glove use may be helpful to
supplement frequent handwashing or use of hand sanitizer; examples are
for workers who are screening others for symptoms or handling commonly
touched items. Workers should wear gloves when handling items
contaminated by body fluids.

•

Servers, bussers, and other workers moving items used by customers (dirty
7

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-6, Page 8 of 14
cups, plates, napkins, etc.) or handling trash bags should use disposable
gloves (and wash hands before putting them on and after removing
them) and provide aprons and change frequently.
•

Dishwashers should use equipment to protect the eyes, nose, and mouth
from contaminant splash using protective glasses, goggles, or a face
shield in addition to a face covering. Dishwashers must be provided
impermeable aprons and change frequently. Reusable protective
equipment such as shields and glasses should be properly disinfected
between uses.

•

Establishments must take reasonable measures, including posting signage
at all entrances and in strategic and highly-visible locations and in
reservation confirmations, to remind the public that they must use face
coverings while not eating and drinking and practice physical distancing
and that they should frequently wash their hands with soap for at least 20
seconds, use hand sanitizer, and not touch their face.

•

Remind guests in advance to bring a face covering and make them
available to anyone who arrives without one, if possible.

•

Guests and visitors should be screened for temperature and/or
symptoms upon arrival, asked to use hand sanitizer, and to wear a face
covering when not eating or drinking. Employers have the right to
cancel reservations for individuals/parties with symptomatic guests.

•

Display a set of clearly visible rules for customers and restaurant
personnel at the restaurant entrance(s) that are to be a condition of
entry. The rules could include instructions to use hand sanitizer, maintain
physical distance from other customers, avoid unnecessary touching of
restaurant surfaces, contact information for the local health
department, and changes to restaurant services. Whenever possible,
the rules should be available digitally, include pictograms, and included
on/with menus.

Cleaning and Disinfecting Protocols
• Perform thorough cleaning in high traffic areas, such as customer waiting
areas and lobbies, break rooms, lunch areas and areas of ingress and
egress including host stands, entry ways, stairways, stairwells, escalators,
handrails, and elevator controls. Frequently disinfect commonly used
surfaces including doors, door handles, crash bars, light switches, waiting
area chairs, credit card terminals, ATM PIN pads, receipt trays, bus tubs,
serving trays, phones, toilets, and handwashing facilities.
• Frequently clean items touched by patrons, especially those that might
attract contact from children including candy and toy vending machines,
8

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-6, Page 9 of 14
decorative fish tanks, display cases, decorative fountains, etc.
• Clean touchable surfaces between shifts or between users, whichever is
more frequent, including but not limited to working surfaces, phones,
registers, touchpads/touchscreens, tablets, timeclocks, appliances, kitchen
and bar utensils and implements, oven doors, grill and range knobs, carts
and trolleys, keys, etc.
• Avoid sharing audio equipment, phones, tablets, laptops, desks, pens, and
other work supplies wherever possible. Never share PPE.
• Discontinue shared use of audio headsets and other equipment between
workers unless the equipment can be properly disinfected after use.
Consult equipment manufacturers to determine appropriate disinfection
steps, particularly for soft, porous surfaces such as foam earmuffs.
• Provide time for workers to implement cleaning practices during their shift.
Cleaning assignments should be assigned during working hours as part of
the workers’ job duties.
• Procure options for third-party cleaning companies to assist with the
increased cleaning demand, as needed.
• Equip spaces such as dining rooms, bar areas, host stands, and kitchens
with proper sanitation products, including hand sanitizer and sanitizing
wipes to all staff directly assisting customers.
• Ensure that sanitary facilities stay operational and stocked at all times and
provide additional soap, paper towels, and hand sanitizer when needed.
• When choosing disinfecting chemicals, employers should use products
approved for use against COVID-19 on the Environmental Protection
Agency (EPA)-approved list and follow product instructions. Use
disinfectants labeled to be effective against emerging viral pathogens,
diluted household bleach solutions (5 tablespoons per gallon of water), or
alcohol solutions with at least 70% alcohol that are appropriate for the
surface. Provide workers training on the chemical hazards, manufacturer’s
directions, ventilation requirements, and Cal/OSHA requirements for safe
use. Workers using cleaners or disinfectants should wear gloves as required
by the product instructions and ensure proper ventilation.
• Continue to follow existing codes regarding requirements for sanitizing
(rather than disinfecting) food contact surfaces.
• To minimize the risk of Legionnaires’ disease and other diseases associated
with water, take steps to ensure that all water systems and features are safe
to use after a prolonged facility shutdown.
• Restaurants should increase fresh air circulation by opening windows or

9

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-6, Page 10 of 14
doors, if possible and in accordance with security and safety protocols.
• Where possible, do not clean floors by sweeping or other methods that can
disperse pathogens into the air. Use a vacuum with a HEPA filter wherever
possible.
• Consider installing portable high-efficiency air cleaners, upgrading the
building’s air filters to the highest efficiency possible, and making other
modifications to increase the quantity of outside air and ventilation in all
working areas.
• Provide disposable menus to guests and make menus available digitally so
that customers can view on a personal electronic device, if possible. If
disposable menus cannot be provided, properly disinfect menus before
and after customer use. Consider options for customers to order ahead of
time.
• Discontinue pre-setting tables with napkins, cutlery, glassware, food ware,
etc. These should be supplied individually to customers as needed. Do not
leave card stands, flyers, napkin holders, or other items on tables.
• Suspend use of shared food items such as condiment bottles, salt and
pepper shakers, etc. and provide these foods in single serve containers, if
possible. Where this is not possible, shared items such as condiment bottles,
shakers, etc., should be supplied as needed to customers and disinfected
after each use.
• Pre-roll utensils in napkins prior to use by customers. Workers must wash
hands before pre-rolling utensils in napkins. The pre-roll should then be
stored in a clean container. After customers are seated, the pre-roll should
be put on the table by a worker who recently washed their hands.
• Reusable customer items including utensils, food ware, breadbaskets, etc.,
must be properly washed, rinsed, and sanitized. Cleaned flatware,
stemware, dishware, etc., must be properly stored away from customers
and personnel until ready for use. Use disposable items if proper cleaning of
reusable items is infeasible.
• Takeout containers must be filled by customers and available only upon
request.
• Dirty linens used at dining tables such as tablecloths and napkins should be
removed after each customer use and transported from dining areas in
sealed bags. Workers should wear gloves when handling dirty linens.
• Thoroughly clean each customer dining location after every use. This will
include disinfecting tables, chairs, booster seats, highchairs, booths, etc.
and allowing adequate time for proper disinfection, following product
instructions. Many EPA-approved disinfectants require minimal contact
10

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-6, Page 11 of 14
time (seconds to one minute) against human coronavirus.
• Consider using disposable seat covers, particularly on porous surfaces.
Discard and replace seat covers between each use. Provide disposable or
washable covers on pillows used in seating areas and change/wash them
after each use.
• Close areas where customers may congregate or touch food or food ware
items that other guests may use. Modify delivery of these items by providing
items to guests individually, converting to cafeteria-style service, etc.
Discard or clean, disinfect, or sanitize shared items after each use, as
appropriate. The areas that should be closed include but are not limited to:
o Self-service areas with condiment caddies, utensil caddies, napkins,
lids, straws, water pitchers, to-go containers, etc.
o Self-service machines including ice, soda, frozen yogurt dispensers,
etc.
o Self-service food areas such as buffets, salsa bars, salad bars, etc.
• Discontinue tableside food preparation and presentation such as food item
selection carts and conveyor belts, guacamole preparation, etc.
• Do not leave out after-meal mints, candies, snacks, or toothpicks for
customers. Offer them with the check or provide only on request.
• Install hand sanitizer dispensers, touchless if possible, at guest and worker
entrances and contact areas such as driveways, reception areas, in dining
rooms, near elevator landings, etc.
• Discontinue use of shared entertainment items such as board games, pool
tables, arcade games, vending machines, etc. Close game and
entertainment areas where customers may share items such as bowling
alleys, etc.

Physical Distancing Guidelines
• Prioritize outdoor seating and curbside pickup to minimize cross flow of
customers in enclosed environments. Restaurants can expand their outdoor
seating, and alcohol offerings in those areas, if they comply with local laws
and regulations.
• Provide takeout, delivery, and drive through options for customers when
possible. Takeout items should be made available using contactless pickup and delivery protocols.
• Eliminate person-to-person contact for delivery of goods whenever

11

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-6, Page 12 of 14
possible. Designate drop-off locations to receive deliveries away from high
traffic areas. Maintain physical distance of at least six feet with delivery
drivers.
• Encourage reservations to allow for time to disinfect restaurant areas and
provide guidance via digital platforms, if possible, to customers for physical
distancing while at the restaurant.
• Consider allowing dine-in customers to order ahead of time to limit the
amount of time spent in the establishment. Ask customers to wait in their
cars or away from the establishment while waiting to be seated. If possible,
alert patrons through their mobile phones when their table is ready to avoid
touching and use of “buzzers.”
• Adjust maximum occupancy rules inside the establishment based on its size
to limit the number of people inside and/or use impermeable barriers
between service tables to protect customers from each other and workers.
For outdoor seating, maintain physical distancing standards of at least six
feet and as outlined in this guidance.
• Limit the number of patrons at a single table to a household unit or patrons
who have asked to be seated together. People in the same party seated
at the same table do not have to be six feet apart. All members of the
party must be present before seating and hosts must bring the entire party
to the table at one time.
• Implement measures to ensure physical distancing of at least six feet
between workers and customers. This can include use of physical partitions
or visual cues (e.g., floor markings or signs to indicate to where workers
and/or guests should stand).
• Install physical barriers or partitions at cash registers, bars, host stands, and
other areas where maintaining physical distance of six feet is difficult.
• Any area where guests or workers queue should also be clearly marked for
appropriate physical distancing. This includes check-stands and terminals,
deli counters and lines, restrooms, elevator lobbies, host stands and waiting
areas, valet drop off and pickup, and any other area where customers
congregate.
• Physical distancing protocols should be used in any office areas, kitchens,
pantries, walk-in freezers, or other high-density, high-traffic work areas,
where possible.
• Worker pre-shift meetings and trainings should be conducted virtually or in
areas that allow for appropriate physical distancing between workers.
Food, beverages, food ware, etc., must not be shared.
• Stagger worker breaks, in compliance with wage and hour regulations, to
12

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-6, Page 13 of 14
maintain physical distancing protocols.
• Consider offering workers who request modified duties options that
minimize their contact with customers and other workers (e.g., managing
inventory rather than working as a cashier or managing administrative
needs through telework).
• Reconfigure office spaces, lobbies, beverage bars, kitchens and
workstations, host stand areas, and other spaces wherever possible to
allow for at least six feet of distance between people dining, working, and
passing through areas for entry and exit.
• Remove tables and chairs from dining areas so that six feet of physical
distance can be maintained for customers and workers. If tables, chairs,
booths, etc., cannot be moved, use visual cues to show that they are not
available for use or install Plexiglas or other types of impermeable physical
barriers to minimize exposure between customers.
• Bar areas should remain closed to customers.
• Discontinue seating of customers where customers cannot maintain six feet
of distance from workers, work areas, and food and drink preparation
areas.
• Limit the number of workers serving individual parties, in compliance with
wage and hour regulations.
• All restaurant workers should minimize the amount of time spent within six
feet of guests.
• Close breakrooms, use barriers, or increase distance between tables/chairs
to separate workers and discourage congregating during breaks. Where
possible, create outdoor break areas with shade covers and seating that
ensures physical distancing.
• Reconfigure kitchens to maintain physical distancing in those areas where
practical and, if not practical, stagger shifts, if possible, to do work ahead
of time.
• Discourage food preparation workers from changing or entering others’
workstations during shifts.
• Discourage people from congregating in high traffic areas such as
bathrooms, hallways, bar areas, reservation and credit card terminals, etc.
• Establish directional hallways and passageways for foot traffic, if possible, to
eliminate workers from passing by one another.
• Require workers to avoid handshakes and similar greetings that break
physical distance.
13

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-6, Page 14 of 14
• Guests should enter through doors that are propped open or automated, if
possible. Hand sanitizer should be available for guests who must touch door
handles.
• Adjust music volume so that workers can maintain distance from customers
to hear orders.
• Implement peak period queueing procedures, including a host to remind
guests to queue with at least six feet of distance between parties outside or
in waiting areas.
• Workers should not open the doors of cars or taxis.
• Avoid touching others’ pens and clipboards. If possible, install transferaiding materials, such as shelving and bulletin boards, to reduce personto-person hand-offs.

1Additional

requirements must be considered for vulnerable populations. Dine-in restaurants,
breweries, brewpubs, craft distilleries, and wineries that provide meals must comply with all
Cal/OSHA standards and be prepared to adhere to its guidance as well as guidance from the
Centers for Disease Control and Prevention (CDC) and the California Department of Public
Health (CDPH). Additionally, employers should be prepared to alter their operations as those
guidelines change.

14

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-7, Page 1 of 20

COVID-19
INDUSTRY
GUIDANCE:
Schools and SchoolBased Programs

Updated: August 3, 2020
All guidance should be implemented
only with local health officer approval
following their review of local
epidemiological data including cases
per 100,000 population, rate of test
positivity, and local preparedness to
support a health care surge, vulnerable
populations, contact tracing, and
testing.

EXHIBIT F

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-7, Page 2 of 20

OVERVIEW
Communities across the state are preparing for the forthcoming school year. To assist
with that planning process, the following guidelines and considerations are intended
to help school and community leaders plan and prepare to resume in-person
instruction.
This guidance is interim and subject to updates. These guidelines and considerations
are based on the best available public health data at this time, international best
practices currently employed, and the practical realities of managing school
operations; as new data and practices emerge. Additionally, the guidelines and
considerations do not reflect the full scope of issues that school communities will need
to address, which range from day-to-day site-based logistics to the social and
emotional well-being of students and staff.
California public schools (traditional and charter), private schools (including nonpublic
nonsectarian schools), school districts, and county offices of education, herein referred
to as schools, will determine the most appropriate instructional model, taking into
account the needs of their students and staff, and their available infrastructure. This
guidance is not intended to prevent a school from adopting a distance learning,
hybrid, or mixed-delivery instructional model to ensure safety. Schools are not required
to seek out or receive approval from a state or local public health officer prior to
adopting a distance-learning model.
Implementation of this guidance will depend on local public health conditions,
including those listed here. Communities meeting those criteria, such as lower
incidence of COVID-19 and adequate preparedness, may implement the guidance
described below as part of a phased reopening. All decisions about following this
guidance should be made in collaboration with local health officials and other
authorities.
Implementation of this guidance should be tailored for each setting, including
adequate consideration of instructional programs operating at each school site and
the needs of students and families. School leaders should engage relevant
stakeholders—including families, staff and labor partners in the school community—to
formulate and implement plans that consider the following:
•

Student, Family and Staff Population: Who are the student, family and staff
populations who will be impacted by or can serve as partners in implementing
any of the following measures?

•

Ability to Implement or Adhere to Measures: Do staff, students and families have
the tools, information, resources and ability to successfully adhere to or
implement the new measures?

•

Negative or Unintended Consequences: Are there any negative or unintended
consequences to staff, students or families of implementing the measures and
how can those consequences be mitigated?

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-7, Page 3 of 20
This guidance is not intended to revoke or repeal any worker rights, either statutory,
regulatory or collectively bargained, and is not exhaustive, as it does not include
county health orders, nor is it a substitute for any existing safety and health-related
regulatory requirements such as those of Cal/OSHA. Stay current on changes to public
health guidance and state/local orders, as the COVID-19 situation continues.

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-7, Page 4 of 20

1. General Measures
•

Establish and continue communication with local and State authorities
to determine current disease levels and control measures in your
community. For example:
o Review and refer to, if applicable, the relevant county variance
documentation. Documentation can be found here.
o Consult with your county health officer, or designated staff, who are
best positioned to monitor and provide advice on local conditions. A
directory can be found here.
o Collaborate with other schools and school partners in your region,
including the county office of education.
o Regularly review updated guidance from state agencies, including
the California Department of Public Health and California
Department of Education.

•

Establish a written, worksite-specific COVID-19 prevention plan at every
facility, perform a comprehensive risk assessment of all work areas and
work tasks, and designate a person at each school to implement the
plan.
o Identify contact information for the local health department where
the school is located for communicating information about COVID19 outbreaks among students or staff.
o Incorporate the CDPH Guidance for the Use of Face Coverings, into
the School Site Specific Plan that includes a policy for handling
exemptions.
o Train and communicate with workers and worker representatives on
the plan. Make the written plan available and accessible to workers
and worker representatives.
o Regularly evaluate the workplace for compliance with the plan and
document and correct deficiencies identified.
o Investigate any COVID-19 illness and determine if any work-related
factors could have contributed to risk of infection. Update the plan
as needed to prevent further cases.
o Implement the necessary processes and protocols when a
workplace has an outbreak, in accordance with CDPH guidelines.
o Identify individuals who have been in close contact (within six feet for
15 minutes or more) of an infected person and take steps to isolate

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-7, Page 5 of 20
COVID-19 positive person(s) and close contacts. See Section 10 for
more detail.
o Adhere to these guidelines. Failure to do so could result in workplace
illnesses that may cause classrooms or the entire school to be
temporarily closed or limited.
•

Evaluate whether and to what extent external community organizations
can safely utilize the site and campus resources. Ensure external
community organizations that use the facilities also follow this guidance.

•

Develop a plan for the possibility of repeated closures of classes, groups
or entire facilities when persons associated with the facility or in the
community become ill with COVID-19. See Section 10 below.

•

Develop a plan to further support students with access and functional
needs who may be at increased risk of becoming infected or having
unrecognized illness due to COVID-19. For example, review existing
student health plans to identify students who may need additional
accommodations, develop a process for engaging families for
potentially unknown concerns that may need to be accommodated or
identify additional preparations for classroom and non-classroom
environments as needed. Groups who might be at increased risk of
becoming infected or having unrecognized illness include the following:
o Individuals who have limited mobility or require prolonged and close
contact with others, such as direct support providers and family
members;
o Individuals who have trouble understanding information or practicing
preventive measures, such as hand washing and physical distancing;
and
o Individuals who may not be able to communicate symptoms of
illness.

•

Schools should review the CDPH Guidance for the Use of Face Coverings
and any applicable local health department guidance and incorporate
face-covering use for students and workers into their COVID-19
prevention plan. Some flexibility may be needed for younger children
consistent with child development recommendations. See Section 3 for
more information.

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-7, Page 6 of 20

2. Promote Healthy Hygiene Practices
•

Teach and reinforce washing hands, avoiding contact with one's eyes,
nose, and mouth, and covering coughs and sneezes among students
and staff.
o Teach students and remind staff to use tissue to wipe their nose and
to cough/sneeze inside a tissue or their elbow.
o Students and staff should wash their hands frequently throughout the
day, including before and after eating; after coughing or sneezing;
after classes where they handle shared items, such as outside
recreation, art, or shop; and before and after using the restroom.
o Students and staff should wash their hands for 20 seconds with soap,
rubbing thoroughly after application. Soap products marketed as
“antimicrobial” are not necessary or recommended.
o Staff should model and practice handwashing. For example, for
lower grade levels, use bathroom time as an opportunity to reinforce
healthy habits and monitor proper handwashing.
o Students and staff should use fragrance-free hand sanitizer when
handwashing is not practicable. Sanitizer must be rubbed into hands
until completely dry. Note: frequent handwashing is more effective
than the use of hand sanitizers.
o Ethyl alcohol-based hand sanitizers are preferred and should be used
when there is the potential of unsupervised use by children.


Isopropyl hand sanitizers are more toxic when ingested or
absorbed in skin.



Do not use hand sanitizers that may contain methanol which can
be hazardous when ingested or absorbed.

o Children under age 9 should only use hand sanitizer under adult
supervision. Call Poison Control if consumed: 1-800-222-1222.
•

Consider portable handwashing stations throughout a site and near
classrooms to minimize movement and congregations in bathrooms to
the extent practicable.

•

Develop routines enabling students and staff to regularly wash their
hands at staggered intervals.

•

Ensure adequate supplies to support healthy hygiene behaviors,
including soap, tissues, no-touch trashcans, face coverings, and hand
sanitizers with at least 60 percent ethyl alcohol for staff and children who
can safely use hand sanitizer.

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-7, Page 7 of 20
•

Information contained in the CDPH Guidance for the Use of Face
Coverings should be provided to staff and families, which discusses the
circumstances in which face coverings must be worn and the
exemptions, as well as any policies, work rules, and practices the
employer has adopted to ensure the use of face coverings.

•

Employers must provide and ensure staff use face coverings in
accordance with CDPH guidelines and all required protective
equipment.

•

The California Governor’s Office of Emergency Services (CalOES) and
the Department of Public Health (CDPH) are and will be working to
support procurement and distribution of face coverings and personal
protective equipment. Additional information can be found here.

•

Strongly recommend that all students and staff be immunized each
autumn against influenza unless contraindicated by personal medical
conditions, to help:
o Protect the school community
o Reduce demands on health care facilities
o Decrease illnesses that cannot be readily distinguished from COVID19 and would therefore trigger extensive measures from the school
and public health authorities.

•

Nothing in this guidance should be interpreted as restricting access to
appropriate educational services.

3. Face Coverings
Face coverings must be used in accordance with CDPH guidelines unless a
person is exempt as explained in the guidelines, particularly in indoor
environments, on school buses, and areas where physical distancing alone is
not sufficient to prevent disease transmission.
•

Teach and reinforce use of face coverings, or in limited instances, face
shields.

•

Students and staff should be frequently reminded not to touch the face
covering and to wash their hands frequently.

•

Information should be provided to all staff and families in the school
community on proper use, removal, and washing of cloth face
coverings.

•

Training should also include policies on how people who are exempted
from wearing a face covering will be addressed.

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-7, Page 8 of 20

STUDENTS
Age

Face Covering Requirement

Under 2 years old

No
Strongly encouraged**

2 years old – 2nd grade
3rd grade – High School

Yes, unless exempt

**Face coverings are strongly encouraged for young children between two years old
and second grade, if they can be worn properly. A face shield is an acceptable
alternative for children in this cohort who cannot wear them properly.
•

Persons younger than two years old, anyone who has trouble breathing,
anyone who is unconscious or incapacitated, and anyone who is
otherwise unable to remove the face covering without assistance are
exempt from wearing a face covering.

•

A cloth face covering or face shield should be removed for meals,
snacks, naptime, or outdoor recreation, or when it needs to be
replaced. When a cloth face covering is temporarily removed, it should
be placed in a clean paper bag (marked with the student’s name and
date) until it needs to be put on again.

•

In order to comply with this guidance, schools must exclude students
from campus if they are not exempt from wearing a face covering
under CDPH guidelines and refuse to wear one provided by the school.
Schools should develop protocols to provide a face covering to students
who inadvertently fail to bring a face covering to school to prevent
unnecessary exclusions. Schools should offer alternative educational
opportunities for students who are excluded from campus.

STAFF
•

All staff must use face coverings in accordance with CDPH guidelines
unless Cal/OSHA standards require respiratory protection.

•

In limited situations where a face coverings cannot be used for
pedagogical or developmental reasons, (i.e. communicating or assisting
young children or those with special needs) a face shield can be used
instead of a cloth face covering while in the classroom as long as the
wearer maintains physical distance from others, to the extent
practicable. Staff must return to wearing a face covering outside of the
classroom.

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-7, Page 9 of 20
•

Workers or other persons handling or serving food must use gloves in
addition to face coverings. Employers should consider where disposable
glove use may be helpful to supplement frequent handwashing or use of
hand sanitizer; examples are for workers who are screening others for
symptoms or handling commonly touched items.

4. Ensure Teacher and Staff Safety
•

Ensuring staff maintain physical distancing from each other is critical to
reducing transmission between adults.

•

Ensure that all staff use face coverings in accordance with CDPH
guidelines and Cal/OSHA standards.

•

Support staff who are at higher risk for severe illness or who cannot safely
distance from household contacts at higher risk, by providing options
such as telework, where appropriate, or teaching in a virtual learning or
independent study context.

•

Conduct all staff meetings, professional development training and
education, and other activities involving staff with physical distancing
measures in place, or virtually, where physical distancing is a challenge.

•

Minimize the use of and congregation of adults in staff rooms, break
rooms, and other settings.

•

Implement procedures for daily symptom monitoring for staff.

5. Intensify Cleaning, Disinfection, and
Ventilation
•

Consider suspending or modifying use of site resources that necessitate
sharing or touching items. For example, consider suspending use of
drinking fountains and instead encourage the use of reusable water
bottles.

•

Staff should clean and disinfect frequently-touched surfaces at school
and on school buses at least daily and, as practicable, these surfaces
should be cleaned and disinfected frequently throughout the day by
trained custodial staff.

•

Buses should be thoroughly cleaned and disinfected daily and after
transporting any individual who is exhibiting symptoms of COVID-19.
Drivers should be provided disinfectant wipes and disposable gloves to
support disinfection of frequently touched surfaces during the day.

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-7, Page 10 of 20
•

Frequently touched surfaces in the school include, but are not limited to:
o Door handles
o Light switches
o Sink handles
o Bathroom surfaces
o Tables
o Student Desks
o Chairs

•

Limit use and sharing of objects and equipment, such as toys, games, art
supplies and playground equipment to the extent practicable. When
shared use is allowed, clean and disinfect between uses.

•

When choosing disinfecting products, use those approved for use
against COVID-19 on the Environmental Protection Agency (EPA)approved list “N” and follow product instructions.
o To reduce the risk of asthma and other health effects related to
disinfecting, programs should select disinfectant products on list N
with asthma-safer ingredients (hydrogen peroxide, citric acid or
lactic acid) as recommended by the US EPA Design for Environment
program.
o Avoid products that contain peroxyacetic (peracetic) acid, sodium
hypochlorite (bleach) or quaternary ammonium compounds, which
can cause asthma.
o Follow label directions for appropriate dilution rates and contact
times. Provide workers training on the chemical hazards,
manufacturer’s directions, Cal/OSHA requirements for safe use, and
as applicable and as required by the Healthy Schools Act.
o Custodial staff and any other workers who clean and disinfect the
school site must be equipped with proper protective equipment,
including gloves, eye protection, respiratory protection, and other
appropriate protective equipment as required by the product
instructions. All products must be kept out of children’s reach and
stored in a space with restricted access.
o Establish a cleaning and disinfecting schedule in order to avoid both
under- and over-use of cleaning products.

•

Ensure safe and correct application of disinfectant and keep products
away from students.

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-7, Page 11 of 20
•

Ensure proper ventilation during cleaning and disinfecting. Introduce
fresh outdoor air as much as possible, for example, by opening windows
where practicable. When cleaning, air out the space before children
arrive; plan to do thorough cleaning when children are not present. If
using air conditioning, use the setting that brings in outside air. Replace
and check air filters and filtration systems to ensure optimal air quality.
o If opening windows poses a safety or health risk (e.g., by allowing
pollen in or exacerbating asthma symptoms) to persons using the
facility, consider alternatives. For example, maximize central air
filtration for HVAC systems (targeted filter rating of at least MERV 13).

•

Consider installing portable high-efficiency air cleaners, upgrading the
building’s air filters to the highest efficiency possible, and making other
modifications to increase the quantity of outside air and ventilation in
classrooms, offices and other spaces.

•

Take steps to ensure that all water systems and features (for example,

drinking fountains and decorative fountains) are safe to use after a
prolonged facility shutdown to minimize the risk of Legionnaires’ disease
and other diseases associated with water.

6. Implementing Distancing Inside and
Outside the Classroom
Arrival and Departure
•

Maximize space between students and between students and the driver
on school buses and open windows to the greatest extent practicable.

•

Minimize contact at school between students, staff, families and the
community at the beginning and end of the school day. Prioritize
minimizing contact between adults at all times.

•

Stagger arrival and drop off-times and locations as consistently as
practicable as to minimize scheduling challenges for families.

•

Designate routes for entry and exit, using as many entrances as feasible.
Put in place other protocols to limit direct contact with others as much
as practicable.

•

Implement health screenings of students and staff upon arrival at school
(see Section 9).

•

Ensure each bus is equipped with extra unused face coverings on school
buses for students who may have inadvertently failed to bring one.

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-7, Page 12 of 20

Classroom Space
•

To reduce possibilities for infection, students must remain in the same
space and in cohorts as small and consistent as practicable, including
for recess and lunch. Keep the same students and teacher or staff with
each group, to the greatest extent practicable.

•

Prioritize the use and maximization of outdoor space for activities where
practicable.

•

Minimize movement of students and teachers or staff as much as
practicable. For example, consider ways to keep teachers with one
group of students for the whole day. In secondary schools or in situations
where students have individualized schedules, plan for ways to reduce
mixing among cohorts and to minimize contact.

•

Maximize space between seating and desks. Distance teacher and
other staff desks at least six feet away from student desks. Consider ways
to establish separation of students through other means if practicable,
such as, six feet between desks, where practicable, partitions between
desks, markings on classroom floors to promote distancing or arranging
desks in a way that minimizes face-to-face contact.

•

Consider redesigning activities for smaller groups and rearranging
furniture and play spaces to maintain separation.

•

Staff should develop instructions for maximizing spacing and ways to
minimize movement in both indoor and outdoor spaces that are easy for
students to understand and are developmentally appropriate.

•

Activities where there is increased likelihood for transmission from
contaminated exhaled droplets such as band and choir practice and
performances are not permitted.

•

Activities that involve singing must only take place outdoors.

•

Implement procedures for turning in assignments to minimize contact.

•

Consider using privacy boards or clear screens to increase and enforce
separation between staff and students.

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-7, Page 13 of 20

Non-Classroom Spaces
•

Limit nonessential visitors, volunteers and activities involving other groups
at the same time.

•

Limit communal activities where practicable. Alternatively, stagger use,
properly space occupants and disinfect in between uses.

•

Consider use of non-classroom space for instruction, including regular
use of outdoor space, weather permitting. For example, consider partday instruction outside.

•

Minimize congregate movement through hallways as much as
practicable. For example, establish more ways to enter and exit a
campus, create staggered passing times when necessary or when
students cannot stay in one room and create guidelines on the floor that
students can follow to enable physical distancing while passing. In
addition, schools can consider eliminating the use of lockers and moving
to block scheduling, which supports the creation of cohort groups and
reduces changes of classrooms.

•

Serve meals outdoors or in classrooms instead of cafeterias or group
dining rooms where practicable. Where cafeterias or group dining
rooms must be used, keep students together in their cohort groups,
ensure physical distancing, and consider assigned seating. Serve
individually plated or bagged meals. Avoid sharing of foods and utensils
and buffet or family-style meals.

•

Consider holding recess activities in separated areas designated by
class.

Sports and Extra Curricular Activities
(Updated August 3, 2020)
•

Outdoor and indoor sporting events, assemblies, dances, rallies, field
trips, and other activities that require close contact or that would
promote congregating are not permitted at this time. For example,
tournaments, events, or competitions, regardless of whether teams are
from the same school or from different schools, counties, or states are
not permitted at this time.

•

Youth sports and physical education are permitted only when the following
can be maintained: (1) physical distancing of at least six feet; and (2) a
stable cohort, such as a class, that limits the risks of transmission (see CDC
Guidance on Schools and Cohorting). Activities should take place outside
to the maximum extent practicable.

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-7, Page 14 of 20

•

For sports that cannot be conducted with sufficient distancing or cohorting,
only physical conditioning and training is permitted and ONLY where
physical distancing can be maintained. Conditioning and training should
focus on individual skill building (e.g., running drills and body weight
resistance training) and should take place outside, where practicable.
Indoor physical conditioning and training is allowed only in counties where
gyms and fitness centers are allowed to operate indoors.

•

Avoid equipment sharing, and if unavoidable, clean and disinfect shared
equipment between use by different people to reduce the risk of COVID-19
spread.

•

Consistent with guidance for gyms and fitness facilities, cloth face coverings
must be worn during indoor physical conditioning and training or physical
education classes (except when showering). Activities that require heavy
exertion should be conducted outside in a physically distanced manner
without face coverings. Activities conducted inside should be those that do
not require heavy exertion and can be done with a face covering. Players
should take a break from exercise if any difficulty in breathing is noted and
should change their mask or face covering if it becomes wet and sticks to
the player’s face and obstructs breathing. Masks that restrict airflow under
heavy exertion (such as N-95 masks) are not advised for exercise.

•

Youth sports programs and schools should provide information to
parents or guardians regarding this and related guidance, along with
the safety measures that will be in place in these settings with which
parents or guardians must comply.

•

Activities where there is increased likelihood for transmission from
contaminated exhaled droplets such as band and choir practice and
performances are not permitted.

7. Limit Sharing
•

Keep each child’s belongings separated and in individually labeled
storage containers, cubbies or areas. Ensure belongings are taken home
each day to be cleaned.

•

Ensure adequate supplies to minimize sharing of high-touch materials (art
supplies, equipment, etc.) to the extent practicable or limit use of
supplies and equipment to one group of children at a time and clean
and disinfect between uses.

•

Avoid sharing electronic devices, clothing, toys, books and other games
or learning aids as much as practicable. Where sharing occurs, clean
and disinfect between uses.

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-7, Page 15 of 20

8. Train All Staff and Educate Families
•

Train all staff and provide educational materials to families in the
following safety actions:
o Enhanced sanitation practices
o Physical distancing guidelines and their importance
o Proper use, removal, and washing of face coverings
o Screening practices
o How COVID-19 is spread
o COVID-19 specific symptom identification
o Preventing the spread of COVID-19 if you are sick, including the
importance of not coming to work if staff members have symptoms,
or if they or someone they live with has been diagnosed with COVID19.
o For workers, COVID-19 specific symptom identification and when to
seek medical attention
o The employer’s plan and procedures to follow when children or
adults become sick at school.
o The employer’s plan and procedures to protect workers from COVID19 illness.

•

Consider conducting the training and education virtually, or, if in-person,
ensure a minimum of six-foot distancing is maintained.

9. Check for Signs and Symptoms
•

Prevent discrimination against students who (or whose families) were or
are diagnosed with COVID-19 or who are perceived to be a COVID-19
risk.

•

Actively encourage staff and students who are sick or who have
recently had close contact with a person with COVID-19 to stay home.
Develop policies that encourage sick staff and students to stay at home
without fear of reprisal, and ensure staff, students and students’ families
are aware of these policies.

•

Implement screening and other procedures for all staff and students
entering the facility.

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-7, Page 16 of 20
•

Conduct visual wellness checks of all students or establish procedures for
parents to monitor at home. If checking temperatures, use a no-touch
thermometer.

•

Ask all individuals if they or anyone in their home is exhibiting COVID-19
symptoms.

•

Make available and encourage use of hand-washing stations or hand
sanitizer.

•

Document/track incidents of possible exposure and notify local health
officials, staff and families immediately of any exposure to a positive
case of COVID-19 at school while maintaining confidentiality, as required
under FERPA and state law related to privacy of educational records.
Additional guidance can be found here. As noted in Section 11 below,
the staff liaison can serve a coordinating role to ensure prompt and
responsible notification.

•

If a student is exhibiting symptoms of COVID-19, staff should
communicate with the parent/caregiver and refer to the student’s
health history form and/or emergency card.

•

Monitor staff and students throughout the day for signs of illness; send
home students and staff with a fever of 100.4 degrees or higher, cough
or other COVID-19 symptoms.

•

Policies should not penalize students and families for missing class.

10. Plan for When a Staff Member, Child or
Visitor Becomes Sick
•

Work with school administrators, nurses and other healthcare providers to
identify an isolation room or area to separate anyone who exhibits
symptoms of COVID-19.

•

Any students or staff exhibiting symptoms should immediately be
required to wear a face covering and be required to wait in an isolation
area until they can be transported home or to a healthcare facility, as
soon as practicable.

•

Establish procedures to arrange for safe transport home or to a
healthcare facility, as appropriate, when an individual is exhibiting
COVID-19 symptoms:
o Fever
o Cough
o Shortness of breath or difficulty breathing

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-7, Page 17 of 20
o Chills
o Repeated shaking with chills
o Fatigue
o Muscle pain
o Headache
o Sore throat
o Congestion or runny nose
o Nausea or vomiting
o Diarrhea
o New loss of taste or smell
•

For serious injury or illness, call 9-1-1 without delay. Seek medical
attention if COVID-19 symptoms become severe, including persistent
pain or pressure in the chest, confusion, or bluish lips or face. Updates
and further details are available on CDC’s webpage.

•

Notify local health officials immediately of any positive case of COVID19, and exposed staff and families as relevant while maintaining
confidentiality as required by state and federal laws. Additional
guidance can be found here.

•

Close off areas used by any individual suspected of being infected with
the virus that causes COVID-19 and do not use before cleaning and
disinfection. To reduce risk of exposure, wait 24 hours before you clean
and disinfect. If it is not possible to wait 24 hours, wait as long as
practicable. Ensure a safe and correct application of disinfectants using
personal protective equipment and ventilation recommended for
cleaning. Keep disinfectant products away from students.

•

Advise sick staff members and students not to return until they have met
CDC criteria to discontinue home isolation, including at least 3 days with
no fever, symptoms have improved and at least 10 days since symptoms
first appeared.

•

Ensure that students, including students with disabilities, have access to
instruction when out of class, as required by federal and state law.

•

Schools should offer distance learning based on the unique
circumstances of each student who would be put at-risk by an in-person
instructional model. For example, students with a health condition,
students with family members with a health condition, students who
cohabitate or regularly interact with high-risk individuals, or are otherwise
identified as “at-risk” by the parents or guardian, are students whose
circumstances merit coffering distances learning.

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-7, Page 18 of 20
•

Implement the necessary processes and protocols when a school has an
outbreak, in accordance with CDPH guidelines.

•

Investigate the COVID-19 illness and exposures and determine if any
work-related factors could have contributed to risk of infection. Update
protocols as needed to prevent further cases.

•

Update protocols as needed to prevent further cases. See the CDPH
guidelines, Responding to COVID-19 in the Workplace, which are
incorporated into this guidance and contain detailed recommendations
for establishing a plan to identify cases, communicating with workers
and other exposed persons, and conducting and assisting with contact
tracing.

11. Maintain Healthy Operations
•

Monitor staff absenteeism and have a roster of trained back-up staff
where available.

•

Monitor the types of illnesses and symptoms among your students and
staff to help isolate them promptly as needed.

•

Designate a staff liaison or liaisons to be responsible for responding to
COVID-19 concerns. Workers should know who they are and how to
contact them. The liaison should be trained to coordinate the
documentation and tracking of possible exposure, in order to notify local
health officials, staff and families in a prompt and responsible manner.

•

Maintain communication systems that allow staff and families to selfreport symptoms and receive prompt notifications of exposures and
closures, while maintaining confidentiality, as required by FERPA and state
law related to privacy of educational records. Additional guidance can
be found here.

•

Consult with local health departments if routine testing is being
considered by a local educational agency. The role of providing routine
systematic testing of staff or students for COVID-19 (e.g., PCR swab testing
for acute infection, or presence of antibodies in serum after infection) is
currently unclear.

•

Support students who are at higher risk for severe illness or who cannot
safely distance from household contacts at higher risk, by providing
options such as virtual learning or independent study.

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-7, Page 19 of 20

12. Considerations for Reopening and Partial or
Total Closures
California schools have been closed for in-person instruction since mid-March
2020 due to the COVID-19 pandemic. School closures to in-person instruction
were part of a broader set of recommendations intended to reduce
transmission of SARS-CoV-2, the virus that causes COVID-19. For more detailed
direction on measures to be taken when a student, teacher, or staff member
has symptoms or is diagnosed with COVID-19, please see the COVID-19 and
Reopening Framework for K-12 Schools in California.
•

Check State and local orders and health department notices daily
about transmission in the area or closures and adjust operations
accordingly.

•

When a student, teacher or staff member tests positive for COVID-19
and had exposed others at the school, refer to the CDPH Framework for
K-12 Schools, and implement the following steps:
o In consultation with the local public health department, the
appropriate school official should ensure cleaning and quarantine of
exposed persons and whether any additional intervention is
warranted, including the length of time necessary, based on the risk
level within the specific community as determined by the local
public health officer.
o Close off the classroom or office where the patient was based and
do not use these areas until after cleaning and disinfection. Wait at
least 24 hours before cleaning and disinfecting. If 24 hours is not
feasible, wait for at least two hours and as long as possible.
o Additional areas of the school visited by the COVID-19 positive
individual may also need to be cleaned and disinfected.
o Implement communication plans for exposure at school and
potential school closures to include outreach to students,
parents, teachers, staff and the community.
o Include information for staff regarding labor laws, information
regarding Disability Insurance, Paid Family Leave and
Unemployment Insurance, as applicable to schools. See additional
information on government programs supporting sick leave and
worker’s compensation for COVID-19, including worker’s sick leave
rights under the Families First Coronavirus Response Act and
employee’s rights to workers’ compensation benefits and
presumption of the work-relatedness of COVID-19 pursuant to the
Governor’s Executive Order N-62-20, while that Order is in effect.
o Provide guidance to parents, teachers and staff reminding them of

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-7, Page 20 of 20
the importance of community physical distancing measures while
a school is closed, including discouraging students or staff from
gathering elsewhere.
o Develop a plan for continuity of education. Consider in that plan how
to also continue nutrition and other services provided in the regular
school setting to establish alternate mechanisms for these services to
continue.
o Maintain regular communications with the local public
health department.

Guidance for the ID:
Prevention
of COVID-19
Transmission
for Gatherings
Case: 20-55907, 09/21/2020,
11830259,
DktEntry:
22-8,
Page 1 of 2

9/21/2020

State of California—Health and Human
Services Agency
Sandra Shewry
Acting Director

California Department of
Public Health

GAVIN NEWSOM
Governor

September 12, 2020
TO:

All Californians

SUBJECT:

CDPH Guidance for the Prevention of COVID-19 Transmission for Gatherings

This guidance provides an updated plan for Californians to gather outside their household and replaces the March
16, 2020 gatherings guidance. It applies to public and private gatherings and other gatherings not covered by
existing sector guidance. Gatherings are defined as meetings or other events that bring together people from
di erent households at the same time in a single space, or place. When people from di erent households mix, this
increases the risk of transmission of COVID-19.
To protect public health and slow the rate of transmission of COVID-19, gatherings unless otherwise specified are
not permitted across the state of California until further guidance is issued by the California Department of Public
Health.

Background
COVID-19 continues to pose a severe risk to communities and requires all people in California to follow necessary
precautions and to adapt the way they live and function in light of this ongoing risk.
California Department of Public Health
PO Box, 997377, MS 0500, Sacramento, CA 95899-7377
Department Website (cdph.ca.gov)

Page Last Updated : September 13, 2020

EXHIBIT G
https://www.cdph.ca.gov/Programs/CID/DCDC/Pages/COVID-19/Guidance-for-the-Prevention-of-COVID-19-Transmission-for-Gatherings.aspx

1/2

9/21/2020

Guidance for the ID:
Prevention
of COVID-19
Transmission
for Gatherings
Case: 20-55907, 09/21/2020,
11830259,
DktEntry:
22-8,
Page 2 of 2

https://www.cdph.ca.gov/Programs/CID/DCDC/Pages/COVID-19/Guidance-for-the-Prevention-of-COVID-19-Transmission-for-Gatherings.aspx

2/2

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-9, Page 1 of 3

State of California—Health and Human Services Agency

California Department of Public Health
SANDRA SHEWRY, MPH, MSW
Acting Director

GAVIN NEWSOM
Governor

Statewide Public Health Officer Order,
August 28, 2020
On March 19, 2020, the State Public Health Officer issued an order directing all
individuals living in the State of California to stay at home except as needed to facilitate
authorized activities or to maintain the continuity of operations of critical infrastructure
sectors. (See March 19, 2020 Order.) The scope of activities authorized under this order
was subsequently modified in additional state public health directives. Then, consistent
with Executive Order N-60-20, the State Public Health Officer set out California’s path
forward from this “Stay-at-Home” Order in California’s Pandemic Resilience Roadmap.
That Roadmap identified four stages of the pandemic: safety and preparation (Stage 1),
reopening of lower-risk workplaces and other spaces (Stage 2), reopening of higher-risk
workplaces and other spaces (Stage 3), and finally an easing of final restrictions leading
to the end of the stay-at-home order (Stage 4). On July 13, 2020, in response to a
significant increase in the spread of COVID-19, the State Public Health Officer ordered
the statewide closure of operations in certain high-risk sectors. (See July 13, 2020
Order.) Counties on the County Monitoring List for three consecutive days were also
required to close additional indoor operations for certain sectors in order to further slow
community transmission.
Community spread of infection remains a significant concern across the state. In
addition to the impact on the general population, community spread increases the
likelihood of expanded transmission of COVID-19 in congregate settings such as
nursing homes, homeless shelters, jails and prisons. Infection of vulnerable populations
in these settings can be catastrophic. Higher levels of community spread also increase
the likelihood of infection among individuals at higher risk of serious outcomes from
COVID-19, including the elderly and those with underlying health conditions who might
live or otherwise interact with an infected individual. COVID-19 infection is also
disproportionately impacting our essential workforce. The anticipated influenza season
is likely to impose additional burdens on the healthcare delivery system, increasing
demand for space, supplies, and personnel.
The COVID-19 pandemic continues to evolve, and CDPH is continually monitoring new
scientific evidence and improving its understanding of the disease. Based on the current
state of the pandemic in California and current scientific understanding of transmission,
it is my judgment that it is appropriate to further refine the approach in order to gradually
reopen businesses and activities while reducing the risk of increased community
spread. A targeted system for sector reopenings which considers both current
epidemiological conditions and the latest understanding of transmission risk in certain
CDPH, MS 500 ● P.O. Box 997377 ● Sacramento, CA 95899-7377
(916) 558-1784
Department Website (www.cdph.ca.gov)

EXHIBIT H

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-9, Page 2 of 3

sectors will allow CDPH to monitor both counties and sectors for evidence of increased
epidemiological risk and will reduce risk as California continues to reopen its economy
and protect public health. California's Plan for Reducing COVID-19 and Adjusting
Permitted Sector Activities to Keep Californians Healthy and Safe sets forth in detail the
basis for the new Framework.
NOW, THEREFORE, I, as Acting State Public Health Officer of the State of
California, order all of the following:
1. The updated framework for reopening, which shall be known as California’s Plan
for Reducing COVID-19 and Adjusting Permitted Sector Activities to Keep
Californians Healthy and Safe, will rely on a set of Tiers corresponding to specific
epidemiological profiles based on indicators of disease burden including case
rates per capita and percent of positive covid-19 tests and proportion of testing
and other covid-19 response efforts addressing the most impacted populations
within a county. For each progressive Tier, this framework will permit a broader
range of reopening guided by risk-based criteria pertinent to each sector. I may
modify the epidemiological criteria for each Tier as well as the sectors,
businesses, establishments, or activities within the Tiers as necessary based on
the latest available public health information and research to protect public health
and safety. The up-to-date Tier profiles and those sectors, businesses,
establishments, or activities that are permitted to open in each Tier will be posted
(along with necessary modifications), at
https://www.cdph.ca.gov/Programs/CID/DCDC/Pages/COVID19/COVID19CountyMonitoringOverview.aspx.
2. Pursuant to this framework, all local health jurisdictions in the state may reopen
specified sectors according to their respective county’s Tier. However, a local
health jurisdiction that moves to a Tier permitting further reopening must pause
for 21 days, or a different period that I identify, before reopening additional
sectors.
3. Conversely, a local health jurisdiction must also close sectors according to their
respective county’s Tier consistent with the timeline and procedures set forth in
California’s Plan for Reducing COVID-19 and Adjusting Permitted Sector
Activities to Keep Californians Healthy and Safe.
4. A local health jurisdiction may continue to implement or maintain more restrictive
public health measures if the jurisdiction’s Local Health Officer determines that
health conditions in that jurisdiction warrant such measures.

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-9, Page 3 of 3

Terms of Orders
5. This order shall go into effect August 31, 2020 and shall supersede the July 13,
2020 State Public Health Officer Order.
6. This order shall remain in effect until I determine it is appropriate to modify the
order based on public health conditions.
7. I will continue to monitor the epidemiological data and will modify California’s
Plan for Reducing COVID-19 and Adjusting Permitted Sector Activities to Keep
Californians Healthy and Safe as required by the evolving public health
conditions. If I determine that it is necessary to change what will reopen or close,
or otherwise modify the Plan, these modifications will be posted at California's
Plan for Reducing COVID-19 and Adjusting Permitted Sector Activities to Keep
Californians Healthy and Safe.
8. Except to the extent this order or other state public health directives expressly
provide otherwise, all CDPH guidance continues to apply statewide.
9. All references in CDPH or other State guidance to the County Monitoring List or
the County Data Monitoring List shall refer to those counties falling within Tier 1
of California’s Plan for Reducing COVID-19 and Adjusting Permitted Sector
Activities to Keep Californians Healthy and Safe.
10. This order is issued pursuant to Health and Safety Code sections 120125,
120130(c), 120135, 120140, 120145, 120150, 120175,120195 and 131080; EO
N-60-20, N-25-20, and other authority provided for under the Emergency
Services Act; and other applicable law.

Erica S. Pan, MD, MPH
Acting State Public Health Officer
California Department of Public Health

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-10, Page 1 of 10

COVID-19
INDUSTRY
GUIDANCE:
Retail

July 29, 2020
covid19.ca.gov

EXHIBIT I

1
1

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-10, Page 2 of 10

OVERVIEW
On March 19, 2020, the State Public Health Officer and Director of the California
Department of Public Health issued an order requiring most Californians to stay at home
to disrupt the spread of COVID-19 among the population.
The impact of COVID-19 on the health of Californians is not yet fully known. Reported
illness ranges from very mild (some people have no symptoms) to severe illness that may
result in death. Certain groups, including people aged 65 or older and those with serious
underlying medical conditions, such as heart or lung disease or diabetes, are at higher
risk of hospitalization and serious complications. Transmission is most likely when people
are in close contact or in a poorly ventilated area with an infected person, even if that
person does not have any symptoms or has not yet developed symptoms.
Precise information about the number and rates of COVID-19 by industry or
occupational groups, including among critical infrastructure workers, is not available at
this time. There have been multiple outbreaks in a range of workplaces, indicating that
workers are at risk of acquiring or transmitting COVID-19 infection. Examples of these
workplaces include hospitals, long-term care facilities, prisons, food production,
warehouses, meat processing plants, and grocery stores.
As stay-at-home orders are modified, it is essential that all possible steps be taken to
ensure the safety of workers and the public.
Key prevention practices include:
✓ physical distancing to the maximum extent possible,
✓ use of face coverings by workers (where respiratory protection is not required)
and customers/clients,
✓ frequent handwashing and regular cleaning and disinfection,
✓ training workers on these and other elements of the COVID-19 prevention
plan.
In addition, it will be critical to have in place appropriate processes to identify new
cases of illness in workplaces and, when they are identified, to intervene quickly and
work with public health authorities to halt the spread of the virus.

PURPOSE
This document provides guidance for retailers to support a safe, clean environment for
workers. The guidance is not intended to revoke or repeal any worker rights, either
statutory, regulatory or collectively bargained, and is not exhaustive, as it does not
include county health orders, nor is it a substitute for any existing safety and healthrelated regulatory requirements such as those of Cal/OSHA.1 Stay current on changes
to public health guidance and state/local orders, as the COVID-19 situation continues.
Cal/OSHA has more safety and health guidance on their Cal/OSHA Guidance on
Requirements to Protect Workers from Coronavirus webpage. CDC has additional
guidance for businesses and employers and for food and grocery retailers.

2

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-10, Page 3 of 10

Required Use of Face Coverings
On June 18, CDPH issued Guidance on the Use of Face Coverings, which broadly
requires the use of face coverings for both members of the public and workers in all
public and workplace settings where there is a high risk of exposure.
People in California must wear face coverings when they are engaged in work,
whether at the workplace or performing work off-site, when:
•

Interacting in-person with any member of the public;

•

Working in any space visited by members of the public, regardless of whether
anyone from the public is present at the time;

•

Working in any space where food is prepared or packaged for sale or distribution
to others;

•

Working in or walking through common areas, such as hallways, stairways,
elevators, and parking facilities;

•

In any room or enclosed area where other people (except for members of the
person’s own household or residence) are present when unable to physically
distance;

•

Driving or operating any public transportation or paratransit vehicle, taxi, or
private car service or ride-sharing vehicle when passengers are present. When no
passengers are present, face coverings are strongly recommended.

Complete details, including all requirements and exemptions to these rules, can be
found in the guidance. Face coverings are strongly encouraged in other
circumstances, and employers can implement additional face covering requirements
in fulfilling their obligation to provide workers with a safe and healthful workplace.
Employers must provide face coverings to workers or reimburse workers for the
reasonable cost of obtaining them.
Employers should develop an accommodation policy for any worker who meets one of
the exemptions from wearing a face covering. If a worker who would otherwise be
required to wear a face covering because of frequent contact with others cannot
wear one due to a medical condition, they should be provided with a non-restrictive
alternative, such as a face shield with a drape attached to the bottom edge, if
feasible, and if the medical condition permits it.
Businesses that are open to the public should be cognizant of the exemptions to
wearing face coverings in the CDPH Face Covering Guidance and may not exclude
any member of the public for not wearing a face covering if that person is complying
with the guidance. Businesses will need to develop policies for handling these
exemptions among customers, clients, visitors, and worker
3

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-10, Page 4 of 10

Workplace Specific Plan
•

Establish a written, workplace-specific COVID-19 prevention plan at every
location, perform a comprehensive risk assessment of all work areas and
work tasks, and designate a person at each establishment to implement
the plan.

•

Incorporate the CDPH Face Covering Guidance into the Workplace
Specific Plan and include a policy for handling exemptions.

•

Identify contact information for the local health department where the
operation is located for communicating information about COVID-19
outbreaks among workers or customers.

•

Train and communicate with workers and worker representatives on the
plan and make the plan available to workers and their representatives.

•

Regularly evaluate the establishment for compliance with the plan and
document and correct deficiencies identified.

•

Investigate any COVID-19 illness and determine if any work-related
factors could have contributed to risk of infection. Update the plan as
needed to prevent further cases.

•

Implement the necessary processes and protocols when a
workplace has an outbreak, in accordance with CDPH guidelines.

•

Identify close contacts (within six feet for 15 minutes or more) of an
infected worker and take steps to isolate COVID-19 positive
worker(s) and close contacts.

•

Adhere to the guidelines below. Failure to do so could result in workplace
illnesses that may cause operations to be temporarily closed or limited.

Topics for Worker Training
•

Information on COVID-19, how to prevent it from spreading, and which
underlying health conditions may make individuals more susceptible to
contracting the virus.

•

Self-screening at home, including temperature and/or symptom checks
using CDC guidelines.

•

To seek medical attention if their symptoms become severe, including
persistent pain or pressure in the chest, confusion, or bluish lips or face.
Updates and further details are available on CDC’s webpage.
4

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-10, Page 5 of 10
•

The importance of not coming to work:
o If a worker has symptoms of COVID-19 as described by the
CDC, such as a fever or chills, cough, shortness of breath or
difficulty breathing, fatigue, muscle or body aches, headache,
new loss of taste or smell, sore throat, congestion or runny nose,
nausea, vomiting, or diarrhea, OR
o If a worker was diagnosed with COVID-19 and has not yet been
released from isolation, OR
o If, within the past 14 days, a worker has had contact with
someone who has been diagnosed with COVID-19 and is
considered potentially infectious (i.e. still on isolation).

•

To return to work after a worker receives a COVID-19 diagnosis only if
10 days have passed since symptoms first appeared, their symptoms
have improved, and the worker has had no fevers (without the use of
fever reducing medications) for the last 72 hours. A worker without
symptoms who was diagnosed with COVID-19 can return to work only
if 10 days have passed since the date of the first positive COVID-19
test.

•

The importance of frequent handwashing with soap and water,
including scrubbing with soap for 20 seconds (or using hand sanitizer
with at least 60% ethanol (preferred) or 70% isopropanol (if the
product is inaccessible to unsupervised children) when workers
cannot get to a sink or handwashing station, per CDC guidelines).

•

The importance of physical distancing, both at work and off work time
(see Physical Distancing section below).

•

Proper use of face coverings, including:
o Face coverings do not protect the wearer and are not personal
protective equipment (PPE).
o Face coverings can help protect people near the wearer, but do not
replace the need for physical distancing and frequent handwashing.
o Face coverings must cover the nose and mouth.
o Workers should wash or sanitize hands before and after using or
adjusting face coverings.
o Avoid touching the eyes, nose, and mouth.
o Face coverings must not be shared and should be washed or discarded
after each shift.

•

Information contained in the CDPH Guidance for the Use of Face
Coverings, which mandates the circumstances in which face coverings
5

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-10, Page 6 of 10
must be worn and the exemptions, as well as any policies, work rules, and
practices the employer has adopted to ensure the use of face coverings.
Training should also include the employer’s policies on how people who
are exempted from wearing a face covering will be handled.
•

Ensure any independent contractors, temporary, or contract workers at
the facility are also properly trained in COVID-19 prevention policies and
have necessary supplies and PPE. Discuss these responsibilities ahead of
time with organizations supplying temporary and/or contract workers.

•

Information on paid leave benefits the worker may be entitled to receive
that would make it financially easier to stay at home. See additional
information on government programs supporting sick leave and workers’
compensation for COVID-19, including workers’ sick leave rights under
the Families First Coronavirus Response Act and workers’ rights to workers’
compensation benefits and presumption of the work-relatedness of
COVID-19 pursuant to the Governor’s Executive Order N-62-20 while that
Order is still in effect.

Individual Control Measures and Screening
•

Provide temperature and/or symptom screenings for all workers at the
beginning of their shift and any vendors, contractors, or other workers
entering the establishment. Make sure the temperature/symptom
screener avoids close contact with workers to the extent possible.

•

If requiring self-screening at home, which is an appropriate alternative
to providing it at the establishment, ensure that screening was
performed prior to the worker leaving the home for their shift and
follows CDC guidelines, as described in the Topics for Worker Training
section above

•

Encourage workers who are sick or exhibiting symptoms of COVID-19 to
stay home.

•

Employers must provide and ensure workers use all required protective
equipment, including eye protection and gloves where necessary. This
includes protections for cashiers, baggers, and other workers with
regular and repeated interaction with customers.

•

Employers should consider where disposable glove use may be helpful
to supplement frequent handwashing or use of hand sanitizer; examples
are for workers who are screening others for symptoms or handling
commonly touched items.

•

Workers must also be provided and use protective equipment when
offloading and storing delivered goods. Workers should inspect
6

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-10, Page 7 of 10
deliveries and perform disinfection measures prior to storing goods in
warehouses and facilities when there are signs of tampering.
•

Retailers must take reasonable measures, including posting signage in
strategic and highly-visible locations, to remind the public that they
must use face coverings and practice physical distancing.

Cleaning and Disinfecting Protocols
•

Perform thorough cleaning in high traffic areas, such as break rooms,
lunch areas and areas of ingress and egress including stairways, stairwells,
escalators, handrails, and elevator controls. Frequently disinfect
commonly used surfaces, including shopping carts, baskets, conveyor
belts, registers (including self-checkout), scanners, register telephones,
hand-held devices, counters, door handles, shelving, ATM PIN pads,
customer assistance call buttons, handwashing facilities, etc.

•

Clean and sanitize shared equipment, including but not limited to,
pallet jacks, ladders, supply carts, time clocks, payment portals, and
styluses between each use.

•

Clean touchable surfaces between shifts or between users, whichever is
more frequent, including but not limited to working surfaces, tools, and
stationary and mobile equipment controls.

•

Equip customer entrances and exits, checkout stations, customer
changing rooms with proper sanitation products, including hand
sanitizer and sanitizing wipes, and provide personal hand sanitizers to
all frontline staff (e.g., cashiers).

•

Ensure that sanitary facilities stay operational and stocked at all times
and provide additional soap, paper towels, and hand sanitizer when
needed.

•

To minimize the risk of Legionnaires’ disease and other diseases
associated with water, take steps to ensure that all water systems and
features (e.g., drinking fountains, decorative fountains) are safe to
use after a prolonged facility shutdown.

•

Provide resources to promote workers’ personal hygiene. This will
include tissues, no-touch trash cans, hand soap, adequate time for
hand- washing, alcohol-based hand sanitizers, disinfectants, and
disposable towels.

•

When choosing disinfecting chemicals, employers should use
products approved for use against COVID-19 on the Environmental
Protection Agency (EPA)-approved list and follow product
instructions. Use disinfectants labeled to be effective against
7

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-10, Page 8 of 10
emerging viral pathogens, diluted household bleach solutions (5
tablespoons per gallon of water), or alcohol solutions with at least
70% alcohol that are appropriate for the surface. Provide workers
training on the chemical hazards, manufacturer’s directions,
ventilation requirements, and Cal/OSHA requirements for safe use.
Workers using cleaners or disinfectants should wear gloves and other
protective equipment as required by the product instructions. Follow
the asthma-safer cleaning methods recommended by the California
Department of Public Health and ensure proper ventilation.
•

Adjust or modify store hours to provide adequate time for regular,
thorough cleaning and product stocking. Stagger stocking so that
associates are in different aisles.

•

Provide time for workers to implement cleaning practices during their
shift. Cleaning assignments should be assigned during working hours as
part of the workers’ job duties. Procure options for third-party cleaning
companies to assist with the increased cleaning demand, as needed.

•

Install hands-free devices, if possible, including motion sensor lights,
contactless payment systems, automatic soap and paper towel
dispensers, and timecard systems.

•

Encourage the use of debit or credit cards by customers, for
example, through signage.

•

Consider installing portable high-efficiency air cleaners, upgrading
the building’s air filters to the highest efficiency possible, and making
other modifications to increase the quantity of outside air and
ventilation in offices and other spaces.

Physical Distancing Guidelines
•

Retailers should create clearly-marked curbside or outside pickup points
that maintain physical distance with visual cues or other measures, and
have purchased goods available there or available through home
delivery.

•

Implement measures to ensure physical distancing of at least six feet
between workers and customers. This can include use of physical partitions
or visual cues (e.g., floor markings, colored tape, or signs to indicate to
where workers and/or customers should stand).

•

Take measures at checkout stations to minimize exposure between
cashiers and customers, such as Plexiglas barriers.

•

Consider offering workers who request modified duties options that
minimize their contact with customers and other workers (e.g., managing
inventory rather than working as a cashier or managing administrative
8

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-10, Page 9 of 10
needs through telework).
•

Adjust in-person meetings, if they are necessary, to ensure physical
distancing and use smaller individual meetings at facilities to maintain
physical distancing guidelines.

•

Place additional limitations on the number of workers in enclosed areas to
ensure at least six feet of separation to limit transmission of the virus.

•

Stagger worker breaks, in compliance with wage and hour regulations, to
maintain physical distancing protocols.

•

Close breakrooms, use barriers, or increase distance between tables/chairs
to separate workers and discourage congregating during breaks. Where
possible, create outdoor break areas with shade covers and seating that
ensures physical distancing.

•

Close in-store bars, bulk-bin options, and public seating areas and
discontinue product sampling.

•

Dedicate shopping hours for vulnerable populations, including seniors and
those medically vulnerable, preferably at a time following a complete
cleaning.

•

Increase pickup and delivery service options for customers to help minimize
in-store contact and maintain social distancing, such as online ordering
and curbside pick- up.

•

Provide a single, clearly designated entrance and separate exit to help
maintain physical distancing where possible.

•

Adjust maximum occupancy rules based on the size of the facility to limit
the number of people in a store at one time, using no more than 50%
maximum occupancy.

•

Be prepared to queue customers outside while still maintaining physical
distance, including through the use of visual cues.

•

Encourage workers to practice physical distancing during pickup and
delivery by talking with the customer through a passenger window, loading
items directly into the customer’s trunk without contact, or leaving items at
their door.

•

Make some locations pickup- or delivery-only to minimize worker/customer
contact, where possible.

•

Install transfer-aiding materials, such as shelving and bulletin boards, to
reduce person-to-person hand-offs where possible. Wherever possible, use
contactless signatures for deliveries.

•

Expand direct store delivery window hours to spread out deliveries and
prevent overcrowding.
9

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-10, Page 10 of 10

1Additional

requirements must be considered for vulnerable populations. The retail industry must
comply with all Cal/OSHA standards and be prepared to adhere to its guidance as well as
guidance from the Centers for Disease Control and Prevention (CDC) and the California
Department of Public Health (CDPH). Additionally, employers must be prepared to alter their
operations as those guidelines change.

10

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-11, Page 1 of 19

COVID-19
INDUSTRY
GUIDANCE:
Limited Services

July 29, 2020
covid19.ca.gov

EXHIBIT J

1

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-11, Page 2 of 19

OVERVIEW
On March 19, 2020, the State Public Health Officer and Director of the California
Department of Public Health issued an order requiring most Californians to stay at home
to disrupt the spread of COVID-19 among the population.
The impact of COVID-19 on the health of Californians is not yet fully known. Reported
illness ranges from very mild (some people have no symptoms) to severe illness that may
result in death. Certain groups, including people aged 65 or older and those with serious
underlying medical conditions, such as heart or lung disease or diabetes, are at higher
risk of hospitalization and serious complications. Transmission is most likely when people
are in close contact or in a poorly ventilated area with an infected person, even if that
person does not have any symptoms or has not yet developed symptoms.
Precise information about the number and rates of COVID-19 by industry or
occupational groups, including among critical infrastructure workers, is not available at
this time. There have been multiple outbreaks in a range of workplaces, indicating that
workers are at risk of acquiring or transmitting COVID-19 infection. Examples of these
workplaces include hospitals, long-term care facilities, prisons, food production,
warehouses, meat processing plants, and grocery stores.
As stay-at-home orders are modified, it is essential that all possible steps be taken to
ensure the safety of workers and the public.
Key prevention practices include:
✓ physical distancing to the maximum extent possible,
✓ use of face coverings by workers (where respiratory protection is notrequired)
and customers/clients,
✓ frequent handwashing and regular cleaning and disinfection,
✓ training workers on these and other elements of the COVID-19 preventionplan.
In addition, it will be critical to have in place appropriate processes to identify new
cases of illness in workplaces and, when they are identified, to intervene quickly and
work with public health authorities to halt the spread of the virus.

PURPOSE
This document provides guidance for limited services which do not generally require
close customer contact. This guidance is intended to support a safe, clean environment
for workers and customers. Limited services include those businesses that can provide
services while maintaining appropriate physical distancing from customers or the public.
Examples of such businesses include laundromats, dry cleaners, other laundry services,
auto repair shops, car washes, landscapers, door to door services and sales, pet
grooming, and dog walking. Additionally, this guidance applies to those businesses for
which service provision may necessitate entry to private residences or community
2

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-11, Page 3 of 19
facilities, but physical distance can still be maintained. Those businesses include
residential and janitorial cleaning services, HVAC services, appliance repair persons,
electricians, plumbers, other mechanical tradespersons, handypersons, and general
contractors. Business owners or operators must acknowledge that lessees or
subcontractors should only resume operations when they are ready and able to
implement the necessary safety measures to provide for their safety and that of their
customers.
NOTE: This guidance is not intended for personal care, in-home healthcare, inhome care, assisted living, and personal care services that necessitate close
customer contact, including hair salons, barbershops, nail salons, massage
parlors, aestheticians and cosmetology, ear piercing salons, and tattoo parlors.
Additional guidance for such industries is available on the COVID-19 Resilience
Roadmap website.
The guidance is not intended to revoke or repeal any worker rights, either statutory,
regulatory or collectively bargained, and is not exhaustive, as it does not include
county health orders, nor is it a substitute for any existing safety and health-related
regulatory requirements such as those of Cal/OSHA.1 Stay current on changes to public
health guidance and state/local orders, as the COVID-19 situation continues. Cal/OSHA
has more comprehensive guidance on their Cal/OSHA General Guidelines on
Protecting Workers from COVID-19 webpage. CDC has additional requirements in their
guidance for businesses and employers.

Required Use of Face Coverings
On June 18, CDPH issued Guidance on the Use of Face Coverings, which broadly
requires the use of face coverings for both members of the public and workers in all
public and workplace settings where there is a high risk of exposure.
People in California must wear face coverings when they are engaged in work,
whether at the workplace or performing work off-site, when:
•

Interacting in-person with any member of the public;

•

Working in any space visited by members of the public, regardless of whether
anyone from the public is present at the time;

•

Working in any space where food is prepared or packaged for sale or distribution
to others;

•

Working in or walking through common areas, such as hallways, stairways,
elevators, and parking facilities;

•

In any room or enclosed area where other people (except for members of the
person’s own household or residence) are present when unable to physically
3

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-11, Page 4 of 19
distance;
•

Driving or operating any public transportation or paratransit vehicle, taxi, or
private car service or ride-sharing vehicle when passengers are present. When no
passengers are present, face coverings are strongly recommended.

Complete details, including all requirements and exemptions to these rules, can be
found in the guidance. Face coverings are strongly encouraged in other
circumstances, and employers can implement additional face covering requirements
in fulfilling their obligation to provide workers with a safe and healthful workplace.
Employers must provide face coverings to workers or reimburse workers for the
reasonable cost of obtaining them.
Employers should develop an accommodation policy for any worker who meets one of
the exemptions from wearing a face covering. If a worker who would otherwise be
required to wear a face covering because of frequent contact with others cannot
wear one due to a medical condition, they should be provided with a non-restrictive
alternative, such as a face shield with a drape attached to the bottom edge, if
feasible, and if the medical condition permits it.
Businesses that are open to the public should be cognizant of the exemptions to
wearing face coverings in the CDPH Face Covering Guidance and may not exclude
any member of the public for not wearing a face covering if that person is complying
with the guidance. Businesses will need to develop policies for handling these
exemptions among customers, clients, visitors, and workers.

4

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-11, Page 5 of 19

Workplace Specific Plan
•

Establish a written, workplace-specific COVID-19 prevention plan at every
location, perform a comprehensive risk assessment of all work areas and
work tasks, and designate a person at each establishment to implement
the plan.

•

Incorporate the CDPH Face Covering Guidance into the Workplace
Specific Plan and include a policy for handling exemptions.

•

Identify contact information for the local health department where the
operation is located for communicating information about COVID-19
outbreaks among workers or customers.

•

Train and communicate with workers and worker representatives on the
plan and make the plan available to workers and their representatives.

•

Regularly evaluate the establishment for compliance with the plan and
document and correct deficiencies identified.

•

Investigate any COVID-19 illness and determine if any work-related
factors could have contributed to risk of infection. Update the plan as
needed to prevent further cases.

•

Implement the necessary processes and protocols when a
workplace has an outbreak, in accordance with CDPH guidelines.

•

Identify close contacts (within six feet for 15 minutes or more) of an
infected worker and take steps to isolate COVID-19 positive
worker(s) and close contacts.

•

Adhere to the guidelines below. Failure to do so could result in workplace
illnesses that may cause operations to be temporarily closed or limited.

Topics for Worker Training
•

Information on COVID-19, how to prevent it from spreading, and which
underlying health conditions may make individuals more susceptible to
contracting the virus.

•

Self-screening at home, including temperature and/or symptom checks
using CDC guidelines.

•

The importance of not coming to work:
o If a worker has symptoms of COVID-19 as described by the
5

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-11, Page 6 of 19
CDC, such as a fever or chills, cough, shortness of breath or
difficulty breathing, fatigue, muscle or body aches, headache,
new loss of taste or smell, sore throat, congestion or runny nose,
nausea, vomiting, or diarrhea, OR
o If a worker was diagnosed with COVID-19 and has not yet been
released from isolation, OR
o If, within the past 14 days, a worker has had contact with
someone who has been diagnosed with COVID-19 and is
considered potentially infectious (i.e. still on isolation).
•

To return to work after a worker receives a COVID-19 diagnosis only if
10 days have passed since symptoms first appeared, their symptoms
have improved, and the worker has had no fevers (without the use of
fever reducing medications) for the last 72 hours. A worker without
symptoms who was diagnosed with COVID-19 can return to work only
if 10 days have passed since the date of the first positive COVID-19
test.

•

To seek medical attention if their symptoms become severe, including
persistent pain or pressure in the chest, confusion, or bluish lips or face.
Updates and further details are available on CDC’s webpage.

•

The importance of frequent handwashing with soap and water,
including scrubbing with soap for 20 seconds (or using hand sanitizer
with at least 60% ethanol (preferred) or 70% isopropanol (if the product
is inaccessible to unsupervised children) when workers cannot get to a
sink or handwashing station, per CDC guidelines).

•

The importance of physical distancing, both at work and off work time
(see Physical Distancing section below).

•

Proper use of face coverings, including:
o Face coverings do not protect the wearer and are not personal
protective equipment (PPE).
o Face coverings can help protect people near the wearer, but do not
replace the need for physical distancing and frequent handwashing.
o Face coverings must cover the nose and mouth.
o Workers should wash or sanitize hands before and after using or
adjusting face coverings.
o Avoid touching the eyes, nose, and mouth.
o Face coverings must not be shared and should be washed or discarded
after each shift.

•

Information contained in the CDPH Guidance for the Use of Face
6

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-11, Page 7 of 19
Coverings, which mandates the circumstances in which face coverings
must be worn and the exemptions, as well as any policies, work rules, and
practices the employer has adopted to ensure the use of face coverings.
Training should also include the employer’s policies on how people who
are exempted from wearing a face covering will be handled.
•

Ensure any independent contractors, temporary, or contract workers at
the facility are also properly trained in COVID-19 prevention policies and
have necessary supplies and PPE. Discuss these responsibilities ahead of
time with organizations supplying temporary and/or contract workers.

•

Information on paid leave benefits the worker may be entitled to
receive that would make it financially easier to stay at home. See
additional information on government programs supporting sick leave
and workers’ compensation for COVID-19, including workers’ sick leave
rights under the Families First Coronavirus Response Act and workers’
rights to workers’ compensation benefits and presumption of the workrelatedness of COVID-19 pursuant to the Governor’s Executive Order N62-20 while that Order is in effect.

•

Mechanical tradespeople that work near plumbing vents, HVAC exhaust,
or other type of exhaust fans must be informed that exhaust air could
contain the virus that causes COVID-19 if infected persons are in the
residence or building.

•

Mechanical tradespeople that work on sewage, plumbing, and custodial
or janitorial services must be informed that the virus that causes COVID-19
has been found in the feces of some persons with COVID-19.

Individual Control Measures and Screening
•

Provide temperature and/or symptom screenings for all workers at the
beginning of their shift and any vendors, contractors, or other workers
entering the establishment. Make sure the temperature/symptom
screener avoids close contact with workers to the extent possible.

•

If requiring self-screening at home, which is an appropriate alternative to
providing it at the establishment, ensure that screening was performed
prior to the worker leaving the home for their shift and follows CDC
guidelines, as described in the Topics for Worker Training section above.

•

Encourage workers who are sick or exhibiting symptoms of COVID-19 to
stay home.

•

Employers must provide and ensure workers use all required protective
equipment, including eye protection and gloves where necessary.

•

Employers should consider where disposable glove use may be helpful to
7

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-11, Page 8 of 19
supplement frequent handwashing or use of hand sanitizer; examples are
for workers who are screening others for symptoms or handling commonly
touched items.
•

Mechanical tradespeople working near plumbing vents and rooftop
HVAC exhaust, or other types of exhaust fans in residences and buildings,
must be provided and use a face shield and a NIOSH-approved
particulate respirator. If respirators are not available, an ASTM-rated
surgical mask must be used.

•

Mechanical tradespeople working on sewage plumbing must be
provided and use a face shield and an impermeable face cover. If the
work may disperse sewage droplets into the air (such as sewer drain
snaking), a NIOSH-approved particulate respirator, if available, is
required.

•

Employers must take reasonable measures, including posting signage
in strategic and highly-visible locations, to remind the public that they
must use face coverings and practice physical distancing.

Cleaning and Disinfecting Protocols
•

Perform thorough cleaning in high traffic areas such as reception areas,
waiting rooms and lobbies, front desk check-in areas, break rooms and
lunch areas, changing areas, and areas of ingress and egress including
stairways, stairwells, and handrails. Frequently disinfect commonly used
surfaces including credit card terminals, counters, door handles, light
switches, phones, toilets, and handwashing facilities.

•

Regularly clean and sanitize shared equipment, including but not limited
to time clocks, landline phones, handles, hoses, spray nozzles, washers
and dryers, any machinery or tools, and any other equipment between
each use or when it is transferred to a new customer or worker.

•

Avoid sharing phones, tablets, laptops, desks, pens, other work supplies,
wherever possible. Never share PPE.

•

All dirty linens should be placed in a covered, non-porous container and
washed at a high temperature and cleaned in accordance with CDC
guidelines. All properly cleaned linens should be stored in closed cabinet
or covered shelving until used. Ensure workers performing this function
have the proper protective equipment.

•

Provide time for workers to implement cleaning practices during their
shift. Cleaning assignments should be assigned during working hours as
part of the workers’ job duties.

•

Ensure that sanitary facilities stay operational and stocked at all times
8

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-11, Page 9 of 19
and provide additional soap, paper towels, and hand sanitizer when
needed. Provide additional sanitary facilities, where feasible, if several
workers need to use the restroom at the same time, e.g., during
scheduled breaks.
•

To minimize the risk of Legionnaires’ disease and other diseases
associated with water, take steps to ensure that all water systems
and features are safe to use after a prolonged facility shutdown.

•

Place signage in workspace and common areas, including lobbies,
waiting rooms, and reception areas, emphasizing basic infection
prevention measures, including posting hand-washing signs in restrooms.

•

When choosing disinfecting chemicals, employers should use products
approved for use against COVID-19 on the Environmental Protection
Agency (EPA)-approved list and follow product instructions. Use
disinfectants labeled to be effective against emerging viral pathogens,
diluted household bleach solutions (5 tablespoons per gallon of water),
or alcohol solutions with at least 70% alcohol that are appropriate for the
surface. Provide workers training on the chemical hazards,
manufacturer’s directions, ventilation requirements, and Cal/OSHA
requirements for safe use. Workers using cleaners or disinfectants should
wear gloves and other protective equipment as required by the product
instructions. Follow the asthma-safer cleaning methods recommended
by the California Department of Public Health and ensure proper
ventilation.

•

Discontinue the use of shared food and beverage equipment in worker
breakrooms (including shared coffee brewers).

• Where possible, do not clean floors by sweeping or other methods
that can disperse pathogens into the air. Use a vacuum with a HEPA
filter wherever possible.
•

Consider installing portable high-efficiency air cleaners, upgrading the
building’s air filters to the highest efficiency possible, and making other
modifications to increase the quantity of outside air and ventilation in all
working areas.

Physical Distancing Guidelines
•

Implement measures to ensure physical distancing of at least six feet
between and among workers and customers. This can include use of
physical partitions or visual cues (e.g., floor markings, colored tape, or
signs to indicate to where workers and/or customers should stand).

•

Take measures at customer service desks or other areas where physical
9

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-11, Page 10 of 19
distancing cannot be maintained to minimize exposure between workers
and customers, such as Plexiglas or other barriers.
•

Consider offering workers who request modified duties options that
minimize their contact with customers and other workers (e.g.,
managing inventory rather or managing administrative needs
through telework).

•

If feasible and appropriate for the business, implement an appointment
system to help with scheduling and reduce walk-in customers. Consider
staggering appointments to reduce reception or waiting area
congestion.

•

Consider entry queuing systems that do not disrupt foot traffic or violate
physical distancing requirements. Any area where customers or workers
queue should be clearly marked for appropriate physical distancing.
Alternate entry requirements to facilities should be developed and could
include digital reservations for entry and pre-order guidelines.

•

Implement strategies that encourage customers to stay in their cars or
outside the business or residence, where possible. This could include “nocontact” pick-up or delivery processes or curbside payment. Designate
drop-off or pick-up locations away from high traffic areas.

•

Provide clearly designated entrances and separate exits to help
maintain physical distancing and direct foot traffic, if possible. Wherever
possible, doors should be left open if they do not open and close
automatically.

•

Stagger shifts, split or rotate work schedules, and stagger worker
breaks, in compliance with wage and hour regulations, to minimize
worker overlap and maintain physical distancing protocols.

•

Reconfigure reception and waiting areas, lobbies, workstations, and
worker breakrooms, if possible, to allow for at least six feet of distance
between customers and workers.

•

Discourage workers from congregating in high traffic areas such as
bathrooms, hallways, passageways, credit card terminals, etc.

•

Establish directional hallways and passageways for foot traffic, if possible,
to eliminate customers and workers from passing by one another.

•

Require workers to avoid handshakes and similar greetings that break
physical distance.

•

Hold meetings over the phone or via webinar for workers wherever
possible. When not possible, adjust staff meetings to ensure physical
distancing and use smaller individual meetings at facilities to maintain
physical distancing guidelines.
10

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-11, Page 11 of 19
•

Place additional limitations on the number of workers in enclosed areas
to ensure at least six feet of separation to limit transmission of the virus.

•

Close breakrooms, use barriers, or increase distance between
tables/chairs to separate workers and discourage congregating during
breaks. Where possible, create outdoor break areas with shade coverings
and seating that ensures physical distancing.

Additional Considerations for Services that
Require Entry to Residential, Commercial, or
Public Buildings
•

Workers who must enter private residences or commercial or public
buildings to complete their work should be provided personal hand
sanitizer, which should be replenished or restocked by the employer as
needed.

•

Contact customers in advance, ideally the day before the
appointment is scheduled, to confirm the appointment and ask if any
member of the household or personnel on-site is exhibiting any
symptoms, has been sick or is currently sick, or whether anyone on the
premises has been exposed to someone who has been sick. If the
customer answers in the affirmative for any of those questions,
reschedule the appointment at least 10 to 14 days in the future.

•

During the advance call, request customers use face coverings during
the appointment and emphasize the importance of maintaining a safe
distance of at least six feet from the worker entering the residence or
building.

•

Develop a process workflow with questions and talking points for workers
to use upon arrival on-site to identify suspected COVID-19 concerns. The
workflow should give workers the flexibility to gauge the situation and
determine whether they can safely enter the residence or building.

•

Allow workers to call a “safety stop” when they are reluctant to enter a
residence or building due to unsafe or unhealthy work conditions related
to COVID-19 hazards. During such situations, workers should call a
supervisor, if feasible, and discuss what work is essential to complete
immediately and proper precautions to take. Based on an evaluation of
the circumstances, supervisors should inform workers if they should not
enter the residence, avoiding workers feeling pressured to make the
ultimate decision. Workers should also be able to make that
determination themselves without fear of reprisal or retaliation.

•

Limit exposure for workers who must enter private residences or buildings
11

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-11, Page 12 of 19
by implementing virtual customer service support or service provision,
wherever possible. This could include self-install/repair strategies through
phone consultations or support through video calls and instruction videos,
if possible.
•

When working in a private residence, workers should minimize contact
with customers’ personal belongings. Similarly, in commercial or public
buildings, workers should limit their interaction in the facility and avoid
touching surfaces where possible. Where possible, appliances or other
items the worker must touch should be cleaned with disinfecting wipes
prior to and after the service is performed.

•

Conduct virtual safety briefings weekly, or as needed, prior to workers
going on service calls and develop internal communications that can be
regularly updated on the use of protective equipment and other
mitigation requirements.

•

After completion of work at a residence or building, workers must
remove all PPE and face coverings and wash their hands and face.
Face coverings must be washed before being reused.

Considerations for Homeowners and Building
Residents
•

Homeowners and residents must postpone all non-emergency, in-home
services if there are any COVID-19 positive persons, persons with COVID19 symptoms, or persons under quarantine in the residence.

•

For emergency service repairs, homeowners and residents should inform
workers of any COVID-19 positive persons, persons with COVID-19
symptoms, or persons under quarantine in the residence and take
measures to minimize exposure risks to any person entering the home.
These include:
o Airing out the residence if weather permits.
o Cleaning and disinfecting surfaces in areas where the service person
may work or need to access.
o Maintaining physical distancing of at least six feet when letting the
service worker into the home.
o Wearing face coverings at all times during the visit, unless
unable to per the exemption criteria in the CDPH face
coverings guidelines.
o Staying out of the area where the repair person is working.
12

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-11, Page 13 of 19

Additional Considerations for Those Limited
Services That Operate Out of Vehicles
•

All work trucks and vehicles must have hand sanitizer available and all
workers should sanitize their hands when arriving on-site.

•

Provide workers with an adequate supply of materials required to clean
and disinfect frequently touched surfaces of the delivery vehicle. Provide
lined trash receptacles to be placed in delivery vehicles to properly
dispose of disinfectant wipes and other items.

•

Clean and disinfect the cabs of work trucks and vehicles, including
dashboard controls, steering wheel, gear shift, handles, etc., as well as
other touch points on the vehicle such as handles and latches.

•

Where alternatives to physical contact with delivery-related items cannot
be avoided, workers should wipe down and disinfect equipment, pens,
clipboards, and electronic signature pads after each use when shared
with customers while performing a delivery. Touch pads and punch keys
on terminals such as card readers or handheld digital devices must be
cleaned and disinfected after every transaction.

•

Workers should limit contact with frequently touched surfaces during
deliveries, such as doorbells or door handles. If possible, avoid contact
with hands or bare skin when opening doors.

•

Communicate to workers where they can access soap, clean running
water, and drying materials, and provide alcohol-based hand
sanitizers; adjust schedules to build in time for frequent handwashing.

•

For workers who make service calls, normally accessible restrooms on
routes (e.g., restaurants, coffee shops) may be closed. Employers should
provide workers alternative restroom locations and allow time for
workers to use them.

•

Guidelines for delivery services are available on the COVID-19 Resilience
Roadmap website.

13

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-11, Page 14 of 19

Additional Considerations for Auto Repair
Shops
•

Minimize or eliminate use of shared equipment and tools. If tools are
shared, sanitize between each use, according to CDC guidelines.
Sanitize all tools daily after the work day ends.

•

Allow for customers to drop off and pick up vehicles after hours using a
“night drop” box or slot to limit personal contact and consider allowing
use of a drop box style system during working hours.

•

Request customers to wear face coverings when dropping off the vehicle
and interacting with workers. Request that customers remove personal
items from the vehicle. Customers should be asked not to bring children
or others with them during the vehicle drop-off.

•

Discontinue any customer pick-up or drop-off services and ensure
customers know that they are responsible for their own travel to and from
the repair shop.

•

Clean touchable surfaces regularly, including tools, handles and latches,
and controls on stationary and mobile equipment.

•

If a tow truck or other company vehicle is frequently shared amongst
workers, thoroughly clean the surfaces in the cab whenever a new driver
uses the vehicle.

•

Disinfect keys, key fobs, and the vehicle before and after servicing a

•

Communicate with customers via text, email, or phone to provide
estimates and get repair authorizations. Implement digital vehicle
inspections, where possible, to identify service needs and provide
estimates.

•

Consider closing waiting rooms or lounges. If that’s not possible, waiting
rooms or lounges should be reconfigured so that physical distancing can
be maintained, this could include taping off chairs or benches that
should not be used or removing furniture from the room.

•

Amenities, including magazines, books, coffee, water, self-serve stations
(unless touchless), and other items for customers, must be removed from
waiting or lounges to help reduce touch points and customer
interactions.

customer’s vehicle. Wipe down all surfaces and controls touched by the driver
or technician.

14

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-11, Page 15 of 19

Additional Considerations for Car Washing
Operations
•

Regularly clean payment terminals, vacuum hoses, bay guns, wash
selector equipment, vending machines, and cleaning machines
and high traffic areas like waiting rooms or lounges.

•

Consider requiring customers to make reservations for in-person services
that are not automated, e.g. detailing.

•

Request customers to bring and use face coverings during the
appointment and ask that customers remove personal items from the
vehicle. Customers should be asked not to bring children or others with
them for the service.

•

Vehicles should be ventilated with a blower and air should be
recirculated through the vehicle before workers clean them to
minimize exposure to air that might contain contaminants.

•

Limit interior vehicle cleaning to one worker at a time.

•

Ensure vacuum nozzles are cleaned after every use.

•

Customers should line up in their cars at facilities with automated car
washing and not exit the vehicle.

•

For self-serve car wash operations, remove dirty towels or cloth wipes
after each customer interaction. Place them in a closed container where
they cannot be used again until properly laundered either by a
commercial laundering service or a laundering process which includes
immersion in water of at least 160 degrees Fahrenheit for at least 25
minutes. Store all clean linens in a clean, covered place. Ensure workers
who handle dirty linens or laundry wear gloves. Close every other
vacuum stall, if necessary, to maintain physical distancing.

•

For self-service car washes, provide disposable gloves for customers to
use when handling hoses, wands, vacuum hoses and other cleaning
devices. Frequently clean and disinfect these surfaces.

•

Consider closing waiting rooms or lounges. If that’s not possible, waiting
rooms or lounges should be reconfigured so that physical distancing can
be maintained, this could include taping off chairs or benches that
should not be used or removing furniture from the room.

•

Amenities, including magazines, books, coffee, water, self-serve stations,
and other items for customers, must be removed from waiting or lounges
to help reduce touch points and customer interactions.

15

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-11, Page 16 of 19

Additional Considerations for Cleaning and
Janitorial Services
•

Minimize or eliminate use of shared equipment and tools. If tools are
shared, sanitize between each use, according to CDC guidelines.
Sanitize all tools daily after the work day ends.

•

Janitorial or custodial workers must be told if they are going to be
working in a location where an infected person has been so they
can takethe necessary precautions to protect themselves and can
provide needed cleaning and disinfecting services.

•

Any area where an infected person has been must be ventilated,
according to Table 1 in the Guidelines for Preventing the Transmission of
Mycobacterium Tuberculosis at 99.9% removal efficiency before
workers can enter.

•

If janitorial or custodial workers are asked to disinfect an area with known
COVID-19 confirmed cases, they must not start operations until the
employer has provided the proper protective equipment and hazard
training, or a refresher training.

•

Make sure all workers have been trained to use and have an adequate
supply of all-purpose cleaners and disinfectants, when needed. Follow
the complete CDC guidelines for cleaning and disinfection.

•

Follow Cal/OSHA requirements and manufacturer instructions for safe use
and required personal protective equipment for cleaning products.

•

Workers should have enough ventilation (air flow) in areas where they are
disinfecting. If cleaning in a bathroom or other small space, make sure
the door is propped open. Follow the safer cleaning methods
recommended by the California Department of Health Services.

•

Workers should be supplied with bandages or other items to cover any
cuts, scratches, or open wounds on skin and have sufficient supply to
change the bandages often.

•

Customers must be reminded to maintain six feet of distance from
janitorial or custodial staff. Implement a process to regularly check in with
workers to ensure customers are following this protocol. Ensure workers
are able to share such information without fear of reprisal or retaliation.

16

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-11, Page 17 of 19

Additional Considerations for Pet Grooming
and Dog Walking
•

Pet grooming services should evaluate their existing cleaning and
sanitation protocols and determine what additional hygiene and
cleaning measures should be implemented. All items and equipment,
including tables, baths, and grooming tools, should be thoroughly
cleaned and disinfected between each pet appointment.

•

Pet grooming services should require customers to make reservations for
in-person services and walk-in appointments should be suspended.
Appointments should be staggered, where feasible, to limit customer
interactions.

•

Pet grooming services should require pets be dropped off for their
appointment through a contactless process instead of hand-to-hand
delivery, when possible. This could include curbside check-in and pickup, where feasible.

•

Pets should be transferred to and from their grooming services with slip
leads owned by the pet grooming facility. The pet grooming facility
should not handle anything belonging to pets, including collars and
leashes.

•

To help keep six feet of distance between people at all possible times,
place tape on the grooming room floors and in areas indicating where
customers should stand and where groomers can walk. Pet groomers
should be instructed to maintain a distance of at least six feet between
themselves and any person, including fellow groomers.

•

Limit the total number of groomers in the grooming facility, consistent with
physical distancing requirements, instructing groomers to work at every
other table and limit only one groomer at a time in the pet bathing area.

•

Dog walking services should establish protocols to ensure customers
cancel their dog walking service if any person in the household has
been diagnosed with COVID-19 or is sick or exhibiting any symptoms.

•

Dog walking services should maintain regular contact with customers to
ask about any such issues if not told by the customer in advance. If the
dog walker or pet owner has any COVID-19 symptoms, has been sick, or
has been exposed to someone who has, dog walking services should be
cancelled.

•

Dog walkers and pet owners should keep their interactions limited. If
unable to discuss important pet care details virtually, in-person interaction
17

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-11, Page 18 of 19
must be short and a six-foot distance throughout any conversation must
be maintained.
•

Dog walkers and pet owners should practice contactless hand-offs. The
pet owner should make all efforts to allow the dog walker to let
themselves in and all essential materials should be left near the door.

•

If a lead hand-off is necessary, keep the interaction quick and wash
hands after or use proper hand sanitizer.

•

When the pet owner is not home, they should make sure the pet is easily
accessible and should gate the pet near the entry area whenever
possible.

•

If the pet owner is dropping the dog off at the dog walker’s residence,
the dog walker should ensure the drop-off occurs at the home’s door
or, in a multi-family building, an established common area, preferably
outdoors.

•

When possible, the dog walker should bring and use their own lead and
disposable waste bags. Clean and sanitize all materials, including leads,
food containers, water, and food bowls before and after a walk.

Additional Considerations for Landscaping
and Yard Maintenance Services
•

Minimize or eliminate use of shared equipment and tools. If tools are
shared, sanitize between each use, according to CDC guidelines.
Sanitize all tools daily after the work day ends.

•

Avoid contact with touch points at the jobsite, such as gate handles, and
ensure any employer-provided equipment is disinfected before use
(mowers, hoses, etc.).

•

Whenever possible, workers should drive separately to job sites, only one
person per vehicle, unless a vehicle is large enough to maintain social
distancing.

•

If workers meet at a central location and travel to job site in companyowned vehicles, assign one truck to one crew and do not rotate the
vehicle. The vehicle cab and all touch points should be cleaned at the
end of each work day.

•

Eliminate customer contact whenever possible. When customers are
present, maintain six-foot social distance at all times. Announce yourself
by phone instead of ringing the doorbell. Take payment over the
phone or online, if possible.
18

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-11, Page 19 of 19

Additional Considerations for Laundromats,
Dry Cleaning, and Other Laundry Services
•

This guidance does not include product handling hazards in laundromats
that process biologically contaminated laundry from health care
institutions. Additional requirements apply to those facilities.

•

All garments should be handled using extra precautions. Garments
should be brought in a sealed bag and left sealed for at least 24 hours
and handled as little as possible.

•

Workers should avoid shaking the garments once they are removed
from the bag. Workers should wear disposable gloves and wash
hands before wearing and after removing them.

•

Disinfect counters, pay terminals, and other commonly touched items
between each customer visit.

•

Limit the total number of customers in laundromats to ensure physical
distancing can be maintained. This could also require that some
washing and drying machines are made inoperable to ensure customers
have adequate distance when using the machines.

•

If linens are to be transported on routes, any containers used to transport
clean linens, if previously used for soiled linens, must be properly cleaned
and disinfected. Containers need to be labeled appropriately.

1Additional

requirements must be considered for vulnerable populations. Limited service
providers must comply with all Cal/OSHA standards and be prepared to adhere to its guidance
as well as guidance from the Centers for Disease Control and Prevention (CDC) and the
California Department of Public Health (CDPH). Additionally, employers should be prepared to
alter their operations as those guidelines change.

19

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-12, Page 1 of 9

COVID-19
INDUSTRY
GUIDANCE:
Logistics and
Warehousing
Facilities

July 29, 2020
covid19.ca.gov

EXHIBIT K

1

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-12, Page 2 of 9

OVERVIEW
On March 19, 2020, the State Public Health Officer and Director of the California
Department of Public Health issued an order requiring most Californians to stay at
home to disrupt the spread of COVID-19 among the population.
The impact of COVID-19 on the health of Californians is not yet fully known. Reported
illness ranges from very mild (some people have no symptoms) to severe illness that
may result in death. Certain groups, including people aged 65 or older and those with
serious underlying medical conditions, such as heart or lung disease or diabetes, are at
higher risk of hospitalization and serious complications. Transmission is most likely when
people are in close contact or in a poorly ventilated area with an infected person,
even if that person does not have any symptoms or has not yet developed symptoms.
Precise information about the number and rates of COVID-19 by industry or
occupational groups, including among critical infrastructure workers, is not available
at this time. There have been multiple outbreaks in a range of workplaces, indicating
that workers are at risk of acquiring or transmitting COVID-19 infection. Examples of
these workplaces include hospitals, long-term care facilities, prisons, food production,
warehouses, meat processing plants, and grocery stores.
As stay-at-home orders are modified, it is essential that all possible steps be taken to
ensure the safety of workers and the public.
Key prevention practices include:
✓ physical distancing to the maximum extent possible,
✓ use of face coverings by workers (where respiratory protection is not
required) and customers/clients,
✓ frequent handwashing and regular cleaning and disinfection,
✓ training workers on these and other elements of the COVID-19 prevention
plan.
In addition, it will be critical to have in place appropriate processes to identify new
cases of illness in workplaces and, when they are identified, to intervene quickly and
work with public health authorities to halt the spread of the virus.

PURPOSE
This document provides guidance for businesses operating in the logistics/warehousing
industry to support a safe, clean environment for workers. The guidance is not
intended to revoke or repeal any worker rights, either statutory, regulatory or
collectively bargained, and is not exhaustive, as it does not include county health
orders, nor is it a substitute for any existing safety and health-related regulatory
requirements such as those of Cal/OSHA.1 Stay current on changes to public health
guidance and state/local orders, as the COVID-19 situation continues. Cal/OSHA has
more safety and health guidance on their Cal/OSHA COVID-19 Infection Prevention
for Logistics Employers and Workers webpage. CDC has additional requirements in
their guidance for businesses and employers and specific guidance for mail and
parcel delivery.
2

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-12, Page 3 of 9

Required Use of Face Coverings
On June 18, CDPH issued Guidance on the Use of Face Coverings, which broadly
requires the use of face coverings for both members of the public and workers in all
public and workplace settings where there is a high risk of exposure.
People in California must wear face coverings when they are engaged in work,
whether at the workplace or performing work off-site, when:
•

Interacting in-person with any member of the public;

•

Working in any space visited by members of the public, regardless of whether
anyone from the public is present at the time;

•

Working in any space where food is prepared or packaged for sale or
distribution to others;

•

Working in or walking through common areas, such as hallways, stairways,
elevators, and parking facilities;

•

In any room or enclosed area where other people (except for members of the
person’s own household or residence) are present when unable to physically
distance;

•

Driving or operating any public transportation or paratransit vehicle, taxi, or
private car service or ride-sharing vehicle when passengers are present. When
no passengers are present, face coverings are strongly recommended.

Complete details, including all requirements and exemptions to these rules, can be
found in the guidance. Face coverings are strongly encouraged in other
circumstances, and employers can implement additional face covering
requirements in fulfilling their obligation to provide workers with a safe and healthful
workplace. Employers must provide face coverings to workers or reimburse workers
for the reasonable cost of obtaining them.
Employers should develop an accommodation policy for any worker who meets one
of the exemptions from wearing a face covering. If a worker who would otherwise be
required to wear a face covering because of frequent contact with others cannot
wear one due to a medical condition, they should be provided with a non-restrictive
alternative, such as a face shield with a drape attached to the bottom edge, if
feasible, and if the medical condition permits it.
Businesses that are open to the public should be cognizant of the exemptions to
wearing face coverings in the CDPH Face Covering Guidance and may not exclude
any member of the public for not wearing a face covering if that person is complying
with the guidance. Businesses will need to develop policies for handling these
exemptions among customers, clients, visitors, and workers.

3

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-12, Page 4 of 9

Worksite Specific Plan
•

Establish a written, worksite-specific COVID-19 prevention plan at every
facility, perform a comprehensive risk assessment of all work areas and
work tasks, and designate a person at each facility to implement the
plan.

•

Incorporate the CDPH Face Covering Guidance into the Workplace
Specific Plan and include a policy for handling exemptions.

•

Identify contact information for the local health department where the
facility is located for communicating information about COVID-19
outbreaks among workers.

•

Train and communicate with workers and worker representatives on
the plan and make the plan available to workers and their
representatives.

•

Regularly evaluate the workplace for compliance with the plan and
document and correct deficiencies identified.

•

Investigate any COVID-19 illness and determine if any work-related
factors could have contributed to risk of infection. Update the plan as
needed to prevent further cases.

•

Implement the necessary processes and protocols when a workplace
has an outbreak, in accordance with CDPH guidelines.

•

Identify close contacts (within six feet for 15 minutes or more) of an
infected worker and take steps to isolate COVID-19 positive worker(s)
and close contacts.

•

Adhere to the guidelines below. Failure to do so could result in
workplace illnesses that may cause operations to be temporarily
closed or limited.

Topics for Worker Training
•

Information on COVID-19, how to prevent it from spreading, and which
underlying health conditions may make individuals more susceptible to
contracting the virus.

•

Self-screening at home, including temperature and/or symptom
checks using CDC guidelines.

•

The importance of not coming to work:

4

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-12, Page 5 of 9
o If a worker has symptoms of COVID-19 as described by the CDC,
such as a fever or chills, cough, shortness of breath or difficulty
breathing, fatigue, muscle or body aches, headache, new loss of
taste or smell, sore throat, congestion or runny nose, nausea,
vomiting, or diarrhea, OR
o If a worker was diagnosed with COVID-19 and has not yet been
released from isolation, OR
o If, within the past 14 days, a worker has had contact with someone
who has been diagnosed with COVID-19 and is considered
potentially infectious (i.e. still on isolation).
•

To return to work after a worker receives a COVID-19 diagnosis only if
10 days have passed since symptoms first appeared, their symptoms
have improved, and the worker has had no fevers (without the use of
fever reducing medications) for the last 72 hours. A worker without
symptoms who was diagnosed with COVID-19 can return to work only if
10 days have passed since the date of the first positive COVID-19 test.

•

To seek medical attention if their symptoms become severe, including
persistent pain or pressure in the chest, confusion, or bluish lips or face.
Updates and further details are available on CDC’s webpage.

•

The importance of frequent handwashing with soap and water,
including scrubbing with soap for 20 seconds (or using hand sanitizer
with at least 60% ethanol (preferred) or 70% isopropanol (if the product
is inaccessible to unsupervised children) when workers cannot get to a
sink or handwashing station, per CDC guidelines).

•

The importance of physical distancing, both at work and off work time
(see Physical Distancing section below).

•

Proper use of face coverings, including:
o Face coverings do not protect the wearer and are not personal
protective equipment (PPE).
o Face coverings can help protect people near the wearer, but do
not replace the need for physical distancing and frequent
handwashing.
o Face coverings must cover the nose and mouth.
o Workers should wash or sanitize hands before and after using or
adjusting face coverings.
o Avoid touching eyes, nose, and mouth.
o Face coverings must not be shared and should be washed or
discarded after each shift.
5

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-12, Page 6 of 9

•

Information contained in the CDPH Guidance for the Use of Face
Coverings, which mandates the circumstances in which face
coverings must be worn and the exemptions, as well as any policies,
work rules, and practices the employer has adopted to ensure the use
of face coverings. Training should also include the employer’s policies
on how people who are exempted from wearing a face covering will
be handled.

•

Ensure independent contractors, temporary, or contract workers at the
facility are also properly trained in COVID-19 prevention policies and
have necessary supplies and PPE. Discuss these responsibilities ahead
of time with organizations supplying temporary and/or contract
workers.

•

Information on paid leave benefits the worker may be entitled to
receive that would make it financially easier to stay at home. See
additional information on government programs supporting sick leave
and worker’s compensation for COVID- 19, including workers’ sick
leave rights under the Families First Coronavirus Response Act and
workers’ rights to workers’ compensation benefits and presumption of
the work-relatedness of COVID-19 pursuant to the Governor’s Executive
Order N-62-20 while that order is in effect.

Individual Control Measures and
Screening
•

Provide temperature and/or symptom screenings for all workers at the
beginning of their shift and any vendors, contractors, or other workers
entering the establishment. Make sure the temperature/symptom
screener avoids close contact with workers to the extent possible.

•

If requiring self-screening at home, which is an appropriate alternative
to providing it at the establishment, ensure that screening was
performed prior to the worker leaving the home for their shift and
follows CDC guidelines, as described in the Topics for Worker Training
section above.

•

Encourage workers who are sick or exhibiting symptoms of COVID-19
to stay home.

•

Employers must provide and ensure workers use all required protective
equipment, including eye protection and gloves where necessary.

•

Employers should consider where disposable glove use may be helpful
to supplement frequent handwashing or use of hand sanitizer;
6

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-12, Page 7 of 9
examples are for workers who are screening others for symptoms or
handling commonly touched items.

Cleaning and Disinfecting Protocols
•

Perform thorough cleaning in high traffic areas such as break rooms,
lunch areas, and changing areas, and areas of ingress and egress
including stairways and stairwells, handrails, elevator controls.
Frequently disinfect commonly used surfaces, including tables,
amenities, doorknobs, toilets, and handwashing facilities.

•

Clean touchable surfaces between shifts or between users, whichever
is more frequent, including but not limited to working surfaces,
machinery, tools, equipment, shelves, storage rooms, handles, latches
and locks, and controls on stationary and mobile equipment.

•

Require workers to wash hands or use sanitizer between use of shared
equipment, such as time clocks and forklifts, and allow work time to do
so. Avoid sharing phones, other work tools, or equipment wherever
possible. Never share PPE.

•

Clean delivery vehicles and equipment before and after delivery,
carry additional sanitation materials during deliveries, and use clean
personal protective equipment for each delivery stop.

•

For delivery drivers, normally accessible restrooms on routes (e.g.,
restaurants, coffee shops) may be closed. Employers should provide
workers alternative restroom locations and allow time for workers to
use them.

•

Provide time for workers to implement cleaning practices during
their shift. Cleaning assignments should be assigned during working
hours as part of the worker’s job duties.

•

Ensure that sanitary facilities stay operational and stocked at all
times and provide additional soap, paper towels, and hand
sanitizer when needed. Provide additional sanitary facilities
(portable toilets and handwashing stations) if necessary and
practical.

•

Stagger breaks if feasible to ensure physical distancing and the
chance to clean restrooms frequently.

•

When choosing disinfecting chemicals, employers should use products
approved for use against COVID-19 included on the Environmental
Protection Agency (EPA)-approved list and follow product instructions.
Use disinfectants labeled to be effective against emerging viral
pathogens, diluted household bleach solutions (5 tablespoons per
7

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-12, Page 8 of 9
gallon of water), or alcohol solutions with at least 70% alcohol that are
appropriate for the surface. Provide workers training on the chemical
hazards, manufacturer’s directions, ventilation requirements, and
Cal/OSHA requirements for safe use. Workers using cleaners or
disinfectants should wear gloves as required by the product instructions.
Follow the asthma-safer cleaning methods recommended by the
California Department of Public Health and ensure proper ventilation.
•

Workers should be provided and use protective equipment when
offloading and storing delivered goods. Workers should inspect
deliveries and perform disinfection measures prior to storing goods
in warehouses and facilities when deliveries appear tampered
with.

•

Where possible, do not clean floors by sweeping or other methods
that can disperse pathogens into the air. Use a vacuum with a HEPA
filter wherever possible.

•

Consider installing portable high-efficiency air cleaners, upgrading the
building’s air filters to the highest efficiency possible, and making other
modifications to increase the quantity of outside air and ventilation in
work and break areas.

Physical Distancing Guidelines
• Implement measures to ensure physical distancing of at least six feet
between workers, including transportation personnel. These can
include use of physical partitions or visual cues such as floor markings,
colored tape, or signs to indicate to where workers should stand.
• Minimize transaction time between warehouse workers and
transportation personnel. Perform gate check-ins and paperwork
digitally if feasible.
• Reconfigure workspaces and shared outdoor spaces to allow for at
least six feet between workers.
• Consider offering workers who request modified duties options that
minimize their contact with customers and other workers (e.g.,
managing administrative needs through telework).
• Use the following hierarchy to prevent transmission of COVID-19 in work
areas especially where physical distancing is difficult to maintain:
engineering controls, administrative controls, and PPE.
o Engineering controls include creating physical or spatial barriers
between workers such as Plexiglas or other sturdy and
impermeable partitions.
8

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-12, Page 9 of 9
o Administrative controls include increasing the number of shifts to
reduce the number of personnel present at one time and ensure
adequate physical distancing.
o PPE includes face shields, some types of masks, and impermeable
gloves. Note that some disposable equipment such as respirators
are prioritized for health care workers and workers that handle
pathogens and should not otherwise be used.
• Adjust safety and other meetings to ensure physical distance and
conduct smaller individual meetings at facilities to maintainphysical
distancing guidelines.
• Utilize work practices, when feasible, to limit the number of workers on
the jobsite at one time. This may include scheduling (e.g., staggering
shift start/end times) or rotating crew access to a designated area
during a shift. Stage the jobsite to stagger work and limit overlap of
work crews.
• Place additional limitations on the number of workers in enclosed
areas, where six feet of separation may not be sufficient to limit
transmission of the virus.
• Stagger worker breaks, in compliance with wage and hour regulations,
to maintain physical distancing protocols.
• Close breakrooms, use barriers, or increase distance between
tables/chairs to separate workers and discourage congregating during
breaks. Where possible, create outdoor break areas with shade covers
and seating that ensures physical distancing.
• Close common areas where personnel are likely to congregate and
interact (e.g., kitchenettes, break rooms, etc.). Discourage workers
from congregating in high traffic areas.

1Additional

requirements must be considered for vulnerable populations. The logistics and
warehousing industry must comply with all Cal/OSHA standards and be prepared to adhere
to its guidance as well as guidance from the Centers for Disease Control and Prevention
(CDC) and the California Department of Public Health (CDPH). Additionally, employers must
be prepared to alter their operations as those guidelines change.

9

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-13, Page 1 of 13

COVID-19
INDUSTRY
GUIDANCE:
Family Entertainment
Centers

July 29, 2020
All guidance should be implemented
only with county health officer approval
following their review of local
epidemiological data including cases
per 100,000 population, rate of test
positivity, and local preparedness to
support a health care surge, vulnerable
populations, contact tracing, and
testing.

EXHIBIT L

1

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-13, Page 2 of 13

OVERVIEW
On March 19, 2020, the State Public Health Officer and Director of the California
Department of Public Health issued an order requiring most Californians to stay at
home to disrupt the spread of COVID-19 among the population.
The impact of COVID-19 on the health of Californians is not yet fully known. Reported
illness ranges from very mild (some people have no symptoms) to severe illness that
may result in death. Certain groups, including people aged 65 or older and those with
serious underlying medical conditions, such as heart or lung disease or diabetes, are
at higher risk of hospitalization and serious complications. Transmission is most likely
when people are in close contact or in a poorly ventilated area with an infected
person, even if that person does not have any symptoms or has not yet developed
symptoms.
Precise information about the number and rates of COVID-19 by industry or
occupational groups, including among critical infrastructure workers, is not available
at this time. There have been multiple outbreaks in a range of workplaces, indicating
that workers are at risk of acquiring or transmitting COVID-19 infection. Examples of
these workplaces include hospitals, long-term care facilities, prisons, food production,
warehouses, meat processing plants, and grocery stores.
As stay-at-home orders are modified, it is essential that all possible steps be taken
to ensure the safety of workers and the public.
Key prevention practices include:
✓ physical distancing to the maximum extent possible,
✓ use of face coverings by workers (where respiratory protection is not
required) and customers/clients,
✓ frequent handwashing and regular cleaning and disinfection,
✓ training workers on these and other elements of the COVID-19 prevention
plan.
In addition, it will be critical to have in place appropriate processes to identify
new cases of illness in workplaces and, when they are identified, to intervene
quickly and work with public health authorities to halt the spread of the virus.

PURPOSE
This document provides guidance for family entertainment center operators to
support a safe, clean environment for workers and customers. Examples of such
businesses include bowling alleys, miniature golf, batting cages, arcades, and movie
theaters.
NOTE: This guidance is not intended for ice rinks, roller rinks, laser tag arenas,
etc., where guests are less able to maintain physical distancing of at least six
2

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-13, Page 3 of 13
feet, where a central part of the activity is circulating in the space, and which
can accommodate a large number of guests who are mainly from different
households. It is not intended for amusement, theme, or water parks; however,
these types of parks that have stand-alone bowling alleys, miniature golf,
arcades, movie theaters, etc., may open those operations provided they
adhere to applicable state and local guidance and keep other attractions
closed including amusement park rides. Discontinue demonstrations, such as
magic, live animal shows etc., unless physical distancing and sanitation
protocols can be met. Family entertainment centers with convention space,
rentable meeting rooms, other areas for private events such as birthday
parties, etc., should keep those areas closed until such activities are allowed to
resume modified or full operation through a specific reopening order and
guidance. Family entertainment centers with restaurants, bars, coffee shops,
gift shops, museums and interactive exhibits, etc., should refer to guidance on
such industries as it becomes available on the COVID-19 Resilience Roadmap
website.
Even with adherence to physical distancing, convening in a setting bringing
multiple different households to engage in the same activity carries a
relatively higher risk for widespread transmission of the COVID-19 virus, and
may result in increased rates of infection, hospitalization, and death,
especially among more vulnerable populations.
*Movie theaters must therefore limit attendance to 25% of theater capacity or
a maximum of 100 attendees, whichever is lower. The California Department
of Public Health, in consultation with county Departments of Public Health, will
review and assess the impact of these imposed limits on public health and
provide further direction as part of a phased-in restoration of leisure activities.
This guidance is not intended to revoke or repeal any worker rights, either statutory,
regulatory or collectively bargained, and is not exhaustive, as it does not include
county health orders, nor is it a substitute for any existing safety and health-related
regulatory requirements such as those of Cal/OSHA.1 Stay current on changes to
public health guidance and state/local orders, as the COVID-19 situation continues.
Cal/OSHA has more comprehensive guidance on their Cal/OSHA General Guidelines
on Protecting Workers from COVID-19 webpage. CDC has additional requirements in
their guidance for businesses and employers.

Required Use of Face Coverings
On June 18, CDPH issued Guidance on the Use of Face Coverings, which broadly
requires the use of face coverings for both members of the public and workers in all
public and workplace settings where there is a high risk of exposure.

3

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-13, Page 4 of 13
People in California must wear face coverings when they are engaged in work,
whether at the workplace or performing work off-site, when:
•

Interacting in-person with any member of the public;

•

Working in any space visited by members of the public, regardless of whether
anyone from the public is present at the time;

•

Working in any space where food is prepared or packaged for sale or
distribution to others;

•

Working in or walking through common areas, such as hallways, stairways,
elevators, and parking facilities;

•

In any room or enclosed area where other people (except for members of the
person’s own household or residence) are present when unable to physically
distance;

•

Driving or operating any public transportation or paratransit vehicle, taxi, or
private car service or ride-sharing vehicle when passengers are present. When
no passengers are present, face coverings are strongly recommended.

Complete details, including all requirements and exemptions to these rules, can be
found in the guidance. Face coverings are strongly encouraged in other
circumstances, and employers can implement additional face covering requirements
in fulfilling their obligation to provide workers with a safe and healthful workplace.
Employers must provide face coverings to workers or reimburse workers for the
reasonable cost of obtaining them.
Employers should develop an accommodation policy for any worker who meets one of
the exemptions from wearing a face covering. If a worker who would otherwise be
required to wear a face covering because of frequent contact with others cannot
wear one due to a medical condition, they should be provided with a non-restrictive
alternative, such as a face shield with a drape attached to the bottom edge, if
feasible, and if the medical condition permits it.
Businesses that are open to the public should be cognizant of the exemptions to
wearing face coverings in the CDPH Face Covering Guidance and may not exclude
any member of the public for not wearing a face covering if that person is complying
with the guidance. Businesses will need to develop policies for handling these
exemptions among customers, clients, visitors, and workers.

4

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-13, Page 5 of 13

Workplace Specific Plan
•

Establish a written, workplace-specific COVID-19 prevention plan at every
facility, perform a comprehensive risk assessment of all work areas and
work tasks, and designate a person at each facility to implement the
plan.

•

Incorporate the CDPH Face Covering Guidance into the Workplace
Specific Plan and include a policy for handling exemptions.

•

Identify contact information for the local health department where the
facility is located, for communicating information about COVID-19
outbreaks among workers.

•

Train and communicate with workers and worker representatives on the
plan and make the plan available to workers and their representatives.

•

Regularly evaluate the facility for compliance with the plan and
document and correct deficiencies identified.

•

Investigate any COVID-19 illness and determine if any work-related factors
could have contributed to risk of infection. Update the plan as needed to
prevent further cases.

•

Implement the necessary processes and protocols when a workplace has
an outbreak, in accordance with CDPH guidelines.

•

Identify close contacts (within six feet for 15 minutes or more) of an
infected worker and take steps to isolate COVID-19 positive worker(s) and
close contacts.

•

Adhere to the guidelines below. Failure to do so could result in workplace
illnesses that may cause operations to be temporarily closed or limited.

Topics for Worker Training
•

Information on COVID-19, how to prevent it from spreading, and which
underlying health conditions may make individuals more susceptible to
contracting the virus.

•

Self-screening at home, including temperature and/or symptom checks
using CDC guidelines.

•

The importance of not coming to work:
o If a worker has symptoms of COVID-19 as described by the CDC, such
5

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-13, Page 6 of 13
as a fever or chills, cough, shortness of breath or difficulty breathing,
fatigue, muscle or body aches, headache, new loss of taste or smell,
sore throat, congestion or runny nose, nausea, vomiting, or diarrhea,
OR
o If a worker was diagnosed with COVID-19 and has not yet been
released from isolation, OR
o If, within the past 14 days, a worker has had contact with someone
who has been diagnosed with COVID-19 and is considered
potentially infectious (i.e. still on isolation).
•

To return to work after a worker receives a COVID-19 diagnosis only if 10
days have passed since symptoms first appeared, their symptoms have
improved, and the worker has had no fevers (without the use of fever
reducing medications) for the last 72 hours. A worker without symptoms
who was diagnosed with COVID-19 can return to work only if 10 days
have passed since the date of the first positive COVID-19 test.

•

To seek medical attention if their symptoms become severe, including
persistent pain or pressure in the chest, confusion, or bluish lips or face.
Updates and further details are available on CDC’s webpage.

•

The importance of frequent handwashing with soap and water, including
scrubbing with soap for 20 seconds (or using hand sanitizer with at least
60% ethanol (preferred) or 70% isopropanol (if the product is inaccessible
to unsupervised children) when workers cannot get to a sink or
handwashing station, per CDC guidelines).

•

The importance of physical distancing, both at work and off work time
(see Physical Distancing section below).

•

Proper use of face coverings, including:
o Face coverings do not protect the wearer and are not personal
protective equipment (PPE).
o Face coverings can help protect people near the wearer, but do not
replace the need for physical distancing and frequent handwashing.
o Face coverings must cover the nose and mouth.
o Workers should wash or sanitize hands before and after using or
adjusting face coverings.
o Avoid touching the eyes, nose, and mouth.
o Face coverings must not be shared and should be washed or
discarded after each shift.

•

Information contained in the CDPH Guidance for the Use of Face
6

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-13, Page 7 of 13
Coverings, which mandates the circumstances in which face coverings
must be worn and the exemptions, as well as any policies, work rules, and
practices the employer has adopted to ensure the use of face coverings.
Training should also include the employer’s policies on how people who
are exempted from wearing a face covering will be handled.
•

Ensure any independent contractors, temporary, or contract workers at
the facility are also properly trained in COVID-19 prevention policies and
have necessary supplies and PPE. Discuss these responsibilities ahead of
time with organizations supplying temporary and/or contract workers.

•

Information on paid leave benefits the worker may be entitled to receive
that would make it financially easier to stay at home. See additional
information on government programs supporting sick leave and worker’s
compensation for COVID- 19, including workers’ sick leave rights under
the Families First Coronavirus Response Act and the Governor’s Executive
Order N-51-20, and workers’ rights to workers’ compensation benefits and
presumption of the work-relatedness of COVID-19 pursuant to the
Governor’s Executive order N-62-20 while that Order is in effect.

Individual Control Measures and Screening
•

Provide temperature and/or symptom screenings for all workers at the
beginning of their shift and any vendors, contractors, or other workers
entering the establishment. Make sure the temperature/symptom
screener avoids close contact with workers to the extent possible.

•

If requiring self-screening at home, which is an appropriate alternative to
providing it at the establishment, ensure that screening was performed
prior to the worker leaving the home for their shift and follows CDC
guidelines, as described in the Topics for Worker Training section above.

•

Encourage workers and visitors who are sick or exhibiting symptoms of
COVID-19 to stay home.

•

Employers must provide and ensure workers use all required protective
equipment, including eye protection and gloves where necessary.

•

Employers should consider where disposable glove use may be helpful to
supplement frequent handwashing or use of hand sanitizer; examples are
for workers who are screening others for symptoms or handling commonly
touched items. Workers should wear gloves when handling items
contaminated by body fluids.

•

Employers must take reasonable measures, including posting signage in
strategic and highly-visible locations and in reservation confirmations, to
remind the public that they must use face coverings and practice
physical distancing, and should frequently wash their hands with soap for
7

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-13, Page 8 of 13
at least 20 seconds, use hand sanitizer, and not touch their face.
•

Remind guests in advance to bring a face covering and make them
available to anyone who arrives without one, if possible.

•

Guests and visitors should be temperature and/or symptom screened
upon arrival, asked to use hand sanitizer, and to bring and wear a face
covering when not eating or drinking.

•

Display a set of clearly visible rules for customers and personnel at
entrance(s) that are to be a condition of entry. The rules could include
instructions to use hand sanitizer, maintain physical distance from other
customers, avoid unnecessary touching of surfaces, contact information
for the local health department, and changes to services. Whenever
possible, the rules should be available digitally, include pictograms, etc.

Cleaning and Disinfecting Protocols
•

Perform thorough cleaning in high traffic areas such as customer waiting
areas and lobbies, worker break rooms, etc., and areas of ingress and
egress, including stairways and elevator banks. Frequently disinfect
commonly used surfaces, including counters, credit card machines,
touchscreens, buttons, doorknobs, armrests, toilets, hand washing
facilities, coin-operated and redemption games, vending machines, etc.

•

Disinfect rented or shared items before issuing to and when returning from
customer use, including bowling balls, golf balls, putters, writing
implements, bats, shoes, helmets, etc. Close self-service item selection
areas for games or activities, such as bowling balls on accessible racks,
and provide these items to customers individually.

•

Provide hand sanitizer dispensers throughout activity areas, lobbies, and
service areas, for use by customers and workers. Hand sanitizer should be
available for customers to use when activity items come into contact with
shared surfaces (e.g., golf balls and golf cups, bowling balls and return
machinery, etc.). Encourage guests to wash hands and/or use hand
sanitizer often while using equipment and items. Remind members of the
public (with signs and/or verbally) not to touch their eyes, nose, and
mouth. Consider providing disposable gloves at each activity area for use
by members of the public. Make available a means of disposal at each
location where gloves are provided.

•

Provide disposable or single-use items whenever possible. This could
include scorecards, pencils, 3D glasses, etc. If disposable replacements
cannot be provided, properly disinfect items before and after customer
use.

•

Thoroughly clean and disinfect each customer activity area after every
8

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-13, Page 9 of 13
use. This can include disinfecting tables, chairs, booster seats, booths,
touch screens, etc. Allow adequate time for proper disinfection, following
product instructions. Environmental Protection Agency-approved
disinfectants require a minimum contact time (seconds to minutes) to be
effective against human coronavirus.
•

Regularly clean and disinfect surfaces shared by workers between shifts or
between users, whichever is more frequent, including but not limited to
working surfaces, time clocks, copy machines, keys, cleaning equipment,
gaming machinery, etc. Avoid sharing equipment such as phones,
tablets, office machinery, and tools wherever possible. Never share PPE.

•

Provide time for workers to implement cleaning practices during their shift.
Cleaning assignments should be assigned during working hours as part of
the employee’s job duties.

•

Equip terminals, desks, and help counters with proper sanitation products,
including hand sanitizer and disinfectant wipes, and provide personal
hand sanitizers to all staff directly assisting customers.

•

Ensure that sanitary facilities stay operational and stocked at all times and
provide additional soap, paper towels, and hand sanitizer when needed.

•

Provide resources to promote employees’ personal hygiene. This will
include tissues, no-touch trash cans, hand soap, adequate time for
handwashing, alcohol-based hand sanitizers, disinfectant wipes, and disposable
towels.

•

When choosing disinfecting chemicals, employers should use products
approved for use against COVID-19 on the Environmental Protection
Agency (EPA)-approved list and follow product instructions. Use
disinfectants labeled to be effective against emerging viral pathogens,
diluted household bleach solutions (5 tablespoons per gallon of water), or
alcohol solutions with at least 70% alcohol that are appropriate for the
surface. Provide workers training on the chemical hazards, manufacturer’s
directions, ventilation requirements, and Cal/OSHA requirements for safe
use. Workers using cleaners or disinfectants should wear gloves and other
protective equipment as required by the product instructions. Follow the
asthma-safer cleaning methods recommended by the California
Department of Public Health and ensure proper ventilation.

•

To minimize the risk of Legionnaires’ disease and other diseases
associated with water, take steps to ensure that all water systems and
features (e.g., drinking fountains, decorative fountains) are safe to use
after a prolonged facility shutdown.

•

Adjust or modify facility hours to provide adequate time for regular
thorough cleaning.

•

Install and encourage the use of credit cards and hands-free devices, if
9

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-13, Page 10 of 13
possible, including motion sensor lights, contactless payment systems,
automatic soap and paper towel dispensers, and timecard systems.
•

Inspect deliveries and take all necessary and feasible disinfection
measures when receiving goods.

•

Where possible, do not clean floors by sweeping or other methods that
can disperse pathogens into the air. Use a vacuum with a HEPA filter
wherever possible.

•

Consider installing portable high-efficiency air cleaners, upgrading the
building’s air filters to the highest efficiency possible, and making other
modifications to increase the quantity of outside air and ventilation in
offices and other spaces.

Physical Distancing Guidelines
•

Adjust maximum occupancy rules to limit the number of people at family
entertainment centers as appropriate to support physical distancing.

•

Limit customer groups to a household unit. People from the same
household do not need to be six feet apart.

•

Close ball pits, foam pits, indoor playgrounds, climbing structures,
enclosed bounce houses, etc., in accordance with CDC guidelines, as
these areas promote congregation and are difficult to properly disinfect
between uses.

•

Family entertainment centers with prize redemption counters, gift shops,
etc., should refer to and follow the guidelines for retail available on the
COVID-19 webpage.

•

Family entertainment centers that offer food and drink concessions should
encourage customers to order online or over the phone, whenever
possible, and make items available for counter pick-up. Use visual cues to
ensure customers maintain physical distances of at least six feet while
waiting in line. Install impermeable barriers at concession counters, if
possible.

•

Install physical, impermeable barriers or partitions between game,
seating, and other types of activity areas to minimize exposure between
customers. If this is not possible, discontinue activity areas from use (using
visual cues, removing items, etc.) so that customers can maintain at least
six feet of distance at all times. Employers should take into consideration
whether an activity may cause a customer to require additional space
and make modifications to ensure adequate physical distances.

•

Implement timed and/or advanced reservation ticketing systems and
10

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-13, Page 11 of 13
pre-assigned seating or activity areas, whenever possible, to stagger
customer visits and help maintain physical distances. Ask visitors to wait in
their vehicle until their reservation time and to arrive and leave in a single
group to minimize crossflow of visitors and staff.
•

Dedicate staff to manage movement of customers when activities could
bring people within six feet of distance from each other, such as ushering
customers to seats, preventing congregation in bottleneck areas, limiting
groups from playing through courses, etc.

•

Implement measures to ensure physical distancing of at least six feet
between people, such as when customers are waiting in line. This can
include use of physical partitions or visual cues (e.g., floor markings or
signs to indicate to where workers and customers/visitors should stand).

•

Install impermeable barriers where physical distancing cannot be
maintained to minimize exposure between workers and customers.

•

All workers should minimize the amount of time spent within six feet of
guests.

•

Designate separate routes for entry and exit into facilities, activity areas,
seating areas, work areas, etc., if possible, to help maintain physical
distancing and lessen the instances of people closely passing each other.
Establish one-way directional hallways and passageways for foot traffic, if
possible, to eliminate workers and guests from passing by one another.

•

Consider offering workers who request modified duties options that
minimize their contact with customers and other workers (e.g., managing
inventory rather than working as a cashier or managing administrative
needs through telework).

•

Reconfigure workspaces, if possible, to allow for six feet between workers.
Hold smaller meetings at facilities to maintain physical distancing
guidelines and consider holding meetings outside or via online platforms
or telephone.

•

Close or limit access to breakrooms, use barriers, or increase distance
between tables/chairs to separate workers and discourage congregating
during breaks. Where possible, create outdoor break areas with shade
coverings and seating arrangements that ensures physical distancing.

•

Place additional limitations on the number of workers in enclosed areas,
such as supply rooms and counter areas, to ensure at least six feet of
separation to limit transmission of the virus.

•

Stagger worker breaks, in compliance with wage and hour regulations, to
maintain physical distancing protocols.

•

Redesign parking lots to limit congregation points and ensure proper
11

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-13, Page 12 of 13
separation (e.g., every other space, contactless payment, etc.)

Additional Considerations for Indoor Movie
Theaters
•

Limit the number of attendees in each theater to 25% of theater capacity
or a maximum of 100 attendees, whichever is lower.

•

Implement a reservation system to limit the number of attendees entering
the theater at a time whenever possible. Designate arrival times as part of
reservations, if possible, so that customers arrive at and enter the theater
in staggered groups.

•

Establish directional entry and exit into theaters where possible.

•

Reconfigure, close, or otherwise remove seats from use to ensure physical
distancing of at least six feet between attendees. This may require seating
every other row or blocking off or removing seats in a “checkerboard” style
(use each row but make sure no one is directly behind other patrons) so that
distances are maintained in all directions. Members of the same household may
be seated together but should maintain at least six feet of distance from other
households.

•

Dedicate staff to help people maintain distances before and after
screenings. This could include ushering to seats prior to the start of a show
and dismissing customers in an orderly fashion to reduce the crossflow of
traffic or crowding in exit rows.

•

Consider using disposable or washable seat covers in theaters, particularly
on porous surfaces that are difficult to properly clean. Discard and
replace seat covers between each use.

•

Prop or hold doors open during peak periods when attendees are
entering and exiting facilities, if possible and in accordance with security
and safety protocols.

•

Consider limiting the number of people that use the restroom at one time
to allow for physical distancing.

•

Reconfigure parking lots to limit congregation points and ensure proper
separation (e.g., closing every other space).

Additional Considerations for Drive-In Movie
Theaters
12

Case: 20-55907, 09/21/2020, ID: 11830259, DktEntry: 22-13, Page 13 of 13
•

Reconfigure parking spaces to ensure that vehicles have at least six feet
of distance between them.

•

Each vehicle may only be occupied by members of the same household
who have already been in close contact with each other. If not utilizing
restroom facilities or picking up concessions, patrons must remain in their
vehicles. Patrons cannot sit outside of their vehicles, e.g., to view a drivein movie near their vehicle.

•

Ensure regular cleaning and disinfecting of on-site restrooms.

•

Cashless and touchless transactions systems are preferred wherever
possible. If available, orders, reservations and payments for the drive-in
business should be made in advance online or over the phone.

•

Drive-in movie theater concessions should be ordered online or over the
phone, if possible, and be available for curbside pick-up. Walk-up
concession services should be available for pick-up of pre-ordered items.
If pre-ordering items is not possible, ensure that customers maintain proper
physical distancing when waiting to order food items.

•

Drive-in movie theaters should suspend double-feature offerings avoid the
need for intermissions.

1 Additional

requirements must be considered for vulnerable populations. Employers must
comply with all Cal/OSHA standards and be prepared to adhere to its guidance as well as
guidance from the Centers for Disease Control and Prevention (CDC) and the California
Department of Public Health (CDPH). Additionally, employers must be prepared to alter their
operations as those guidelines change.

13

No. 20A_________

IN THE SUPREME COURT OF THE UNITED STATES

HARVEST ROCK CHURCH, INC.; HARVEST INTERNATIONAL MINISTRY,
INC., itself and on behalf of its member Churches in California,
Applicants,
v.
GAVIN NEWSOM,
in his official capacity as Governor of the State of California,
Respondent.

To the Honorable Elena Kagan,
Associate Justice of the Supreme Court of the United States
and Circuit Justice for the Ninth Circuit

EXHIBIT G

Mathew D. Staver (Counsel of Record)
Horatio G. Mihet
Roger K. Gannam
Daniel J. Schmid
LIBERTY COUNSEL
P.O. Box 540774
Orlando, FL 32853
(407) 875-1776
court@LC.org |hmihet@LC.org
rgannam@LC.org | dschmid@LC.org
Counsel for Applicants

Case 2:20-cv-06414-JGB-KK Document 41 Filed 08/11/20 Page 1 of 5 Page ID #:640

1
2
3
4
5
6
7
8
9
10
11
12
13

Nicolai Cocis, CA Bar No. 204703
nic@cocislaw.com
Law Office of Nicolai Cocis
25026 Las Brisas Road
Murrieta, CA 92562
(951) 695-1400 (phone/facsimile)
Mathew D. Staver*
court@LC.org
Horatio G. Mihet*
hmihet@LC.org
Roger K. Gannam*
rgannam@LC.org
Daniel J. Schmid*
dschmid@LC.org
Liberty Counsel
P.O. Box 540774
Orlando, FL 32854
(407) 875-1776
(407) 875-0770 (facsimile)
Attorneys for Plaintiffs
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
LOS ANGELES DIVISION

14
15
16
17
18
19

Case No. 2:20-cv-06414-JGB-KK

HARVEST ROCK CHURCH, INC., and
HARVEST INTERNATIONAL
MINISTRY, INC., itself and on behalf
of its member churches in California,

NOTICE OF FILING
DECLARATION OF CHE AHN
SUPPLEMENTING
THE RECORD FOR
PLAINTIFFS’ MOTION FOR
PRELIMINARY INJUNCTION

20

Plaintiffs,

21
22

v.

23

GAVIN NEWSOM,
in his official capacity as
Governor of the State of California,

24
25
26

The Honorable Jesus G. Bernal
Hearing: August 12, 2020
2:00 PM PDT

Defendant.

27
28

1

Case 2:20-cv-06414-JGB-KK Document 41 Filed 08/11/20 Page 2 of 5 Page ID #:641

1

NOTICE to All Counsel of Record:

2

On this 11th day of August, 2020, Plaintiffs filed a Declaration of Pastor Che

3

Ahn, Pastor of Harvest Rock Church, Inc., Supplementing the Record for Plaintiffs’

4

Motion for Preliminary Injunction and authenticating a Letter from the Planning and

5

Community Development Department, Code Enforcement Division, for the City of

6

Pasadena, received by Harvest Rock Church, Inc. on August 11, 2020.
1.

7

On July 17, 2020, Plaintiffs filed the above-captioned cause in this Court,

8

filing a Verified Complaint for Temporary Restraining Order, Preliminary and

9

Permanent Injunctive Relief, Declaratory Relief, and Damages (dkt. 1), and a Notice of

10

Motion and Motion for Temporary Restraining Order and Preliminary Injunction. (Dkt.

11

4).

12

2.

On July 20, 2020, this Court denied Plaintiffs’ Motion to the temporary

13

restraining order, and set a briefing schedule on Plaintiffs’ Motion as to a preliminary

14

injunction, with Defendants’ response due on August 3, 2020.

15

3.

On August 3, 2020, the Governor filed his Opposition to Plaintiffs’ Motion

16

for Temporary Restraining Order (dkt. 31, “Opposition”). In his Opposition, the

17

Governor contended that Plaintiffs are not entitled to any injunctive relief because they

18

have not presented any evidence that the government in California is attempting to

19

enforce the Governor’s COVID-19 Executive Orders and California Public Health

20

Directives. (Dkt. 31, Opposition at 16-17).

21

4.

As Plaintiffs pointed out in their Reply in Support of Motion for

22

Preliminary Injunction (dkt. 37), actual enforcement is not a prerequisite in the First

23

Amendment context, as the mere existence of the power to enforce an unconstitutional

24

restriction on free speech is sufficient to warrant injunctive relief. (Dkt. 37, Reply aat

25

15-17).

26
27
28

5.

However, enforcement and threatened enforcement is not merely

theoretical now. Contrary to the assertions in the Governor’s Opposition, the Planning
2

Case 2:20-cv-06414-JGB-KK Document 41 Filed 08/11/20 Page 3 of 5 Page ID #:642

1

and Community Development Department, Code Enforcement Division, for the City of

2

Pasadena has now issued a letter to Plaintiff Harvest Rock Church threatening criminal

3

penalties, including fines and imprisonment. A true and correct copy of the City of

4

Pasadena Code Enforcement Letter is attached as EXHIBIT A to the Declaration of Che

5

Ahn, filed simultaneously herewith.

6

6.

In that Letter, the City of Pasadena states quite plainly that it has been and

7

will continue to enforce the Governor’s Orders. It states: “Violations of [the

8

Governor’s] Orders constitute misdemeanors under California and Pasadena law

9

punishable by a fine and/or imprisonment. The City of Pasadena is enforcing these

10
11

Orders and will continue to do so.” (Ahn Decl., Exhibit A (emphasis added)).
7.

Though the Letter was dated July 28, 2020, Plaintiff Harvest Rock Church

12

did not become aware of the Letter sent to them until today, August 11, 2020. Plaintiffs

13

were not aware of this Letter’s existence until that time, and therefore did not have an

14

opportunity to bring it to this Court’s attention in its Reply in Support of Motion for

15

Preliminary Injunction.

16

8.

Pastor Ahn’s Declaration is submitted to supplement the record with

17

relevant facts concerning the actual enforcement of the Governor’s Orders and the threat

18

of continued enforcement absent injunctive relief.

19
20
21
22
23
24
25
26
27
28

3

Case 2:20-cv-06414-JGB-KK Document 41 Filed 08/11/20 Page 4 of 5 Page ID #:643

1
2

Respectfully submitted,

10

/s/ Daniel J. Schmid
Mathew D. Staver*
court@LC.org
Horatio G. Mihet*
hmihet@LC.org
Roger K Gannam*
rganname@LC.org
Daniel J. Schmid*
dschmid@LC.org
LIBERTY COUNSEL
P.O. Box 540774
Orlando, FL 328854
Phone: (407) 875-1776
Facsimile: (407) 875-0770

11

*Admitted Pro Hac Vice

3
4
5
6
7
8
9

12

/s/ Nicolai Cocis
Nicolai Cocis, CA Bar No. 204703
nic@cocislaw.com
Law Office of Nicolai Cocis
25026 Las Brisas Road
Murrieta, CA 92562
Phone/Facsimile: (951) 695-1400

Attorneys for Plaintiffs

13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

4

Case 2:20-cv-06414-JGB-KK Document 41 Filed 08/11/20 Page 5 of 5 Page ID #:644

1
2
3
4
5
6
7
8
9
10
11
12

CERTIFICATE OF SERVICE
Case Name: Harvest Rock Church, Inc. et.
al. v. Newsom

Case No. 2:20-cv-6414JCG(KKx)

I hereby certify that on this 11th day of August, 2020, I electronically filed the
following documents with the Clerk of the Court by using the CM/ECF system:
NOTICE OF FILING OF DECLARATION OF CHE AHN SUPPLEMENTING
THE RECORD FOR PLAINTIFFS’ MOTION FOR PRELIMINARY
INJUNCTION
I certify that all participants in the case are registered CM/ECF users and that service
will be accomplished by the CM/ECF system.
I declare under penalty of perjury under the laws of this State of California and the
United States of America that the foregoing is true and correct and that this declaration
was executed on August 11, 2020, at Lynchburg, Virginia.
Daniel J. Schmid
Declarant

/s/ Daniel J. Schmid
Signature

13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

5

Case 2:20-cv-06414-JGB-KK Document 41-1 Filed 08/11/20 Page 1 of 3 Page ID #:645

1
2
3
4
5
6
7
8
9
10
11
12
13

Nicolai Cocis, CA Bar No. 204703
nic@cocislaw.com
Law Office of Nicolai Cocis
25026 Las Brisas Road
Murrieta, CA 92562
(951) 695-1400 (phone/facsimile)
Mathew D. Staver*
court@LC.org
Horatio G. Mihet*
hmihet@LC.org
Roger K. Gannam*
rgannam@LC.org
Daniel J. Schmid*
dschmid@LC.org
Liberty Counsel
P.O. Box 540774
Orlando, FL 32854
(407) 875-1776
(407) 875-0770 (facsimile)
Attorneys for Plaintiffs
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
LOS ANGELES DIVISION

14
15
16
17
18
19

HARVEST ROCK CHURCH, INC., and
HARVEST INTERNATIONAL
MINISTRY, INC., itself and on behalf
of its member churches in California,
Plaintiffs,

20
21
22
23
24
25
26
27
28

v.
GAVIN NEWSOM,
in his official capacity as
Governor of the State of California,
Defendant.

Case No. 2:20-cv-06414-JGB-KK
DECLARATION OF CHE AHN
SUPPLEMENTING THE
RECORD FOR PLAINTIFFS’
MOTION FOR
PRELIMINARY INJUNCTION
The Honorable Jesus G. Bernal
Hearing: August 12, 2020
2:00 PM PDT

Case 2:20-cv-06414-JGB-KK Document 41-1 Filed 08/11/20 Page 2 of 3 Page ID #:646

1

I, Che Ahn, do hereby declare as follows:

2

1.

I am over the age of 18 years, am the Pastor at Plaintiff Harvest Rock

3

Church, Inc., and competent to make the statements in this Declaration. The

4

statements in this Declaration are true and correct, based upon my personal knowledge

5

(unless otherwise indicated), and if called upon to testify to them, I would and could

6

do so competently.

7

2.

On August 11, 2020, Plaintiff Harvest Rock Church, Inc. received a letter

8

from the Planning and Community Development Department, Code Enforcement

9

Division, for the City of Pasadena threatening criminal penalties, including fines and

10

imprisonment. A true and correct copy of the City of Pasadena Code Enforcement

11

Letter, which was received by Harvest Rock Church on August 11, 2020 is attached

12

hereto as EXHIBIT A and incorporated herein.

13

3.

In that Letter, the City contends that Harvest Rock Church “may not be

14

in compliance with the Safer at Home Health Order,” and that I may be subject to

15

criminal penalties for such a violation. (EXHIBIT A).

16

4.

Specifically, the Letter states, “Violations of [the Governor’s] Orders

17

constitute misdemeanors under California and Pasadena law punishable by a fine

18

and/or imprisonment. The City of Pasadena is enforcing these Orders and will

19

continue to do so.” (EXHIBIT A (emphasis added)).

20

5.

Although the Letter is dated July 28, 2020, Harvest Rock Church did not

21

know about this letter or have any notice of it until today, August 11, 2020. I provided

22

this letter to my counsel in this case for submission to this Court immediately upon

23

receiving it.

24

I hereby declare under penalty of perjury of the laws of the United States and

25

the State of California that the foregoing statements are true and correct to the best of

26

my knowledge.

27
28

/s/ Che Ahn
Che Ahn
Pastor, Harvest Rock Church, Inc.
1

Case 2:20-cv-06414-JGB-KK Document 41-1 Filed 08/11/20 Page 3 of 3 Page ID #:647

1
2
3
4
5
6
7
8
9
10
11
12

CERTIFICATE OF SERVICE
Case Name: Harvest Rock Church, Inc. et.
al. v. Newsom

Case No. 2:20-cv-6414JCG(KKx)

I hereby certify that on this 11th day of August, 2020, I electronically filed the
following documents with the Clerk of the Court by using the CM/ECF system:
DECLARATION OF CHE AHN SUPPLEMENTING THE RECORD FOR
PLAINTIFFS’ MOTION FOR PRELIMINARY INJUNCTION
I certify that all participants in the case are registered CM/ECF users and that service
will be accomplished by the CM/ECF system.
I declare under penalty of perjury under the laws of this State of California and the
United States of America that the foregoing is true and correct and that this declaration
was executed on August 11, 2020, at Lynchburg, Virginia.
Daniel J. Schmid
Declarant

/s/ Daniel J. Schmid
Signature

13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

2

Case 2:20-cv-06414-JGB-KK Document 41-2 Filed 08/11/20 Page 1 of 1 Page ID #:648

No. 20A_________

IN THE SUPREME COURT OF THE UNITED STATES

HARVEST ROCK CHURCH, INC.; HARVEST INTERNATIONAL MINISTRY,
INC., itself and on behalf of its member Churches in California,
Applicants,
v.
GAVIN NEWSOM,
in his official capacity as Governor of the State of California,
Respondent.

To the Honorable Elena Kagan,
Associate Justice of the Supreme Court of the United States
and Circuit Justice for the Ninth Circuit

EXHIBIT H

Mathew D. Staver (Counsel of Record)
Horatio G. Mihet
Roger K. Gannam
Daniel J. Schmid
LIBERTY COUNSEL
P.O. Box 540774
Orlando, FL 32853
(407) 875-1776
court@LC.org |hmihet@LC.org
rgannam@LC.org | dschmid@LC.org
Counsel for Applicants

Case 2:20-cv-06414-JGB-KK Document 45 Filed 08/21/20 Page 1 of 5 Page ID #:657

1
2
3
4
5
6
7
8
9
10
11
12
13

Nicolai Cocis, CA Bar No. 204703
nic@cocislaw.com
Law Office of Nicolai Cocis
25026 Las Brisas Road
Murrieta, CA 92562
(951) 695-1400 (phone/facsimile)
Mathew D. Staver*
court@LC.org
Horatio G. Mihet*
hmihet@LC.org
Roger K. Gannam*
rgannam@LC.org
Daniel J. Schmid*
dschmid@LC.org
Liberty Counsel
P.O. Box 540774
Orlando, FL 32854
(407) 875-1776
(407) 875-0770 (facsimile)
Attorneys for Plaintiffs
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
LOS ANGELES DIVISION

14
15
16
17
18
19

Case No. 2:20-cv-06414-JGB-KK

HARVEST ROCK CHURCH, INC., and
HARVEST INTERNATIONAL
MINISTRY, INC., itself and on behalf
of its member churches in California,

NOTICE OF FILING
DECLARATION OF CHE AHN
SUPPLEMENTING
THE RECORD FOR
PLAINTIFFS’ MOTION FOR
PRELIMINARY INJUNCTION

20

Plaintiffs,

21
22

v.

23

GAVIN NEWSOM,
in his official capacity as
Governor of the State of California,

24
25
26

The Honorable Jesus G. Bernal

Defendant.

27
28

1

Case 2:20-cv-06414-JGB-KK Document 45 Filed 08/21/20 Page 2 of 5 Page ID #:658

1

NOTICE to All Counsel of Record:

2

On this 21st day of August, 2020, Plaintiffs filed a Declaration of Pastor Che

3

Ahn, Pastor of Harvest Rock Church, Inc., Supplementing the Record for Plaintiffs’

4

Motion for Preliminary Injunction and authenticating a Letter from the Office of the

5

City Attorney/City Prosecutor, Criminal Division, for the City of Pasadena, received by

6

Harvest Rock Church, Inc. on August 18, 2020.
1.

7

On July 17, 2020, Plaintiffs filed the above-captioned cause in this Court,

8

filing a Verified Complaint for Temporary Restraining Order, Preliminary and

9

Permanent Injunctive Relief, Declaratory Relief, and Damages (dkt. 1), and a Notice of

10

Motion and Motion for Temporary Restraining Order and Preliminary Injunction. (Dkt.

11

4).

12

2.

On July 20, 2020, this Court denied Plaintiffs’ Motion to the temporary

13

restraining order, and set a briefing schedule on Plaintiffs’ Motion as to a preliminary

14

injunction, with Defendants’ response due on August 3, 2020.

15

3.

On August 3, 2020, the Governor filed his Opposition to Plaintiffs’ Motion

16

for Temporary Restraining Order (dkt. 31, “Opposition”). In his Opposition, the

17

Governor contended that Plaintiffs are not entitled to any injunctive relief because they

18

have not presented any evidence that the government in California is attempting to

19

enforce the Governor’s COVID-19 Executive Orders and California Public Health

20

Directives. (Dkt. 31, Opposition at 16-17).

21

4.

As Plaintiffs pointed out in their Reply in Support of Motion for

22

Preliminary Injunction (dkt. 37), actual enforcement is not a prerequisite in the First

23

Amendment context, as the mere existence of the power to enforce an unconstitutional

24

restriction on free speech is sufficient to warrant injunctive relief. (Dkt. 37, Reply aat

25

15-17).

26
27
28

5.

However, enforcement and threatened enforcement is not merely

theoretical now. Contrary to the assertions in the Governor’s Opposition, the Planning
2

Case 2:20-cv-06414-JGB-KK Document 45 Filed 08/21/20 Page 3 of 5 Page ID #:659

1

and Community Development Department, Code Enforcement Division, for the City of

2

Pasadena has now issued a letter to Plaintiff Harvest Rock Church threatening criminal

3

penalties, including fines and imprisonment. (See Dkt. 41-1, 1-2).

4

6.

Moreover, if the threatened criminal sanctions were not apparent from the

5

Code Enforcement Division (dkt. 41-2), Plaintiffs have received a letter from the Office

6

of the City Attorney/City Prosecutor, Criminal Division, threatening to impose criminal

7

sanctions on Plaintiffs for merely holding worship services. A true and correct copy of

8

the Office of the City Attorney/City Prosecutor, Criminal Division, is attached as

9

EXHIBIT A to the Declaration of Che Ahn, filed simultaneously herewith.

10

7.

In that Letter, the City Attorney/City Prosecutor informed Plaintiffs that

11

“violations of [the Governor’s Orders] are criminal in nature.” (Ahn Declaration,

12

EXHIBIT A at 1). It further states that “[e]ach day in violation is a separate violation

13

and carries with it a potential punishment of up to one year in jail and a fine for each

14

violation.” (Id.).

15

8.

Finally, the Letter states that “[a]ny violations in the future will subject

16

your Church, owners, administrators, operators, staff, and parishioners to the above-

17

referenced criminal penalties as well as the potential closure of your Church.” (Id.).

18

9.

Pastor Ahn’s Declaration is submitted to supplement the record with

19

relevant facts concerning the actual enforcement of the Governor’s Orders and the threat

20

of continued enforcement absent injunctive relief.

21
22
23
24
25
26
27
28

3

Case 2:20-cv-06414-JGB-KK Document 45 Filed 08/21/20 Page 4 of 5 Page ID #:660

1
2

Respectfully submitted,

10

/s/ Daniel J. Schmid
Mathew D. Staver*
court@LC.org
Horatio G. Mihet*
hmihet@LC.org
Roger K Gannam*
rganname@LC.org
Daniel J. Schmid*
dschmid@LC.org
LIBERTY COUNSEL
P.O. Box 540774
Orlando, FL 328854
Phone: (407) 875-1776
Facsimile: (407) 875-0770

11

*Admitted Pro Hac Vice

3
4
5
6
7
8
9

12

/s/ Nicolai Cocis
Nicolai Cocis, CA Bar No. 204703
nic@cocislaw.com
Law Office of Nicolai Cocis
25026 Las Brisas Road
Murrieta, CA 92562
Phone/Facsimile: (951) 695-1400

Attorneys for Plaintiffs

13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

4

Case 2:20-cv-06414-JGB-KK Document 45 Filed 08/21/20 Page 5 of 5 Page ID #:661

1
2
3
4
5
6
7
8
9
10
11
12

CERTIFICATE OF SERVICE
Case Name: Harvest Rock Church, Inc. et.
al. v. Newsom

Case No. 2:20-cv-6414JCG(KKx)

I hereby certify that on this 21st day of August, 2020, I electronically filed the
following documents with the Clerk of the Court by using the CM/ECF system:
NOTICE OF FILING OF DECLARATION OF CHE AHN SUPPLEMENTING
THE RECORD FOR PLAINTIFFS’ MOTION FOR PRELIMINARY
INJUNCTION
I certify that all participants in the case are registered CM/ECF users and that service
will be accomplished by the CM/ECF system.
I declare under penalty of perjury under the laws of this State of California and the
United States of America that the foregoing is true and correct and that this declaration
was executed on August 21, 2020, at Lynchburg, Virginia.
Daniel J. Schmid
Declarant

/s/ Daniel J. Schmid
Signature

13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

5

Case 2:20-cv-06414-JGB-KK Document 45-1 Filed 08/21/20 Page 1 of 3 Page ID #:662

1
2
3
4
5
6
7
8
9
10
11
12
13

Nicolai Cocis, CA Bar No. 204703
nic@cocislaw.com
Law Office of Nicolai Cocis
25026 Las Brisas Road
Murrieta, CA 92562
(951) 695-1400 (phone/facsimile)
Mathew D. Staver*
court@LC.org
Horatio G. Mihet*
hmihet@LC.org
Roger K. Gannam*
rgannam@LC.org
Daniel J. Schmid*
dschmid@LC.org
Liberty Counsel
P.O. Box 540774
Orlando, FL 32854
(407) 875-1776
(407) 875-0770 (facsimile)
Attorneys for Plaintiffs
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
LOS ANGELES DIVISION

14
15
16
17
18
19

HARVEST ROCK CHURCH, INC., and
HARVEST INTERNATIONAL
MINISTRY, INC., itself and on behalf
of its member churches in California,
Plaintiffs,

20
21
22
23
24
25
26
27
28

v.
GAVIN NEWSOM,
in his official capacity as
Governor of the State of California,
Defendant.

Case No. 2:20-cv-06414-JGB-KK
DECLARATION OF CHE AHN
SUPPLEMENTING THE
RECORD FOR PLAINTIFFS’
MOTION FOR
PRELIMINARY INJUNCTION
The Honorable Jesus G. Bernal

Case 2:20-cv-06414-JGB-KK Document 45-1 Filed 08/21/20 Page 2 of 3 Page ID #:663

1

I, Che Ahn, do hereby declare as follows:

2

1.

I am over the age of 18 years, am the Pastor at Plaintiff Harvest Rock

3

Church, Inc., and competent to make the statements in this Declaration. The

4

statements in this Declaration are true and correct, based upon my personal knowledge

5

(unless otherwise indicated), and if called upon to testify to them, I would and could

6

do so competently.

7

2.

On August 18, 2020, Plaintiff Harvest Rock Church, Inc. received a letter

8

from the Office of the City Attorney/City Prosecutor, Criminal Division. A true and

9

correct copy of the City Attorney/City Prosecutor’s Letter is attached hereto as

10
11

EXHIBIT A and incorporated herein.
3.

In the City Attorney/City Prosecutor’s Letter, Harvest Rock Church and

12

I were threatened with criminal sanctions and penalties for alleged violations of the

13

Governor’s COVID-19 Orders.

14

4.

The City Attorney/City Prosecutor letter stated that violations of the

15

Governor’s Orders were “criminal in nature,” and that “[e]ach day in violation is a

16

separate violations and carries with it a potential criminal punishment of up to one

17

year in jail and a fine for each violation.” (Exhibit A at 1).

18

I hereby declare under penalty of perjury of the laws of the United States and the

19

State of California that the foregoing statements are true and correct to the best of my

20

knowledge.

21
22

/s/ Che Ahn
Che Ahn
Pastor, Harvest Rock Church, Inc.

23
24
25
26
27
28

1

Case 2:20-cv-06414-JGB-KK Document 45-1 Filed 08/21/20 Page 3 of 3 Page ID #:664

1
2
3
4
5
6
7
8
9
10
11
12

CERTIFICATE OF SERVICE
Case Name: Harvest Rock Church, Inc. et.
al. v. Newsom

Case No. 2:20-cv-6414JCG(KKx)

I hereby certify that on this 21st day of August, 2020, I electronically filed the
following documents with the Clerk of the Court by using the CM/ECF system:
DECLARATION OF CHE AHN SUPPLEMENTING THE RECORD FOR
PLAINTIFFS’ MOTION FOR PRELIMINARY INJUNCTION
I certify that all participants in the case are registered CM/ECF users and that service
will be accomplished by the CM/ECF system.
I declare under penalty of perjury under the laws of this State of California and the
United States of America that the foregoing is true and correct and that this declaration
was executed on August 21, 2020, at Lynchburg, Virginia.
Daniel J. Schmid
Declarant

/s/ Daniel J. Schmid
Signature

13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

2

Case 2:20-cv-06414-JGB-KK Document 45-2 Filed 08/21/20 Page 1 of 1 Page ID #:665

